APPENDIX TABLE OF CONTENTS
Opinions and Orders
Opinion of the United States Court of Appeals for
the Fourth Circuit (October 26, 2020)............. la
Memorandum Opinion of the United States
District Court for the Eastern District of
Virginia Denying Motion for Reconsideration
(May 14, 2020)..... ............................................

3a

Final Order of the District Court Accompanying
Memorandum Opinion (May 14, 2020)........... 22a
Memorandum Opinion of the District Court for
the Eastern District of Virginia Granting
Motion to Dismiss and Dismiss Sloan’s
Amended Complaint (September 6, 2019)...... 24a
Final Order of the District Court Accompanying
Memorandum Opinion (September 6, 2019)... 44a
Memorandum Order of the United States District
Court for the Eastern District of Virginia
(December 12, 2018)....................................... 46a

Rehearing Order
Order of the United States Court of Appeals for
the Fourth Circuit Denying Petition for
Rehearing (January 8, 2021)........................... 55a

APPENDIX TABLE OF CONTENTS (Cont.)
Other Documents
Verified Complaint
(April 23, 2018)

57a

Brief in Support of Motion to Dismiss
(May 17, 2018).................................

141a

Reply to the Lawsuit
(May 19, 2018)...

148a

Affidavit of Shamema H. Sloan

159a

Testimony of Shamema H. Sloan

161a

Amended Complaint
(January 18, 2019)

166a

Brief in Support of Renewed Motion to Dismiss
Amended Complaint (January 25, 2019)
191a

APPENDIX TABLE OF CONTENTS (Cont.)
Exhibits to Complaint
Exhibit A—Awadallah Writ of Habeas Corpus
(December 9, 1981).........................................

196a

Exhibit B—Answer filed in Bronx Supreme Court
by Appointed Counsel Philip Newman
206a
(December 22, 1981)
Exhibit C—Decision of the Bronx Supreme Court
Giving Legal Custody to Mother
251a
(June 7, 1982)
Exhibit D—Letter Denying Passport March, 1982
256a
(March 16, 1982)
Exhibit E—Bronx Supreme Court Order
Awarding Full Custody (October 27, 1994)... 258a
Exhibit F—Appointment of Sloan as
Administrator (June 19, 2017)....

261a

Exhibit G—Judge Gamble Waiver of
Disqualification (August 7, 1991)

267a

Exhibit H—Alma Dawson Set Aside of Will
(March 25, 1986)............. ..........................

270a

Exhibit I—Gary Feulner Letter to Judge Miller
(February 28, 1987).......................................... 273a
Exhibit M—Charles Roberts Petition for a Writ of
281a
Mandamus (August 30, 1990)

APPENDIX TABLE OF CONTENTS (Cont.)
Exhibit N—Chief Judge Mosby Perrow III
Disqualified All of the Judges of the 24th
Judicial Circuit (June 18, 1991)
291a
Exhibit 0—Bill of Complaint to Annul Marriage
of Alma Coates Dawson (Sloan)
304a
(May 23, 1986)
Exhibit P—Sloan’s Complaint Against Phone
Conversation Between Judge Glen and Judge
Janow (September 4, 1986)
389a
Exhibit Q—Sloan’s Complaint About Misconduct
of Judge Gamble and Janow
(February 3, 1991)
410a
Exhibit V—Mandamus Petition to Remove Judge
426a
(April 25, 2018)
Exhibit W—Appeal of Criminal Conviction to
Court of Appeals of Virginia Rehearing and
rehearing En Banc Granted (April 25, 2018) 495a
Exhibit X, Y—Transcript of Proceedings Volume
744a
II Relevant Excerpts (April 25, 2018)
Exhibit Z—Transcript of Proceedings Relevant
Excerpts (August 24, 1995)
882a

App.la
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT
(OCTOBER 26, 2020)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
SAMUEL H. SLOAN,
Plain tiff-Appellan t,
v.
MARIA CHILDRESS; SHAYAM RAMAN; SUSAN
SWECKER; CHRIS BOLLING; MARK HERRING;
RALPH NORTHAM; LAWRENCE JANOW;
J. MICHAEL GAMBLE; WILLIAM G. PETTY;
FRANK G. DAVIDSON, III; NORMAN K. MOON;
CHARLES EDWARD ROBERTS; DARRELL
ROBERTS; JEFFERSON BEAUREGARD
SESSIONS III; UNITED STATES
DEPARTMENT OF JUSTICE,
Defen dan ts-Appellees.
No. 20-1566
Appeal from the United States District Court
for the Eastern District of Virginia, at Richmond.
M. Hannah Lauck, District Judge.
(3:18-cv-00260-MHL)
Before: WYNN, FLOYD, and THACKER,
Circuit Judges.

App.2a

PER CURIAM:
Samuel H. Sloan appeals the district court’s
orders dismissing his civil complaint and denying
reconsideration.* We have reviewed the record and
find no reversible error. Accordingly, we affirm for the
reasons stated by the district court. Sloan v. Childress,
No. 3:18-cv-00260-MHL (E.D. Va. Sept. 6, 2019 & May
14, 2020). We dispense with oral argument because
the facts and legal contentions are adequately pre­
sented in the materials before this court and argu­
ment would not aid the decisional process.
AFFIRMED

* Although Sloan did not file a new or an amended notice of appeal
following the district court’s order denying reconsideration, his
informal brief serves as the functional equivalent of a notice of
appeal from the reconsideration order. See Smith v. Barry, 502
U.S. 244, 248-49 (1992).

App.3a
MEMORANDUM OPINION OF THE
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
DENYING MOTION FOR RECONSIDERATION
(MAY 14, 2020)
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF VIRGINIA
RICHMOND DIVISION
SAMUEL H. SLOAN,
Plaintiff,
v.
MARIA CHILDRESS, ET AL.,
Defendants.
Civil Action No. 3:18cv260
Before: M. Hannah LAUCK,
United States District Judge.
This matter comes before the Court on Plaintiff
Samuel H. Sloan’s Motion to Rehear and Reargue and
Reverse this Court’s Order (the “Motion for Reconsider­
ation”). (ECF No. 76.) None of the defendants replied to
the Motion for Reconsideration and the time to do so
has expired. The Court dispenses with oral argument
because the materials before it adequately present the
facts and legal contentions, and argument would not
aid the decisional process. Accordingly, this matter is

App.4a
ripe for disposition. For the reasons that follow, the
Court will deny the Motion for Reconsideration.
I.

Factual and Procedural Background
A. Summary of Allegations

In the Motion for Reconsideration, Sloan repeats
many of the allegations made in his original Complaint
and his Amended Complaint. (See Mot. Recons.;
Compl., ECF No. 1; Am. Compl., ECF No. 50.) As in
both versions of his Complaint, the Motion for
Reconsideration fails to lay out a coherent chronology
of the events in question or a logical argument with
clearly stated supporting facts. Sloan’s Motion for
Reconsideration repeatedly claims that several of the
defendant judges, who are numbered and listed differ­
ently in various parts of the Motion for Reconsidera­
tion, lacked jurisdiction over the Virginia custody case
about one of his daughters, Shamema Honzagool
Sloan, because the case had already been decided in
New York. (Mot. Recons. 2-3, 8, 13.) Based on the
allegations in the Motion for Reconsideration, Shamema
is now approximately thirty-eight years old. {See id.
Tf 48.) As with both versions of his Complaint, this
claim forms the core of Sloan’s objection to this Court’s
September 6, 2019 Memorandum Opinion and Order
and its prior December 21, 2018 Order. (Mot. Recons.
1-2; see also Sep. 6, 2019 Mem. Op. & Order, ECF Nos.
74, 75; Dec. 21, 2018 Mem. Order, ECF No. 49.)
For example, Sloan contends that “these four
judges named in the complaint.. . did not have even
the slightest scintilla of jurisdiction over the case
. . . Lawrence Janow and K. Michael Gamble as well
as Frank G. Davidson III are hard core criminals. They

App.5a
belong in prison for kidnapping my daughter and my
mother,” just two of the many kidnappings or
attempted kidnappings Sloan describes in the Motion
for Reconsideration. (Mot. Recons, f 1, ECF No. 76.)
He also states, “Lawrence Janow and K. Michael
Gamble as well as Frank G. Davidson III are terrorists
who formed a terrorist group ... with the plan to kidnap
my mother and children and have them brought to
Virginia where they could then assert jurisdiction
over them.” (Id. f 2.) Throughout the Motion for
Reconsideration, Sloan links other defendants to the
central events involving these judges saying, for ex­
ample, “that Judge Moon ... is in contact with the
kidnappers and other defendants and he is part of the
RICO Conspiracy.” (Id. 107.) Finally, Sloan seeks “to
have the Virginia Felony Disenfranchisement Law
declared unconstitutional,” a request made in both of
his prior Complaints. (Mot. for Recons. If 132; Compl.
84; Am. Compl. 24.) Sloan makes this request so that
he can regain his constitutional right to vote.
B. Procedural History
Sloan’s original Complaint alleged many crimes,
including the kidnapping of his daughter by Judge
Janow, Judge Gamble, now—Judge Petty, Judge
Moon, Davidson, Charles Roberts, and Darrell Jay
Roberts. Several of the defendants responded with a
motion to dismiss, and Charles Roberts and Darrell
Jay Roberts, whom Sloan alleges illegally gained
custody of Shamema, filed a joint Answer. In its
December 21, 2018 Memorandum Order, the Court
concluded that Sloan’s original Complaint failed to
comply with Federal Rule of Civil Procedure 8 and
allowed Sloan to file an Amended Complaint. (See
Dec. 21, 2018 Order.)

App.6a
Sloan filed his Amended Complaint, which repeats
many of the same allegations and pursues the same
avenues of relief. The defendants then filed seven
separate motions to dismiss, (ECF Nos. 51, 54, 56, 57,
59, 61, 63), and Sloan responded to each of them, (ECF
Nos. 67-73). In its September 6, 2019 Order, the Court
granted the motions to dismiss and dismissed with pre­
judice Sloan’s Amended Complaint. (See Sept. 6, 2019
Order 1.) In the accompanying Memorandum Opinion,
the Court concluded that Sloan’s Amended Complaint
failed to comply with Federal Rule of Civil Procedure
8, that the Court lacked subject matter jurisdiction
over several defendants, and that Sloan failed to state
a claim against the remaining defendants. (Sep. 6,
2019 Mem. Op. 2-3.) Sloan filed the instant 141paragraph Motion for Reconsideration on October 3,
2019. (See generally Mot. Recons.)
II.

Obligation to Construe Pro Se Pleadings Liberally

Because Sloan proceeds pro se, the Court liberally
construes his filings. See Erickson v. Pardus, 551 U.S.
89, 94 (2007) (“A document filed pro se is to be
liberally construed, and a pro se complaint, however
inartfully pleaded, must be held to less stringent
standards than formal pleadings drafted by lawyers.”)
(internal quotation marks and citations omitted).
“This principle of liberal construction, however, has
its limits.” Suggs v. M& TBank, 230 F. Supp. 3d 458,
461 (E.D. Va. 2017), affd sub nom. Suggs v. M&T
Bank, 694 F. App’x 180 (4th Cir. 2017). A pro se
plaintiff must allege facts sufficient to state a cause of
action. Bracey, 55 F. Supp. 2d at 421 (citation omitted).
The Court cannot act as a pro se litigant’s “advocate
and develop, sua sponte, statutory and constitutional
claims that the [litigant] failed to clearly raise on the

App.7a
face of [the] complaint.” Newkirk v. Circuit Ct. of
Hampton, No. 3:14cv372, 2014 WL 4072212, at *1
(E.D. Va. Aug. 14, 2014).
Sloan does not identify the federal rule under
which he brings the Motion for Reconsideration.
Because Sloan filed the Motion for Reconsideration
within twenty-seven days of the Court’s September 6,
2019 Memorandum Opinion and Order dismissing his
case, the Court will construe the Motion for Reconsidera­
tion as a motion brought pursuant to Rule 59(e).
However, given Sloan’s pro se status and his frequent
filing in this and other courts, the Court will also con­
sider whether Sloan’s motion would satisfy the require­
ments of Rule 60(b) and Rule 60(d).l The Court will
address each ground in turn.
1 In 2008, the Fourth Circuit stated in a published opinion that
While not condoning the misstyling of motions, [the
Fourth Circuit] nonetheless agree[s] that if a post
judgment motion is filed within ten days of the entry
of judgment and calls into question the correctness of
that judgment it should be treated as a motion under
Rule 59(e), however it may be formally styled.
MLCAuto., LLC v. Town ofS. Pines, 532 F.3d 269, 277 (4th Cir.
2008) (quoting Dove v. CODESCO, 569 F.2d 807, 809 (4th Cir.
1978)).
In 2009, the Advisory Committee amended Rule 59 to allow for
twenty-eight days to file a motion under Rule 59(e). See Fed. R.
Civ. P. 59 advisory committee’s note to 2009 amendment. In
2017, the Fourth Circuit in an unpublished opinion applied the
ten-day rule mentioned in MLC Automotive, even though the
applicable time period under Rule 59(e) had changed to twentyeight days. See Fletcher v. Carter, 700 Fed. App’x 270, 271 (4th
Cir. 2017) (citing MLC Auto., LLC, 532 F.3d at 277).
However, in a recent 2020 unpublished opinion, the Fourth
Circuit altered the quote from MLC Automotive to say “the time

App.8a

m. Sloan’s Claims Do Not Require an Extraordinary
Remedy as Provided for in Rule 59(e)
Because Sloan bases his Motion for Reconsidera­
tion solely on disagreement with the Court’s prior deci­
sions, and because he attempts to relitigate old claims,
he fails to demonstrate a need for the extraordinary
remedy Federal Rule of Civil Procedure 59(e) provides.
A. Standard of Review: Rule 59(e)
Federal Rule of Civil Procedure 59(e) states, “[a]
motion to alter or amend a judgment must be filed no
later than 28 days after the entry of the judgment.”
Fed. R. Civ. P. 59(e). “ [R] econsideration of a judgment
after its entry is an extraordinary remedy which
should be used sparingly.” Pac. Ins. Co. v. Am. Nat’l
Fire Ins. Co., 148 F.3d 396, 403 (4th Cir. 1998) (citation
omitted) (internal quotation marks omitted). “The
Rule 59(e) motion may not be used to relitigate old
matters, or to raise arguments or present evidence
that could have been raised prior to the entry of judg­
ment.” Id. (quoting 11 CHARLES Alan WRIGHT & Arthur
R. Miller, Federal Practice and Procedure § 1810.1,

period prescribed by Rule 59(e)” instead of ten days and applied
the twenty-eight day rule. See Cohen v. Rosenstein, No. 19-6620,
2020 WL 584075, at *1 (4th Cir. Feb. 6, 2020) (citing MLCAuto.,
LLC, 532 F.3d at 277).
The Court will construe Sloan’s motion under Rule 59(e) because
Sloan filed it twenty-seven days after the Court’s September 6,
2019 Order, especially given the Fourth Circuit’s 2020 opinion in
Cohen. See id. However, the Court thinks it wise to also address
this persistent litigant’s filing under both Rule 59(e) and Rule 60.
The Court will deny the motion under Rule 59(e) and would deny
it under Rule 60 as well.

App.9a
at 127-28 (2d ed. 1995)). In short, “[a] party’s mere dis­
agreement with the court’s ruling does not warrant a
Rule 59(e) motion ...” Smith v. Donahoe, 917 F.
Supp. 2d 562, 572 (E.D. Va. 2013) (citing Pac. Ins. Co.,
148 F.3d at 403). Rule 59(e) does not “give an unhappy
litigant one additional chance to sway the judge.”
Durkin v. Taylor, 444 F. Supp. 879, 889 (E.D. Va.
1977) (observing that plaintiffs brief in support of his
motion to alter or amend the judgment was “no more
than an expression of a view of the law contrary to
that set forth in the Court’s opinion,” and thus the
court had no proper basis to alter or amend its pre­
vious order). “[T]he purpose of Rule 59(e) motion is to
allow a district court to correct its own errors, sparing
the parties and the appellate courts the burden of
unnecessary appellate proceedings.” Smith, 917 F.
Supp. 2d at 572 (internal quotation marks and cita­
tions omitted).
The United States Court of Appeals for the
Fourth Circuit recognizes three grounds for relief
under Rule 59(e): “(l) to accommodate an intervening
change in controlling law; (2) to account for new
evidence not available at trial; or (3) to correct a clear
error of law or prevent manifest injustice.” Hutchinson
v. Staton, 994 F.2d 1076, 1081 (4th Cir. 1993) (citing
Weyerhaeuser Corp. v. Koppers Co., 771F. Supp. 1406,
1419 (D. Md. 1991); Atkins v. Marathon LeTourneau
Co., 130 F.R.D. 625, 626 (S.D. Miss. 1990)).

App.lOa

B. The Motion for Reconsideration Fails Under
Rule 59(e), Because Sloan Presents No Change
in Controlling Law, No New Evidence, and No
Error of Law or Manifest Injustice Committed
By the Court
Because Sloan filed the Motion for Reconsideration
within twenty-seven days of the Court’s September 6,
2019 Memorandum Opinion and Order, the Court will
construe it as a motion brought pursuant to Rule 59(e).
See Fed. R. Civ. P. 59(e) (stating that a Rule 59(e)
motion “must be filed no later than 28 days after the
entry of the judgment”); Cohen, 2020 WL 584075, at *1.
Given Sloan’s pro se status, the Court considers
whether Sloan’s motion addresses a change in con­
trolling law, the emergence of new evidence, or the
prevention of manifest injustice—the three grounds
for relief under Rule 59(e). Hutchinson, 994 F.2d at
1081 (citations omitted); Bracey, 55 F. Supp. 2d at 421.
Although the Motion for Reconsideration does not
adequately address any of these grounds for relief
under Rule 59(e), the Court assesses each of the three
grounds in turn.
First, Sloan falters on the first ground for relief
under Rule 59(e) because he does not identify “an
intervening change in controlling law” since this Court’s
decision on September 6, 2019. Hutchinson, 994 F.2d
at 1081 (citations omitted). Although Sloan refers to
several laws that defendants may have violated, 2 he
2 For instance, Sloan identifies the Uniform Child Custody
Jurisdiction and Enforcement Act, the International Parental
Child Abduction Prevention Act, and the Racketeer Influenced
and Corrupt Organizations Act (“RICO”) as laws defendants may
have violated. (Mot. Recons. 1ft 5-6, 107.) Sloan alleges that
Judge Moon participated in a RICO conspiracy because he ruled

App.lla
continually returns to his claim that Virginia courts
lacked jurisdiction over his daughter’s custody case.
He makes multiple disconnected arguments to support
this claim. For example, he avers that Virginia courts
lacked jurisdiction because his daughter was born in
New York City, (Mot. Recons. If 48), and that “[he] and
[his] daughter, the child were not in the Commonwealth
of Virginia,” {id. f 2). He also baldly asserts that Judge
Janow, Judge Gamble, and Judge Davidson “are
terrorists who formed a terrorist group that chased
[Sloan’s family] around the world . . . with the plan to
kidnap [his] mother and children and have them brought
to Virginia where they could then assert jurisdiction
over them.” (Id.) He later avers that courts in Virginia
could not have had jurisdiction because New York
courts, including the New York Supreme Court, had
already decided his child’s custody case in what
Pakistani terrorists persuaded New York papers and
television stations to sensationalize as a “teen sex
slave” trial. {Id. Iff 3, 63-65.)
These arguments do not address the controlling
la w thoroughly explained in the Court’s September 6,
2019 Opinion: namely, Sloan’s failure to comply with
Federal Rule of Civil Procedure 8; his failure to obey
this Court’s December 21, 2018 Order; this Court’s
likely lack of subject matter jurisdiction over many of
the defendants; and Sloan’s failure to state a claim
under Federal Rule of Civil Procedure 12(b)(6) against
that the custody case was long settled, establishing that he “is in
contact with the kidnappers and other defendants.” {Id. 1H1 10607.) Sloan provides no plausible factual basis to support these
claims. Sloan also identified these laws in his Amended Complaint,
but the Court rejected them in its September 6, 2019 Memorandum
Opinion.

App.l2a
the remaining defendants. This controlling law has
not changed in the time since the Court’s September
6, 2019 Memorandum Opinion and Order issued.
Therefore, the Motion for Reconsideration fails under
the first ground of relief under Rule 59(e)—“an
intervening change in controlling law.” Hutchinson,
994 F.2d at 1081.
Second, Sloan fails to identify “new evidence” pre­
viously unavailable to him, which is the second
ground for relief under Rule 59(e). Id. Candidly, after
rehashing many of the claims stated in his original
Complaint and in his Amended Complaint, Sloan
reports that “[n]one of the above is new. All this was
explained at the beginning of this case when a complaint
was filed.” (Mot. Recons. ^ 89.) Sloan also argues that
if the case were “allowed to go forward” the facts
would emerge “through Freedom of Information Act or
testimony of witnesses.” {Id.
99, 122.) This Court
cannot grant a Rule 59(e) motion on the possibility of
new evidence materializing. See Man ton v. Strain, No.
11-785, 2013 WL 3070886, at *2 n.7 (E.D. La. June 17,
2013) (citing Simon v. United States, 891 F.2d 1154,
1159 (5th Cir. 1990), which discusses a Rule 59(e)
motion). Indeed, even this far into these prolonged
proceedings, Sloan presents no new evidence that
would require the Court to reconsider its prior decisions.
For this reason, the Motion for Reconsideration also
fails under the second ground for relief under Rule 59
(e) because Sloan offers no plausible “new evidence” in
support of his Motion for Reconsideration. Hutchinson,
994 F.2d at 1081.
Third, Sloan fails to demonstrate the third ground
for relief under Rule 59(e), to “correct a clear error of
law or prevent a manifest injustice.” Id. Because this

App.l3a
ground for relief contains two reasons to grant a
motion—error or manifest injustice—the Court will
address them separately.
First, Sloan maintains the Court erred in denying
him relief, stating he “feel[s] that this court has over­
looked or ignored the basic point to this case and the
more than two thousand pages of exhibits attached to
this complaint.” (Id. f 1.) Sloan also seeks to counter
the Court’s ruling that it lacks subject matter jurisdiction
over many of the defendants due to the immunity they
enjoy as judges or other government officials, but he
fails to meet the Rule 59(e) standard when addressing
this point. (Mot. Recons.
1-2; see Sep. 6, 2019 Mem.
Op.) Sloan asserts that he has “long been aware of a
line of cases beginning with Pierson vs. Ray, 386 U.S.
547 (1967)[3] that states that judges are immune
from suit as long as they had jurisdiction over the case
before them.” (Mot. Recons, f 1.) Although Sloan
3 In Pierson v. Ray the Supreme Court of the United States
addressed “whether a local judge is liable for damages under
§ 1983 for an unconstitutional conviction.” 386 U.S. at 551. The
defendant judge served as a municipal police justice and convicted
fifteen clergymen of violating a state racial segregation law in
Mississippi in 1961, which the Supreme Court held unconstitu­
tional in a separate 1965 case. Id. at 549-50. In Pierson, decided
two years later in 1967, the Supreme Court upheld the defendant
judge’s immunity finding that, per long standing common law,
judges have absolute immunity when acting in their judicial
capacity. Id. at 553-54. The Supreme Court affirmed that a
judge’s “errors may be corrected on appeal, but he should not have
to fear that unsatisfied litigants may hound him with litigation
. charging malice or corruption.” Id. at 554.
The facts in Pierson do not relate to the facts Sloan alleges in the
Motion for Reconsideration. He appears to cite the case to
demonstrate his understanding of judicial immunity. Pierson does
not affect the Court’s analysis of the Motion for Reconsideration.

App.l4a
mentions this aspect of the Court’s September 6, 2019
Opinion, he fails to advance a valid legal argument
that immunity for any defendant judge does not apply
here. Rather, he states that he “believe[s] this court is
mistaken.” (Id. f 28.) Again, “[a] party’s mere dis­
agreement with the court’s ruling does not warrant a
Rule 59(e) motion . . .” Smith, 917 F. Supp. 2d at 572
(citing Pac. Ins. Co., 148 F.3d at 403). Therefore, the
Motion for Reconsideration fails to show a need to
“correct a clear error of law,” and does not satisfy this
aspect of the third ground for relief under Rule 59(e).
Hutchinson, 994 F.2d at 1081.
Second, the Motion for Reconsideration also does
not show a need to “prevent a manifest injustice,” the
second basis articulated as underpinning the third
ground for relief under Rule 59(e). Id. Throughout his
filings, Sloan baldly repeats that his family has
endured manifest injustice as a result of the loss of
custody of his daughter, but he fails to make an
argument that this Court has erred in its ruling on the
law, or to meet the high threshold required of a Rule
59(e) motion. To properly plead a Rule 59(e) motion,
Sloan must state “more than an expression of a view
of the law contrary to that set forth in the Court’s
opinion.” Durkin, 444 F. Supp. At 889. Because he has
failed to do so, the Motion for Reconsideration also
does not to show a need for the Court to reconsider its
prior Opinions and Orders “to prevent manifest
injustice.” Hutchinson, 994 F.2d at 1081. Thus, Sloan
does not establish any basis for reconsideration to pre­
vent a manifest injustice.
Because the Motion for Reconsideration fails to
meet any of the grounds for relief under Rule 59(e),
modification of this Court’s September 6, 2019 Opinion

App.l5a

would be an “extraordinary remedy” not warranted in
this case and the Motion for Reconsideration fails
under Rule 59(e). Pac. Ins. Co., 148 F.3d at 403.
IV. Sloan’s Motion Would Not Demonstrate the
Threshold Meritorious Claim or the Exceptional
Circumstances Required to Reverse This Court’s
Decision Under Rule 60(b)
Even though the Court must only evaluate the
Motion for Reconsideration under Rule 59(e), see Fed.
R. Civ. P. 59(e); Cohen, 2020 WL 584075, at *1, in an
effort to comprehensively review this motion lodged
by a frequent litigant, the Court now turns to Rule 60
(b). Sloan’s reassertion of claims this Court has
already reviewed when assessing his Complaint,
Amended Complaint, and Motion for Reconsideration
under Rule 59(e) does not constitute a meritorious
claim. Nor do these allegations exhibit exceptional
circumstances. Because both are required to merit
relief under Federal Rule of Civil Procedure 60(b), if
the Court were to consider the Motion for Reconsider­
ation under Rule 60(b), the Court would deny it under
that Rule as well.
A. Standard of Review: Rule 60(b)
Federal Rule of Civil Procedure 60(b) allows a
court to
relieve a party . . . from a final judgment,
order, or proceeding for the following reasons:
(l) mistake, inadvertence, surprise, or ex­
cusable neglect; (2) newly discovered evidence
that, with reasonable diligence, could not
have been discovered in time to move for a new
trial under Rule 59(b); (3) fraud (whether

App.l6a
previously called intrinsic or extrinsic), mis­
representation, or misconduct by an opposing
party; (4) the judgment is void; (5) the
judgment has been satisfied, released, or dis­
charged; it is based on an earlier judgment
that has been reversed or vacated; or
applying it prospectively is no longer equitable;
or, (6) any other reason that justifies relief.
Fed. R. Civ. P. 60(b). Providing relief under Rule 60(b)
constitutes “an extraordinary remedy that should not
be awarded except under exceptional circumstances.”
Mayfield v. Nat’l Ass’n for Stock Car Auto Racing, Inc.,
674 F.3d 369, 378 (4th Cir. 2012) (citing Ackermann v.
United States, 340 U.S. 193, 202 (1950)). The party
seeking relief under Rule 60(b) “must make a threshold
showing of timeliness,t4] ‘a meritorious claim or defense,’
and lack of unfair prejudice to the opposing party.”
Coleman v. Jabe, 633 F. App’x. 119, 120 (4th Cir.
2016) (quoting Aikens v. Ingram, 652 F.3d 496, 501
(4th Cir. 2011)) (stating that even a “postjudgment
change in decisional law ... rarely provide [s] sufficiently
extraordinary circumstances to justify relief under
Rule 60(b)(6)” (citations omitted)). A party must also
demonstrate “exceptional circumstances.” Dowell v.
State Farm Fire & Cas. Auto. Ins. Co., 933 F.2d 46, 48
(4th Cir. 1993) (quoting Werner v. Carbo, 731 F.2d 204,
4 Federal Rule of Civil Procedure 60 requires that “[a] motion
under Rule 60(b) ... be made within a reasonable time—and for
reasons (l), (2), and (3) no more than a year after the entry of the
judgment or order or the date of the proceeding.” Fed. R. Civ. P.
60(c)(1). Sloan filed the Motion for Reconsideration twenty-seven
days after the Court entered its September 6, 2019 Memorandum
Opinion and Order. Therefore, the Motion for Reconsideration
would be timely under Rule 60. See Fed. R. Civ. P. 60(c)(1).

App.l7a
207 (4th Cir. 1984)). Only after a showing of these
“exceptional circumstances” may a Court find relief
under one of the six factors.5 Mayfield, 674 F.3d at
378.
B. Because the Motion for Reconsideration Fails
to State a Meritorious Claim and Does Not
Establish Exceptional Circumstances, It Would
Fail to Justify a Reversal of This Court’s Decision
Because Sloan filed the Motion for Reconsideration
within twenty-seven days of the Court’s September 6,
2019 Memorandum Opinion and Order dismissing his
Amended Complaint, Sloan would have timely filed
the Motion for Reconsideration under Rule 60. See Fed.
R. Civ. P. 60(c)(1). Therefore, given Sloan’s persistent
filing and his pro se status, the Court would evaluate
whether the Motion for Reconsideration sets forth the
“meritorious claim or defense” to satisfy Rule 60(b) and,
next, whether he identifies any “exceptional circum­
stances” required for relief under Rule 60(b)(6).
Coleman, 633 F. App’x. at 120 (quoting “Aikens, 652
F.3d at 501); Dowell, 933 F.2d at 48 (quoting Werner,
731 F.2d at 207). Sloan’s assertions in the Motion for
Reconsideration would not satisfy either of these
threshold requirements.
First, Sloan, as in his first two Complaints, would
fail to state a “meritorious claim or defense” in the
instant Motion for Reconsideration. See Coleman, 633
F. App’x at 120. As stated in this Court’s September
6, 2019 Opinion, “Federal Rule of Civil Procedure 8
5 Because Sloan does not meet the threshold requirements of
Rule 60(b), the Court would not need to reach the subsections of
the Rule.

App.l8a
‘requires a showing of entitlement to relief,’ more than
just bare allegations.” (Sep. 6, 2019 Mem. Op. 6
(quoting Francis v. Giacomelli, 588 F.3d 186, 192 (4th
Cir. 2009) (emphasis in original)). In that Memorandum
Opinion, the Court concluded that in his Amended
Complaint, “Sloan did not ‘clearly identify each federal
or state law allegedly violated.’... He ties no later
factual allegations to any specific law violated[, and]
. . . his over 130-paragraph Amended Complaint
includes many of the same ‘unnecessary . . . factual
allegations’ this Court warned him to exclude.” {Id. 7
(quoting Dec. 21, 2018 Order 5).) Similar to the
Amended Complaint, the Motion for Reconsideration
once again fails to tie factual allegations to a specific
law violated. It also restates unnecessary factual
allegations previously stated in both the original
Complaint and the Amended Complaint. As Sloan
himself states in the motion, “In]one of the above
[allegations are] new. All this was explained at the
beginning of this case when the complaint was filed.”
(Mot. Recons. U 89.) For the same reasons he did not
demonstrate a meritorious claim in his Complaint and
his Amended Complaint, Sloan would fail to state a
meritorious claim in his 141-paragraph Motion for
Reconsideration.
Similarly, Sloan could not show “exceptional
circumstances” as required by Rule 60(b). Dowell, 933
F.2d at 48 (quoting Werner, 731 F.2d at 207). Simply
reasserting old claims, without valid legal arguments
to support these claims, does not rise to the level of
demonstrating the “exceptional circumstances” required
by Rule 60(b)(6). Id. Because the Motion for Reconsider­
ation would fail to meet the threshold requirements of

App.l9a

Rule 60(b), it would also falter under that Rule. The
Court now turns to Rule 60(d)(3).
V.

Sloan’s Motion Provides No Valid Evidence of
Fraud Perpetrated on This Court by Defendants
or Their Attorneys as Required by Rule 60(d)(3)

Sloan’s Motion for Reconsideration would also
founder under Rule 60(d)(3), the final rule that would
allow the Court to reconsider its prior decision.
A. Standard of Review: Rule 60(d)(3)
Rule 60(d)(3) permits a court to “set aside a judg­
ment for fraud on the court.” Fed. R. Civ. P. 60(d)(3).
Fraud on the court requires that a litigant show more
than “ordinary fraud” by the opposing party. Fox v. Elk
Run Coal Co., Inc., 739 F.3d 131, 136 (4th Cir. 2014).
The litigant must demonstrate that the fraud “not
only . . . involve [s] an intentional plot to deceive the
judiciary, but it must also touch on the public interest
in a way that fraud between individual parties
generally does not.” Id. Examples include “bribery of
a judge or juror, or improper influence exerted on the
court by an attorney, in which the integrity of the
court and its ability to function impartially is directly
impinged.” Great Coast Express Inc. v. Inti Bhd.
Teamsters, 675 F.2d 1349,1356 (4th Cir. 1982).
B. Because Sloan Could Not Establish the
Influence of Fraudulent Behavior on The
Court, No Basis for Reversing This Court’s
Decision Would Exist Under Rule 60(d)(3)
Finally, for. the reasons stated above, the Court
evaluates whether Sloan’s motion would address
fraud on the court as required for relief under Rule

App.20a
60(d)(3). Fox, 739 F.3d at 136. The Motion for Recon­
sideration would not provide grounds for reversing this
Court’s decision on the basis of fraud.
Sloan would fail to demonstrate that “the integrity
of the court and its ability to function impartially is
directly impinged” by the actions of the defendants.
Great Coast Express, 675 F.2d at 1356. Sloan’s claims
contain multiple bald assertions of fact and legal con­
clusions which are wide-ranging and cover multiple
events and defendants. But Sloan’s primary, repeated
concern is that a group of judges in Virginia decided a
custody case involving his daughter without the
necessary jurisdiction. Sloan states, “these four judges
named in the complaint, including two past judges
and one future judge, did not have even the slightest
scintilla of jurisdiction over the case.” (Mot. Recons.
2.) The Motion for Reconsideration then elaborates by
saying, without cognizable legal or factual basis, that
the judges in question “are terrorists who formed a
terrorist group . .. with the plan to kidnap my mother
and children and have them brought to Virginia
where they could assert jurisdiction over them,” and
that the judges exhibited a “pattern of complete
lawlessness.” {Id.
2, 20.) Even if these unsupported
factual assertions could plausibly advance fraudulent
conduct, they would not articulate any undue influence
the defendants may have had over this Court and its
rulings. Rule 60(d)(3) requires a demonstration of
fraud involving the judgment in question, or the
judgment Sloan is asking the Court to reverse. See
Fed. R. Civ. P. 60(d)(3). In sum, Sloan could not to
demonstrate any fraudulent activity related to this
Court or its prior Orders.

App.21a

Sloan also protests the failure of the former Mo­
tions to Dismiss to “(address] the important central
facts of this case which are that the subject child was
born ... in New York City . . . and Virginia has never
had proper legal jurisdiction over this child.” {Id.
U 48.) This statement fails to demonstrate how the
defendants, their attorneys, or their motions success­
fully compromised “the integrity of the court and its
ability to function impartially.” Great Coast Express,
675 F.2d at 1356. Without a clear basis for claiming
direct fraud on this Court, Sloan would fail to meet the
requirements for relief under Rule 60(d)(3), if the Court
were to consider the Motion for Reconsideration as
brought under Rule 60(d)(3).
VI. Conclusion
For the foregoing reasons, and as to every basis
considered, the Court will deny Sloan’s Motion for
Reconsideration. (ECF No. 76.)
An appropriate Order shall issue.
Is/ M. Hannah Lauck
United States District Judge

Date: 5/14/2020
Richmond, Virginia

App.22a
FINAL ORDER OF THE DISTRICT COURT
ACCOMPANYING MEMORANDUM OPINION
(MAY 14, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
SAMUEL H. SLOAN,
Plaintiff,
v.
MARIA CHILDRESS, ET AL.
Defendants.
Civil Action No. 3:18cv260
Before: M. Hannah LAUCK,
United States District Judge.
For the reasons stated in the accompanying Memo­
randum Opinion, the Court DENIES Sloan’s Motion
for Reconsideration. (ECF No. 76.)
Let the Clerk send a copy of the Memorandum
Opinion and this Order to all counsel of record; to
Sloan at his address of record; and, to Patricia S.
Connor, Clerk, United States Court of Appeals for the
Fourth Circuit, 1100 East Main Street, Suite 501,
Richmond, Virginia 23219.

App.23a
It is SO ORDERED.
/s/ M. Hannah Lauck
United States District Judge
Date: 5/14/2020
Richmond, Virginia

App.24a
MEMORANDUM OPINION OF THE DISTRICT
COURT FOR THE EASTERN DISTRICT OF
VIRGINIA GRANTING MOTION TO DISMISS AND
DISMISS SLOAN’S AMENDED COMPLAINT
(SEPTEMBER 6, 2019)
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF VIRGINIA
RICHMOND DIVISION
SAMUEL H. SLOAN,
Plaintiff,
v.
MARIA CHILDRESS, ET AL.,
Defendants.
Civil Action No. 3:18cv260
Before: M. Hannah LAUCK,
United States District Judge.
This matter comes before the Court on seven mo­
tions to dismiss:
(l) Defendant Judge William G. Petty’s
(“Judge Petty”) Renewed Motion to Dismiss
Amended Complaint (“Judge Petty’s Motion
to Dismiss”), (ECF No. 51);

App.25a
(2) Defendants Norman K. Moon, United
States District Judge (“Judge Moon”),1 William
P. Barr, Attorney General of the United
States;2 and the United States Department of
Justice’s (“DOJ” and, collectively, the “Federal
Defendants”) Motion to Dismiss Amended
Complaint (the “Federal Defendants Motion
to Dismiss”), (ECF No. 54);
(3) Defendants Maria Childress, Chris Bolling,
Shayam Raman, and Susan Swecker’s (collect­
ively, the “Democratic Party Defendants”)
Motion to Dismiss Pursuant to Rules 12 and
8 of the Federal Rules of Civil Procedures

1 Sloan alleges that Judge Moon took actions both in his capacity
as a United States District Judge and as a Virginia state court
judge. The Federal Defendants Motion to Dismiss seeks to dismiss
Sloan’s allegations regarding Judge Moon’s actions as a federal
judge.
2 Sloan originally brought suit against Jefferson Beauregard
Sessions, III, the former United States Attorney General. Sloan
did not specify whether he brought suit against Sessions in his
individual or official capacity. However, because Sloan’s
sole allegation against “the Attorney General” in the Amended
Complaint is that the Attorney General is “properly named as [a]
defendantQ here because [he] supervise^] the [Federal Bureau
of Investigation (“FBI”)],” and this must be done in the Attorney
General’s official capacity, the Court interprets Sloan’s allegations
as though he intended to name Sessions in his official capacity.
On February 14, 2019, William P. Barr was sworn in as the
United States Attorney General. U.S. Dep’t OF JUSTICE, Office of
the Attorney General: Meet the Attorney General, https://www.
justice.gov/ag_(last accessed July 25, 2019). Because Sloan
named Sessions in his official capacity, the Court substitutes
Barr for Sessions as the defendant in this case.

App.26a

(the “Democratic Party Defendants Motion
to Dismiss”), (ECF No. 56);
(4) Defendant the Honorable Ralph S. Northam,
Governor of Virginia’s Motion to Dismiss
Amended Complaint (“Governor Northam’s
Motion to Dismiss”), (ECF No. 57);
(5) Defendant Mark Herring, Attorney General
of Virginia’s Motion to Dismiss Amended
Complaint (“Attorney General Herring’s Motion
to Dismiss”), (ECF No. 59);
(6) Defendants Judge Lawrence Janow, Judge
J. Michael Gamble, and Norman K. Moon,
United States District Judge’s3 (collectively,
the ‘Virginia Judges”) Motion to Dismiss
Amended Complaint (the ‘Virginia Judges’
Motion to Dismiss”), (ECF No. 61); and,
(7) Defendant Frank G. Davidson, Ill’s Motion
to Dismiss Plaintiffs Amended Complaint
Pursuant to Federal Rules of Civil Procedure
12(b)(6) and 8 (the “Davidson Motion to
Dismiss”), (ECF No. 63)4
Sloan responded to each of the motions to dismiss.
(ECF Nos. 67-73.) None of the defendants replied to
Sloan’s response and the time to do so has expired.
3 The Virginia Judges’ Motion to Dismiss seeks to dismiss Sloan’s
allegations regarding Judge Moon’s alleged actions during his
tenure as a judge on the Virginia Court of Appeals.
4 Each of the defendants included in their motions to dismiss a
notice consistent with the requirements set forth in Roseboro v.
Garrison, 528 F.2d 309 (4th Cir. 1975), and Local Civil Rule 7(K)
for the United States District Court for the Eastern District of
Virginia.

App.27a
This matter is ripe for disposition. The Court dis­
penses with oral argument because the materials
before it adequately present the facts and legal conten­
tions, and argument would not aid the decisional
process. As explained below, because Sloan failed to
comply with the Court’s prior order and Federal Rule
of Civil Procedure 8, the Court will grant the motions
to dismiss and dismiss with prejudice Sloan’s Amended
Complaint. Even if the Court were to consider Sloan’s
Amended Complaint, the Court would likely find that
it lacks subject matter jurisdiction as to several of the
defendants and that Sloan failed to state a claim
against the remaining defendants. The Court, then
would likely dismiss Sloan’s complaint under these
alternate theories as well. 5
I.

Background
A. Summary of Allegations in Sloan’s Original
Complaint

Sloan filed his original 86-page complaint in this
Court seemingly seeking to hold Judge Janow, Judge
Gamble, now-Judge Petty, Judge Moon, Davidson,
Charles Roberts, and Darrell Jay Roberts accountable
5 The Court recognizes that two defendants—Charles Edward
Roberts and Darrell Jay Roberts—have failed to respond to
Sloan’s Amended Complaint. These two defendants, proceeding
pro se, previously filed an Answer to Sloan’s original complaint.
(ECF No. 24.) Because Sloan failed to comply with the substantive
and procedural dictates for filing his Amended Complaint
articulated in this Court’s December 21, 2018 Order after the
Court warned him that such failure would “result in dismissal of
this action without prejudice,” (Dec. 21, 2018 Order 5, ECF No.
49 (capitalization omitted)), the Court will dismiss the Amended
Complaint as to all defendants, including the Roberts defendants.

App.28a
for kidnapping Sloan’s daughter while Sloan and his
daughter resided in the United Arab Emirates.6 Sloan
alleged that these defendants mistakenly believed that
the Sloan family possessed great wealth, which the
defendants could obtain by gaining custody of Sloan’s
daughter. Additionally, Sloan maintained that “[t]he
Roberts were determined to kidnap the child so they
could raise her as a Christian, rather than as a Muslim
as both her parents were.” (Compl. 17, ECF No. 1.)
Sloan asked this Court to find Judge Janow, Judge
Gamble, Judge Petty, Davidson, and Judge Moon guilty
of kidnapping, conspiracy to commit kidnapping, and
hiding these crimes. Sloan suggested that the Court
place these defendants “in a secure location from which
there will be no escape such as Guantanamo Bay.” (Id.
84.)
In his original complaint Sloan also sought an
order from this Court declaring the “Virginia Felony
Disenfranchisement Law” unconstitutional, (id. 3),
and alleged that the Democratic Party Defendants
wrongly excluded him from the ballot as a candidate

6 The Court takes judicial notice of the fact that Sloan “has been
a party to at least 35 separate actions filed in the federal courts
since 1990.” Sloan v. Smith, No. 6:09cv5, 2009 WL 453298, at *1
n.l (W.D. Va. Feb. 24, 2009). As Judge Moon recognized in his
2009 decision, Sloan “has filed a number of complaints in the
federal courts . . . which likewise arose out of plaintiff s attempt
to characterize his loss of custody of his daughter as a kidnap [p]ing
and a violation of his civil rights.” Id. at *1 (footnotes omitted).

App.29a
for United States Congress.7 Sloan sought numerous
other types of relief as well.8
In response to his original complaint, many of the
defendants filed a motion to dismiss and Charles
Roberts and Darrell Roberts filed a joint Answer. The
Court reviewed Sloan’s original complaint and found
that it “plainly offends Federal Rule of Civil Procedure
8.”9 (Dec. 21, 2018 Order 3, ECF No. 49.) “[I]n
deference to Sloan’s pro se status, and in the interest
of justice,” the Court allowed Sloan to file an Amended
Complaint and provided him clear directions as to what
that Amended Complaint must include. (Id. 3-5.)
Sloan then filed his Amended Complaint.

7 Specifically, Sloan claimed that even though he collected 1,226
signatures in support of his nomination and paid the filing fee,
“Defendant Maria Childress, who is the Chairwoman of the
Democratic Party for the 6th Congressional District, threw him
off the primary ballot several days later without giving any
reason therefore [sic] and without even returning his many phone
calls.” (Compl. 2.)
8 For instance, Sloan requested that his mother’s former home “be
restored to the possession of Plaintiff and the Sloan Family,”
(Compl. 83); that the Court “reverseO and declared [n]ull and
[v]oid” Judge Gamble’s orders granting custody of Sloan’s
daughters to “the Roberts family,” (id.)-, and, that his prior
convictions “be set aside and declared null and void.” (Id. 84.)
Finally, he sought a judgment in the amount of “$50 million, the
same amount Defendants thought they were going to get from
the estate of the father of Plaintiff.” (Id. 85.)
9 Rule 8(a) requires that a pleading seeking relief contain “a
short and plain statement of the claim showing that the pleader
is entitled to relief.” FED. R. Civ. P. 8(a)(2).

App.30a
B. Summary of Allegations in Sloan’s Amended
Complaint
Although Sloan reduced his eighty-six pages of
allegations to twenty-five pages in his Amended
Complaint, he repeats many of his initial allegations
with a similar absence of chronological or logical cohe­
sion. For instance, without serious underpinning
facts, Sloan maintains that Judge Janow, Judge Petty,
Judge Moon, and Davidson “are clearly guilty of
kidnapping and conspiring to kidnap Plaintiff’s daughter
and the cover-up of these crimes.”lO (Am. Compl. 25,
ECF No. 50.) He again requests that this Court
“place [these defendants] under arrest and place [them]
in a secure location from which there will be no escape
such as Guantanamo Bay.” (Id.)
Sloan also renews his assertions that the Demo­
cratic Party Defendants wrongly excluded him from
the ballot in a recent election, stating that Childress
told Sloan’s campaign manager “that ‘her boss’ had
told her not to allow the name of Plaintiff to appear on
the ballot.” (Id. 17.) Sloan maintains that he does not
know who serves as Childress’s “boss” and that, as a
result, he named Raman, Swecker, Bolling, Governor
Northam, and Virginia Attorney General Herring as
defendants. (Id) He again seeks an order from this
10 Sloan alleges that he contacted the FBI on “innumerable”
occasions to report the kidnapping of his daughter and his mother.
(Am. Compl. 13-14.) He states that “[i]n spite of all these calls,
the FBI undertook no investigation of these kidnappings.” (Id.
14.) He supports his claim against the DOJ and United States
Attorney General Barr by positing that they “are properly named
as defendants here because they supervise the FBI and thus
should have required the FBI to investigate these crimes to this
day.” (Id.)

App.31a
/

Court declaring the “Virginia Felony Disenfranchise­
ment Law” unconstitutional, (id. 22), alongside a spatter­
ing of seemingly unrelated additional avenues of relief
that mirror those in his first complaint.il
The defendants filed the instant motions to dismiss
in response to Sloan’s Amended Complaint. Sloan’s
reply to each followed.
II. Sloan Failed to Comply With Federal Rule of
Civil Procedure 8 and Failed to Obey This Court’s
December 21, 2018 0rderl2
In each of the pending motions, the defendants
assert that the Court must dismiss Sloan’s Amended

11 As he did in his original complaint, Sloan again asks that the
Court “restore D to the possession of Plaintiff and the Sloan Family”
his mother’s home (Compl. 83; Am. Compl. 23); that the Court
“reverseO and declareQ [n]ull and [v]oid” Judge Gamble’s orders
granting custody of Sloan’s daughters to “the Roberts family,”
(Compl. 83; Am. Compl. 24); that his prior convictions ‘he set aside
and declared null and void,” (Compl. 84; Am. Compl. 24); and a
judgment in the amount of $50 million “the same amount
Defendants thought they were going to get from the estate of the
father of Plaintiff,” (Compl. 84; Am. Compl. 24).
12 District courts have a duty to construe pro se pleadings
liberally. Bracey v. Buchanan, 55 F. Supp. 2d 416, 421 (E.D. Va.
1999). “This principle of liberal construction, however, has its
limits.” Suggs v. M& TBank, 230 F. Supp. 3d 458, 461 (E.D. Va.
2017), affd sub nom. Suggs v. M&TBank, 694 F. App’x 180 (4th
Cir. 2017). A pro se plaintiff must allege facts sufficient to state
a cause of action. Bracey, 55 F. Supp. 2d at 421 (citation omitted).
The Court cannot act as a pro se litigant’s “advocate and develop,
sua sponte, statutory and constitutional claims that the [litigant]
failed to clearly raise on the face of [the] complaint.” Newkirk v.
Circuit Court of Hampton, No. 3:14cv372, 2014 WL 4072212, at
*1 (E.D. Va. Aug. 14, 2014). Even construing Sloan’s Amended

App.32a
Complaint because Sloan failed to comply with this
Court’s December 21, 2018 Memorandum Order and
Rule 8. In its December 21, 2018 Order, the Court
found that Sloan’s Complaint “plainly offend [ed] Federal
Rule of Civil Procedure 8.” (Dec. 21,2018 Mem. Order 3.)
The Court stated that Sloan’s Amended Complaint
“must omit any unnecessary incorporation of factual
allegations for particular claims and any claim against
any defendant that is not well-grounded in the law and
fact.” {Id. 5 (citing Sewraz v. Guice, No. 3:08cv35, 2008
WL 3926443, at *2 (E.D. Va. Aug. 26, 2008).) The
Court also stated that Sloan must include “a short
statement of the facts giving rise to his claims for
relief and that he “must clearly identify each federal
or state law allegedly violated.” {Id) The Court ex­
plained that “failure to strictly comply with the Court’s
directives and with applicable rules will result in dis­
missal of this action without prejudice.” {Id. (capital­
ization omitted).)
Federal Rule of Civil Procedure 8 “requires a
showing of entitlement to relief,” more than just bare
allegations. Francis v. Giacomelli, 588 F.3d 186, 192
(4th Cir. 2009) (emphasis in original). The well-pleaded
facts must “permit the court to infer more than the
mere possibility of misconduct.” Id. at 193. In doing so,
a court is not bound to accept as true “legal conclusions
couched as factual allegations.” Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 555-56 (2007) (quoting Papasan
v. Allain, 478 U.S. 265, 286 (1986)). The Federal Rules
of Civil Procedure require such pleading “to ‘give the
defendant fair notice of what the . . . claim is and the
Complaint liberally, the Court finds that it does not comport with
the Court’s December 21, 2018 instructions.

App.33a
grounds upon which it rests.’” Id. at 555 (quoting Con­
ley v. Gibson, 355 U.S. 41, 47 (1957)). While the long­
standing practice allows a court to construe pro se
pleadings liberally, Hill v. Braxton, 277 F.3d 701, 707
(4th Cir. 2002), “[t]his principle of liberal construc­
tion, however, has its limits,” Suggs, 230 F. Supp. 3d
at 461.
Sloan’s Amended Complaint, though significantly
shorter, does not comply with Federal Rule of Civil
Procedure 8. Sloan did not “clearly identify each federal
or state law allegedly violated.” (Dec. 21, 2018 Order
5.) Sloan’s only mention of any law in the Amended
Complaint is his introductory statement avowing his
purported reliance on the “First, Fifth and Fourteenth
Amendments to the Constitution of the United States
including Freedom of Religion, the Civil Rights Acts
including 42 U.S.C. 1983, 28 U.S.C. 1331, the Voting
Rights Acts, the RICO Corrupt Practices Acts, and the
right to Petition the Government” as his grounds for
invoking this Court’s jurisdiction. (Am. Compl. 1.) He
ties no later factual allegations to any specific law
violated. Similarly, although Sloan has omitted much
of the prolix “Nature of the Case” found in his original
Complaint, his over 130-paragraph Amended Complaint
includes many of the same “unnecessary . . . factual
allegations” this Court warned him to exclude. (Dec.
21, 2018 Order 5; see generally Am. Compl.) For these
reasons, Sloan’s prolix Amended Complaint fails to
give Defendants reasonable notice of the causes of
action brought against them. See Twombly, 550 U.S.
at 555 (quoting Conley, 355 U.S. at 47).
Sloan’s Amended Complaint also does not obey
this Court’s December 21, 2018 Memorandum Order.

App.34a
The Court previously informed Sloan that “[t]he particu­
larized amended complaint must stand or fall on its
own accord.” (Dec. 21, 2018 Order 5.) In his Amended
Complaint, however, Sloan states that he “[rjepeats
and [rjealleges each and every allegation made in
paragraphs 1 through 332 of the original complaint
and in all of the paragraphs of the above amended
complaint,” (Am. Compl. 22.) Because Sloan attempts
to bring the same frivolous claims in his Amended
Complaint that this Court dismissed in his original
Complaint—and he did so in a way that violates
Federal Rule of Civil Procedure 8 and directly contra­
dicts this Court’s December 21, 2018 Memorandum
Order—the Court will, in accordance with its prior
warning, dismiss Sloan’s Amended Complaint. For
this reason, the Court grants each of the pending mo­
tions to dismiss.
HI. If the Court Were to Consider the Substance of
the Pending Motions, It Would Likely Lack
Subject Matter Jurisdiction over Many Defendants
Even if the Court were to consider Sloan’s
Amended Complaint, the Court would have to dismiss
his claims against most of the named defendants based
on a lack of subject matter jurisdiction over them.
A. Standard of Review: Rule 12(b)(1)
In a motion to dismiss under Federal Rule of Civil
Procedure 12(b)(1) challenging the Court’s subjectmatter jurisdiction, the burden rests with the plaintiff,
as the party asserting jurisdiction, to prove that federal
jurisdiction is proper. See Int’l Longshoremen’s Ass’n
v. Va. Int’l Terminals, Inc., 914 F. Supp. 1335,1338 (E.D.
Va. 1996) (citing McNutt v. Gen. Motors Acceptance

App.35a
Corp., 298 U.S. 178, 189 (1936); Adams v. Bain, 697
F.2d 1213, 1219 (4th Cir. 1982)). A motion to dismiss
pursuant to Fed. R. Civ. P. 12(b)(1) can attack subjectmatter jurisdiction in two ways. First, a Rule 12(b)(1)
motion may attack the complaint on its face, asserting
that the complaint fails to state a claim upon which
subject-matter jurisdiction can lie. See Inti Longshore­
men’s Ass’n, 914 F. Supp. at 1338 (citing Adams, 697
F.2d at 1219). In such a challenge, a court assumes
the truth of the facts alleged by plaintiff. See id.
Alternatively, a Rule 12(b)(1) motion may also
challenge the existence of subject-matter jurisdiction
in fact, apart from the pleadings. See Richmond,
Fredericksburg & Potomac R.R. Co. v. United States,
945 F.2d 765, 768 (4th Cir. 1991); see also Inti
Longshoremen’s Ass’n, 914 F. Supp. at 1338 (citing
Adams, 697 F.2d at 1219). In such a case, because a
party challenges the court’s “‘very power to hear the
case,”’ the trial court is free to weigh evidence to deter­
mine the existence of jurisdiction. Inti Longshoremen’s
Ass’n, 914 F. Supp. at 1338 (quoting Mortensen v.
First Fed. Say. & Loan Ass’n, 549 F.2d 884, 891 (3d
Cir. 1977)). “[N]o presumptive truthfulness attaches
to the plaintiffs allegations, and the existence of dis­
puted material facts will not preclude the trial court
from evaluating for itself the merits of jurisdictional
claims.” Int’l Longshoremen’s Ass’n, 914 F. Supp. at
1338 (quoting Mortensen, 549 F.2d at 891); see also
Adams, 697 F.2d at 1219.
B. Immunity Likely Would Protect Eight of the
Defendants from Liability
Were the Court to evaluate jurisdiction, it would
likely find an absence of subject matter jurisdiction

App.36a
over the Virginia Judges, now-Judge Petty, the Federal
Defendants, Governor Northam, and Virginia Attorney
General Herring under either Rule 12(b)(1) standard
because immunity protects those defendants from
liability. For instance, Sloan attempts to bring a claim
against many judges for their actions as a member of
the judiciary. As an example, Sloan asserts that he
“tried several times to appeal to the Virginia Court of
Appeals. However, every time he did that, within a few
days Judge Norman Moon, a judge of that court dis­
missed the appeal.” (Am. Compl. 9.) The Supreme
Court of the United States, however, long has recognized
that judges are entitled to absolute immunity from
liability. See Bradley v. Fisher, 80 U.S. (13 Wall) 335,
347 (1871) (“a general principle of the highest importance
to the proper administration of justice [is] that a
judicial officer, in exercising the authority vested in
him, shall be free to act upon his own convictions,
without apprehension of personal consequences to
himself”). Because judicial immunity protects judges
from personal liability for actions taken while acting
as a member of the judiciary, even if the Court were
to evaluate Sloan’s Amended Complaint, it would have
to dismiss Sloan’s allegations against each of the four
judges he accuses of violating his rights when they
handled Sloan’s prior cases.
Sloan also contends that a fifth judge, Judge
Petty, took several improper actions in his previous
role as Commonwealth Attorney for Lynchburg. For
instance, Sloan alleges that he “only served 18 months
in Powhatan and Dillwyn Prisons in Virginia even
though defendant Commonwealth Attorney Willia[m]
G. Petty had tried to have him sentenced to 15 years
in prison.” (Am. Compl. 17-18.) However, prosecutorial

App.37a
immunity would bar Sloan’s allegations against nowJudge Petty for actions taken during his tenure as
Commonwealth Attorney for Lynchburg. See Andrews
v. Ring, 585 S.E.2d 780, 785 (Va. 2003) (“In each case
where a prosecutor is involved in the charging process,
under Virginia law, that action is intimately connected
with the prosecutor’s role in judicial proceedings and
the prosecutor is entitled to absolute immunity from
suit for such actions.”) For this reason, even looking
beyond Sloan’s Rule 8 and other procedural failures,
the Court likely would dismiss the allegations against
now-Judge Petty for actions he took while working as
a prosecutor.
Sloan also has not illustrated how that he can over­
come the United States’ asserted sovereign immunity
in order to pursue his claims against either DOJ or
United States Attorney General Barr. 13 See F.D.I.C.
v. Meyer, 510 U.S. 471, 475 (1994) (“Absent a waiver,
sovereign immunity shields the Federal Government
and its agencies from suit.... Sovereign immunity is
jurisdictional in nature.” (internal citations omitted)).
Nor has he demonstrated that he can overcome
Eleventh Amendment!4 immunity to pursue his claims
13 The Court notes that Sloan’s sole allegation against the United
States Department of Justice and Attorney General Barr is that
they “are properly named as defendants here because they
supervise the FBI and thus should have required the FBI to
investigate these crimes to this day.” (Am. Compl. 14.) This single
sentence cannot suffice to establish a claim showing Sloan is
entitled to relief, as required by Rule 8 or Rule 12(b)(6). Fed. R. Civ.
P. 8 and 12(b)(6). For this reason, even if the Court concluded
that Sloan could overcome the immunity afforded to these
defendants, it would likely dismiss Sloan’s claims against them.
14 The Eleventh Amendment of the United States Constitution
provides: “The Judicial power of the United States shall not be

App.38a
against Governor NorthamlS or Attorney General
Herringl6 as officials of the Commonwealth of Virginia.
See Constantine v. Rectors & Visitors of George
Mason Univ., 411 F.3d 474, 482 n.4 (4th Cir. 2005)
(“the essence of the immunity is that the State cannot
be sued in federal court at all, even where the claim
has merit, and the importance of immunity as an
attribute of the States’ sovereignty is such that a court
should address that issue promptly once the State
asserts its immunity.”).
In sum, Sloan has not established that he can
overcome the immunity afforded to each of the four
judicial defendants, now-Judge Petty during his pre­
vious tenure as Lynchburg’s Commonwealth Attorney,
the DOJ, United States Attorney General Barr,
Governor Northam, and Virginia Attorney General
Herring. Thus, even were the Court to liberally construe
construed to extend to any suit in law or equity, commenced or
. prosecuted against one of the United States by Citizens of
another state, or by Citizens or Subjects of any Foreign State.”
U.S. Const, amend. XI.
15 Sloan’s sparse allegations against Governor Northam include
“Ralph Northam, then Governor of Virginia” may serve as Maria
Childress’s boss, (Am. Compl. 17.), and that “in 2018 the Governor
of Virginia signed an order restoring his civil rights so Sloan was
able to run for US Congressman,” (id. 16). Even if the Court were
to consider Sloan’s allegations against Governor Northam, Sloan
likely cannot meet his burden under Rules 8 or 12(b)(6) with these
scant factual allegations. See Fed. R. Civ. P. 8 and 12(b)(6).
16 Sloan mentions Virginia Attorney General Herring in his
Amended Complaint only once, saying that “Mark Herring,
Attorney General of Virginia” may serve as Maria Childress’s
boss. (Am. Compl. 17.) This single factual allegation (a tentative one
at that) likely cannot suffice to meet Sloan’s burden under Rules
8 or 12(b)(6). See Fed. R. Civ. P. 8 and 12(b)(6).

App.39a
the allegations in Sloan’s Amended Complaint against
each of those eight defendants, the Court would have
to find Sloan’s Amended Complaint lacking any basis
for the Court to exercise subject matter jurisdiction as
to these claims, meaning all eight defendants would
have to be dismissed.
IV. Even If the Court Were to Assess Sloan’s Amended
Complaint as to the Remaining Four Defendants,
Dismissal for Failure to State a Claim Would
Have to Ensue
Further, even if the Court were to consider
Sloan’s allegations against the three Democratic Party
Defendants and Davidson—those defendants not
protected by immunity—the Court would likely have
to dismiss Sloan’s Amended Complaint for failure to
allege facts sufficient to state a claim against them.
A. Standard of Review: Rule 12(b)(6)
“A motion to dismiss under Rule 12(b)(6) tests the
sufficiency of a complaint; importantly, it does not
resolve contests surrounding the facts, the merits of a
claim, or the applicability of defenses.” Republican
Party of N.C. v. Martin, 980 F.2d 943, 952 (4th Cir.
1992) (citing 5A Charles A. Wright & Arthur R. Miller,
Federal Practice and Procedure § 1356 (1990)). To
survive Rule 12(b)(6) scrutiny, a complaint must
contain sufficient factual information to “state a claim
to relief that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007); see also Fed. R.
Civ. P. 8(a)(2). Mere labels and conclusions declaring
that the plaintiff is entitled to relief are not enough.
Twombly, 550 U.S. at 555. Thus, “naked assertions of
wrongdoing necessitate some factual enhancement

App.40a
within the complaint to cross the line between possibility
and plausibility of entitlement to relief.” Francis v.
Giacomelli, 588 F.3d 186, 193 (4th Cir. 2009) (internal
quotation marks omitted).
A complaint achieves facial plausibility when the
facts contained therein support a reasonable inference
that the defendant is liable for the misconduct alleged.
Twombly, 550 U.S. at 556; see also Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). This analysis is contextspecific and requires “the reviewing court to draw on
its judicial experience and common sense.” Francis,
588 F.3d at 193 (citation omitted). The Court must
assume all well-pleaded factual allegations to be true
and determine whether, viewed in the light most
favorable to the plaintiff, they “plausibly give rise to
an entitlement to relief.” Iqbal, 556 U.S. at 676-79; see
also Kensington Volunteer Fire Dep’t v. Montgomery
Cty., Md., 684 F.3d 462, 467 (4th Cir. 2012).
B. Sloan Likely Fails to Allege Sufficient Plausible
Facts to State a Claim
Beyond his patent failure to abide by Rule 8 or
this Court’s December 21, 2018 Order, Sloan’s Amended
Complaint likely would not meet the standard required
by Rule 12(b)(6) to sustain claims against the remaining
Democratic Party Defendants and Davidson.
Sloan alleges that Maria Childress told his
campaign manager that ‘“her boss’ had told her not to
allow the name of Plaintiff to appear on the ballot.”
(Am. Compl. 17.) He also states that “[i]n spite of
completing in every way the requirements to get on
the ballot, the name of Sam Sloan did not appear in

App.41a
the primary ballot.” (Id.) Sloan states that “[w]e[l7l do
not know what the name of her boss is but we infer
that her boss must be” Governor Northam, Virginia
Attorney General Herring, Shayam Raman, Susan
Swecker, or Chris Bolling. (Id.) Sloan’s choice to name
all five as defendants as possible “bosses” involves
speculation that Iqbal and Twombly discourage. See
Iqbal, 556 U.S. at 676-79; Twombly, 550 U.S. at 555.
And as the Democratic Party Defendants point out,
Sloan “fails to show how this Court would have the
jurisdiction to nullify an election that has already
taken place and has been certified by the Virginia
State Board of Elections.” (Mem. Supp. Democratic
Party Defs. Mot. Dismiss 2, ECF No. 65.) Even if the
Court were to assess Sloan’s Amended Complaint and
assuming the Court could set aside the completed elec­
tion, this two-paragraph sparse claim likely would not
give rise to a claim against any of the Democratic
Party Defendants. Sloan utterly fails to set forth
sufficient well-pleaded factual allegations that
“plausibly give rise to an entitlement to relief.” Iqbal,
556 U.S. at 676-79.
Sloan’s claims against Davidson—apparently in
Davidson’s role as an attorney in cases involving the
Sloan family—also would likely not raise a viable
cause of action. Sloan’s contentions against Davidson
include that “Frank G. Davidson III filed a custody
petition on August 27, 1986 at a time when he knew
the child was no longer in the Commonwealth of
Virginia,” (Am. Compl. 4), and that Davidson received
“[ajlmost all of the proceeds for the sale [of Sloan’s
17 Sloan brings his Amended Complaint as the sole named plaintiff,
however, several times throughout the Amended Complaint he
uses the pronoun “we.” CSeeAm. Compl. 17.)

App.42a
mother’s home] ... as legal fees,” (id. 18). Sloan alleges
that Davidson “started all this litigation and ... claimed
to be the guardian ad litem for” Sloan’s mother. (Id)
Sloan maintains that the Virginia Judges, Judge Petty,
and Davidson “are clearly guilty of kidnapping and
conspiring to kidnap Plaintiffs daughter and the
cover-up of these crimes.”18 (Id. 24-25.) Although
Sloan repeatedly spatters incendiary allegations
18 Even if the Court were to address Sloan’s allegation that
Davidson, the Virginia Judges, and Judge Petty kidnapped
Sloan’s daughter, the Supreme Court of the United States has
recognized that a private individual cannot maintain a criminal
prosecution. See Leeke v. Timmerman, 454 U.S. 83, 87 (1981).
For this reason, Sloan, an individual, could not criminally prosecute
these defendants. See id.
Similarly, Sloan could not pursue a cause of action against these
defendants under a theory of false imprisonment because the
statute of limitations bars such a claim. See Jordan v. Shands, 500
S.E.2d 215,218 (Va. 1998) (holding that because false imprisonment
constitutes an action for personal injury, a two-year statute of
limitations applies). Because Sloan alleges that Davidson, the
Virginia Judges, and Judge Petty kidnapped his daughter in
1990, the statute of limitations period for any possible false
imprisonment claim has long since passed. See Jordan, 500
S.E.2d at 218.
Finally, Sloan cannot maintain his cause of action based on these
allegations under the Racketeer Influenced and Corrupt
Organizations Act, 18 U.S.C. § 1961, etseq. (“RICO”) because the
applicable statute of limitations bars such a claim. Sloan alleges
that his daughter was kidnapped in approximately 1990. Sloan
filed his original Complaint on April 23, 2018, and his Amended
Complaint on January 18, 2019, at least twenty-seven years
later. Even if Sloan did not discover the alleged conspiracy until
several years after his daughter had been kidnapped, any claim
brought under RICO would be barred by the four-year statute of
limitations. See Rotella v. Wood, 528 U.S. 549, 553-54 (2000)
(finding that RICO’s four-year statute of limitations begins when
“a plaintiff knew or should have known of his injury’).

App.43a

throughout his Amended Complaint, these “naked
assertions of wrongdoing necessitate some factual
enhancement within the complaint to cross the line
between possibility and plausibility of entitlement to
relief.” Francis, 588 F.3d at 193 (4th Cir. 2009)
(internal quotation marks omitted). Because even a
liberal reading of Sloan’s Amended Complaint remains
bereft of any such factual enhancement, even a more
substantive evaluation of his Amended Complaint
would likely result in a dismissal of the claims against
Davidson for failure to state a claim.
V.

Conclusion

For the foregoing reasons, the Court will grant
each of the pending motions to dismiss, (ECF Nos. 51,
54, 56, 57, 59, 61, 63), and dismiss with prejudice Sloan’s
Amended Complaint. (ECF No. 50).
An appropriate order shall issue.
/s/ M. Hannah Lauck
United States District Judge

Date: 9/6/2019
Richmond, Virginia

App.44a
FINAL ORDER OF THE DISTRICT COURT
ACCOMPANYING MEMORANDUM OPINION
(SEPTEMBER 6, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
SAMUEL H. SLOAN,
Plaintiff,
v.
MARIA CHILDRESS, ET AL.,
Defendants.
Civil Action No. 3:18cv260
Before: M. Hannah LAUCK,
United States District Judge.
For the reasons stated in the accompanying Memo­
randum Opinion, the Court GRANTS each of the Mo­
tions to Dismiss. (ECF Nos. 51, 54, 56, 57, 59, 61, 63.)
The Court DISMISSES WITH PREJUDICE Sloan’s
Amended Complaint. (ECF No. 50.)
Should Sloan wish to appeal this Order, written
notice of appeal must be filed with the Clerk of Court
within sixty (60) days of the date of entry hereof. 19
19 See Fed. R. App. P. 4(a)(1)(B).

App.45a
Failure to file a notice of appeal within the stated per­
iod may result in the loss of the right to appeal.
Let the Clerk send a copy of the Memorandum
Opinion and this Order to all counsel of record and to
Sloan at his address of record.
It is SO ORDERED.
/s/ M. Hannah Lauck
United States District Judge
Date: 9/6/2019
Richmond, Virginia

App.46a
MEMORANDUM ORDER
OF THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
(DECEMBER 12, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
SAMUEL H. SLOAN,
Plaintiff,
v.
MARIA CHILDRESS, ET AL.,
Defendants.
Civil Action No. 3:18cv260
Before: M. Hannah LAUCK, United States District
Judge.
The Court has reviewed the Complaint filed by
Plaintiff Samuel Sloan, which numbers 86 pages and
includes over 330 individual paragraphs. (See Compl.,

App.47a
ECF No. 1.) Sloan brings his Complaint against numer­
ous defendants1 and seeks a variety of relief.2 He
requests a jury trial to decide the Complaint.
In his prolix Complaint, Sloan appears to bring
several unrelated claims. For instance, Sloan avers
that he was wrongly excluded from the ballot as a
candidate for United States Congress.3 Sloan also al­
leges that several defendants engaged in a conspiracy to
kidnap his daughter.4 The Complaint then alleges
1 Sloan names fifteen defendants: Maria Childress, Shayam
Raman, Susan Swecker, Chris Bolling, Mark Herring, Ralph
Northam, Lawrence Janow, J. Michel Gamble, William G. Petty,
Frank G. Davidson HI, Norman K. Moon, Charles Edward Roberts,
Darrell Jay Roberts, Jefferson Beauregard Sessions III, and the
United States Department of Justice (collectively, “Defendants”).
2 For instance, Sloan seeks an order allowing him “to run as a
Democratic Party candidate,” restoration of the possession of his
family home, reversal of court orders, reversal of his criminal
convictions, an order declaring the “Felony Disenfranchisement
[sic] Law of Virginia” unconstitutional, and an award of $50
million. (Compl. 83-84, ECF No. 1.) Sloan also asks the Court to
find Defendants Judge Janow, Judge Gamble, Judge Petty,
Frank G. Davidson III, and Judge Moon guilty of kidnapping,
conspiracy to commit kidnapping, and hiding these crimes, and
for the court to place these defendants “in a secure location from
which there will be no escape such as Guantanamo Bay.” (Id.)
3 Specifically, Sloan claims that even though he collected 1,226
signatures in support of his nomination and paid the filing fee,
“Defendant Maria Childress, who is the Chairwoman of the
Democratic Party for the 6th Congressional District, threw him
off the primary ballot several days later without giving any
reason therefore [sic] and without even returning his many phone
calls.” (Compl. HI 13-5.)
4 Throughout the Complaint, Sloan spatters details of an alleged
conspiracy in which Judge Janow, Judge Gamble, Judge Petty,
Frank G. Davidson III, Judge Moon, Charles Roberts, and Darrell

App.48a
that Sloan was wrongly convicted of two crimes: failure
to appeal and attempted abduction of his daughter.6

Jay Roberts conspired among themselves and with others to
kidnap Sloan’s daughter. Sloan alleges they succeeded in
kidnapping his daughter while she and Sloan resided in the
United Arab Emirates. Sloan alleges that Judge Janow, Judge
Gamble, Judge Petty, Frank G. Davidson III, Judge Moon,
Charles Roberts, and Darrell Jay Roberts desired to kidnap
Sloan’s daughter because they mistakenly believed that the
Sloan family possessed great wealth, which they could obtain by
having custody of Sloan’s daughter. Additionally, Sloan maintains
that “[t]he Roberts were determined to kidnap the child so they
could raise her as a Christian, rather than as a Muslim as both
her parents were.” (Compl. U 68.)
5 Sloan avers that this trial “had never been scheduled or taken
place.” (Compl. f 46.) Sloan maintains that “Lynchburg Common­
wealth Attorney Bill Petty had himself postponed the trial date
because he was not ready for trial.” {Id. Tf 47.) He states that,
“[h]aving been informed that the trial had been continued, Sloan
had naturally not come to court.” {Id. 1 48.)
6 In support of this claim, Sloan states that he had legal custody
of his daughter at the time of the alleged abduction. Sloan alleges
that these charges were brought against him because “the Roberts
[flamily were [sic] trying to get legal custody of Samuel Sloan’s
daughter.” (Compl. If 49.)

App.49a
Several Defendants7 have filed Motions to Dismiss
under Rules 8(a),8 12(b)(1),9 and 12(b)(6).10
The proffered Complaint plainly offends Federal
Rule of Civil Procedure 8, which requires a short and
plain statement of the grounds for this Court’s juris­
diction and a statement of the claims showing that the
plaintiff is entitled to relief. See generally North
Carolina v. McGuirt, 114 Fed. App’x 555 (4th Cir. 2004)
(affirming the district court’s dismissal with prejudice
of plaintiffs 79-page third amended complaint, finding
it “virtually impossible to separate the legal signif­
icant from the legally insignificant facts”); Nevijel v.
North Coast Life Ins., 651 F.2d 671 (9th Cir. 1981)
(affirming the district court’s dismissal with prejudice
of plaintiffs amended complaint, which was 23 pages
long and had 24 pages of addenda). Sloan’s prolix
Complaint cannot proceed because it fails to give
7 Thirteen of the fifteen Defendants in this matter filed Motions to
Dismiss, including: Frank Davidson, (ECF No. 12), Judge Petty,
(ECF No. 15), Mark Herring, (ECF No. 18), Maria Childress,
(ECF No. 20), Judge Janow, Judge Gamble, Judge Moon, (ECF
No. 22), Jefferson Sessions, the United States Department of
Justice, Judge Moon, (ECF No. 31), Ralph Northam, (ECF No.
33), Chris Bolling, (ECF No. 41), Shayam Raman, (ECF No. 42),
and Susan Swecker, (ECF No. 43) (collectively, the “Motions to
Dismiss”). Sloan filed several responses. (ECF Nos. 27, 28, 36, 47,
48.) No defendant filed a reply and the time to do so has expired.
8 Rule 8(a) requires that a pleading seeking relief contain “a
short and plain statement of the claim showing that the pleader
is entitled to relief.” Fed. R. Civ. P. 8(a)(2).
9 “[A] party may assert the following defenseO by motion: (l) lack
of subject-matter jurisdiction.” Fed. R. Civ. P. 12(b)(1).
10 Rule 12(b)(6) allows dismissal for “failure to state a claim
upon which relief can be granted.” Fed. R. Civ. P. 12(b)(6).

App.50a
Defendants reasonable notice of the causes of action
brought against them. Even complex factual and legal
allegations must comply with Rule 8. See generally
Vicom, Inc. v. Harbridge Merchant Services, Inc., 20
F.3d 771 (7th Cir. 1994) (affirming the district court’s
dismissal of the Racketeer Influenced and Corrupt
Organizations Act (“RICO”) claims in the plaintiffs’
119-page, 385 paragraph amended complaint and
finding that even a complaint stating a RICO charge
must comply with the requirements of Rule 8(a)).
It is hereby ORDERED that, no later than close
of business January 18, 2019, Sloan SHALL file an
Amended Complaint which outlines in simple and
straightforward terms why the plaintiff thinks that he
is entitled to relief and why the Court has jurisdiction
over his case. See Fed. R. Civ. P. 8(a)(l-2). The Court
does so in deference to Sloan’s pro se status, and in
the interest of justice. However, the Court admonishes
Sloan that many of the pending Motions to Dismiss
seemingly have merit. H
11 Because the Court orders Sloan to file an amended complaint,
the Court DENIES the Motions to Dismiss WITHOUT
PREJUDICE. (ECF Nos. 12, 15, 18, 20, 22, 31, 33, 41, 42, 43.)
Even were the Court to consider the Motions to Dismiss on the
merits, the Court would likely grant the relief sought. For
example, as pointed out in Mark Herring, the Attorney General
of Virginia’s, Motion to Dismiss, “[t]he only mention of the
Virginia Attorney General is in paragraph 15, in which Mr. Sloan
asserts that the Virginia Attorney General is responsible for
enforcing an ‘obviously’ unconstitutional law.” (Herring Mot.
Dismiss 1, ECF No. 19.) This single sentence cannot suffice to
establish a claim showing Sloan is entitled to relief, as required
by Rule 8. Further, Federal Rule of Civil Procedure 12(b)(6)
allows dismissal for “failure to state a claim upon which relief
can be granted.” Fed. R. Civ. P. 12(b)(6). Such an allegation against

App.51a
Sloan not only must clarify the allegations in his
amended complaint, he must also take care not to
include claims against improper parties. Federal Rule
of Civil Procedure 18(a) provides that: “A party
asserting a claim, counterclaim, crossclaim, or thirdparty claim may join, as independent or alternative
claims, as many claims as it has against an opposing
party.” Fed. R. Civ. P. 18(a). Nevertheless, when a
plaintiff seeks to bring multiple claims against multiple
defendants, she or he must also satisfy Federal Rule
of Civil Procedure 20, which provides:
(2) Defendants. Persons . . . may be joined in
one action as defendants if:
(A) any right to relief is asserted against
them jointly, severally, or in the alternative
with respect to or arising out of the same
the Virginia Attorney General does not meet the requirements of
Rule 12(b)(6).
Similarly, as Frank G. Davidson III maintains in his Motion to
Dismiss, the RICO Act’s four-year statute of limitations bars any
claim Sloan may bring under that law. (Davidson Mot. Dismiss
4, ECF No. 13.) In the Complaint, Sloan appears to rely on the
RICO Act, 18 U.S.C. § 1961, et seq., to support his claim that
Defendants Judge Janow, Judge Gamble, Judge Petty, Frank G.
Davidson III, Judge Moon, Charles Roberts, and Darrell Jay
Roberts conspired to kidnap his daughter.
Sloan alleges that his daughter was kidnapped in approximately
1990. Sloan filed the Complaint on April 23, 2018, at least
seventeen years later. Even if Sloan did not discover the alleged
conspiracy until several years after his daughter had been
kidnapped, any claim based on the RICO statute would be barred
by the four-year statute of limitations. See Rotella v. Wood\ 528
U.S. 549, 553-54 (2000) (finding that RICO’s four-year statute of
limitations begins when “a plaintiff knew or should have known
of his injury’).

App.52a
transaction, occurrence, or series of transac­
tions or occurrences; and
(B) any question of law or fact common to all
defendants will arise in the action.
Fed. R. Civ. P. 20(a)(2). “Rule 20 does not authorize a
plaintiff to add claims ‘against different parties [that]
presentO entirely different factual and legal issues.’
Sykes v. Bayer Pharm. Corp., 548 F. Supp. 2d 208, 218
(E.D. Va. 2008) (alterations in original) (quoting
Lovelace v. Lee, No. 7:03CV00395, 2007 WL 3069660,
at *1 (W.D. Va. Oct. 21, 2007)). If Sloan submits a
complaint that fails to comport with the joinder
requirements, he risks severance of unrelated claims,
or dropping of an unrelated party pursuant to Federal
Rule of Civil Procedure 21.12
The amended complaint SHALL COMPLY with
the following directions:
1.

At the very top of the amended pleading,
Samuel Sloan must place the follow caption
in all capital letters: “AMENDED COMPLAINT
FOR CIVIL ACTION NUMBER: 3:18cv260.”

2.

The first paragraph of the particularized
amended complaint must contain a list of
defendant(s). Thereafter, in the body of the
particularized amended complaint, Sloan
must set forth legibly, in separately numbered
paragraphs a short statement of the facts

12 Federal Rule of Civil Procedure 21 provides: “Misjoinder of
parties is not a ground for dismissing an action. On motion or on
its own, the court may at any time, on just terms, add or drop a
party. The court may also sever any claim against a party.” Fed.
R. Civ. P. 21.

App.53a
giving rise to his claims for relief. Thereafter,
in separately captioned sections, Sloan must
clearly identify each federal or state law
allegedly violated. Under each section, Sloan
must list each defendant purportedly liable
under that legal theory and explain why he
believes each defendant is liable to him. Such
explanation should reference the specific
numbered factual paragraphs in the body of
the particularized amended complaint that
support that assertion.
3.

Sloan shall also include the relief he requests
—what in the law is called a “prayer for relief.”

4.

The particularized amended complaint must
stand or fall on its own accord. Sloan may not
reference statements in the prior complaint.

5.

The particularized amended complaint must
omit any unnecessary incorporation of factual
allegations for particular claims and any
claim against any defendant that is not wellgrounded in the law and fact. See Sewraz v.
Guice, No. 3:8cv35, 2008 WL 3926443, at *2
(E.D. Va. Aug. 26, 2008).

Sloan SHALL comply with the Federal Rules of
Civil Procedure and the Local Rules for the Eastern
District of Virginia. Sloan is ADVISED the failure to
strictly comply with the Court’s directives and with
applicable rules WILL result in DISMISSAL OF THIS
ACTION WITHOUT PREJUDICE.
Let the Clerk send a copy of this Memorandum
Order to all counsel of record and to Sloan at his
address of record.

App.54a
It is so ORDERED.
/s/ M. Hannah Lauck
United States District Judge
Date: 12/21/2018
Richmond, Virginia

App.55a
ORDER OF THE UNITED STATES
COURT OF APPEALS FOR THE FOURTH
CIRCUIT DENYING PETITION FOR REHEARING
(JANUARY 8, 2021)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
SAMUEL H. SLOAN,
Plain tiff-Appellan t,
v.
MARIA CHILDRESS; SHAYAM RAMAN; SUSAN
SWECKER; CHRIS BOLLING; MARK HERRING;
RALPH NORTHAM; LAWRENCE JANOW;
J. MICHAEL GAMBLE; WILLIAM G. PETTY;
FRANK G. DAVIDSON, III; NORMAN K. MOON;
CHARLES EDWARD ROBERTS; DARRELL
ROBERTS; JEFFERSON BEAUREGARD
SESSIONS III; UNITED STATES
DEPARTMENT OF JUSTICE,
Defen dan ts-Appellees.
No. 20-1566
(3:18-cv-00260-MHL)
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en banc.

App.56a

Entered at the direction of the panel: Judge Wynn,
Judge Floyd, and Judge Thacker.

For the Court

/s/ Patricia S. Connor
Clerk

Supreme Court
PRESS

No.

3fn tlje
Supreme Court of tlje fHntteb States?
SAMUEL H. SLOAN,
Petitioner,
v.
MARIA CHILDRESS, SHAYAM RAMAN, SUSAN SWECKER,
CHRIS BOLLING, MARK HERRING, RALPH NORTHAM,
LAWRENCE JANOW, J. MICHAEL GAMBLE, WILLIAM G.
PETTY, FRANK G. DAVIDSON III, NORMAN K. MOON,
CHARLES EDWARD ROBERTS, DARRELL JAY ROBERTS,
WILLIAM P. BARR, UNITED STATES DEPARTMENT
OF JUSTICE, UNITED STATES OF AMERICA,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for Fourth Circuit
APPENDIX - Additional Volume I
App.57a to App.642a
Samuel H. Sloan
Petitioner Pro Se
1664 Davidson Avenue,
Apartment IB
Bronx, NY 10453
(917) 659-3397
June 7,2021

APPENDIX TABLE OF CONTENTS
Opinions and Orders
Opinion of the United States Court of Appeals for
the Fourth Circuit (October 26, 2020).............. la
Memorandum Opinion of the United States
District Court for the Eastern District of
Virginia Denying Motion for Reconsideration
(May 14, 2020)......................................................

3a

Final Order of the District Court Accompanying
Memorandum Opinion (May 14, 2020)............ 22a
Memorandum Opinion of the District Court for
the Eastern District of Virginia Granting
Motion to Dismiss and Dismiss Sloan’s
Amended Complaint (September 6, 2019)....... 24a
Final Order of the District Court Accompanying
Memorandum Opinion (September 6, 2019)... 44a
Memorandum Order of the United States District
Court for the Eastern District of Virginia
(December 12, 2018)............................................. 46a
Rehearing Order
Order of the United States Court of Appeals for
the Fourth Circuit Denying Petition for
Rehearing (January 8, 2021)............................. 55a

APPENDIX TABLE OF CONTENTS (Cont.)
Other Documents
Verified Complaint
(April 23, 2018)

57a

Brief in Support of Motion to Dismiss
(May 17, 2018).................................

141a

Reply to the Lawsuit
(May 19, 2018)...

148a

Affidavit of Shamema H. Sloan

159a

Testimony of Shamema H. Sloan

161a

Amended Complaint
(January 18, 2019)

166a

Brief in Support of Renewed Motion to Dismiss
Amended Complaint (January 25, 2019)
191a

APPENDIX TABLE OF CONTENTS (Cont.)
Exhibits to Complaint
Exhibit A—Awadallah Writ of Habeas Corpus
(December 9, 1981).........................................

196a

Exhibit B—Answer filed in Bronx Supreme Court
by Appointed Counsel Philip Newman
(December 22, 1981)
206a
Exhibit C—Decision of the Bronx Supreme Court
Giving Legal Custody to Mother
(June 7, 1982)
251a
Exhibit D—Letter Denying Passport March, 1982
(March 16, 1982)
256a
Exhibit E—Bronx Supreme Court Order
Awarding Full Custody (October 27, 1994)... 258a
Exhibit F—Appointment of Sloan as
Administrator (June 19, 2017)....

261a

Exhibit G—Judge Gamble Waiver of
Disqualification (August 7, 1991)

267a

Exhibit H—Alma Dawson Set Aside of Will
(March 25, 1986)........................................

270a

Exhibit I—Gary Feulner Letter to Judge Miller
(February 28, 1987).......................................... 273a
Exhibit M—Charles Roberts Petition for a Writ of
Mandamus (August 30, 1990)
281a

APPENDIX TABLE OF CONTENTS (Cont.)
Exhibit N—Chief Judge Mosby Perrow III
Disqualified All of the Judges of the 24th
Judicial Circuit (June 18, 1991)
291a
Exhibit O—Bill of Complaint to Annul Marriage
of Alma Coates Dawson (Sloan)
(May 23, 1986)
304a
Exhibit P—Sloan’s Complaint Against Phone
Conversation Between Judge Glen and Judge
Janow (September 4, 1986)
389a
Exhibit Q—Sloan’s Complaint About Misconduct
of Judge Gamble and Janow
(February 3, 1991)
410a
Exhibit V—Mandamus Petition to Remove Judge
(April 25, 2018)
426a
Exhibit W—Appeal of Criminal Conviction to
Court of Appeals of Virginia Rehearing and
rehearing En Banc Granted (April 25, 2018) 495a
Exhibit X, Y—Transcript of Proceedings Volume
II Relevant Excerpts (April 25, 2018)
744a
Exhibit Z—Transcript of Proceedings Relevant
Excerpts (August 24, 1995)
882a

(

App.57a
VERIFIED COMPLAINT
(APRIL 23, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
SAMUEL H. SLOAN,
Plaintiff,
v.
MARIA CHILDRESS, SHAYAM RAMAN, SUSAN
SWECKER, CHRIS BOLLING, MARK HERRING,
RALPH NORTHAM, LAWRENCE JANOW,
J. MICHAEL GAMBLE, WILLIAM G. PETTY,
FRANK G. DAVIDSON III, NORMAN K. MOON,
CHARLES EDWARD ROBERTS, DARRELL JAY
ROBERTS, JEFFERSON BEAUREGARD
SESSIONS III, UNITED STATES
DEPARTMENT OF JUSTICE,
*\

Defendants.
No. 3:18cv260
JURISDICTION
1. Jurisdiction of this case is based on the First,
Fifth and Fourteenth Amendments to the Constitution
of the United States including Freedom of Religion,
the Civil Rights Acts including 42 USC 1983, the

App.58a

Voting Rights Acts, the RICO Corrupt Practice Acts,
and the right to Petition the Government.
NATURE OF THE CASE
2. Plaintiff is a long time resident of the Common­
wealth of Virginia. Plaintiff is a candidate for Election
as a Democrat to the United States Congress from the
6th Congressional District. That District includes
Roanoke, Lynchburg, Harrisonburg, Staunton, Lexington
and places in between.
3. Petitioners campaigning for Sloan collected
1226 signatures nominating him to run for United
States Congress. This was more than enough as only
one thousand signatures are required. These petitions
were submitted before 4:00 PM on Thursday March
29, 2018 at 915 Main Street, Room 304, in Lynchburg
to Maria Childress who is the Chairwoman of the
Democratic Party for the 6th Congressional District.
4. Plaintiff paid the filing fee of $3480.00 to the
Virginia Department of Elections at 1100 Bank Street
in Richmond and complied in every way with, the
requirements to run for election as a Democrat.
5. Nevertheless, Defendant Maria Childress, who
is the Chairwoman of the Democratic Party for the 6th
Congressional District, threw him off the primary
ballot several days later without giving any reason
therefore and without even returning his many phone
calls.
6. Samuel Sloan is actively a member of the
Democratic Party. He actively campaigned for Hillary
Clinton for President and produced and handed out
fliers for her. He twice shook Hillary Clinton’s hand,
once in New Hampshire and once in Iowa, during the

App.59a

election campaign. He has run for US Congress twice
in New York as a Democrat. In 2014 he ran in the 15th
Congressional District of New York. In 2016 he ran in
the 13th Congressional District of New York. The
Virginia Democratic Party has no valid reason to
reject Sam Sloan as a candidate and he offers the best
chance for the Democrats to win this Republican Held
seat because he is by far the most qualified candidate
and the other Democrats running do not even reside
in the district.
7. Plaintiff seeks to declare Unconstitutional the
Virginia Felony Disenfranchisement Law. In Virginia,
79% of the inmate population is Black whereas only
19.7% of the general population is Black. In Virginia,
Blacks are routinely sent to prison for minor offenses
such as traffic violations for which White men are
never imprisoned. In Virginia, 208,343 Black men
cannot vote because of the felony disenfranchisement
law, enough to change the results of this and many
other elections. The same law has already been
declared unconstitutional by the US Supreme Court
decision in Hunter v. Underwood, 471 U.S. 222 (1985),
an Alabama case.
8. When announcing he was running for Congress,
Plaintiff Sam Sloan informed Maria Childress that he
was “Persona Non-Grata” among the powers that be in
Lynchburg, but she apparently thought he was joking.
THE PARTIES
9. Plaintiff Samuel H. Sloan resides at 18 West
Princeton Circle, Apartment 38, Lynchburg VA 24503.
Until recently, Plaintiff resided at 1018 Orchard Street,
Forest Acres VA 24551. Plaintiff is a book publisher
who has published more than 850 books. Plaintiff is

App.60a

the author of “The Slave Children of Thomas Jefferson”
and several other books. Plaintiff is the sole owner of
Ishi Press, a publishing company. Plaintiff argued
orally before the United States Supreme Court and
won against the Securities Exchange Commission in
SEC vs Samuel H. Sloan, 436 U.S. 103 (1978). The
Wikipedia Profile of Samuel H. Sloan is available
online at https://en.wikipedia.org/wiki/Sam_Sloan
10. Defendant Maria Childress is Chairwoman
of the Democratic Party for the 6th Congressional Dis­
trict. She uses the office of the Lynchburg Democratic
Party located at 915 Main Street, Room 304, Lynchburg
VA 24502. Her email address is mchildressdem@
gmail.com
11. Shayam Raman is the Political Director of
the Democratic Party of Virginia. His maihng address
is not published. His email address is shyam@vademocrats.org. He was cced on all the emails Maria
Childress sent to Plaintiff.12. Susan Swecker is the Chairwoman of the
Democratic Party of Virginia. Her mailing address is
not published. His email address is swecker@vademocrats.org.
13. Ralph Northam is the Governor of Virginia.
He is a Democrat.
14. Chris Bolling is the Executive Director to the
Democratic Party of Virginia. Her mailing address is
not published. His email address is chris@vademocrats.org.
15. Mark Herring is the Attorney General for
Virginia. He enforces the obviously unconstitutional

App.61a

law that prohibits 200,000 Black men from voting who
have been convicted of felonies.
16. Lawrence Janow is a former Juvenile and
Domestic Relations judge of Amherst County Virginia.
He is the prime perpetrator of a scheme to kidnap the
children of Plaintiff, all of whom were born in New York
and California and none of whom were born in Virgin­
ia, and to bring them to Amherst County where they
would be “awarded” to Amherst residents. Among the
children illegally awarded by Judge Janow were Sarah
Wilson, Rebecca Wray and Kerry Durney. Lawrence
Janow resides at 519 Kenmore Rd, Falconerville, VA
24521.
17. J. Michael Gamble is a former circuit judge
in the 24th Judicial Circuit. He is also a former law
partner in the firm of Janow & Gamble and then a
partner in the firm of Pendleton and Gamble. As a
partner in Pendleton and Gamble, he filed several
court cases against Plaintiff claiming to represent Alma
Dawson in a deathbed marriage to Leroy B. Sloan,
father of Plaintiff. Then after becoming a judge, Gamble
assigned all the Sloan cases to himself in spite of the
obvious conflict of interest and in spite of being dis­
qualified from hearing any of these cases by order of
Chief Judge Mosby Perrow III.
18. Judge Gamble retired on February 15, 2015.
As long as Gamble remained a judge is was impossible
or ineffective for Plaintiff to bring a suit to recover his
daughter and property because Judge Gamble assigned
all Sloan cases to himself and refused to recuse him­
self in spite of being obviously disqualified by conflict
of interest. J. Michael Gamble resides on 297 Ridge
Drive, Amherst VA 24521.

App.62a

19. Judge Gamble disqualified or removed three
different attorneys from representing Sloan, Steve
Martin, James Hengeley and James H. Massie, and
then appointed David Bice who was known for not
offering any defense for those whom he supposedly
represented.
20. Norman K. Moon is a former Virginia State
Court of Appeals and then a federal judge who joined
the conspiracy to kidnap the children of plaintiff by
dismissing all the appeals to the Virginia Court of
Appeals before they could even be heard and then
threw out the federal cases plaintiff attempted to file.
Judge Moon resides at 304 Trents Ferry Road where
Plaintiff grew up in Lynchburg near the Sloan Family
residence that was taken away by Judge Gamble.
21. Lawrence Janow, J. Michael Gamble, William
G. Petty, Frank G. Davidson III and Norman K. Moon
all want to stop Plaintiff from being elected to US Con­
gress, because they know that if elected Sloan will be
able to bring about an investigation of them and they will
all be convicted and sent to prison for kidnapping
Shamema Honzagool Sloan, Plaintiffs daughter.
22. William G. Petty, Frank G. Davidson III and
Norman K. Moon all live in the immediate area of each
other in the Boonsboro district of Lynchburg and all
live within walking distance of 917 Old Trent’s Ferry
Road, the former Sloan Family residence, and send
their children to Paul Munro Elementary School, the
same school Plaintiff wanted his daughter to attend.
William G. Petty resides at 109 Whitley Way, Lynchburg
VA 24503.
23. Frank G. Davidson III is the mastermind of
the scheme to kidnap the children of Plaintiff so as to

App.63a

covert them to the Jerry Falwell version of the Christian
religion. He also appeared claiming to be the “guar­
dian ad Litem” of Dr. Marjorie Sloan even though she
had sued him and he had sued her. His office address
is 916 Main St, 3rd FI, Lynchburg, VA 24504. He
resides at 226 Salisbury Circle, Lynchburg VA 24502.
24. Jefferson Beauregard Sessions III is the
Attorney General of the United States. The address is
950 Pennsylvania Avenue NW, Washington DC 20530
25. Charles Edward Roberts describes himself
as a religious fanatic. He has been determined to
kidnap all the children of Plaintiff Samuel H. Sloan
“to teach them about Jesus”. He repeatedly states
every few minutes, “Fve been saved and I’m going to
heaven.” He wears military style dress even though he
was rejected by the military and never served. He
resides at 427 Amelon Road, Madison Heights VA 24572.
26. Darrell Jay Roberts is the son of Charles
Roberts. He is gay. He helped his father kidnap the
daughters of Plaintiff by providing the airplane tickets
to bring them from Abu Dhabi, United Arab Emirates
to Virginia, USA. He lives at 141 Odins Bow Drive in
Madison Heights, Virginia 24572.
27. After Plaintiff s daughter was kidnapped from
him at age 8, Sloan and his daughter were not allowed
to see each other for ten years until she turned 18. The
Roberts Family were obviously guilty of kidnapping
the child but they were protected from criminal
investigation by William G. Petty, J. Michael Gamble,
Lawrence Janow and Frank G. Davidson III.
28. Because of being kidnapped and held by the
Roberts, Shamema never went to school and does not
have a high school diploma from any accredited school.

App.64a

Instead she was educated in the Roberts’s church.
Charles Roberts often carried a weapon and often stated
that he would shoot and kill Sam Sloan if he tried to
approach his daughter.
29. Charles Roberts was opposed to Shamema
going to college and insisted that she join the US
Marines. Had Shamema been raised by her parents
she would probably now be a medical doctor as her
grandmother was or a lawyer as her grandfather was
or a published author like her father is. Instead she
now works as an electrician.
NATURE OF THE CASE
30. Lawrence Janow, J. Michael Gamble, William
G. Petty, Frank G. Davidson III, Norman K. Moon
along with Charles Edward Roberts and Darrell Jay
Roberts are members of a RICO criminal gang con­
spiring to kidnap the children of Plaintiff and have
been operating under the mistaken belief that the
Sloan Family is possessed of great wealth arising from
the fact that Alfred P. Sloan Jr. was the richest man
in the world being the control stockholder of General
Motors Corp, then the largest industrial corporation
of the world.
31. Leroy B. Sloan, the father of Samuel H. Sloan,
was in the Audit Division of the Internal Revenue
Service and was a Special Agent for the Treasury
Department. He was also an attorney and a member
of the Virginia State Bar.
32. Plaintiff Samuel H. Sloan was born in
Richmond Virginia on September 7, 1944. His father
was an attorney and Special Agent of the United
States Treasury Department. His mother was a medical

App.65a

doctor and child psychiatrist and then Acting Director
of the Memorial Child Center in Richmond.
33. In 1955, the Sloan family moved to Bedford
County in an area that was later annexed into Lynch­
burg, where Samuel H. Sloan attended Boonsboro School
and E. C. Glass High School and where he graduated
in 1962.
34. Prior to his death on January 19, 1986 (the
same date as the Space Shuttle Challenger disaster)
Leroy B. Sloan often bragged to his drinking buddies
and to his lady friends about his relationship to General
Motors. He said that his father Howard Creighton
Sloan (1873-1940) had set up a Sloan Family Trust
consisting of General Motors Stock worth $50 million
and this $50 million would be distributed to his heirs
upon his death but not until then.
35. There was no truth to this. There is no Sloan
Family Trust and there is no $50 million in General
Motors stock. All of this was the product of his imagi­
nation.
36. On New Years Eve 1985, one of his former
lady friends Alma Coates Dawson went to the emergency
room of the Lynchburg General Hospital where Leroy
B. Sloan was attached to life support equipment. Alma
Coates Dawson was the long time client of the Law
Firm of Pendleton and Gamble, the law firm of J.
Michael Gamble, and they had represented her in her
many court cases against her former husbands.
37. Plaintiff seeks to recover the Sloan Family
Home located at 917 Old Trents Ferry Road in Lynch­
burg Virginia that was stolen by Michael Gamble acting
as a judge. Lawyer Michael Gamble as law partner in
Pendleton & Gamble, filed several suits against the

App.66a

Sloan family in representing Alma Coates Dawson who
claimed to be a heir to Leroy B. Sloan.
38. Then, after being appointed as a judge Michael
Gamble took over the jurisdiction of the same cases
that he had filed. Sloan protested vehemently at this.
39. Chief Judge Mosby Perrow III issued an
order disqualifying all judges of the 24th Judicial
Circuit from hearing any of the Sloan cases precisely
because Michael Gamble as a private lawyer was suing
Sloan.
40. In spite of being disqualified as a judge,
Michael Gamble heard ALL the Sloan cases anyway
and naturally ruled in favor of himself and his clients
in all of the cases.
41. All of these decisions were illegal under con­
flict of interest and all these cases should be reversed,
including the decision and order taking away the
Sloan Family Residence should be reversed and the
home should be to the Sloan Family.
NATURE OF THE CASE
42. Petitioner-Appellant, a long time resident of
Bedford County Virginia, having been born in Richmond
and having attended both elementary school and high
school at Boonsboro School in Bedford County Virginia,
filed a voter registration application with the voter
registration office in the City of Bedford. This voter
registration was denied, but a notice was sent to
petitioner informing him of his right to appeal to the
circuit court.
43. Accordingly, petitioner filed with the Bedford
Circuit Court in the 24th Judicial Circuit of Virginia.

App.67a

Sloan said that what he was charged with doing was
taking his daughter on a walk in the back yard of his
home in Lynchburg and that child never left the Sloan
premises.
44. Bill Petty’s theory that Sloan had committed
a felony based on letters that had actually been
written by Richard Bozulich in Japan and not by
Sloan was that Sloan intended to take his daughter
out of state and thus his intention to do so was a felony.
Petty contended that Bozulich was the same person as
Sloan and that Bozulich was Sloan’s alter ego.
45. This claim was utterly false. Richard Bozulich
is a well known person in Japan and is by no means
the same person as Samuel H. Sloan. The conviction
of Sam Sloan by Petty rests on this false claim.
46. In order to get custody of his children, to get
the Sloan Family residence and to get the supposed
$50 million, plaintiffs Davidson, Janow, Gamble and
Petty brought obviously bogus cases against Sloan
including failure to appear for a trial that had never
been scheduled or taken place and attempted abduction
of his own daughter whereas Sloan had legal custody
of his daughter.
47. These bizarre legal theories have never been
adopted by any court in Virginia or anywhere else for
that matter. Secondly, Sloan was charged with failure
to appear for trial even though no trial had been
scheduled nor had taken place. Lynchburg Common­
wealth Attorney Bill Petty had himself postponed the
trial date because he was not ready for trial.
48. Having been informed that the trial had been
continued, Sloan had naturally not come to court.
Again this was a bizarre legal theory that a person

App.68a

count be convicted of failure to appear for a trial that
had never occurred has not been accepted in any other
case.
49. The reason these nonsense charges were
brought was the Roberts Family were trying to get
legal custody of Samuel Sloan’s daughter, Shamema
Honzagool Sloan. Bill Petty who is now a judge of the
Virginia Court of Appeals was in league with the
Roberts and Petty brought these obviously false charges
so as to enable the Roberts to get custody of Shamema.
50. Judge Updike, the judge in Bedford County,
did not know about this case because this has all taken
place years before he became a judge. However, Sloan
contended that Judge Updike must look behind the
case and see what Sloan was actually charged with
doing.
51. Attempted abduction of his own daughter
was not a felony or indeed a crime at all because Sloan
had legal custody of his daughter in New York where
his daughter had been born. The New York custody
case had never been transferred to Virginia, in
accordance with the Uniform Child Custody Act.
Sloan contended that court should not just look at the
order but look behind the order to see what was
alleged.
52. Petitioner-Appellant contends that not only
was he not convicted of a felony because the acts
alleged were not a felony and also the felony dis­
enfranchisement law is unconstitutional. The case on
point is the US Supreme Court decision in Hunter v.
Underwood, 471 U.S. 222 (1985), an Alabama case.
53. The facts are the same as here. The courts
found that the Alabama law which restricted the

App.69a

voting rights of those who had committed a crime of
moral turpitude was a violation of the 14th Amendment
because the purpose of the law was to stop Blacks
from voting.
54. The situation in Virginia is the same as
Alabama. Just as the law in Alabama, the felony dis­
enfranchisement law in Virginia dates back to the
reconstruction era where the purpose of the law was
to stop Blacks from voting. In Virginia, 79% of the
inmate population is Black whereas only 19.7% of the
general population is Black. In Virginia, Blacks are
routinely sent to prison for minor offenses such as
traffic violations for which White men are never
imprisoned. In Virginia, 208,343 Black men cannot
vote because of the felony disenfranchisement law,
enough to change the results of many elections.
55. In the case of Hunter v. Underwood, Under­
wood was a White man whereas his co-plaintiff, Ed­
wards, was Black. However, that did not matter to the
court, because the court found that the purpose and
effect of the law was to stop Blacks from voting.
Virginia is one of only four states that still has a felony
disenfranchisement law. The others are Kentucky,
Iowa and Florida.
56. Since 1997, 19 states have amended felony
disenfranchisement policies in an effort to reduce
their restrictiveness and expand voter eligibility.
These include: Nine states either repealed or amended
lifetime disenfranchisement laws, Two states expanded
voting rights to persons under community supervision
(probation and parole). Five states eased the restoration
process for persons seeking to have their right to vote
restored after completing sentence.

App.70a

57. Three states improved data and information
sharing: The Statistics for Virginia are: Total Dis­
enfranchisement (2004): 377,847 Rate: 6.76% African
American Disenfranchisement: 208,343 Rate: 19.76%
At present, 7.7% of the adult African-American popula­
tion, or one out of every thirteen, is disenfranchised.
58. This rate is four times greater than the nonAfrican-American population rate of 1.8%. 6) Id. at 1-2.
In three states, at least one out of every five AfricanAmerican adults is disenfranchised: Florida (23%),
Kentucky (22%), and Virginia (20%). 7) Id. at 1-2.
Nationwide, 2.2 million African-Americans are dis­
enfranchised on the basis of involvement with the
criminal justice system, more than 40% of whom have
completed the terms of their sentences. 8) Id. at 17.
Source “Expanding the Vote State Felony Disenfran­
chisement Reform, 1997-2008” http ://www.sentencing
project.org/doc/pubhcations/fd_statedisenfranchisement.
pdf Richardson v. Ramirez, 418 U.S. 24 (1974), held
that convicted felons could be barred from voting with­
out violating the Fourteenth Amendment. However,
this was limited by Hunter v. Underwood, 471 U.S. 222
(1985).
59. In that case the crimes included “treason,
murder, arson, embezzlement, malfeasance in office,
larceny, receiving stolen property, obtaining property
or money under false pretenses, perjury, subornation
of perjury, robbery, assault with intent to rob, burglary,
forgery, bribery, assault and battery on the wife, bigamy,
living in adultery, sodomy, incest, rape, miscegena­
tion, [and] crime against nature.” Underwood had
been convicted of “presenting a worthless check” which
is not on the above list of crimes.

App.71a

60. In the case presented here, what Sloan was
“convicted” of was not a crime at all. He was convicted
of the “attempted abduction” of his own daughter.
This was not a crime at all because Sloan had legal
custody of his own daughter by virtue of the order of
the Bronx New York Supreme Court where the child
had been born.
61. The entire case file in the Bronx Supreme
Court is available online at
www.bronxcountyclerkinfo.com/law
Case No. 17815 Year 1981
Sloan vs. Awadallah
The case file comprises nearly one thousand pages
of papers, pleadings and transcripts.
62. By contrast, in Virginia no petition for custody
was filed by the Roberts or by their attorney Frank G.
Davidson III, there was no service of process, there
were no papers or pleadings, there were no hearings
or transcripts and in short none of the things one
would expect to find in a contested child custody case
were there.
63. The actual kidnappers of Sloan’s daughter
were Lawrence Janow, J. Michael Gamble, William G.
Petty, Frank G. Davidson III plus the Roberts Family,
Charles Roberts and his son Jay Roberts.
64. After spending four years from 1986 until
1990 trying to kidnap Sloan’s daughter and then
having her brought from overseas to Virginia so they
could claim custody of her, they finally succeeded in
having Sloan’s daughter kidnapped from the front
yard of Sloan’s house in Fujairah United Arab Emirates
while Sloan was sleeping.

App.72a
65. This carefully planned kidnapping took place
on the same day that the Ruler of Dubai, Shaikh
Rasheed, had died and a curfew and obligatory period
of mourning had been placed on the United Arab
Emirates, so Sloan did not realize that his daughter
had been taken to the airport until it was too late.
Otherwise, the kidnapping would not have succeeded.
66. Janow, Gamble, Petty, Davidson and the
Roberts Family were determined to kidnap this child
for two reasons. First, the father of Samuel Sloan,
Leroy B. Sloan, had often claimed that he was a relative
of Alfred P. Sloan, Jr., the controlling stockholder of
General Motors Corporation and the richest man in
the world, and that Leroy Sloan’s father had set up a
Sloan Family Trust with $50 million dollars worth of
General Motors stock in the trust that would become
available to his heirs but only after Leroy Sloan’s
death.
67. Secondly, the Roberts were a family of religious
fanatics and followers of Jerry Falwell and they
wanted to get Sloan’s daughter, Shamema, by a
Pakistani woman named Honzagool, so they could
“teach her about Jesus”. They knew that Shamema
Sloan’s mother Honzagool was a devoutly religious
Muslim who wanted to raise her daughter as a Muslim.
68. The Roberts were determined to kidnap the
child so they could raise her as a Christian, rather
than as a Muslim as both her parents were. The
reason Lawrence Janow, J. Michael Gamble, William
G. Petty, and Frank G. Davidson III thought they
could get the $50 million dollars was the claim that
their client Alma Coates Dawson had married Leroy
B. Sloan on his death bed. This death bed marriage
had taken in the emergency room of the Lynchburg

App.73a

General Hospital while Leroy Sloan was suffering
from a brain seizure and was attached to life support
equipment.
69. A marriage under these circumstances was
obviously invalid. Leroy Sloan died shortly thereafter.
Alma Coates Dawson was a long time client of
Pendleton and Gamble, the law firm of Michael
Gamble, who had previously been a partner in the
Law Firm of Janow & Gamble. Pendleton and Gamble
had appeared for and represented Alma Coates Dawson
in several other cases mostly involving the many
marriages of Alma Dawson, who had been married at
least four times.
70. After the death of Leroy B. Sloan, his eldest
son, the plaintiff here, was appointed by the Lynchburg
Circuit Court as Administrator C.T.A of the Estate of
Leroy B. Sloan, a position he holds to this day.
71. Only three days after the death of Leroy B.
Sloan in 1986, Michael Garrett, a junior partner in the
law firm of Pendleton and Gamble (and who is now a
family court judge) called Samuel Sloan and asked
him about his grandfather, Howard Creighton Sloan,
the man who supposedly had set up the $50 million
trust.
72. Sam Sloan informed Michael Garrett that
there was no such thing as the Sloan Family Trust
and that the story about $50 million was just a
fantastic story made up by Leroy B. Sloan to impress
his many girlfriends, including Alma.
73. Undaunted, the Law Firm of Pendleton &
Gamble proceeded to serve subpoenas on all the banks
in Lynchburg demanding access to the safe deposit
boxes of Leroy B. Sloan. They thought the boxes would

App.74a

contain information about the Sloan Family Trust and
the $50 million in General Motors stock.
74. When they did not get access, they no doubt
believed that the boxes had been cleared out and
closed before they could not get to them. They probably
never guessed the truth, which was that Leroy B.
Sloan did not have a safe deposit box at all. Helen
Marjorie Sloan had a box at First Federal Savings and
Loan on Main Street in Lynchburg and she had loaned
the key to the box to Leroy B. Sloan, who had referred
to it as his box.
75. After the death of Leroy B. Sloan, Samuel
Sloan never went into the box, although his brother
Creighton Sloan went into the box. The safe deposit
vault has since been taken over by the Bank of the
James. What happened to the box and its contents we
do not know and are now trying to find out. We are
fairly certain that it did not contain $50 million in
General Motors stock.
76. The death of Leroy Sloan occurred under
suspicious circumstances. Leroy Sloan was in Lynchburg
but was talking on the telephone to his son Sam Sloan
who was in New York. In the middle of this conversa­
tion, Leroy Sloan had dropped dead on the telephone
because he had died.
77. Sam Sloan wanted an autopsy performed
because he suspected that Alma Dawson might have
killed him. With Steve Martin as his lawyer, Sam
Sloan petitioned the Lynchburg Circuit Court for an
autopsy. This petition was opposed by Alma Dawson who
was represented by Pendleton and Gamble, Michael
Gamble’s law firm.

App.75a

78. The petition for an autopsy was granted. The
autopsy took place and found that Leroy Sloan had
died of natural causes. Still believing in the story about
the $50 million, Lawrence Janow, Michael Gamble
and Frank Davidson wanted to kidnap Shamema, the
granddaughter of Leroy B. Sloan, and through her to
get the $50 million.
79. Samuel Sloan confounded their plan by
thereafter having five more children, and the Roberts
proceeded to try to kidnap those children too, eventually
succeeding in getting custody of another of Sloan’s
daughters, Jessica.
80. All this time, the Pendleton and Gamble Law
Firm and the Sloan family were filing suits against
each other. There were ten cases mostly filed by
Pendleton & Gamble against Sam Sloan. These cases
were all filed in Lynchburg. These cases can all be
found in the files of the Lynchburg Circuit Court,
many under the name of Sloan v. Sloan. These cases
take up an entire shelf in the Lynchburg Courthouse.
This is the biggest file in terms of size and number of
documents filed in the entire 300-year history of the
Lynchburg Circuit Court.
81. The Amherst County Family Court is “a court
not of record”. Judge Janow apparently decided that
this meant that records were not to be kept. There is
now no case file in the Amherst J&D Court. If there
ever were any documents, they are now gone. It has
often been stated that Charles and Shelby Roberts
had legal custody of Shamema and therefore they had
the right to have her kidnapped from the United Arab
Emirates. However, this was not true.

App.76a

82. It is not true that the Roberts ever had legal
custody of Shamema, prior to having her kidnapped
in 1990. Although their attorney, Frank G. Davidson
III, personally appeared physically before Judge Janow
on August 25, 1986, he had not filed a petition before
Judge Janow or anybody else for the custody of Sha­
mema.
83. The files of that court which are still supposed
to be sealed and preserved will show that Frank G.
Davidson never filed anything in writing in that or
any other court. Nevertheless, on September 4, 1986,
Judge Janow called on the telephone to Judge Kristin
Booth Glen of the New York State Supreme Court in
Manhattan while Judge Glen was conducting a hearing
in the Sloan case.
84. Judge Janow demanded to Judge Glen in
New York that Sloan’s daughter Shamema Sloan,
aged 4, be detained and extradited to Virginia. Judge
Glen informed Judge Janow that she had seen Shamema
the previous day in her courtroom when Sam Sloan
had brought his daughter to court with him, but on the
day in question Sloan had not brought his daughter to
court, so therefore Judge Glen could not detain her.
85. Based on the representation by Judge Janow,
Judge Glen called the New York City Police and had
Sam Sloan and his mother arrested in the courtroom.
They were taken to the police station on Elizabeth
Street where Sloan and his mother were put in jail.
However, two hours later, Sam Sloan was released from
jail because the police had called the Amherst County
Commonwealth Attorney Ed Meeks’s office and had
found there was no warrant for Sloan’s arrest.

App.77a

86. On the very same day, September 4, 1986,
Judge Janow said he had issued an order “awarding
custody of Shamema Sloan to the Amherst County
Department of Social Services”.
87. This order was legally invalid because Judge
Janow knew that Shamema Sloan was not in the
Commonwealth of Virginia and therefore Virginia had
no jurisdiction over her. Judge Janow also knew that
the Bronx New York Supreme Court had awarded
custody of Shamema and the case had not been trans­
ferred to Virginia. In addition, under Rader vs. Mont­
gomery County Department of Social Services, 5 Va.
App. 523, 365 S.E.2d 234 (1988), Judge Janow had no
jurisdiction to award custody to the Department of Social
Services unless the Department of Social Services had
filed a petition for custody which had not happened.
88. In the case presented here, PetitionerAppellant Samuel Sloan was a declared candidate for
Governor of the Commonwealth of Virginia (See the
Richmond Times Dispatch December 1992 “Convict is
Running for Governor”). Please note, at the time of the
Richmond Times Dispatch article, Sloan was not yet
convicted but he was in the Lynchburg Virginia City
Jail as bond had been denied by Judge Gamble.
89. Section 2 of the Fourteenth Amendment to the
Constitution of the United States the following: Section
2. Representatives shall be apportioned among the
several States according to their respective numbers,
counting the whole number of persons in each State,
excluding Indians not taxed. But when the right to
vote at any election for the choice of electors for Pre­
sident and Vice President of the United States,
Representatives in Congress, the Executive and Judicial
officers of a State, or the members of the Legislature

App.78a
thereof, is denied to any of the male inhabitants of
such State, being twenty-one years of age, and citizens
of the United States, or in any way abridged, except
for participation in rebellion, or other crime, the basis
of representation therein shall be reduced in the
proportion which the number of such male citizens
shall bear to the whole number of male citizens
twenty-one years of age in such State.
90. At the time this case was before the Lynchburg
Circuit Court, the Lynchburg Commonwealth Attorney,
Bill Petty offered through Sloan’s court appointed
counsel, that Sloan would be let out of jail with time
served provided that he agree to abandon his claim of
custody of his daughter Shamema Honzagool Sloan.
Sloan refused this offer as his daughter was dear to
him. Also, Sloan did not realize the extreme lengths
that Bill Petty would go to secure a criminal convic­
tion and a sentence of 15 years against Sloan such as
the claim made by Petty that Richard Bozulich of
Tokyo Japan was a non-existent person and the alterego of Samuel Sloan.
91. The conviction of Sam Sloan was based in
large part of letters written by Richard Bozulich and
mailed from Japan which Sloan had never seen and
did not even know about, much less write.
92. A simple Google search (although Google did
not exist yet in 1993) will show that Richard Bozulich
is a well known and widely published author and is
definitely is not the same person as Sam Sloan. In her
summation to the jury, Kimberley Slayton White,
assistant to Bill Petty, stated that Bozulich was the
same person as Sloan and if not Bozulich should have
come to court to prove he was not Sloan.

App.79a

93. The obvious answer should have been that
Bozulich would have been foolish to come from Japan
to court under these circumstances because then he
would be arrested for the same false charges they
were making against Sloan.
94. Coincidentally Bozulich had been planning
to come to Virginia with his girlfriend of McLean
Virginia at this time but had decided to cancel the
trip. After the trial but while this case was pending,
Sloan was able to make collect calls to Japan from his
jail cell and speak to Bozulich.
95. Since we now know that the jail officials
were listening in on and recording these calls, that
means that Bill Petty and his assistant Kimberly
Slayton White knew that Bozulich was a separate
person. In addition, they could easily have called
Bozulich themselves as his number was listed.
96. Nevertheless, they continued to claim that
Bozulich and Sloan were the same person during the
trial and during post trial proceedings and the appeal
knowing that their claims were false.
97. At the time of the arrest and trial of this
case, Sloan was a declared candidate for Governor of
Virginia. This was reported in the Richmond Times
Dispatch in December 1992 in an article entitled
“Convict Wants to Run for Governor.” This headline
was not accurate because Sloan had not yet been con­
victed of anything at that time. However, he was in
Lynchburg City Jail and bond had been denied by
Judge Gamble.
98. Now, Sloan wants to run for governor again,
this time so he can bring about the arrest, criminal
prosecution and conviction of the kidnappers of his

App.80a
daughter and mother, namely Frank G. Davidson III,
J. Michael Gamble, Lawrence Janow and William G.
Petty, plus Charles Roberts and Jay Roberts. It is
manifestly obvious that these six individuals are guilty
of conspiring to kidnap Shamema Honzagool Sloan
from her home, while her father, grandmother and
other members of the Sloan household were in their
home in United Arab Emirates in October 1990.
99. Among other things, the airplane tickets by
which Shamema was brought from the United Arab
Emirates to Virginia show that they were purchased
by Jay Roberts son of Charles Roberts at a travel
agency on Church Street in Lynchburg Virginia. These
Airplane tickets are attached hereto.
100. The Roberts and Petty have often led others
including the FBI to believe that the Roberts had legal
custody of Shamema. This was not true. There was no
court order awarding custody to the Roberts. Also, the
child was not even in the Commonwealth of Virginia
at the time. The child was in New York City where
Shamema had been born and where her father Samuel
Sloan had legal custody of her by virtue of the order of
Judge Anthony Mercorella of the Bronx Supreme
Court in Sloan v. Awadallah, Bronx Supreme Court,
17815/1981, an order which is still in effect.
101. Judge Lawrence Janow knew the child was
in New York because on September 4, 1986, Judge
Janow called New York Supreme Court Judge Kriston
Booth Glen on the telephone when Judge Glen was on
the bench to hear a child custody case involving
Sloan’s two older children, Peter and Mary Sloan, by
a different wife named Anda. Judge Janow called
Judge Glen asking Judge Glen to detain the child,
Shamema aged 4, and have her extradited to Virginia.

App.81a
Judge Glen told Judge Janow she could not do that
because the Sloans had not brought the child to court
that day although she had seen the child in court the
previous day, September 3.
102. Based on Judge Janow’s representation, Judge
Glen called the New York City Police and had Samuel
Sloan and his mother Dr. Marjorie Sloan arrested and
taken to the police station on Elizabeth Street, where
Sloan was jailed and his mother was given a chair to
sit on outside the jail cell of Sam Sloan. Judge Glen also
disqualified herself from hearing the child custody
case involving Peter and Mary Sloan because of these
events, so that case was never heard.
103. Judge Glen issued the following order: “I am
recusing myself from this hearing and motion & case
because it would be inappropriate to sit as a judge for
the support and visitation hearings involving Mr. Sloan
when I took some part in his arrest in this courtroom
on September 4, 1986.1 believe it would not be fair to
Mr. Sloan to have the same judge who witnessed his
arrest for custodial interference, also decide the pending
visitation issues. Accordingly this action is referred to
IAS Trial Support Office for reassignment to another
IAS Part.”
104. However, only two hours later, Sam Sloan
and his mother were released from custody because
the police had called the Amherst County Common­
wealth Attorney and found there was no warrant for
Sloan’s arrest. This was because the Amherst County
Commonwealth Attorney Ed Meeks had nolle processed
the complaint the Roberts had made against Sloan,
finding the Roberts had no case and no claim for the
custody of the child.

App.82a

105. For that reason, the Roberts thereafter went
to the Lynchburg Commonwealth Attorney Bill Petty
who was at odds with the Amherst County Common­
wealth Attorney. Ed Meeks always stated from then
on that the claims by the Roberts were without basis
and without jurisdiction and must be dismissed. That
is the reason this case was tried in Lynchburg and not
in Amherst, even though the case arose in the Amherst
County Family Court.
106. The first attorney to represent Sloan in this
case was Steve Martin. However, while Sloan was in
Abu Dhabi with his daughter for four years, Michael
Gamble of the law firm of Pendleton and Gamble
made a deal with Steve Martin that he would be
accepted as a partner in their law firm provided that
Martin remove himself as the attorney for Sloan.
107. Steve Martin agreed to this, since it seemed
moot as Sloan was in Abu Dhabi and was obviously
not going to return under the current circumstances.
However, after Sloan’s daughter was kidnapped in
October 1990 in the United Arab Emirates, there was
a hearing before Judge Janow where Ed Meeks
strenuously objected to the removal of Steve Martin
as Sloan’s attorney, but Judge Janow granted this
motion over the objection of Meeks.
108. Sloan was still in Abu Dhabi arranging for
international Interpol arrest warrants for the Roberts
Family. On November 13, 1990, Sloan subsequently
arrived in Amherst County Department of Social
Services to recover his daughter. Sloan found out that
there was no case pending against him. However,
Judge Janow found out that Sloan was on his way and
started a new case and issued an order for the arrest
of Sloan.

App.83a

109. This order was obviously invalid because it
was said to be based on the 1986 non-appearance of
Sloan, even though Sloan had never been ordered to
appear. This was a misdemeanor charge and the statute
of limitations for a misdemeanor is one year. Never­
theless, Sloan was arrested and the Roberts were
allowed to keep Shamema whom they had just kid­
napped.
110. Sloan’s next attorney was the Lynchburg
Public Defender, James Hengeley. However, Judge
Michael Gamble had previously as a private lawyer
and a partner of the law firm of Pendleton & Gamble
filed suit against both Sam Sloan and his mother Dr.
Helen Marjorie Sloan on the grounds that the client of
Pendleton & Gamble, one Alma Coats Dawson, had
married Leroy B. Sloan on his death bed in the
emergency room of the Lynchburg General Hospital
on New Year’s Eve December 31, 1985 and Leroy
Sloan had died shortly thereafter.
111. Because Judge Gamble had at least one
active lawsuit pending against Sloan, Hengeley found
himself in a conflict of interest. Actually, it should
have been Gamble who was removed for conflict of
interest.
112. When Gamble refused to leave the case,
Hengeley found himself in conflict because it was
against the interests of his other clients to be engaged
in a court case against Judge Gamble. So Hengeley
moved before Judge Gamble to be removed from the
case.
113. Sloan was brought to court from jail and
objected but the motion was granted by Judge Gamble.
Alma Coates Dawson had believed, along with many

App.84a

others, that Leroy B. Sloan and the Sloan Family was
possessed of great wealth and that there was a Sloan
Family Trust that had been set up by Leroy Sloan’s
father, Howard Creighton Sloan, and the money in the
trust would become available to the Sloan heirs upon
the death of Leroy Sloan but not before that.
114. Leroy Sloan was a heavy drinker and when
he was drunk he would talk about this Sloan Family
Trust and the $50 million dollars it supposedly con­
tained. What drove this fable was that Alfred P. Sloan,
Jr. was the Chairman and controlling stockholder of
General Motors Corporation, the largest industrial
corporation in the world and Alfred P. Sloan, Jr. was
the richest man in the world. Indeed, still today the
Alfred P. Sloan Foundation is one of the largest and
richest foundations in the world with assets exceeding
one billion dollars.
115. Among the beneficiaries of the Alfred P. Sloan
Foundation is the Sloan-Kettering Cancer Institute,
the largest and wealthiest cancer research hospital in
the world. Alfred P. Sloan died there in that hospital
of cancer in 1966.
116. Thus, if it were really true that the Sloan
Family of Lynchburg and Bedford County Virginia
were the heirs of the Alfred P. Sloan Foundation, then
the $50 million that the heirs to Leroy Sloan was
supposedly going to receive would be a piddling,
trivial amount, considering the billion dollars that
Alfred P. Sloan had.
117. However, it was not true. There is no known
proven or biological connection between Alfred P.
Sloan and Leroy B. Sloan. You can be sure we have
researched and we have found nothing. It is a fact that

App.85a
the ancestors of both Alfred P. Sloan and Leroy B.
Sloan came from the same area of Northern Ireland.
So, if one could go back far enough it is entirely
possible or even likely that a relationship could be
found. However, both Sloan families have run into the
same problem that almost eveiybody with Irish ancestry
has, which is that the Irish have not kept genealogical
records such as birth and death records or else if they
have been kept they have not allowed them to be seen
or copied by the Mormon Church, which has been
doing almost all of the genealogical research of this
kind.
118. In the case of Leroy B. Sloan, the situation is
even more severe. His paternal grandfather Creighton
Sloan (1842-1916) was “born at sea, Irish.” He arrived
in New York as a newborn baby on a ship. However,
there is no record of who his parents were. It is
possible that his mother had died on the ship while
giving birth to Creighton Sloan. Such events were not
uncommon in those times. The maternal great­
grandmother of Samuel Sloan was Christina Stina
Sophia Jonsdotter and she had also died on the ship
while crossing the Atlantic Ocean and was buried at
sea in 1869, so she never made it to America but her
three children did.
119. Alfred Pritchard Sloan Jr. was born on May
23, 1875 and died on February 17, 1966. He had
originally been the manager of a company that made
ball bearings that were used in cars. His company was
taken over by General Motors which was controlled by
Durant. Mr. Durant was a reckless spender on new
products that he just assumed would sell. In the
1920s, General Motors was virtually bankrupt. Then
it was discovered that Mr. Durant had pawned almost

App.86a
all of his General Motors shares, so he no longer con­
trolled it. So, the bankers took over General Motors
and put Alfred P. Sloan in charge. With Alfred P.
Sloan in charge, General Motors soon became the
leading car manufacturing company in the world, over­
taking and passing Ford Motor Company, which had
been the leading car manufacturing company until
that time.
120. Ford Motor Company had made only one car,
the Model T. Alfred P. Sloan introduced a different
concept. The Cadillac would be made for rich people to
drive whereas the Chevrolet would be made for poor
people to drive, with a different car for each class of
person. This plan was successful and soon General
Motors had taken over and passed Ford Motors.
121. All this is described in Alfred P. Sloan’s book,
“My Years With General Motors.” All of this means
nothing to this case because there is no proof nor
evidence at all that Alfred P. Sloan was related to Leroy
B. Sloan.
122. Leroy B. Sloan did often talk about the
General Motors stock that he owned and that he
would be leaving those shares to his heirs as their
inheritance. However, the amount that he owned was
not $50 million dollars worth. It was less than 200
shares, including mostly fractional shares. Leroy
Sloan had acquired those shares not by inheritance
but through a General Motors stock dividend reinvest­
ment plan where every time General Motors declared
a divided that money would be used to acquire more
General Motors fractional shares and sent to Leroy
Sloan in the mail where he would put them in the box.

App.87a

123. In addition, almost all of his shares plus his
war bonds were held jointly with Helen Marjorie
Sloan, so there is no way that Alma Coates Dawson
could have gotten the money.
124. Just before all of this happened, Alma Coates
Dawson had married a close friend of Leroy Sloan
named Dick Friend. Leroy Sloan and Dick Friend
were residing in adjoining rooms at the Elks National
Home in Bedford. Her married name was Alma Coates
Dawson, as she was divorced from her first husband,
Howard F Harris, and from her second husband, whose
name was Dawson. Her maiden name was Alma Irine
Coates. She had been born on 3 July 1919 in Massies
Mill, Nelson County, Virginia. She died in Lynchburg
on 23 May 2001.
125. Alma believed that Dick Friend was wealthy,
as he would often leave her large tips of as much as ten
dollars at the Red Lobster restaurant where Alma
worked as a waitress. One of the first thing Alma did
after being married to Dick Friend was she called the
local Cadillac dealer and bought a Cadillac on the
phone. The Cadillac dealer had the car delivered to
the residence were Alma and Dick Friend had started
living together.
126. When the Cadillac dealer came in the house
to ask for the check to pay for the car, Alma asked
Dick Friend for the check. Dick Friend told Alma that
he thought Alma was paying for the car because he
did not have any money!
127. Dick Friend and Alma had both thought that
they would be living off the alimony check she would
still be receiving from Mr. Dawson. When that check
also did not arrive, Alma went out to the law office of

App.88a

Pendleton and Gamble and asked that they arrange a
divorce.
128. Instead, Pendleton and Gamble obtained an
annulment of the marriage so that the alimony pay­
ments from Mr. Dawson would be restored. The
ground for the annulment was that Dick Friend was
impotent and could not get an erection! This was
legally questionable because Dick Friend was 80 years
old and no woman can reasonably marry an 80 year
old man on the expectation of having an active sex life.
129.Having obtained the annulment of the
marriage through the law office of Pendleton and
Gamble, Alma Dawson then went back to the Elk’s
National Home in Bedford were Dick Friend and Leroy
Sloan were living in nearby rooms. Leroy Sloan had
become completely senile by this time and Alma was
able to get him into her car. She took him down to Pre­
ston Sawyer’s law office on Court Street in Lynchburg
and she said that they wanted to get married.
130. While waiting in Preston Sawyer’s law office,
Leroy B. Sloan collapsed on the floor having a brain
seizure. Preston Sawyer called 911. An ambulance
arrived and took Leroy B. Sloan to the Emergency
Room of the Lynchburg General Hospital, where he
was attached to life support equipment.
131. Alma followed in her own car. There Alma
insisted on completing the marriage ceremony saying
that Leroy would die soon and they wanted to be
married before he died.
132. Leroy Sloan died shortly thereafter. All this
became the subject of a case filed in Lynchburg Circuit
Court, Sloan vs. Dawson. The law firm of Pendleton

App.89a

and Gamble with later Judge Michael Gamble repre­
senting Alma Dawson and Steve Martin repre­
senting the Sloan family was litigated in Lynchburg
Circuit Court, but the case never went to trail and no
judgment was ever rendered.
133. This was just one of several cases filed by
Michael Gamble against the Sloan family, all in the
Lynchburg Circuit Court.
134. When Michael Gamble later became a judge
he got all the Sloan cases assigned to himself which
was obviously illegal as he was the lawyer on the other
side.
135. In December 1992, Chief Judge Mosby Perrow
III issued an order disqualifying all of the judges of
the 24th Judicial District from hearing any of the
Sloan cases on the grounds of conflict of interest in
that the lawsuits between Michael Gamble who by
this time was also a judge against Sloan created an
impermissible conflict of interest. This means that
Judge Moon who was also a judge in the 24th Judicial
District should also have been deemed disqualified.
136. Judge Moon as a judge of the Virginia Court
of Appeals dismissed all of Sloan’s appeals almost as
soon as they were filed before even the record could be
transmitted and the time came to filing briefs. Then
when Appellant filed a federal case about the kidnapping
of his daughter, Judge Moon who by then was a federal
judge sua sponte dismissed that case too.
137. Plaintiff has several times filed or attempted
to file a federal case about this. Each time the federal
judge, either Judge Turk or Judge Moon has dismissed
the case within a few days before even service of
process could go out and the defendants notified. These

App.90a

federal judges were seeking to protect their local
Lynchburg judges from being prosecuted for kidnap­
ping.
138. The child that is the subject of this case,
Shamema Honzagool Sloan, was born at Columbia
Presbyterian Hospital in New York City on October
15, 1981. The father of the child is petitioner. The
mother is Honzagool, from Village Damik, Chitral Dis­
trict, KPK, Pakistan, who was married to the father of
the child.
139. This became a child custody case in the
Bronx New York Supreme Court although there was
no divorce proceeding between the parents. There
were extensive hearings in court before Judge Anthony
Mercorella and Judge Irwin Silbowitz over a period of
more than two months with testimony of many
witnesses.
140. When Pakistani militants found out about
this case, they took over the case. They fired the court
appointed attorney for the mother, Philip Newman,
and hired their own lawyer William J. Lake.
141. The Pakistanis contacted the media and got
articles published about this case on the front pages
of the New York Daily News and the New York Post
and on Channel 7 and Channel 11 TV News in New
York City, plus in some supermarket tabloids.
142. One reason for this was the mother of the
child was beautiful. More than one hundred newspaper
articles about this case were published in the newspapers
of Pakistan, some featuring her picture.

App.91a

143. The end result of two months of court
proceedings was the mother was awarded custody
with weekly visitation to the father.
144. News of these court proceedings reached her
family in Pakistan. The father arranged for Prince
Siraj U1 Mulk, a Prince of Chitral who was her relative
and also a commercial airlines pilot, to come to take
her to her family in Pakistan.
145. She went to Pakistan on August 27, 1982
and left the baby at the age of only 10-months with
the father, the plaintiff, and said she would return in
two weeks.
146. When she did not return, the father became
fearful because other Pakistanis in New York might
try to grab the child on the pretext of taking the child
to the mother in Pakistan.
147. Sloan took the child to North Carolina where
his younger brother Creighton Sloan resided. Then
Creighton Sloan with whom Sam Sloan has not been
on good terms since they were teenagers contacted a
Pakistani Social Worker in New York named Khalid
Shah and paid to have him fly down to North Carolina
to have him pick up the child and take the child to
Pakistan.
148. Realizing this, Sloan grabbed the baby away
from Khalid Shah and took the baby to Orange,
Virginia.
149. After that, he had to keep the child hidden so
that even his brother would not know where the child
was. Samuel Sloan hired several baby-sitters with the
understanding they were not to reveal to anybody not

App.92a

even to Samuel Sloan’s family including his brother or
to anybody from Pakistan where the child was.
150. In August 1985 Sloan was contacted by
Frank Davidson III a lawyer in Lynchburg Virginia
and said he wanted to meet with him to discuss the
child.
151. Sloan agreed to meet him in Frank Davidson’s
office. There at the meeting was Charles Roberts, the
husband of Shelby Roberts, one of the baby sitters
that Sloan was employing.
152. At the meeting, Frank Davidson revealed
that Charles Roberts was interested in getting custody
of the child. Sloan said that under no circumstances
was he agreeing to give any sort of custody to Charles
Roberts and furthermore it was not his to give as legal
custody was still with the natural mother Honzagool
by order of the New York Supreme Court.
153. Sloan did not really know Charles Roberts at
this time although he had met him briefly on occasions
where Shelby Roberts was working for Sam Sloan
typing court papers going back to 1975, but he knew
that Roberts had described himself as a religious
fanatic and that Roberts repeatedly says that he has
been saved and is going to Heaven.
154. Roberts had sent representatives of the
Temple Baptist Church, including Rev. Charles
Esterline and Rev. Earl Clarkson, to the Sloan Family
home in Lynchburg, pestering them to join the Temple
Baptist Church, the church of the Roberts, but the
Sloan Family had declined to join that church.
155. When Sloan said to Frank Davidson that
there was no way that Charles Roberts could ever get

App.93a

legal custody of Shamema, Frank Davidson replied
that he could get custody by filing a motion to intervene
in any proceeding in Virginia to obtain custody of the
child.
156. When Sloan went home after this meeting
and told his mother about it, his mother said that the
relationship with Shelby Roberts as a baby sitter
should be terminated immediately.
157. Just as they were about to leave to pick up
the child from the baby sitter, Shelby Roberts called
and said that her husband Charles had no right to
speak about the child and she had not even known
about the meeting in Frank Davidson’s office which
had taken place without her knowledge or consent.
She just wanted to continue her relationship as a baby
sitter unchanged.
158. Shelby Roberts spoke to Sloan in such a nice
and convincing way that Sloan felt it would be cruel to
terminate her just because of the inappropriate actions
of her husband. So he decided not to go pick up the
child from the baby sitter even though his mother and
girlfriend Polly were already sitting in the car waiting
to go.
159. An important factor was that in the meantime
Sloan had visited Pakistan and visited the home of the
mother Honzagool several times. Although she had
expressed an interest in knowing how the child was
doing, she had never said that she wanted to have the
child brought to her nor had she ever said that she
wanted to return to America.
160. More than a hundred newspaper articles had
appeared some with pictures of the mother in news­
papers and on TV in Pakistan, so the mother had in

App.94a

effect gained movie star status. Many Pakistani men
had expressed an interest in marrying the mother
especially because of her reputation for great beauty
and it was even being said that she was the most
beautiful woman in Pakistan.
161. Many Pakistani men lined up to try to marry
her even though she was still legally married to the
father of the child. This created a great danger that
somebody from Pakistan would grab the child so that
by possessing the child he could marry the mother.
162. With nearly one million Pakistanis residing
in New York, this placed the child and her father in
great danger. Concerned about this threat from the
Pakistanis in New York and Charles Roberts in
Virginia, Sloan consulted legal counsel.
163. Someone recommended Michael Gamble, an
attorney in Amherst Virginia, to be his attorney. In
November 1985, Sloan went to Michael Gamble’s
office in Amherst and had a long meeting with him in
which he described the meeting and the incident in
Frank Davidson Ill’s office.
164. Sloan told Michael Gamble the whole story
regarding the mother, the Pakistanis in New York
and the threatening letters he had received from them
and told him about the plan Frank Davidson III had
revealed of filing a motion to intervene in Virginia
Family Court and get custody of the child for Charles
Roberts.
165. Michael Gamble suggested that in view of
this situation Sloan should file for custody in Amherst
Family Court because his former law partner Lawrence
Janow was the judge there and he was confident that

App.95a

Judge Janow would go according to Michael Gamble’s
recommendation.
166. Also, in Lynchburg Family Court, Sloan’s
mother, Dr. Marjorie Sloan, had filed for custody there
but Judge Dale Harris there had dismissed the case
as without jurisdiction.
167. In addition, Sloan had retained another
Lynchburg Lawyer, Cecil Taylor, to represent him in
this case. Cecil Taylor had been his mother’s attorney.
In December 1982, Samuel Sloan had mailed to Cecil
Taylor a retainer fee in the amount of one thousand
dollars to file a case in Lynchburg Family Court.
168. Cecil Taylor had cashed Sloan’s check and
Sloan was led to believe that the case had been filed.
It took more than a year before Sloan found out that
Cecil Taylor had never filed the case. Sloan demanded
his money back and Cecil Taylor refused to give the
money back but after months of acrimonious arguing
Taylor had given back $750, or $250 what Sloan had
paid.
169. The conclusion of the meeting with Michael
Gamble was that Michael Gamble agreed to represent
Sloan in the case in Amherst Family Court and
accepted a check for $250 as the retainer fee. Sloan
was happy about the $250 fee especially since he had
previously paid Cecil Taylor one thousand dollars for
the same case.
170. However, a few days later Sloan received a
letter in the mail from Michael Gamble with the check
enclosed and a note saying that he had found out that
his secretary was a close personal friend of Shelby
Roberts and the Roberts might be seeking custody of

App.96a

this child so therefore he could not represent Sloan due
to conflict of interest.
171. Having received back the $250 he paid to
Michael Gamble, Sloan went looking for another
attorney and eventually found Steve Martin, another
Amherst lawyer.
172. All this time, child custody proceedings were
going on between a previous wife of Sloan in New York,
Anda Baumanis of Riga Latvia. Anda and Sloan were
divorced but the court had ordered visitation.
173. Due to disobedience by Anda of a New York
Court Order, Anda had not allowed Sloan to visit his
children for two years. After lengthy proceedings
before New York Judge Kristin Booth Glen, Sloan’s
children Peter Sloan aged 6 and Mary Sloan aged 5,
were scheduled to be brought to the office of Dr.
Richard Bennett a New York psychologist on August
6, 1986 for a meeting with Sam Sloan and an evalua­
tion.
174. Realizing that this created the possibility of
introducing his daughter Shamema aged 4 to her halfbrother and half-sister Peter and Mary whom they
had never met, Sloan drove Shamema to New York in
his car, driving to Washington National Airport and
taking the shuttle flight to New York without telling
anybody he was doing this.
175. The meeting was a great success and the
three children got along famously and were happy to
meet each other. Years later they were still remem­
bering this event.
176. However, after the meeting, while driving
back to Lynchburg, Sloan received a call from his

App.97a

attorney Steve Martin. Sloan had not told Steve
Martin about his plan to take Shamema to New York,
but Steve Martin said he had found out about it from
Frank Davidson III.
177. After the meeting, the children, Peter Sloan
aged 7 and Mary Sloan aged 6 had gone home and told
their mother about the meeting with Shamema. Anda
was enraged had called Shelby Roberts. Shelby Roberts
had called her attorney, Frank G. Davidson III. Frank
Davidson had called Steve Martin and now Steve
Martin was calling Sam Sloan.
178. All these calls had happened within a few
minutes after Sloan and his daughter Shamema had
left the office of the psychologist in New York.
179. What this meant was his cover had been
blown. The only reason for having Shelby Roberts as
a baby sitter was to keep either the Pakistanis in New
York or in Pakistan and to keep Creighton Sloan from
knowing the whereabouts of the child for fear that the
child would be abducted.
180. We knew that already Creighton had been in
contact with the Pakistanis, so now everybody knew
where the child was. This meant that the relationship
with Shelby Roberts as the baby sitter had to be
terminated as quickly as possible without upsetting
the child.
181. Meanwhile, the original New York court order
by Judge Anthony Mercorella was still in effect. Sloan
was trying to figure out a delicate way to accomplish
this when circumstances intervened.
182. Shamema had been born on October 15, 1981
and this was now August 1986 so Shamema was about

App.98a

to enter school for the first time. The best elementary
school in Lynchburg and the closest school to the Sloan
home at 917 Old Trents Ferry Road in Lynchburg was
the Paul Munro School, which was walking distance
from Sloan’s home.
183. So therefore, on August 24, 1986 Sloan went
to that school to enroll his daughter there. There to
enroll his own children in that same school was Frank
G. Davidson III.
184. He explained to Sloan that his own children
were adopted because he was incapable of fathering a
child, a problem that Sloan does not seem to have.
When he asked why Sloan was there, Sloan told
Davidson that he was there to enroll his daughter
Shamema in elementary school.
185. Davidson replied that the Roberts would not
agree with that because they wanted to enroll Shamema
in the Temple Baptist School because they were mem­
bers of the Temple Baptist Church.
186. Sloan replied that the Roberts had nothing
to say about this because this was Sloan’s child and
Shelby Roberts was nothing more than an employee.
187. The next morning, Sloan received a call from
his attorney Steve Martin. Martin informed Sloan that
Frank G. Davidson III had gone to Amherst County
Family Court to make a request that Judge Janow
order the child to be enrolled in the Temple Baptist
School. Sloan thought this to be absurd but decided to
go to the Amherst Court House with his mother to see
what was going on.
188. Sloan arrived at the court house but did not
enter the courtroom. His lawyer Steve Martin came

App.99a

out of the courtroom and informed Sloan that Judge
Janow had held a conference with Davidson in which
he had asked Davidson how he had made such a
request as Davidson had not appeared in the case and
had not requested custody of the child.
189. Davidson had replied that he would be filing
for custody in a few days. Based on that representa­
tion, Judge Janow had issued an order which “allowed”
the child to be enrolled in Temple Baptist School.
190. This order did not mention the Roberts or
give them legal custody of the child. It simply meant
that unnamed persons could enroll the child in that
school if they wanted to. A copy of the order is attached.
191. It seems from subsequent events that Judge
Janow must have thought that the Roberts had
possession of the child, but they did not. Sloan had
decided not to leave his daughter with Shelby Roberts
that day. Instead, Shamema had been left Dr. Jessie
Enslin, a medical doctor and a close friend of the
grandmother of the child, Dr. Marjorie Sloan.
192. So, in view of these events, it was obvious
that the child would not be left with Shelby Roberts
any more. It was well known that Charles Roberts was
a self-described religious fanatic and a follower of
Jerry Falwell and had an arsenal of guns and weapons
in his house.
193. Dr. Marjorie Sloan was a child psychiatrist
who had treated many patients similar to Charles
Roberts as psychiatric patients. Dr. Marjorie Sloan
said, “These people are dangerous”, and that they had
better get out of town quick.

App.lOOa

194. Petitioner-Appellant drove to Roanoke Airport
with Shamema and caught the last flight of the night
to Pittsburgh after leaving a message to Sloan’s
computer partner Don Dailey to pick up the car at the
airport as the keys had been left in the car.
195. Petitioner-Appellant and his mother did not
intend this departure to be permanent. They thought
it would blow over in a few days and they could safely
return. That was not to be.
196. Dr. Marjorie Sloan never got to return to her
house in Lynchburg which she had designed and built.
It took four years but eventually in 1990 she was
kidnapped out of her hospital room in the Bangkok
General Hospital in Bangkok, Thailand.
197. The Sloan Family was shocked and startled
when all this took place. They did not know what had
happened until years later. They always assumed that
if the Roberts wanted to seek custody they would sign
and file a custody petition and the courts would
schedule hearings and possibly discovery. The idea
was not considered that without any kind of service of
process a lawyer could just walk into the courtroom
and tell the judge that his clients who were not related
in any way to the child wanted to send a child to a
religious school contrary to the religious beliefs of the
parents and such a requested would be granted.
198. Not only that but this was only the beginning.
When the child was then taken back to New York
where the child had been born and custody had pre­
vious been decided, Judge Janow proceeded to call
Judge Glen, the judge on another case involving other
Sloan children and ask that this child aged 4 be
detained and rendered and extradited to Virginia.

App.lOla

199. Subsequently, the FBI in Roanoke Virginia
with an agent named John P. Butler whom we now
believe was a fake name the FBI gave for what reason
we do not know said that the Roberts had legal
custody. Also Robert Chipperfield of the US State
Department in Washington DC said that as far as they
were concerned the Roberts had custody in Virginia.
200. However, none of this was true. No written
court order was ever issued by Judge Janow or any­
body else giving the Roberts legal custody of this child
or evening mentioning the Roberts by name.
201. The fact that Judge Janow called Judge
Kristin Booth Glen on the telephone while Sloan was
standing in the courtroom before Judge Glen for a
custody hearing for two of his other children, Peter
and Mary Sloan, shows that Judge Janow must have
also been calling the US State Department and the
FBI giving them this false information.
202. This shows that Judge Janow was guilty of a
federal crime because giving false information to an
FBI agent is itself a federal crime even if not under
oath as the famous Martha Stewart case shows. It is
obvious that Judge Janow was calling other judges as
well with this false information.
203. In December 1986, Judge Richard Miller of
the Lynchburg Circuit Court froze the bank accounts
of Helen Marjorie Sloan at Sovran Bank in Lynchburg
without any notice or opportunity for a hearing to Dr.
Sloan. The purpose of this freeze on her bank account
was obviously to force her to return to the United
States of America and to surrender her granddaughter
to Judge Janow.

App.l02a

204. Judge Miller knew and the court papers
state that Dr. Marjorie Sloan was in Dubai, United
Arab Emirates. The name of that case is Creighton
Sloan son and next friend of Helen Marjorie Sloan vs.
Sovran Bank.
205. The court claimed to act on “medical evidence
presented” and a power of attorney which had been
recorded. This was all false. There was no medical
evidence presented and no power of attorney was
recorded either. A search of the court files and records
of the Lynchburg Circuit Court shows that the only
power of attorney given by Helen Marjorie Sloan was
to her eldest son, Samuel Sloan, the appellant here.
206. Creighton Sloan was NOT a next friend of
Dr. Marjorie Sloan. She was deathly afraid of him and
had escaped from his house twice in North Carolina
after he had kidnapped her from her home in Lynchburg
or from her job at Western State Hospital in Staunton
Virginia and had taken her there and extorted money
from her as he was jobless. Creighton Sloan had
bought that house in North Carolina with money he
had stolen from his mother, as he was not gainfully
employed at that time.
207. Later, Helen Marjorie Sloan filed suit against
Sovran Bank in the Albemarle County Circuit Court
in Charlottesville with David C. Dickey of Stanardsville
as her attorney. Sovran Bank moved to transfer the
case to Lynchburg.
208. The motion was granted in spite of the
opposition by Dickey. The case file left Charlottesville
on the transfer order but somehow never reached
Lynchburg. The case file disappeared. Probably

App.l03a

Creighton Sloan or somebody close to him must have
stolen it.
209. The clerk of the Lynchburg Circuit Court is
now Eugene Wingfield, the same man who as a
Lynchburg Police Officer arrested Samuel Sloan and
extradited him via a flight from San Francisco California
to Lynchburg in December 1992.
210. In March 1994, Judge Gamble took away the
Sloan Family Home at 917 Old Trents Ferry Road in
Lynchburg and had it sold to a Mr. Stanley Taylor for
the ridiculously low amount of $75,000, with almost
all of the proceeds of the sale given to Cecil Taylor and
Frank G. Davidson III as attorneys fees, knowing that
Samuel Sloan was getting out of prison in just one
month in March 1994 and would be going back with
his children to live in that house.
211. Judge Gamble committed this illegal act so
that Samuel would not have a home where he could
keep his many children. Four of Samuel Sloan’s
children had been living there at the time of his arrest.
212. Judge Gamble claimed he had the right to do
this because of a power of attorney and because
Creighton Sloan was the legal guardian of Dr. Marjorie
Sloan. Both claims were false. This power of attorney
that does not exist. There is no such document in the
files. There are no medical records in the case file
either. Creighton Sloan had a known psychopathic
hatred of his mother and wanted to destroy her and
everything she had. She was terrified of him and that
is why she went abroad. With modern DNA testing we
suspect that he was not really her son as he never
referred to her as his mother. DNA testing has not
shown him to be her son.

App.l04a

213. Creighton Sloan had briefly been appointed
Guardian of Dr. Sloan in Aiken South Carolina on an
ex-party basis but then he had been removed as Guar­
dian by Judge Roe down there. In addition, Judge
Gamble had been disqualified from hearing that case
or any case involving the Sloan Family since Judge
Gamble as a private lawyer had filed several cases
against Samuel Sloan and his mother Dr. Marjorie
Sloan.
214. It has just been discovered within the past
few weeks that Judge Sue H. Roe has never been a
lawyer. When Sue H. Roe announced her retirement
recently, it was discovered that Sue H. Roe was never
a lawyer. She had never been to law school or taken
or passed the bar exam. Here is her biography. It looks
like she must have been a lawyer but notice there is
no mention of Law School. http://www.scstatehouse.
gov/sessl21_2015-2016/bills/5414.htm
From this biography one would never guess that
she was never a lawyer.
215. Indeed, Judge Gamble himself had written a
list of reasons why he was disqualified on the grounds
of a conflict of interest and had asked Samuel Sloan to
sign a waiver of disqualification. Not only did Samuel
Sloan refuse to sign a waiver of disqualification, but
when Samuel Sloan was brought in chains from
Dillwyn Prison to the court hearing in Lynchburg,
Sloan protested so vehemently to Judge Gamble
hearing this case that Judge Gamble held him in con­
tempt of court, but Judge Gamble could not punish
him because Sloan was already in prison.
216. Not only was Judge Gamble in violation of
conflict of interest but all the lawyers there were too.

App.l05a
The lawyers were Cecil Taylor and Frank G. Davidson
III. Cecil Taylor had been first the lawyer for Dr.
Marjorie Sloan. Then Samuel Sloan hired him and
paid him one thousand dollars retainer fee but Cecil
Taylor had returned all but $250 of that fee. In high
school, Samuel Sloan had been a classmate of the
daughter of Cecil Taylor, Mary Taylor. Samuel Sloan
dated Mary Taylor. Mary Taylor got pregnant. Back
in that time in 1962 if a girl got pregnant she was ex­
pelled from the school. So Mary Taylor got kicked out
of E. C. Glass due to being pregnant. Therefore, Mary
Taylor did not graduate with Samuel Sloan and her
other classmates. After her child was born, Mary
Taylor went back to school and graduated the next
year in 1963. It is perhaps due to this that Cecil Taylor
held great animosity towards Samuel Sloan. Cecil
Taylor should have disqualified himself for that
reason as well.
217. When Cecil Taylor had filed this Sloan vs.
Sloan case, he had asked that Frank G. Davidson III
be appointed as attorney for Helen Marjorie Sloan. If
you look at the court papers you will see the words “we
ask for this”. This was beyond ridiculous. It was Frank
G. Davidson III who had started all this litigation by
his theory that the Roberts Family could file a case for
custody of Shamema Honzagool Sloan.
218. Dr. Sloan had her own attorney, David C.
Dickey of Stanardsville VA, but the court did not
appoint her real attorney. Instead it appointed an
attorney against her, Frank G. Davidson.
219. In 1990, Helen Marjorie Sloan had filed a
civil case against Frank G. Davidson III and against
Michael Gamble, Lawrence Janow, Judge Miller, Bill
Petty and the rest of their gang. Dr. Sloan was in the

App.l06a

United Arab Emirates but she got it notarized by the
US Embassy in Abu Dhabi and got Howell Robinson,
a close friend of Leroy Sloan, to take it down to the
Lynchburg Circuit Court and file it.
220. The case was assigned by the Virginia
Supreme Court to Judge Ballou in Roanoke because
all the local Lynchburg judges and lawyers were
obviously disqualified by conflict of interest.
221. The complaint by Dr. Marjorie Sloan alleged
that all of the above persons were conspiring to kidnap
her and her granddaughter, a complaint that was
obviously was proven true when these things happened
the following month.
222. Then the aforementioned defendants proceeded
to carry out the plan which was alleged by kidnapping
Helen Marjorie Sloan out of her hospital room in the
Bangkok General Hospital in Thailand in September,
1990. However, Dr. Sloan was not brought to Virginia.
Instead she was brought to Maryland where several
of the defendants forced her to sign statements dis­
avowing her complaint. These statements were
obviously legally invalid as Dr. Sloan was a prisoner,
she was being held in custody and could not refuse.
223. These statements purportedly signed by Dr.
Sloan were then filed in the Lynchburg Circuit Court.
224. After a few months in custody in Maryland,
the Maryland authorities ruled that they could not
legally hold her as she was competent and no danger
to herself or others.
225. Instead of releasing her, she was taken to
South Carolina which according to them does not have
such strong laws protecting the elderly. She was held

App.l07a

in custody in Aiken, South Carolina in Mattie C. Hall
Center until her death in 2002.
226. We do not understand how and why Bill
Petty got involved in this but he was involved from the
very beginning.
227. Leroy B. Sloan died in January 1986 while
he was talking on the telephone with his son Samuel
Sloan who was in New York. Leroy Sloan died in the
presence of Alma Coates Dawson who claimed she had
just married him.
228. Alma took his checkbooks and other personal
effects. Within a few weeks of the death of Leroy
Sloan. Alma Coates Dawson started writing checks by
forging his signatures to the checks. The signatures
were clearly forgeries especially she had dated the
checks with a date long after Leroy Sloan had died.
229. Samuel Sloan was appointed by the courts as
Administrator of his father’s estate, a position he still
holds to this day. Samuel Sloan notified the bank of
the forgeries. The bank called in Alma Dawson to ask
her about this. She admitted that she had signed
Leroy Sloan’s name to the checks after he had died.
230. The bank recovered its money by taking the
money out of the back account that Alma Dawson had
with that bank. The Bank reported this to the
Commonwealth Attorney’s Office. When the Lynchburg
Commonwealth Attorney declined to prosecute this
case, Sloan went to the Commonwealth Attorney’s
Office demanding to see Bill Petty about this.
231. Sloan knew that the law firm of Pendleton
and Gamble, Michael Gamble’s Law Firm, was planning
to file suit over this so it was important that Alma

App.l08a

Dawson be prosecuted for this forgery. Sloan went to
the office of the Lynchburg Commonwealth Attorney
Bill Petty. However, Bill Petty’s associate informed
Sloan that Petty was refusing to see him.
232. In view of what happened subsequently, it
seems likely that already in February 1986 when
these events took place, Bill Petty was planning some
sort of action against Samuel Sloan, but we cannot
imagine what.
233. Having kidnapped Shamema successfully in
1990, the Roberts proceeded to try to get Sloan’s other
children by the same method. Samuel Sloan brought
three of his other children, Michael, Jessica and
George, to live in his mother’s house at 917 Old Trents
Ferry Road in Lynchburg. In January 1991, Renuka
also known as Shanti tried to escape with Shamema
and Jessica from the Roberts home. The Roberts
caught them trying to escape and called the police.
The Police took Shanti and Jessica to a shelter in
Roanoke.
234. Shanti and Jessica got out of the shelter and
came to the Sloan home at 917 Old Trents Ferry Road
in Lynchburg. By that time, Sloan had brought
Dayawathie and his other two children, Michael and
George, from New York.
235. The Roberts called the police and the police
presumably under Bill Petty picked up Shanti and
Jessica. The Roberts started a court proceedings to get
Jessica in much the same way as they had gotten
Shamema.
236. Realizing the danger, Shanti escaped again
and either took a bus or hitchhiked in trucks to
Oakland California where Jessica has been born.

i

App.l09a

237. The Roberts called in a complaint to Alameda
child protective services in California and got Jessica
detained there.
238. Samuel Sloan as the father of Jessica was
notified and served and so went to the court hearing
that had been scheduled in Fremont California. There
he found out that Judge Gamble had faxed documents
about the Shamema case to Judge Jeffrey Horner in
Alameda County California. The Roberts were in
touch with social services there.
239. When the next court hearing in Lynchburg
Circuit Court took place, Judge Gamble said he had
found out that Sloan had attended the court hearing
in California and revoked his bond for leaving the
state, even though it was the actions of Judge Gamble
that had caused him to be summoned to California
and leave the state.
240. Following this, California Social Services
petitioned Judge Horner to return Jessica to her
mother Shanti as Shanti had done nothing wrong.
Judge Horner refused. After several requests by Social
Services to return Jessica to her mother and after
Jessica had herself repeatedly asked to be returned to
her mother, a California social services worker named
Sharon Collins realized that something was seriously
wrong because California judges are supposed to be
biased in favor of the parents and they just about
never refuse requests like this.
241. So Sharon Collins hit upon a plan. She waited
until Judge Jeffrey Horner went away on vacation.
Then, she checked the Jessica case file out of court so
any substitute judge would not be able to see the
derogatory remarks by Judge Horner in the file. Then

App.llOa

she applied to a substitute judge while Judge Horner
was away for the release of Jessica from custody, so
Jessica was returned to her mother.
242. When Judge Horner returned from vacation
and found out about this he was outraged, but under
California law there was nothing he could do but
reprimand the social worker.
243. Under California law a judge cannot on his
own order a child into the custody of social services.
244. This is or should be the law in Virginia too
but Judge Janow ordered Shamema into social services
custody without social services requesting it or even
knowing about it and while Shamema was not in
Virginia but was in New York or in Abu Dhabi.
245. After Jessica’s mother got her back in Cali­
fornia, Judge Janow again awarded custody of Jessica
to the Roberts without any notice, opportunity for a
hearing, service of process or any of the other things
that are supposed to happen.
246. In short, Judge Janow, Judge Gamble,
Commonwealth Attorney Bill Petty and the Roberts
Family are all part of a criminal gang trying to get the
entire Sloan family into their custody even though
none of them had been born in Virginia.
247. While Samuel Sloan was in Lynchburg City
Jail, he had a cellmate named Rolf Beneke a/k/a Adrian
Van der Kamp. Beneke claimed he had escaped from
East Germany through a tunnel under the Berlin Wall.
248. After they both got out of Lynchburg City,
Beneke thereafter called Sloan numerous times on the
telephone to say he had been to the Temple Baptist
Church in Madison Heights Virginia where Shamema

App.llla

was being taken by the Roberts and he had seen
Shamema there. Beneke offered to kidnap Shamema
Honzagool Sloan back on payment of $25,000.
249. Samuel Sloan was anxious to get any infor­
mation he could about his daughter who had been
kidnapped away from him in the United Arab Emirates.
However, Sloan told Beneke he had only fifteen
dollars to his name. Beneke kept repeatedly calling
with these offers.
250. Meanwhile Beneke was facing a multitude of
charges in Lynchburg, mostly white collar crimes
including swindling the brother of Howell Robinson,
the brother of Leroy Sloan’s best friend.
251. Sloan never called Beneke. It was always
Beneke calling Sloan. Turned out not surprisingly
that Beneke was an under-cover agent working for the
Lynchburg City Police. Beneke obviously had made a
deal with police officer Eugene C. Wingfield who is
now Clerk of the Lynchburg Circuit Court to get him
off his charges if he would help get Sloan.
252. Eugene Wingfield was sitting next to Beneke
when he was making all these calls. All of these con­
versations were tape recorded. Later, Commonwealth
Attorney Bill Petty had Sloan indicted for solicitation
to commit a felony, even though it was Beneke who
was soliciting Sloan, not the other way around.
253. Using an undercover agent like this was a
violation of the Miranda Rule we often hear on TV
when a police officer tells an offender “You have the
right to remain silent. Anything you say may be used
against you.” Bill Petty knew that Sloan was anxious
to get his kidnapped daughter back and tried to set
him up.

App.ll2a

254. At trial in the Lynchburg Circuit Court, Rolf
Beneke testified at length and all these tape recorded
conversations were played to the jury. Fortunately,
the jury saw through this and found Sloan not guilty.
Otherwise Sloan might be sitting in jail now.
255. However, what Bill Petty accomplished by
this was he got James H. Massie, Sloan’s defense
attorney, disqualified from representing Sloan. Petty
notified Massie that Beneke would be the principal
prosecution witness.
256. Several years earlier, Massie had been the
court appointed attorney representing Beneke. There­
fore, Petty demanded that Massie recuse himself because
Massie was well aware of Beneke’s long criminal
career and therefore would be too effective as defense
counsel.
257. Petty’s demand that Massie be disqualified
came as a motion before Judge Gamble. Sloan was
brought from the jail to the court. Sloan Objected to
the removal of Massie as his defense attorney as
Massie knew the case better than anybody. Further­
more, Sloan objected to Judge Gamble being the judge
on the case again especially since Chief Judge Mosby
Perrow III had previously ruled that all of the judges
for the 24th Judicial District were disqualified because
Judge Gamble himself had filed several lawsuits
against Sloan and the Sloan family and all these cases
were actively pending.
258. Nevertheless, Petty’s motion to disqualify
Massie from being Sloan’s defense attorney was
granted. Judge Gamble then appointed David Bice to
be Sloan’s defense attorney. Sloan did not know Bice
at the time except he knew that the brother of Bice

App.ll3a
was his dentist. However, we now know that David
Bice is the weakest defense attorney and does not put
up any defense for his clients.
259. At trial David Bice did not offer any defense
at all although many valid defenses were available.
The ruling by Judge Gamble was wrong. James H.
Massie knew the case better than anybody because he
had been Sloan’s attorney during the child custody
proceedings in Amherst that were the underpinnings
of this case. There is simply no rule that just because
a defense attorney had represented another defendant
years before in an unrelated case is disqualified from
being a defense attorney in this case.
260. Judge Gamble had brought about the removal
of three of Sloan’s defense attorneys. The first was
Steve Martin that Sloan had retained in early 1986
after Michael Gamble had disqualified himself from
representing Sloan and had returned his check to
Sloan $250.
261.Later while Sloan was residing with his
mother and daughter residing in Abu Dhabi, United
Arab Emirates, Pendleton & Gamble had offered
Steve Martin a law partnership providing that Steve
Martin agree to stop representing Sloan.
262. Steve Martin accepted this offer so after
Shamema was kidnapped and brought to Amherst
Virginia, Steve Martin who was still attorney of record
for Sloan was called to the court by Judge Janow.
263. Judge Janow removed Martin from being
Sloan’s lawyer, so when Sloan attempted a few
months later to recover his kidnapped daughter he no
longer had an attorney.

App.ll4a

264. Judge Janow claimed he had spoken to Judge
Louis Fusco of the Bronx Supreme Court and Judge
Fusco had agreed to transfer the Shamema Child
Custody Case to Virginia. However, this was not true.
There is no court order transferring the case from New
York to Virginia.
265. Judge Fusco was the chief judge in the Bronx
Supreme Court but he was not the judge in the
Shamema Child Custody Case. Judge Anthony
Mercorella and Judge Irwin Silbowitz were the judges
in the Shamema case.
266. To transfer the case from New York to
Virginia, the parents would have had to be notified
and a hearing held. No such thing had ever happened.
267. Sloan has never been allowed to see the case
file in Amherst J & D or Family Court. In general,
parties to a case are allowed to see the case file so they
can see what the judge is seeing. However, Judge Janow
had not permitted Sloan to see the file.
268. However, after James H. Massie became his
attorney, Massie allowed Sloan to sit next to him
while Massie was looking at the file. As far as Sloan
knew, only he and his daughter were in the case. The
Roberts has not been served and were not parties to
the case. Sloan wanted the New York Court Order
modified so that if the mother returned from Pakistan
years later she would not automatically get the child.
He was more concerned about the possibility that
some Pakistani in New York would take the child
claiming to represent the mother.
269. Sloan was shocked to discover a memo by
Judge Janow dated May 26, 1986 which was months
before any case or hearing was filed in Amherst

App.ll5a

Family Court. This reflected an ex-party meeting Judge
Janow had had with Frank G. Davidson on that date
without Sloan or anybody else knowing about it to dis­
cuss plans on how to get custody of Sloan’s daughter for
the Roberts.
270. This memo stated that the Roberts were
interested in getting custody of Sloan’s daughter
Shamema and they discussed ways in which they with
Judge Janow’s help they could go about getting
custody.
271. In other words, Janow and Davidson were
plotting a conspiracy to get custody of Sloan’s daughter
away from Sloan. According to the memo, they had
decided not to do anything to rock the boat until Sloan
did something.
272. This explains how it happened that when
Sloan went to Paul Munro Elementary School on
August 24, 1986 to enroll his daughter in that school,
Frank Davidson who was also there to enroll his own
son in that school, went immediately to Judge Janow
in Amherst for an order to enroll Sloan’s child aged 4
in the Temple Baptist Church and School.
273. Shelby Roberts had previously worked for
Sam Sloan as a secretary, which is how she knew the
Sloan Family. Judge Jeffrey Horner in Fremont
California was enraged when he came back from vaca­
tion and found out that Jessica had been returned to
Jessica’s mother in his absence. He yelled and screamed
in the courtroom at Sharon Collins, the social worker
who had returned Jessica to her mother, for doing this.
274. This was strange behavior. We found out
that Judge Horner was in contact with Judge Gamble

App.ll6a

in Virginia. Judge Gamble had wanted Jessica extra­
dited to Virginia and had faxed documents to Judge
Horner, just as Judge Janow had called Judge Kristin
Boothe Glen in New York on September 4, 1986
asking that Shamema Sloan be detained and extra­
dited to Virginia.
275. Later Judge Janow awarded custody of Jessica
to Charles and Shelby Roberts. This was as usual by
Judge Janow without service of process or notice or
opportunity for a hearing on either of the parents of
Jessica, Shanti Onofre or Samuel Sloan. This was in
year 2000, when Jessica was a pre-teenager
276. After Jessica had been detained by Alameda
County California Social Services, Jessica was returned
to her mother in late 1992, while Samuel Sloan was
being extradited to Virginia.
277. Jessica was mentally disturbed by the more
than one year in foster care, being locked up with
other foster kids. Jessica never fully recovered. She
was no longer the happy child as she had been pre­
viously. Shanti Onofre, Jessica’s mother, firmly beheves
that Jessica’s death in 2010 was caused by Charles
and Shelby Roberts and by Judge Janow and Judge
Gamble for having Jessica locked up for more than one
year in foster care.
278. Judge Gamble himself prepared a “waiver of
disqualification” for Sloan to sign. Now only did Sloan
refuse to sign it but he demanded Judge Gamble dis­
qualify himself. Here is what the “waiver of dis­
qualification” said:
279. “VIRGINIA: IN THE CIRCUIT COURT OF
THE COUNTY OF AMHERST IN RE: CUSTODY OF
SHAMEMA HONZAGOOL SLOAN, a minor, Case

App.ll7a

#7312; APPEAL OF CONTEMPT MATTER OF M.
ISMAIL SLOAN, Case #7309 WAIVER OF DIS­
QUALIFICATION On this day came the parties on
the appeal of M. Ismail Sloan in the above styled
matters. The undersigned J. Michael Gamble, Circuit
Court Judge, has advised the parties that there are
circumstances which could require that he recuse
himself from this case. Further, J. Michael Gamble
has advised all parties that he will recuse himself
unless all parties waive in writing their possible objec­
tions to his service as Judge in these cases. These
circumstances are as follows: (l) M. Ismail Sloan con­
sulted with J. Michael Gamble in 1985 about represent­
ing him in the matters involved in this case at a time
when J. Michael Gamble was a practicing attorney.
Although J. Michael Gamble did not take the case M.
Ismail Sloan did talk with J. Michael Gamble about
the facts of the case for about one hour. Also, J.
Michael Gamble accepted a retainer fee which he
returned by mail the same day. (2) Stephen C. Martin,
a former law partner of J. Michael Gamble, represented
M. Ismail Sloan in earlier proceedings in the matters
in this case. Confidential or privileged information
was provided to Stephen C. Martin as a result of such
representation. (3) Donald G. Pendleton, a former law
partner of J. Michael Gamble, represented a person
claiming to have an adverse interest in M. Ismail
Sloan in the estate of the father of M. Ismail Sloan.
Possibly confidential or privileged information was
given to Donald G. Pendleton, at the time he was the
partner of J. Michael Gamble. (4) Lawrence Janow,
Juvenile and Domestic Relations District Court Judge
of Amherst County, who has heard many of the
proceedings in this case, was a law partner of J.
Michael Gamble from 1974-1990. (5) J. Michael Gamble

App.ll8a
has heard many discussions of this case by numerous
sources. (6) Linda B. Carroll, the former legal secretary
of J. Michael Gamble, is a close friend of Mr. and Mrs.
Charles Roberts, a party to these proceedings. Notwith­
standing the above disclosures, we the undersigned
waive the right to request J. Michael Gamble to recuse
himself, and waive the disqualification of J. Michael
Gamble to hear the matters involved in this appeal.
We fully understand that by hearing this appeal J.
Michael Gamble does not necessarily agree to hear
any other proceedings which may come before this
court in this matter. Given under our hands this 7th
day of August, 1991.
280. In spite of giving all of the above reasons why
Judge Gamble was disqualified, Judge Gamble then
insisted on being the judge anyway on all of the Sloan
cases. The order of Judge Janow dated August 25,
1986 stated “Effective September 7, 1986 at 2:00 p.m.,
the father shall have physical custody of Shamema
Honzagool Sloan until further Order of the Court with
reasonable visitation to be allowed Mr. and Mrs.
Charles Roberts as Counsel agrees”. However, it also
stated “the court orders that this matter remain in
status quo and allows the child, Shamema Honzagool
Sloan to be enrolled in Temple Baptist School”. The
child Shamema was only four years old at the time.
The parents of the child, Samuel Sloan and Honzagool,
were Muslims and were not members of the Roberts
religion, which is a fanatical branch of Jerry Falwellism.
Obviously it was unacceptable for Sloan to be required
to send his daughter to a religious school.
281. Sloan was never served with this order
because by the time this order was written and issued

App.ll9a

the Sloan Family had left town and gone back to New
York.
282. The reason Shanti had cooperated in the
kidnapping of Shamema was the Roberts had hired
and Paid a professional kidnapper named Boonchoo in
Thailand to kidnap Shamema. Boonchoo had threatened
to have Shanti s daughter Jessica killed if Shanti did
not co-operate.
283. Here is the testimony of both Shanti and
Charles Roberts later before Judge Janow in Amherst
Family Court:
Answer: Boonchoo, when I was in United
Emirates, he called me in the house and he
tell me he want I to turn Shamema to his
side, otherwise he’s going to kill me and he
going to tell something, I stole from his —
something., something like that, he told me.
Then I get really scared and then I call
Charles and Shelby and I tell them, “What
happened, he was telling me something like
I stole stuff and I have to turn Shamema to
their side, otherwise they’re going to kill me.”
I don’t really get this scared, because they
was in another country and I was in another
country, far away. That’s all. [Testimony of
Charles Roberts page 59] BY THE COURT:
(Continuing) Q How much was paid for these
services? A Actually, I don’t know if this was
pertinent or not, but I don’t have anything to
hide. I paid him two installments of five
thousand dollars. When Renuka went over
there, she did not have a visa because there
was no Thai embassy in the UAE, so she
went straight over there without a visa and

App.l20a
they held her there for a while, and then she
contacted us and we told her to contract John
Sobell - We contacted him and he went to the
airport and located her and then they made
arrangements to send her to Singapore to get
a visa to come back into the country. [Testi­
mony of Charles Roberts page 60] MR. SLOAN:
Are you aware that Boonchoo threatened to
kill Renuka if he didn’t turn Shamema over
to you.
THE WITNESS: I wasn’t aware that he
threatened to kill her. She called me by tele­
phone and said he had scared her or upset
her and I called John Sobell to find out just
what was going on and he said it was just his
way of trying to get her back on their side.
284. This testimony clearly shows that Judge
Janow knew that the Roberts had brought about the
making of death threats to get Shamema. The reason
the Roberts were brave enough to have Shamema
kidnapped and brought to USA was that Lynchburg
Commonwealth Attorney Bill Petty was in on the
kidnapping and had been helping the kidnapping to
take place. If Bill Petty had not been involved-, the
Roberts would have been arrested as soon as they
arrived in Virginia with Shamema. The Roberts did
not turn Shamema over to Amherst Social Services.
Instead they just kept Shamema in their house with­
out even telling Amherst Social Services that Shamema
was there. If this had happened in any other state, the
Roberts, Bill Petty, Michael Gamble and Lawrence
Janow would all have been arrested and would be
serving long prison sentences now, as they are all
obviously guilty. However, in Virginia the entire

App.l21a

judicial system is corrupt. No judge has been removed
in Virginia for misconduct since the 1920s or nearly
one hundred years ago, whereas judges are removed
in other states all the time.
285. The facts and circumstances of this case
show that Judge Updike of the Bedford Circuit Court
should have conducted a fact hearing to determine
what Sloan was convicted of doing since Sloan con­
tended that what he had done or not done was perfectly
legal. It can be demonstrated that not only was Sloan
not guilty of anything but the actual criminals were
Lawrence Janow, Michael Gamble, William Petty and
Frank Davidson, all of whom are still practicing
lawyers in Virginia and all but Davidson have been or
are still judges in Virginia, with Bill Petty being a
judge of the Virginia Court of Appeals. The fact that
Virginia allows career criminals like Petty, Janow,
and Gamble to sit as judges in the courts even on cases
where they should be conflicted out demonstrates the
corruption in the entire Virginia System. This demon­
strated that the Virginia Felony Disenfranchisement
Law is Unconstitutional.
286. It is well known that Black men are routinely
convicted of crimes for which White men are never
charged. Petty, Janow Gamble and Davidson are all
guilty of the most heinous crime imaginable, the
kidnapping of a young child age 8 when she was
kidnapped and an 80-year-old woman all so they could
get the vast wealth that they mistakenly believed that
the Sloan family had, yet they have never been even
questioned mush less prosecuted for these crimes.
There is no statute of limitations on the crimes
committed by Petty, Gamble, Janow and Davidson so

App.l22a
they should be arrested and prosecuted and the
statute should be declared unconstitutional.
287. Here is one of only two orders issued by
Judge Janow in this case. It states: “Effective Septem­
ber 7, 1986 at 2:00 p.m., the father shall have physical
custody of Shamema Honzagool Sloan until further
Order of the Court with reasonable visitation to be
allowed Mr. and Mrs. Charles Roberts as Counsel
agrees.”
288. However, it also states “fhe court orders that
this matter remain in status quo and allows the child,
Shamema Honzagool Sloan to be enrolled in Temple
Baptist School”. The child Shamema was only four
years old at the time. The parents of the child Samuel
Sloan and Honzagool were not members of the Robert’s
Religion which is a fanatical branch of Jerry Falwelhsm.
Obviously it was unacceptable for Sloan to be required
to send his daughter to a religious school and a church
of which he was not a member. Sloan was never served
with this order because by the time this order was
written and issued the Sloan Family had left town
with his mother and daughter and had gone back to
New York. Later, the original New York order by
Judge Mercorella was modified by Judge Lauren
Backal to give full legal custody to Sam Sloan.
289. The Roberts were not family members of the
child. Their only connection with this child was Shelby
Roberts had been employed by Samuel Sloan and his
Mother Dr. Helen Marjorie Sloan as a secretary and a
baby sitter for Shamema and during a period when
Samuel Sloan was seriously injured in an automobile
accident.

App.l23a

290. Here is the order issued by Judge Janow
dated September 4, 1986. Judge Janow purports to
award custody of Shamema to the Amherst Country
Department of Social Services who had not petitioned
for this custody and had never even heard about this
case. Judge Janow knew that Shamema was not in
Virginia and that she was in New York. He had issued
this order so that Shamema could be detained in New
York and rendered and brought to Virginia where he
obviously planned to award custody to the Roberts.
Judge Janow knew that Shamema was in New York
because he had just spoken to New York Supreme
Court Justice Kristin Booth Glen who had informed
Judge Janow that Judge Glen had seen Shamema in
her courtroom the previous day. This was the only
order in effect until after Shamema had been kidnapped
by the Roberts and brought to Virginia in October 1990.
291. Here is the airplane ticket and airline reserva­
tion issued to bring Shamema Honzagool Sloan from
Abu Dhabi United Arab Emirates to Washington DC
on October 7, 1990. Note that the ticket says it was
purchased by Jay Roberts, son of Charles and Shelby
Roberts. This ticket is proof positive that Shamema
Sloan had been kidnapped by the Roberts Family.
292. Custody order of the Bronx Supreme Court
which modified the original order of that court and
awarded full custody to the father, petitioner appellant
here. This proves that the child custody case had
never been transferred to Virginia and therefore
Judges Janow and Gamble had no jurisdiction to
award custody to the Roberts.

App.l24a

NEW YORK SUPREME COURT COUNTY
OF BRONX PART TT-17
M. ISMAIL SLOAN
-against-ABDULLAH AWADALLAH
INDEX NUMBER 17815/1981
Present: HON Lorraine Backal, Justice
The following papers numbered 1 to 5 on this
motion for an order modifying custody order
No. 1 on Calendar of October 7, 1994 Upon
the foregoing papers this motion for an order
modifying the child custody provisions of an
order of this court dated June 7, 1982 that
awarded custody of the parties infant issue,
Shamema Honzagool Sloan, date of birth
October 15, 1981, to the defendant - mother,
Honzagool, is granted on default. Pursuant to
the June 7, 1982 order, defendant - mother
was granted custody of the infant issue
provided she remain with the child in the
State of New York. On or about October 1,
1982, defendant-mother abandoned plaintiff
- father, M. Ismail Sloan, and the infant
issue in the United States and returned to
her native Pakistan. To date, defendant mother has not returned to the United
States. Plaintiff father has been the de facto
custodial parent of the infant issue since the
time of defendant—mother’s departure and
has provided the child with a caring and
stable home for the past twelve years.
Accordingly, it is in the child’s best interest
that the custody order of this court be
modified to the extent of awarding custody of

App.l25a

the infant issue, Shamema Honzagool Sloan,
to the plaintiff - father, M. Ismail Sloan This
shall constitute the decision and order of the
court. Dated: October 25, 1994
/s/ L. Backal
Lorraine Backal, A. J. S. C. 53
Certificate of Service
Petitioner Appellant Hereby States That on
October 14, 2017 he served the within Peti­
tion for Appeal by mailing a true copy of the
same to: Virginia Supreme Court 100 N 9th
St, Richmond, VA 23219 Court of Appeals of
Virginia 109 North Eighth Street Richmond,
VA 23219-2321 Phone - (804) 371-8428 Mark
R. Herring Attorney General’s Office 202
North Ninth Street Richmond, Virginia
23219 Phone: (804) 786-2071 Judge James
W. Updike Jr. 123 E Main St #201, Bedford,
VA 24523 Bedford County Commonwealth
Attorney’s 123 E. Main St, Suite 302 Bedford
County Courthouse Bedford, VA 24523 Phone:
540-586-7628 Sherman Calloway Virginia
Cares 1651 Papoose Way Lutz Fla 33559
293. Note that the plaintiff here defeated the
United States Securities Exchange Commission in
oral argument before the United States Supreme
Court which addressed the question of standing here.
SEC vs. SamuelH. Sloan, 436 U.S. 103 (1978).
294. The reason they have wanted this child
religious. The mother of the child is Honzagool,
devoutly religious Muslim woman from Chitral,
remote area high in the Hindu Kush mountains

is
a
a
of

App.l26a
Northwest Pakistan. Knowing that the child had been
raised as a Muslim, they kidnapped the child so that
the child would be raised as a Christian.
295. Charles Roberts constantly states that he
has been saved and he is going to Heaven. He says
that salvation and eternal life are not earned by good
deeds but are received only as the free gift of God’s
grace through the believer’s faith in Jesus Christ as
redeemer from sin. Thus, Roberts believes that even
though he has committed great sins such as kidnapping
a child, he will still go to Heaven through his faith in
Jesus Christ as redeemer from sin.
296. COURT OF APPEALS OF VIRGINIA SAMUEL
HOWARD SLOAN, Appellant, v. COMMONWEALTH
OF VIRGINIA, Appellee. Court Record No. 1215-17-3
Circuit Court No. CL17000260-00 FROM THE
CIRCUIT COURT OF BEDFORD COUNTY PETI­
TION FOR APPEAL
297. The first attorney to represent Sloan in this
case was the Lynchburg Public Defender, James
Hengeley. However, Judge Michael Gamble had pre­
viously as a private lawyer and a partner of the law
firm of Pendleton & Gamble had filed suit against
both Sam Sloan and his mother Dr. Helen Marjorie
Sloan on the grounds that the client of Pendleton &
Gamble, one Alma Coats Dawson, had married Leroy
B. Sloan on his death bed in the emergency room of
the Lynchburg General Hospital on New Year’s Eve
December 31, 1985 and Leroy Sloan had died shortly
thereafter.
298. Alma Coates Dawson had believed, along
with many others, that Leroy B. Sloan and the Sloan
Family was possessed of great wealth and there was

App.l27a

a Sloan Family Trust that had been set up by Leroy
Sloan’s father, Howard Creighton Sloan, and the
money in the trust would become available to the
Sloan heirs upon the death of Leroy Sloan but not
before that.
299. Thus if it were really true that the Sloan
Family of Lynchburg and Bedford County were the
heirs of the Alfred P. Sloan Foundation, then the $50
million that the heirs to Leroy Sloan was supposedly
going to receive would be a piddling, trivial amount.
300. However, it was not true. There is no known
proven or biological connection between Alfred P.
Sloan and Leroy B. Sloan. You can be searched and we
have found nothing. It is a fact that the ancestors of
both Alfred P. Sloan and Leroy B. Sloan came from the
same area of Northern Ireland. So, if one could go back
far enough it is entirely possible or even likely that a
relationship could be found. However, both Sloan
families have run into the same problem that almost
everybody with Irish ancestry have found, which is
that the Irish have not kept genealogical records such
as birth and death records or if they have been kept
they have not allowed them to be seen or copied by the
Mormon Church, which has been doing almost all the
genealogical research of this kind.
301. In the case of Leroy Sloan the situation is
even more severe. His paternal grandfather Creighton
Sloan (1842-1916) was “born at sea, Irish.” He arrived
in New York as a newborn baby on a ship. However,
there is no record of who his parents were. It is
possible that his mother had died on the ship while
giving birth to Creighton Sloan. Such events were not
uncommon in those times. The maternal great­
grandmother of Samuel Sloan was Christina Stina

App.l28a

Sophia Jonsdotter and she also died on the ship while
crossing the Atlantic Ocean and was buried at sea in
1869, so she never made it to America but her three
children did.
302. One of the first things Alma did after being
married to Dick Friend was she called the local
Cadillac dealer and bought a Cadillac. The Cadillac
dealer had the car delivered to the residence were
Alma and Dick Friend had started living together.
When the Cadillac dealer came in the house to ask for
the check to pay for the car, Alma asked Dick Friend
for the check. Dick Friend told Alma that he thought
Alma was paying for the car because he did not have
any money!
303. Dick Friend and Alma had thought that they
would be living off the alimony check she would still
be receiving from Mr. Dawson. When that check also
did not come, Alma went out to the law office of
Pendleton and Gamble and asked that they arrange a
divorce.
304. Instead, Pendleton and Gamble obtained an
annulment of the marriage so that the alimony pay­
ments from Mr. Dawson would be restored. The
ground for the annulment was that Dick Friend was
impotent and could not get an erection! This was
legally questionable because Dick Friend was 80 years
old and no woman can reasonably marry an 80 year
old man on the expectation of having an active sex life.
305.Having obtained the annulment of the
marriage through the law office of Pendleton and
Gamble, Alma Dawson then went back to the Elk’s
National Home were Dick Friend and Leroy Sloan
were living in nearby rooms.

App.l29a

306. Leroy Sloan had become completely senile by
this time and Alma was able to get him into her car.
He took him down to Preston Sawyer’s law office on
Court Street in Lynchburg and said that they wanted
to get married.
307. All this became the subject of a case filed in
Lynchburg Circuit Court, Sloan vs. Dawson. The law
firm of Pendleton and Gamble with later Judge
Michael Gamble representing Alma Dawson and Steve
Martin representing the Sloan family was litigated in
Lynchburg Circuit Court, but as far as we know never
went to trial and no judgment was ever rendered. This
was just one of several cases filed by Michael Gamble
against the Sloan family, all in the Lynchburg Circuit
Court.
308. When Michael Gamble later became a judge
he got all the Sloan cases assigned to himself which
was obviously illegal as he was the lawyer on the other
side.
309. In November 1992 Chief Judge Mosby Perrow
III issued an order disqualifying all the judges of the
24th Judicial District from hearing any of the Sloan
cases on the grounds of conflict of interest in that the
lawsuits between Michael Gamble who by this time
was also a judge against Sloan created an impermissible
conflict of interest. This means that Judge Moon who
was also a judge in the 24th Judicial District should
also have been deemed disqualified.
310. Judge Moon as a judge of the Court of
Appeals dismissed all Plaintiffs appeals almost as
soon as they were filed before even the record could be
transmitted and the time came to filing briefs. Then
when Appellant filed a federal case about the kidnapping

App.l30a

of his daughter, Judge Moon, who by then was a
federal judge, sua sponte dismissed that case too.
311. Among many other places, Sloan collected
signatures at the First Baptist Church of South
Lynchburg, located at 2500 Tazewell St., Carl B.
Hutcherson, Jr. Pastor, and at Solid Rock Baptist
Church in Madison Heights VA with David W. Cash
as pastor.
312. Plaintiff has three times filed or attempted
to file federal cases regarding the kidnapping of this
daughter. The first case was dismissed only two days
after it was filed and it was obvious that Judge Turk
never read the complains because he said he was dis­
missing in under Younger vs. Harris which was non­
sense as this is an International Child Abduction case
and Younger vs. Harris has nothing to do with the
kidnapping of a child.
313. Here is a case filed by Plaintiff less than five
minutes after Obama was sworn in as President on
January 20, 2009. Plaintiff believed that the new pre­
sident, President Obama, would bring about justice in
this case but that was not to be as that case was also
dismissed just a few days later before even service
went out with the judge saying it was “an old story”.
SAMUEL H. SLOAN, a/k/a M. Ismail Sloan,
Plaintiff-Appellant
v.
CHRISTOPHER P. SMITH; J. L. AYERS,
III, Sheriff; MICHAEL COX; WILLIAM
STARKE MUNDY, III; JAMES C. TURK;
WILLIAM G. PETTY; RICHARD S. MILLER;
ROY B. WILLETT; LAWRENCE JANOW;

App.l31a

MICHAEL GAMBLE; STEPHEN R. PATTISON; A. MICHAEL SCOTT, SR.; RAY
FITZGERALD; JOHN P. BUTLER; EUGENE
WINGFIELD; FRANK G. DAVIDSON, III;
RICHARD GROFF; LISA L. SCHENKEL;
ALAN B. HOWARD; SUE H. ROE; CATH­
ERINE H. KENNEDY; DORCHEN LEIDHOLDT; ROSEMONDE PIERRELOUIS;
ALEXANDER KARAM; SALVATORE J.
MODICA; LANE VANCE; VERIO.NET;
KHALID SHAIKH MUHAMMED; GEORGE
W. BUSH; GEORGE H.W. BUSH; UNITED
STATES DEPARTMENT OF JUSTICE;
UNITED STATES OF AMERICA; ASHLEY
HOUCK; CHARLES ROBERTS; JAY ROBERTS,
Defendants-Appellees
NOTICE OF APPELLATE CASE OPENING
Originating Court United States District Court
for the Western District of Virginia at Lynch­
burg Originating Court Case Number 6:09cv-00005-NKM Date notice of appeal filed in
04/22/2009
314. Meanwhile, Michael Gamble and the Law
Firm of Pendleton and Gamble were filing cases
against Plaintiff on behalf of their client Alma Coates
Dawson who claimed to have married Leroy B. Sloan
father of plaintiff on his death bed in the Emergency
Room of the Lynchburg General Hospital. These cases
sought to get the money they believed was in the
Estate of Leroy B. Sloan and to get the house located
at 917 Old Trents Ferry Road in Lynchburg and
sought to get custody of his children for conversion to
Christianity and Jerry Falwellism. Here are the case

App.l32a

numbers of cases in the Lynchburg Circuit Court
about Leroy Sloan and Samuel H. Sloan.
CH91-16681-00
86-14991
89-14790
86-14751
90-15643

89-14877
14986
16165
16681
90-15617
315. In the Alison D. case, the New York Courts
prohibited non-parents, in that case a lesbian lover,
and other third parties from seeking custody or visita­
tion with a child.
“Prior to today’s decision, New York law on
this issue was tragically stuck in 1991, when
the Court of Appeals ruled in the Alison D.
case that non-biological, non-married, nonadoptive parents are legal strangers to the
children they raised with a same-sex partner.”
Alison D. case IN THE MATTER OF ALISON D.
(ANONYMOUS), APPELLANT, v. VIRGINIA M.
(ANONYMOUS), RESPONDENT, 77 N.Y.2d 651, 572
N.E.2d 27, 569 N.Y.S.2d 586 (1991).
316. Although the Roberts and Judge Janow ex­
changed correspondence with Judge Fusco in New
York, who was NOT the judge in the Shamema
Honzagool case, Judge Janow failed to disclose that it
was a third party, the Roberts, who were seeking
custody. Judge Janow’s letter implies that he wanted
to grant custody to the father. His letter states that

App.l33a

the father is living in Virginia with the child. The
Roberts are never mentioned in the letter.
317. The Roberts never had custody of the child in
Virginia or anywhere else. Even if they did, they had
the child kidnapped in Fujairah United Arab Emirates
where the child had been living with her mother and
grandmother for more than four years and where close
relatives of her mother from Pakistan were also
residing.
318. After having the child kidnapped in the
United Arab Emirates, the child was transported to
Kuwait, to Iraq, to London England and to New York
before being brought to Virginia. In none of those
places did the Roberts have legal custody of the child.
319. Judge Gamble’s decision completely falsifies
the facts. It states that Shamema has been living in
Virginia for five years while the father was living in
New York and the United Arab Emirates. This was
false. In reality the child had been living for three
years in Virginia while her father was also there but
after that the child had been residing in the United
Arab Emirates with her father and her grand mother
Dr. Marjorie Sloan, for more than four years from
1986 until 1990.
320. Then, the grandmother was kidnapped out of
her hospital room at the Bangkok General Hospital in
Bangkok Thailand in September 1990 by a professional
kidnapper, the same kidnapper hired by the Roberts,
named Boonchoo. After kidnapping the grandmother,
Boonchoo came back to kidnap the child, but the child
had fled with her father to Mesai in Northeast Thailand.
321. Boonchoo’s men then chased them from
country to country knowing a rich reward awaited

App.l34a

them if they could catch them and they finally
succeeded in kidnapping the child in October 1990 in
the front yard of her father’s house, while her father
was sleeping in the house.
322. Less than thirty-six hours after the child was
kidnapped in the United Arab Emirates, she was
brought to the Roberts home in Madison Heights
Virginia.
323. Judge Janow, Michael Gamble, Bill Petty
and Frank G. Davidson III all knew all this. They
knew that the child had been kidnapped because they
had been involved with it. Thus they are equally
guilty with the Roberts.
324. Creighton Sloan had difficulty holding a job
and was often fired. He had a history of stealing
money from his mother. Starting in 1984, he sent
instructions to the Virginia Supplemental Retirement
System and to the Social Security Administration
instructing them to send her pension and Social
Security checks to his bank account.
325. As she was retired from the Commonwealth
of Virginia, having worked since 1943 for state agencies,
she was receiving a monthly check of $2500 from the
state. When the check did not arrive, she called and
found out what Creighton had done. She then
countermanded his orders by directing them to send
the funds to her own bank account again.
326. This cycle continued repeatedly. To stop these
raids on her bank account, she set up a trust account
with Robert McCallum at Sovran Bank in Lynchburg,
specifically instructing him not to give any money or
any information about her accounts to Creighton
Sloan.

r

App.l35a

327. Unfortunately, Robert McCallum left that
bank not long thereafter and a new bank officer
Massie Ware took his job. Massie Ware started
sending money to Creighton again. When Marjorie
Sloan was arrested in New York Supreme Court on
September 4, 1986, she realized that Creighton was
behind this and the only way to escape from his was
to leave the country, so she applied for a passport. She
had never previously received a passport.
328. When she arrived in Argentina, she found
that Creighton had canceled all her credit cards so she
lacked the funds to pay her hotel bills. Finding that
Creighton had used an old no-longer-valid North
Carolina power of attorney which had not been
recorded (Judge Miller stated that it had been recorded),
she sent by mail to Massie Ware of Sovran Bank a
revocation of that power of attorney, and she had
access to her bank account again.
329. That was when Creighton Sloan filed a case
“Creighton Sloan Son and Next Friend of Helen
Marjorie Sloan vs. Sovran Bank”. Although she was
not a defendant and was never served, Judge Miller
directed all the money in her bank accounts to be sent
to Creighton except for her Trust account which was
frozen.
330. This led her to write letters to Judge Miller
informing him that Creighton had been stealing her
money for years. Attorney Gary Fuelner, a partner in
the Law Firm of Chadbourne & Parke, wrote that she
was living a life of luxury in Abu Dhabi, the richest
country of the world, was not suffering from any
physical or mental disability, was full of her senses
and simply did not wish to return to the United
States. The letter is attached in the exhibits.

App.l36a

331. During her four years in Abu Dhabi, Creighton
again started stealing her pension and Social Security
Checks, so she had her checks sent to the United
States Embassy in Abu Dhabi. Then she went once a
month to the US Embassy to pick up her check. This
was the only way to stop Creighton from stealing her
checks. If the checks were mailed, Creighton could
easily have it routed to his own bank account. Only by
insisting that she pick it up the checks personally,
could she be sure of getting the money.
332. On each of these visits to the US Embassy to'
pick up her check, the US Consular Officer there
would question her about her general welfare and
competence. This was because Creighton was constantly
claiming that she had been kidnapped and was being
held prisoner. The US Consular Officers in Abu Dhabi
also visited her personal residence from time to time
to make sure she was still OK. The record by the US
Embassy of these visits should be available from a
Freedom of Information Act request.
333. Although she did not have the fabled $50
million dollars, Marjorie Sloan did have $170,000 in
her Sovran Bank account, enough to interest the law
firm of Pendleton and Gamble in getting her money.
334. The lawsuit filed alleged that the income of
Marjorie Sloan from her pension and Social Security
checks was $4000 per month but her expenses were
$2000 per month so her house needed to be sold to pay
her living expenses.
335. If it were not so ridiculous and tragic it would
be shocking. The fact that Judge Gamble allowed this
to succeed demonstrated what a crooked judge he was.
Then he sold the house for the paltry sum of $75,000

App.l37a

even though the house was worth three times that and
all of that $75,000 went to pay the legal fees of the
crooked attorneys who had filed the case. Marjorie
Sloan and the Sloan family got none of the money and
had no place to live.
336. Samuel Sloan was in jail but was getting out
in one month but Judge Gamble made sure the sale
went through before he could get out and get a lawyer
to represent himself and his mother.
337. Creighton Sloan was NOT the custodian for
his mother. NCNB Bank, later Bank of America, was.
But the bank never got any of the money because
Creighton took it, so it never set up the trust account.
Creighton again started stealing his mother’s money
and deposited the checks for $4000 into his own bank
accounts from 1990 until she died in 2002.
338. During the trial, Judge James Lumpkin
bragged that he had ordered the execution of all six
Briley Brothers, although only two have actually been
executed. Plaintiff was unfamiliar with the Briley
Brothers and did not realize what Judge Lumpkin
was talking about. This is the only case in history
where more than one person has been executed for the
same crime.
339. When Shamema was kidnapped from the
home of Samuel Sloan and his family in Fujairah
United Arab Emirates while Plaintiff Samuel H.
Sloan was sleeping, it happened that Shaikh Rashid,
the Ruler of Dubai died on that day and the entire
country was put under curfew and a period of mourning
and nobody could leave their house.
340. Thus, when Sloan woke up and discovered
his daughter was not there, he assumed that she was

App.l38a
in a neighbor’s house. However, when two days passed
and the curfew was lifted and his daughter had not
returned, Plaintiff feared his daughter had been
kidnapped, so he called FBI agent John P. Butler in
his office in Roanoke Virginia and reported his daughter
had been kidnapped.
341. Under FBI Regulations when a child aged 8
as in this case has disappeared or been kidnapped, all
federal agencies are supposed to put out an AMBER
alert. However, John P. Butler did not put out an
Amber alert in this case and indeed the kidnapping of
Shamema Honzagool Sloan on October 7, 1990 has
never been reported. This proves that the FBI was a
co-conspirator and was in-on and a co-conspirator in
the kidnapping of Plaintiffs daughter.
WHEREFORE, whereas the name of Plaintiff
that has been removed from the primary ballot of June
12, 2018 by Maria Childress and the Democratic Party,
Plaintiff must be restored to that ballot by order of this
court and allowed to run as a Democratic Party
candidate and
(2) Whereas Judge Michael Gamble illegally took
the Sloan Family residence at 917 Old Trents Ferry
Road, that house must be restored to the possession of
Plaintiff and the Sloan Family as Judge Gamble had
been disqualified from hearing that case by order of
Chief Justice Mosby Perrow III since Judge Gamble
was also representing the plaintiffs in suits against
Sam Sloan.
(3) WHEREAS Judge Gamble illegally took away
custody of Sloan’s daughters Shamema and Jessica
and gave them to the Roberts Family those orders
must be reversed and declared Null and Void, as there

App.l39a

is no legal bases for taking a child away from the
natural parents and giving her to unrelated third
parties who only wanted the child for purposes of
religious conversion.
(4) The convictions of Plaintiff Samuel H. Sloan
for attempted abduction of his own daughter and
failure to appear for a trial that never took place must
be set aside and declared null and void because
Plaintiff Sam Sloan had custody of his daughter by
order of the Bronx New York Supreme Court and
under the Uniform Child Custody Act custody
proceedings could not be transferred to another state
such as Virginia.
(5) The Felony Disenfranchisement Law of Virginia
must be declared unconstitutional and null and void.
Sloan was falsely convicted of non-crimes while he
was a declared candidate for Governor of Virginia in
1992-1993 and he was prevented from running for
public office for 25 years because of these wrongfully
obtained convictions.
(6) Judgment should be awarded in favor of
Plaintiff for $50 million, the same amount Defendants
thought they were going to get from the estate of the
father of Plaintiff.
(7) WHEREAS Defendants Lawrence Janow, J.
Michael Gamble, William G. Petty, Frank G Davidson
III and Norman K. Moon are clearly guilty of kidnapping
and conspiring to kidnap Plaintiff s daughter and the
cover-up of these crimes, and since they have insider
friends who will spring them from the jails, they
should be placed under arrest and placed in a secure
location from which there will be no escape such as
Guantanamo Bay.

App.l41a

BRIEF IN SUPPORT OF MOTION TO DISMISS
(MAY 17, 2018)
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
RICHMOND DIVISION
SAMUEL H. SLOAN,
Plaintiff,
v.
MARIA CHILDRESS, ET AL„
Defendants.
Civil Action No. 3:18cv260-MHL
Defendant Judge William G. Petty (“Judge Petty”),
by counsel, moves the Court pursuant to Rules 12(b)(1)
and 12(b)(6) and Rule 8(a) of the Federal Rules of Civil
Procedure to dismiss all claims in this action against
him on the grounds that Plaintiff has not pleaded
federal claims, that Plaintiff has failed to state a claim
upon which relief may be granted, that Plaintiffs
claims are time barred because of applicable statutes of
limitations and that Judge Petty is protected by
immunity because he was a Commonwealth’s Attorney
during the period of which Plaintiff complains. 1
1 Since 2006, Judge Petty has been on the Virginia Court of Appeals
bench.

App.l42a
In support of his Motion to Dismiss, Judge Petty
relies upon Plaintiffs Complaint filed on April 23,
2018 and the following brief. Therefore, Judge Petty
respectfully states the following:
I.

Rule 12 Motion to Dismiss

In his very lengthy Complaint, Plaintiff begins by
reciting certain facts regarding his attempt to qualify
for the Democratic Party primary in Virginia set for
June 2018.2 Regarding that, Plaintiff points to the fact
that he has been a former Democratic candidate in New
York and that certain laws regarding felony disen­
franchisement are unconstitutional. Regarding his
statement as to Judge Petty as a defendant, he merely
states that Judge Petty (and three other defendants)
“all want to stop Plaintiff from being elected. .. because
they know [Plaintiff] will. . . bring about an investi­
gation” that will land each in jail. In the remainder of
the 83 page complaint, Plaintiff lays out facts and
allegations that occurred in the late 1980s or early
1990s, well over 25 years prior to the filing of this
Complaint. The closest Plaintiff comes to actually
making an allegation against Judge Petty is at para­
graphs 63, 66, and 69 of the Complaint, where Plaintiff
alleges that Judge Petty (then a Commonwealth’s
Attorney) kidnapped Plaintiffs daughter sometime in
the 1980s. However, any possible allegation is but
conclusory and speculative, as there are no actual
facts pleaded by Plaintiff to show that Judge Petty
kidnapped anyone.

2 How Judge Petty today has any role in the nomination process
is unclear; he has none.

App.l43a

A. No Civil Right of Action for Kidnapping
At best, and read in the light most favorable to
Plaintiff, this allegation would lead to a criminal charge
against Judge Petty. Plaintiff, however, is not a
federal (or state) prosecutor and cannot bring a private
prosecution against Judge Petty. The United States
Supreme Court has addressed the right of private pros­
ecution in federal court. Leeke v. Timmerman, 452
U.S. 83(1981). In Leeke, the Supreme Court affirmed
the precedent it set in Linda R.S. v. Richard D., 410
U.S. 614 (1973), which denies the right of private
prosecution, and serves as a bar to criminal prosecu­
tion in federal courts by persons not federal govern­
ment employees. In his Complaint, Plaintiff does not
plead that he is a federal prosecutor or otherwise an
employee of the federal government because, one would
surmise, he is neither.
B. False Imprisonment Is a Virginia Cause of
Action, but Plaintiff Is Not Proper Party to Bring

It
There is no civil action for “kidnapping” in
Virginia. The closest civil action to kidnapping is false
imprisonment. The Virginia Supreme Court has defined
false imprisonment as “the direct restraint by one per­
son of the physical liberty of another without adequate
legal justification.” Jordan v. Shands, 500 S.E.2d 215,
218 (Va. 1998). Furthermore, Plaintiff has not pleaded
that his daughter is incapacitated or that Plaintiff has
any authority to act in her stead. In fact, Plaintiff, at
paragraph 29, states that she could have been a doctor
or lawyer but is an electrician. Because she is not
incapacitated, Plaintiffs daughter, and not Plaintiff,
would be the one who must bring such an action. See

App.l44a

Va. Code Ann. § 8.01-229. Such an action would, of
course, also be time barred. Va. Code Ann. § 8.01-243.
C. Claims are Time-Barred
Reading the Complaint plainly and in the light
most favorable to Plaintiff, an action for false imprison­
ment is time barred after two years, or 2001, from the
time Plaintiff s daughter became an adult in 1999. See
Va. Code Ann. § 8.01-243. Other federal courts have
addressed the issue on whether “statute of limitations”
issues exist on the face of a complaint and, thus, are
subject to a Rule 12 motion to dismiss. “Normally,
affirmative defenses require reference to materials
outside of the complaint and, therefore, cannot be
raised by means of a Civ. R. 12(B)(6) motion to dismiss.
Loyer v. Turner (1998), 129 Ohio App. 3d 33, 35, 716
N.E.2d 1193. However, an exception exists where the
existence of the affirmative defense is obvious from the
face of the complaint.” Mankins v. Paxton, 753 N.E.2d
918, 924,142 Ohio App. 3d 1, 9, 2001 Ohio App. LEXIS
1245, *10 (citing Esselburne v. Ohio Dept, ofAgricul­
ture, 582 N.E.2d 48 (1990)). Here, the affirmative
defense is obvious from the face of the pleadings and,
thus, the allegations cannot go forward.
D. Allegations ofActs of Commonwealth’s Attorney
In his bizarre Complaint, at least between para­
graphs 44 and 49, Plaintiff states that Judge Petty,
in his then position as Commonwealth’s Attorney,
maliciously prosecuted him on the “theory” that
Plaintiff was the same person as someone else. Even
if taken as true, “[i]n each case where a prosecutor is
involved in the charging process, under Virginia law,
that action is intimately connected with the prosecutor’s

App.l45a

role in judicial proceedings and the prosecutor is
entitled to absolute immunity from suit for such ac­
tions.” Andrews v. Ring; 266 Va. 311, 321, 585 S.E.2d
780, 785 (2003). Because of such immunity, this matter
must be dismissed as to Judge Petty.
E. Appeal from Criminal Prosecution
Taken in the light most favorable to Plaintiff, the
allegations against Judge Petty in the Complaint
appear to be an effort to appeal a criminal conviction
that occurred in the 1990s. In Virginia, one has 30
days after a final order entered by the Circuit Court
to appeal to the Court of Appeals or Virginia Supreme
Court. SeeVa. Code Ann § 8.01-675.3 and Va. Sup. Ct.
Rule 5:9. This is not a matter to be “appealed by
Complaint to this District Court.” Furthermore, as
this matter was filed in 2018, it is time barred.3
II.

Rule 8 Motion to Dismiss

Rule 8(a) of the Federal Rules of Civil Procedure
require that all pleadings must contain
(1) a short and plain statement of the grounds
for the court’s jurisdiction, unless the court
already has jurisdiction and the claim needs
no new jurisdictional support;
(2) a short and plain statement of the claim
showing that the pleader is entitled to relief;
and

3 Res judicata, collateral estoppel, or other issue preclusion
would also apply. See Judge Moon’s decision in the 2009 case of
Sloan v. Smith, et al., Case No. 6:09cv00005 (W.D. Va. 2009),
attached as Exhibit A.

App.l46a

(3) a demand for the relief sought, which may
include relief in the alternative or different
types of relief.
Fed. R. Civ. P. 8(a). Even under the relaxed standards
provided to pro se litigants, this Complaint fails on all
three subsections of Rule 8(a).
As set forth above, the Complaint is a rambling
recitation of conclusory statements interlaced with a
non-chronological family history that fails to set forth
why this Court has jurisdiction, what claims Plaintiff
has against Judge Petty, and what relief is sought.
The only, barely, cognizable claim in this hodge­
podge of conclusory statements is a claim that Judge
Petty is guilty of kidnapping. Under federal law,
kidnapping is a criminal charge for which Plaintiff wants
Judge Petty to be confined to Guantanamo Bay. While
this court would have jurisdiction to hear a federal
kidnapping charge, Plaintiff has no authority to pros­
ecute a criminal charge and, even if he did, the
punishment for that is not civil in nature and does not
include confinement in Cuba. See, 18 U.S. Code § 1201.
As stated above, any relief for false imprisonment
would rest in Plaintiffs daughter, not Plaintiff. Plaintiff
simply makes no allegations of damages caused by
Judge Petty that would entitle Plaintiff to any relief
under any recognizable theory. Because of this, the
Complaint should be dismissed, with prejudice, as to
Judge Petty.
III. Conclusion
Plaintiff fails to state a claim upon relief can be
made and fails to concisely state the jurisdiction of the
court or set forth any relief that he would be entitled

App.l47a

to and, therefore, the Complaint should be dismissed,
with prejudice, as to Defendant William G. Petty.

Respectfully submitted,
WILLIAM G. PETTY
By Counsel
/s/ Thomas N. Jamerson
William F. Etherington
(VSB # 14152)
Thomas N. Jamerson
(VSB # 75035)
1001 Boulders Parkway
Suite 510
Richmond, VA 23225
(804) 788-1500
(804) 788-0135 (facsimile)
wetherington@bealelaw.com
tjamerson@bealelaw.com

App.l48a

REPLY TO THE LAWSUIT
(MAY 19, 2018)
The United States District Court
for the Eastern District of Virginia
701 East Broad St., Suite 3000
Richmond, VA 23219
Re: Case 3:18—cv-00260-MHL
To Honorable Judge this may concern:
In reply to the lawsuit filed against me, Darrell
J. Roberts and my father, Charles E. Roberts I offer
the following reply;
Enclosed herewith you will find a couple of exhibits.
Exhibit A: Affidavit by Shamema H. Sloan: perhaps
the strongest eye-witness testimony against Samuel H.
Sloan. His claims that my parents kidnapped Shamema
are exposed as lies in an Affidavit signed by the
alleged kidnapped daughter, Shamema Sloan, who
was indeed kidnapped, ONLY by her biological father,
Samuel Howard Sloan (a.k.a. M. Ismail Sloan). It was
signed and witnessed by a Notary Public of the
Commonwealth of Virginia on September 30, 2010
when Shamema was then 28, almost 29, years of age
and an ex-Marine. In it she identifies her biological
father as the only kidnapper as well the number of
times he successfully kidnapped her and also men­
tions yet another attempt on his part to kidnap her. If
you examine the criminal record of Samuel H. Sloan
it will reveal that all of the facts, in a multitude of
frivolous false claims against my family spanning

App.l49a

many years and costing them thousands, are in
actuality polar opposite to the truth.
Exhibit B. My Testimony by Shamema Sloan
dated 15 MAY 1998 and you will see the notation of
“4th Period” under the date. This refutes Sam’s claims
that Shamema was not allowed to attend school.
She did, in fact, graduate from Lynchburg Christian
Academy (now renamed Liberty Christian Academy)
in the year 1999, WITH Honors.
Exhibit C. Commencement Exercise Program of
Shamema Sloan, Lynchburg Christian Academy,
Twenty-Eighth Annual Commencement dated May
29, 1999 in which Shamema Honzagool Sloan is named
and identified as graduating with honors.
Exhibit D. Shamema’s Cap & Gown Graduation
Photos. The photos are legitimate. My wife and I
attended her graduation and my wife took the pictures
shown at the bottom.
In addition to the exhibits C and D, Samuel H.
Sloan was seen by me (Darrell J. Roberts) not only in
the balcony of the old Thomas Road Baptist Church
building where the graduation was held, he was also
seen and with Shamema in the parking lot after the
commencement was over. I have seen the photograph
of that moment.
Exhibit E. Letter from Shamema’s biological
mother. K. Honzagool to my parents.
In this letter she;
1.

States that, after her divorce from Mr. Sloan,
(Mr. Sloan per mistake in her letter) she
was granted custody of Shamema (a.k.a.

App.l50a

Shameema in her mother’s letters) by the
New York Supreme Court in Bronx, NY.
2.

Identifies Mr. Sloan as the real kidnapper.

3.

States that Mr. Sloan remained a fugitive
from the N.Y. state legal system.

4.

Characterizes Mr. Sloan as a sick and
abnormal person.

5.

States that she is relieved over the fact that
Shamema was now in the care of Charles
and Shelby Roberts rather than that of Mr.
Sloan.

6.

Expresses that Mr. Sloan shows no concern
for his other half a dozen children.

7.

States that Mr. Sloan has made Shamema
and herself the target of his vengeance and
cynicism over the years.

8.

States that Mr. Sloan tried to get her to join
him to battle my parents for custody after he
had already stolen the child from her and
deported her without her child. She states;
“In my judgment, his proposition was mala
fide and devoid of any genuineness. He was
neither concerned with Shamema’s welfare
and nor bothered about respect for my legal
or norm norms.”

9.

Identifies a pattern of behavior which contin­
ues to this day by pointing with the next line
of her letter; “it was vet another devious
tactic of his to settle scores with you.” She has
already stated that Mr. Sloan used disser­
tations then “full of falsehood, concoctions.

App.l51a
and slandering practically everyone, his
brother, you both (Charles & Shelby Roberts)
the judge, attorneys, etc.” This is a pattern of
behavior which has been repeated for years
where my family is concerned. Mr. Sloan
does not use the law lawfully, he misuses it to
harass people. Anyone who has prevented
him from getting his way ends up in his
lawsuits. Just look at the list of names on this
one. The only thing I did was sell a prepaid
airline ticket! Unfortunately, based on his
past behavior, whoever handles this case
will end up in the next lawsuit if Mr. Sloan
does not get his way. He was banned from
filing any further lawsuits in the Western
District based on his claims regarding
Shamema and my Parents.
Also, as for him being disqualified as a candidate,
why am I being named in this lawsuit apart from the
reasoning I mention in the previous paragraph? I was
a travel agent at the time her contacting my parents
by phone, wanting to come back home to the USA with
the help of yet another woman who had a child by
Samuel H. Sloan, I was the one who arranged the
prepaid airline tickets. At the time I documented the
Passenger Name Record with remarks indicating that
she was the victim of parental abduction and was
being returned to the United States.
Now to address specific items in his AFFIDAVIT
IN SUPPORT OF ORDER TO SHOW CAUSE:
Item 3. His fifing fee. There is still an outstanding
judgment, awarded to my father, Charles E. Roberts,
by the court in Lynchburg, against Samuel Sloan in
the amount of approximately $31,000.00. If Mr. Sloan

App.l52a

can now afford this filing fee, the money spent in
printing this lawsuit, why has he made no attempt to
begin payments on court ordered judgment against
him?
Item 6. No valid reason to reject Sam Sloan? He
has cited the reason for rejecting him and that is the
Virginia Felony Disenfranchisement Law! That is not
a new law, nor was it instituted to keep Sam Sloan
from running for candidacy. He disqualified himself
by becoming a felon—by breaking the laws of the
Commonwealth of Virginia. “Ignorance of the law is
no excuse.”
Item 7&8. Quoting Mr. Sloan; “I believe” He
continues “ . . . the powers that be in Lynchburg know
that if I am elected many of them will be in jail
because they are guilty of kidnapping my daughter
Shamema who was eight years old when she was
kidnapped. Shamema was kidnapped for reasons of
religion”. “The Roberts Family of Madison Heights
Virginia found out that I and my wife were raising our
daughter as a Muslim and for that reason hired and
paid a professional kidnapper named Boonchoo to
kidnap the child aged 8 in the United Arab Emirates
and bring her to Virginia to teach her about Jesus.
1.

He left out the fact that he kidnapped her
and brought her to Virginia. He leaves out,
willfully, that he knew our family were
Christians and he asked for a babysitter for
2 weeks and was gone for years without
sending a penny support to help. It was not
until they filed for custody, in order to
provide her a stable home, that he suddenly
had interests. I know this to be true as I still

App.l53a

lived at home when HE BROUGHT HER to
our family.
2.

Boonchoo was a private investigator who
helped track Mr. Sloan down years after he had
violated the court order, abducting Shamema
and taking her out of the country to avoid
prosecution.

Item 9. He states “The same group also kidnapped
my mother Dr. Marjorie Sloan.” I have no clue what
that is all about! A family member of Samuel Sloan
stated that Samuel Sloan had taken advantage of his
mother’s demented state to carry her with him when
he fled the country and lived off of her funds abroad
until her account was seized. How and when she
actually got back to the USA I know not. I presumed
she came when he came back in hopes of getting
Shamema again.
Item 10. “ . . . it is entirely reasonable to conclude
that I am being thrown off the ballot for reasons of
religion and that is unconstitutional.” False. The fact
is Sam Sloan is a felon and that is most likely why he
was rejected. It appears that Sam may be attempting
to make the matter a religious issue to further his
cause. As far as I know, there are no laws in place that
currently prohibit Muslims from serving in public
office as demonstrated by our previous administration.
In regards to being a Muslim, Shamema, upon
returning from the United Arab Emirates, stated that
once in an international airport restaurant, Sam
ordered pork. When she confronted him on it, he
excused it saying; “It’s ok-no one can see me here.”
Also, it is my understanding that Muslims are allowed
to have up to four wives IF they provide for each one

App.l54a

with a separate home. Here in the United States this
is called bigamy. In the case of Shamema, Sam Sloan
did not even provide for her. I am sure contacting his
many ex-wives (more than four) and his children could
shed some light on that.
Now, may I will address a few of the key points in
the NATURE OF THE CASE document.
Item 4. His filing fee. Since Sam Sloan found it
necessary to address the same point here in item 4 as
in item 3 of the AFFIDAVIT IN SUPPORT OF ORDER
TO SHOW CAUSE I too will repeat my response: There
is still an outstanding judgment, awarded to my father.
Charles E. Roberts, bv the court in Lynchburg, against
Samuel Sloan in the amount of approximately
$31.000.00. If Mr. Sloan can now afford this filing fee.
the money spent in printing this lawsuit, why has he
made no attempt to begin payments on court ordered
judgment against him?
Item 7. “Plaintiff seeks to declare Unconstitutional
the Virginia Felony Disenfranchisement Law.” The
laws of the land are to protect innocent, law abiding
citizens from those whose nature is contrariwise.
Based on the numerous court cases of the past and the
court orders that resulted Samuel Sloan seems to
have no regard for laws that exist nor the courts that
rule. This is demonstrated by his habitual violation of
court orders. After being tipped off I caught him in
person when he was stalking my mother and Shamema
on their way home from school in Madison Heights.
This is after a court order was issued for him to stay
on the north side of the James River and out of
Amherst County. I was fortunate to get a photograph
of him, introduced in court as an exhibit, which proved
he had violated that order. The existing law which he

App.l55a

now claims is unconstitutional was not so until it
interfered with his agenda. This is another example of
Mr. Sloan wanting to remove any obstacle that
interferes with what he wants. In this case - the law
is in his way.
Item 25. My father has NEVER described himself
as a religious fanatic. He loves the Lord Jesus Christ
as do his children and grandchildren. That is Sam’s
description. Interestingly Sam once faked conversion
to Christianity (from Islam) hoping to gain access to
Shamema through a church function.
. . . continued. . . . He states “He has been deter­
mined to kidnap all the children of Plaintiff Samuel
H. Sloan...” My father was only involved in
Shamema’s life until Shamema, who then had custody
of her sister Jessica (now deceased) asked my parents
to care for her during her high school years, while
Shamema was deployed overseas. I saw a letter she
had written to Sam while she was in the Marines
threatening to kick his backside if he made trouble for
them over it.
. . . continued. . . . regarding my dad Mr. Sloan
wrote; “He wears military style dress even though he
was rejected by the military and never served.” This
again is a half truth meant to jab my father’s character.
My father NEVER wore military style dress. He wore
work uniforms from “Dickies” as he was a machinist.
They would be matching shirts and pants in tan,
green or blue. This probably made matching them
easier for the same reason he was rejected by the Air
Force (for which he made an effort to enlist) - he is
color blind.

App.l56a

Item 26. Referring to me he says; “He is gay.”
Considering that the Democratic party does not oppose
homosexuality and that Samuel Sloan wishes to be on
their ballot, what possible reason other than attempting
to malign character could he have for bringing that up?
Would the Democratic party approve of his discrimi­
nation based on sexual preference? While it is true
that I practiced a homosexual lifestyle while younger,
at the age of 24 I had a spiritual encounter with God. I
have now been happily married for more than 27 years
to the same woman. I shared my background with her
when it first became evident that there was a mutual
attraction as I did not want her to find out things from
my past later and feel I had been less than honest. I
am not gay—I am a New Creation as described in II
Corinthians 5:17. My personal story has been aired
on radio drama in many languages and in many
countries so my past is not a secret that I have kept
hidden. But, for what intent and purpose would he feel
the need to speak of it?
Item 27. “The Roberts Family were obviously
guilty of kidnapping the child but they were protected
from criminal investigation ...” I am confident that
the Affidavit, the two letters from Honzagool and all
of the criminal records on Samuel Sloan prove this to
be yet another “falsehood” “concoction” and “slander”
with intent to “settle a score”. Mr. Samuel Sloan has
demonstrated this to be his behavioral pattern over
and over and over again. In this case and many others
however, it has been in print which constitutes LIBEL.
Mr. Sloan once posted my parents full names,
dates of birth, address, and Social Security Numbers,
as well as that of a deceased aunt, on the internet at
a time when identity theft was just beginning to be

App.l57a

rampant. I contacted the FBI and, as a result of their
intervention, the page was taken off the internet.
Item 28. “Shamema never went to school and does
not have a high school diploma from any accredited
school.” I respectfully direct your attention back to
Exhibits B, C, & D, which include her receiving her
diploma. Shamema, AFTER GRADUATION from
Lynchburg Christian Academy, which IS accredited,
joined the Marines. My parents paid for her to attend
Lynchburg Christian Academy all through high school
so she would automatically receive a four year scholar­
ship to Liberty University if she chose to use it. It was
her choice to join the marines instead.
In a nutshell, “Just Cause” as to why he should
not be allowed on the ballot:
1.

Because Samuel H. Sloan is a felon and the
law prohibits it. Samuel Sloan is not above
the law nor an exception to it.

2.

Samuel H. Sloan has shown that his desire
is to imprison innocent people who had the
misfortune of their paths crossing with his.

3.

Men or women who are elected officials,
whether the Democratic or Republican Party,
should be men or women who look at the
facts and base their decisions on those facts.
Sam Sloan chooses not to accept the facts or
abide by judges decisions in court cases and
disregards court orders as demonstrated by
his repeat offences.

This letter, signed by my father, Charles E.
Roberts, also, serves as reply for both of us. In it I have
attempted to respond with FACTS. It is my hope that

App.l58a

you will look at them and see them for the reality that
they are and that you will act accordingly in the best
interest of all of the law-abiding citizens named in this
lawsuit.

Best Regards,

/s/ Darrell J. Roberts
141 Odin’s Bow Dr.
Madison Heights, VA 24572
/s/ Charles E. Roberts
427 Amelon Rd.
Madison Heights, VA 24572
/s/ Michaelene Slagle Garner
Signatures witnessed by
Notary Public
Commonwealth of Virginia
Reg No. 7722687
Exp. 07/31/2021

App.l59a

AFFIDAVIT OF SHAMEMA H. SLOAN
I, Shamema H. (Sloan) Stone, being of sound mind
and body, do solemnly state that I have never been
abducted or kidnapped by anyone, any time, anywhere,
except by my biological father, Samuel H. Sloan by
name (a.k.a. M. Ismail Sloan) who successfully did so
twice and attempted a third time unsuccessfully.
I was first abducted from New York and brought
to Virginia in 1982 when I was 9 months old and placed
in the care of Charles and Shelby Roberts, acquaint­
ances of my father. Four years later (1986) I was again
abducted by my biological father during visitation and
taken out of the country and kept for four years then
after my return to the U.S.A. and during a break in
court hearings (1991) he attempted unsuccessfully to
abduct me again just prior to my tenth birthday. Each
time it was in violation of a standing court order.
During the four years following my second
abduction I was taken to many foreign countries but
eventually The United Arab Emirates became my place
of residence. In 1989 I was able to contact the Roberts’
and told them I wanted to return to the U.S.A. By
1990 the necessary documents (visa and passports)
were in place so they provided us (my half sister
Jessica, her mother and me) prepaid airline tickets
and we escaped (ran away) back to America but we
were not kidnapped or coerced in any way to do so.

/s/ Shamema H. Sloan
Signature
City of Madison Heights
State of VA

App.l61a

TESTIMONY OF SHAMEMA H. SLOAN
15 May 1998
4th Period
FCA’s
-- Background
— Salvation Experience
— Where are you now?
— 3 important verses
I love these testimony things. As a general rule,
people don’t realize what they’re getting themselves
into when they ask me about myself. This isn’t a story
I normally tell people. Mainly, because I don’t like
sympathy. I don’t like knowing that people think
“She’s just like that because of what happened to her.”
Maybe it’s true, but I’d like to think that I’m me
because that’s just who I am. So, anyway, all that’s
beside the point. Here it is: The Shamema Sloan Story.
I was born on the small, insignificant island of
Manhattan, New York, to two people brought together
through very strange circumstances. My father, Samuel
Sloan, by name, is what you’d call a polygamist. That
is, one who practices the rare art form of being involved
with numerous women simultaneously. Assured that
his calling in life was to carry the family name into
every culture, he left his job on the stock market, his
wife, and two children in search of a willing woman to
share in the experience. Well, I don’t know if she was
willing or not, but he met my mom in Pakistan in late
1980. After marrying her, he carted her back to
America with him. It was here that I came into being.

App.l62a

Well, as soon as my mother realized what scum
my father was, she immediately left him. Being only 18,
and in a strange country, speaking a foreign language,
she quickly retreated to living with a radical group of
Muslims who shared her religious beliefs as well as
her native language. I was taken into custody by the
religious leaders and kept in a mosque. My father was
granted visitation rights by the state of New York.
These sessions were served in the fenced in back yard
of the central mosque. To insure that I would remain
on the premises, they would take my father’s shoes,
put sugar in his car engine, and find other ways of
manipulating his forms of transportation. Unfortunately
for them, my father, much like me, is not so easily
relinquished. Climbing a large rock pile barefooted, he
loaded my 9 month old figure into a truck he had
parked down the block out of the sight of the Muslims.
We were well on our way to Virginia before they
realized what was happening.
I was placed into the hands of Charles and Shelby
Roberts (who had taken care of him when he had been
in a car wreck) with many assurances that I would be
picked up in a few days. Those days, quickly turned
into years. It was during this time that I attended
Temple Christian School kindergarten. I was taught
about God, amd love, and other important elements.
At the age of four, I was led to Christ by my new
“mom”. And just in time, too. A few months later, my
father returned for me. Since the Roberts had been
given my custody, he requested visitation. It was on
one of these visitations that I was kidnapped for the
second time.
We embarked on the most fascinating yet fright­
ening journey of my life. Our first stop was Brazil.

3

App.l63a

From there we traveled to such places as: France,
China, Thailand, and India (22 countries all together.)
In India, where we lived for approximately a year, my
father picked up two more wives. We finally settled in
the small country of United Arab Emirates, just south
of Saudi Arabia.
Perhaps I lost my childhood during these years.
Perhaps I gained it. Either way, the experience was
irreplaceable. I was provided with a brother (Michael)
and a sister (Jessica) during these years. It quickly
became my responsibility to care for them, and I must
admit, I did a pretty good job. (considering I was about
6 or 7 myself.) During this time, God provided my
parents with the ability to locate us, and we received
letters and packages from them faithfully. When I was
eight, the insidious mother of my sister, and I began
to imagine wild schemes of getting back to America.
My parents provided us with plane tickets to America
and we “ran away.” I arrived back in America two
weeks before my 9th birthday. Only a few weeks later,
the U.A.E. airports were shut down by Americans due
to the expending Gulf War. Narrow escape.
The strange part was that I never really realized
that anything was out of the ordinary while I was
absent from the States. I never missed America, or
cried myself to sleep, anything like that. It’s quite
amazing when I look back on some of the things I
experienced, (not mentioned in here) Amazing that
God gave me the power to make it through without
any psychological problems or anything.
Amazing that he was right by my side all that
time and I never really realized. (Romans 8: 38 + 39)
Also, despite my lack of education during my first,
second, and third grade years, upon returning to the

App.l64a
United States, an assessment test revealed that I was
as knowledgeable as the majority of people my age. I
was immediately allowed to be entered into the fourth
grade. (Now, I can honestly say that I’ve only attended
8 grades!) The first thing I did was rededicate myself
to God with many thanks for helping me through. It
would have been physically impossible for me to have
made it without Him.
Since then everything has been relatively normal.
Or, at least, as much as can be expected. We have to
go to court about 3 or 4 times a year (though he’s kinda
laid off lately) for custody cases, and he unsuccessfully
attempted kidnapping again in 1991. I’ve greatly
prospered since then. My walk with God is closer than
it’s ever been before, and though I’m satisfied. I know
there’s a lot more out there for me. I think I’m capable
of doing a lot more than I am doing. The hardest part
of being a Christian is definitely surrendering your
will. Despite all God’s done for me, I still have little
internal struggles about how much I should do for
Him. Needless to say, the answer’s obvious, but that’s
hard to admit sometimes.
I think the greatest verse ever is Hebrews 12; 29:
“For our God is a consuming fire.” I like it, not only
because it’s short and I can memorize it easily, but it’s
really true. God begins a little spark in the heart of a
believer, and before you know it, everyone’s on fire. I’ve
found, too, that once you get caught up in it, God takes
completely over your life, and there’s no turning back!!
One verse that I’ve completely taken to heart, though,
is found in Matthew 10:16. Jesus had just called his
disciples and granted them the power to cast out evil
spirits and heal people, before sending them out into
the world, he gives them these instructions: “Behold,

(<‘S3Aop sb ssajuiJBq puB ‘s^uadias sb bsiav aaojaiaq:}
aA aq :s3ajom jo ^spiui aq:} ui daaqs sb qpioj noA puas j

Bggiddy

App.l66a
AMENDED COMPLAINT
(JANUARY 18, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
SAMUEL H. SLOAN,
Plaintiff,
v.
MARIA CHILDRESS, SHAYAM RAMAN, SUSAN
SWECKER, CHRIS BOLLING, MARK HERRING,
RALPH NORTHAM, LAWRENCE JANOW,
J. MICHAEL GAMBLE, WILLIAM G. PETTY,
FRANK G. DAVIDSON III, NORMAN K. MOON,
CHARLES EDWARD ROBERTS, DARRELL JAY
ROBERTS, JEFFERSON BEAUREGARD
SESSIONS III, UNITED STATES
DEPARTMENT OF JUSTICE,
Defendants.
Case No. 3:2018cv260
JURISDICTION
Jurisdiction of this case is based on the First,
Fifth and Fourteenth Amendments to the Constitution
of the United States including Freedom of Religion,
the Civil Rights Acts including 42 USC 1983, 28 USC

App.l67a

1331, the Voting Rights Acts, the RICO Corrupt
Practice Acts, and the right to Petition the Government.

NATURE OF THE CASE AND
THE FACTS OF THE CASE
1. This action arises initially from the kidnapping
and adult and child abuse of Plaintiffs mother and
daughter in 1990.
2. These kidnappings took place after four years
starting in 1986 during which defendants persistently
and repeatedly attempted to kidnap Plaintiffs mother
and daughter and have then brought by force against
their will back to America.
3. Plaintiffs mother, Dr. Helen Marjorie Sloan,
age 80, was kidnapped out of her hospital room in the
Bangkok General Hospital in Bangkok Thailand in
September 1990 by one Boonchoo.
4. He kidnapped her by having her injected by a
drug that knocked her out and then having her taken
out unconscious on a stretcher.
5. This kidnapping was witnessed by her grand­
children, Shamema, Michael and Jessica, who were in
the hospital room with their grandmother when this
kidnapping took place.
6. Plaintiffs daughter, Shamema Honzagool Sloan,
age 8, was kidnapped one month later in Fujairah,
United Arab Emirates, in October 1990.
7. Both of these kidnappings were carried out by
one Boonchoo and by his assistant John L. Sobell, who
had been paid substantial funds by certain of the
defendants to carry out these kidnappings.

App.l68a

8. After these kidnappings, Dr. Helen Marjorie
Sloan was taken first unconscious on a stretcher to
Maryland and then transported to various places and
finally to Aiken, South Carolina where she was kept
under confinement until she died in 2002, 12 years
later.
9. After the kidnapping of Shamema Honzagool
Sloan in the United Arab Emirates in October 1990,
by Charles, Shelby and Jay Roberts, she was taken to
their home in Madison Heights Virginia which is in
Amherst County Virginia and is near Lynchburg.
10. Shamema was held there for ten years during
which time she was never allowed to see nor to contact
her natural mother, Honzagool of Chitral Pakistan, or
her father, Samuel Howard Sloan, the plaintiff here.
11. During this entire time, the natural parents
of the child had legal custody of Shamema by order of
judges Mercorella and Silbowitz the Bronx New York
Supreme Court.
12. The entire case file in the Bronx Supreme
Court is available online at www.bronxcountyclerkinfo.
com/law Case No. 17815 Year 1981 Sloan vs. Awadallah
13. That case file comprises nearly one thousand
pages of papers, pleadings and transcripts.
14. True copies of the court orders of the Bronx
Supreme Court have been filed by Plaintiff with this
court as exhibits.
15. Defendants here, including LAWRENCE JANOW,
J. MICHAEL GAMBLE, WILLIAM G. PETTY, FRANK
G. DAVIDSON III, NORMAN K. MOON, CHARLES
EDWARD ROBERTS, DARRELL JAY ROBERTS, led
others to believe that the case in Bronx New York had

App.l69a

been transferred to Virginia. However, this was not
true. There was no transfer order nor proceedings to
transfer a completed case to another state or jurisdic­
tion.
16. The Roberts caused to be published newspaper
articles stating that they had adopted Shamema or
that Shamema was their foster child. This was false
and misleading and not true either.
17. No child custody proceedings took place in
Virginia until 1991 after the child had been kidnapped
in 1990 and brought to Virginia, except that Frank G.
Davidson III filed a custody petition on August 27,
1986 at a time when he knew the child was no longer
in the Commonwealth of Virginia. A copy of the
Davidson petition is included among the submitted
exhibits.
18. There was a total absence of jurisdiction not
even a scintilla of jurisdiction for the Virginia Courts
to claim jurisdiction over this child especially since the
child had been born in New York City and had lived
the majority of her life in other countries including the
United Arab Emirates.
19. The Roberts kidnapped this child because
they wanted the child to convert her to their fanatical
Jerry Falwell branch of Christianity.
20. After kidnapping the child, they baptized the
child and required her to attend church and participate
in Christian Worship Services.
21. The parents of the child, including Plaintiff,
are Muslims and objected vehemently to having this
child kidnapped and raised in Christianity.

App.l70a

22. Included among the exhibits filed in this case
by Defendant Darrel Jay Roberts is a color picture of
Shamema receiving a diploma from none other than
Jerry Falwell himself.
23. In September 1990, when Plaintiff realized
that his daughter was missing and had been kidnapped,
he immediately called FBI Agent John P. Butler at the
Roanoke Virginia branch office of the FBI.
24. Plaintiff now believes that John P. Butler
was a pseudonym but nevertheless that the person he
spoke to was a real FBI Agent.
25. Plaintiff informed Butler that his daughter
had been kidnapped.
26. Plaintiff and Butler had had numerous tele­
phone conversations over the previous four years
because Butler was trying to arrest plaintiff at the
behest of Defendant William G. Petty who was at that
time the Lynchburg Virginia Commonwealth Attorney.
27. The reason William G. Petty got involved in
this case was the Amherst County Commonwealth
Attorney Ed Meeks had correctly determined that
Virginia had no jurisdiction over any child custody
case involving Shamema Honzagool Sloan and had
dismissed all the cases.
28. Knowing that Ed Meeks had dismissed all the
cases, the Roberts Family had gone to the Lynchburg
Commonwealth Attorney who agreed to take the cases
even though Lynchburg had no jurisdiction over the
matter.
29. Defendant William G. Petty is an active
member of the Jerry Falwell Baptist Church who
wanted the child too and took the cases for that reason.

App.l71a

30. In June 1991, Defendant Judge Lawrence
Janow “Awarded Custody” of Shamema Honzagool
Sloan to Charles and Shelby Roberts. This was eight
months after the Roberts had paid to have the child
kidnapped in the United Arab Emirates in October
1990.
31. Judge Janow knew that the Roberts had
kidnapped the child and had brought her to Virginia.
32. This was the first time that anybody other
than the parents of the child had been given custody
of the child by any court order.
33. On September 4, 1986, Plaintiff appeared
with his mother before Judge Kristin Booth Glen in
Manhattan Supreme Court, New York New York for
a scheduled custody hearing involving Plaintiffs two
other children, Peter Julius Sloan and Mary Rachel
Sloan, ages 7 and 6, by a wife named Anda of Riga
Latvia.
34. Just as the custody hearing was about to
begin, the telephone rang. It was Judge Larry Janow
calling from the Amherst County Family Court claiming
that Plaintiff had kidnapped his daughter Shamema.
35. Hearing this, Judge Glen suspended the
hearing. She said that she had seen the child as
Plaintiff and his mother had brought the child with
them to court the previous day, although the child was
not present on the current day.
36. The police came and Plaintiff and his mother
were arrested and taken into custody.
37. Walter Anderocci, the attorney for Anda, said
he was in contact with Creighton Sloan and Creighton

App.l72a

was prepared to come to court and take Plaintiffs
mother to North Carolina.
38. Upon hearing this, Plaintiffs mother said, “I
want nothing to do with Creighton.”
39. Plaintiff and his mother were taken to the
New York Police Department located at 19 Elizabeth
Street, New York NY 10013. Sloan was put in jail.
Plaintiffs mother was given a chair to sit on outside
his jail cell.
40. Two hours later, Sloan and his mother were
released. The police officer explained that they had
called the Amherst Country Commonwealth Attorney’s
office and had been informed that there was no
warrant for their arrest.
41. This was the first of many instances where
plaintiff and his mother were subject to detention
based on statements by Judge Larry Janow.
42. On September 4, 1986, the same day as the
telephone call from Judge Janow and the aborted
hearing before Judge Glen in New York, Judge Janow
issued an order “awarding custody of Shamema Sloan
to the Amherst County Department of Social Services”.
A copy of this so called order is included in the exhibits
previously submitted.
43. This order was legally invalid because Judge
Janow knew that Shamema Sloan was not in the
Commonwealth of Virginia and therefore Virginia had
no jurisdiction over her.
44. Judge Janow also knew that the Bronx New
York Supreme Court had awarded custody of Shamema
and the case had not been transferred to Virginia.

App.l73a

45. In addition, under Rader vs. Montgomery
County Department ofSocial Services, 5 Va. App. 523,
365 S.E.2d 234 (1988), Judge Janow had no jurisdic­
tion to award custody to the Department of Social
Services unless the Department of Social Services had
filed a petition for custody which had not happened.
46. Realizing that Judge Larry Janow along with
the Roberts Family plus Creighton Sloan and Frank
G. Davidson III would try again and again to have
detained both Plaintiffs mother and child, the mother
and child obtained passports and fled the country.
47. In a relentless chase around the world, the
bad guys tried to have them detained in Rio Gallegos
at the bottom of Argentina, in Paris France, in
Budapest Hungary, in Dubai United Arab Emirates
and in other places around the world.
48. Plaintiff and his mother and daughter were
chased from country to country by these people
seeking to have them detained and rendered back to
America.
49. When the Sloan Family consisting of Plaintiff,
his mother and his daughter, reached Dubai United
Arab Emirates in November 1986 for the World Chess
Olympiad, the US Consular Officer John Lister of the
US Embassy there informed Hugh Myers and other
members of the US Delegation and Team players that
Sloan was “wanted by the law” back in the United
States for kidnapping his daughter Shamema.
50. In Virginia, except for the bare petition for
custody filed by Frank G. Davidson III for the Roberts
several days after Sloan had left the Commonwealth
of Virginia with his mother and daughter, there was
no service of process, there were no papers or pleadings,

App.l74a
there were no hearings or transcripts and in short
none of the things one would expect to find in a con­
tested child custody case were there.
51. The entire case file if it ever existed in the
Amherst County Juvenile and Domestic Relations
Court or in the Amherst County Circuit Court has
been shredded. No documents remain nor even the
name of the case remain in the court files.
52. Plaintiff tried several times to appeal to the
Virginia Court of Appeals. However, every time he did
that, within a few days Judge Norman Moon, a judge
of that court dismissed the appeal before the case could
be transmitted to that court and normal records and
briefs filed.
53. Thus, there is no record of this case ever
reaching the Virginia Court of Appeals.
54. After his mother and daughter had both been
kidnapped, Plaintiff returned to the USA where he
spent two months researching case law in the Columbia
University Law Library. There he found case law
showing that the federal courts have jurisdiction over
a case such as this case under the International Child
Abduction Remedies Act among others.
55. However, when he filed his case, Sloan vs.
Pattison in federal court in Lynchburg, Judge Turk
dismissed the case obviously without ever reading the
complaint only two days later.
56. After that, Sloan tried various ways to get
around Judge Turk such as by filing a case in other
jurisdictions or under different legal theories such as
Sloan vs. Spagnolo alleging that the Roberts were
. abusing the child by not allowing her to go to school.

App.l75a

This was because the Temple Baptist Church and
School and Jerry Falwell’s Liberty Christian Academy
are not registered as schools with the Virginia Depart­
ment of Education.
57. Judge Turk had left instructions that all
cases filed by Sloan anywhere in Virginia be transferred
to him and he dismissed all the cases immediately
after filing.
58. Sloan then named Judge Turk as a defendant.
However, by then Judge Moon, the same judge who
had dismissed all of Sloan’s appeals to the Virginia
Court of Appeals, was now a judge in the federal
courts and he summarily dismissed Sloan’s case there.
59. Before all this and before she had been
kidnapped, Dr. Helen Marjorie Sloan, mother of
Plaintiff, filed her own case in the Lynchburg Circuit
Court, Sloan vs. Miller. The documents in that case are
included in the previously submitted exhibits here.
60. The complaint in the Sloan vs. Miller case
which was notarized by the US Embassy in Abu Dhabi
named many of the same defendants here and she
alleged that these people were all trying and con­
spiring to have her kidnapped and brought back to
America.
61. These defendants proceeded to carry out the
very kidnapping that she correctly alleged that they
were trying to accomplish.
62. Behind all this was their mistaken belief
that Plaintiff and his family were extremely wealthy.
This was because Alfred P. Sloan, Jr. was the richest
man in the world because he was the chairman and

App.l76a
controlling stockholder of General Motors Corporation,
the largest industrial corporation of the world.
63. Leroy B. Sloan, the father of Plaintiff, often
said that he owned General Motors stock. This led
defendants to believe that the stock he owned was in
the millions. However, in reality, Leroy Sloan owned
less than two hundred shares and the stock he owned
had been purchased in the monthly stock dividends
reinvestment plan, and had not been acquired by in­
heritance.
64. On December 31,1985, New Year’s Eve, Alma
Coates Dawson, a client of the Law Firm of Defendant
J. Michael Gamble, purported to marry Leroy B. Sloan
in the emergency room of the Lynchburg General
Hospital while Leroy Sloan was suffering from brain
seizures and was attached to life support equipment.
65. Leroy B. Sloan died shortly thereafter.
66. After this death bed marriage, the law firm
who had represented Alma Coates Dawson in her
many marriages, the Law Firm of Pendleton and
Gamble, filed a renunciation of the Will of Leroy B.
Sloan meaning that Alma Coates Dawson was claiming
the “widow’s share” of Leroy Sloan’s estate.
67. Not only did Alma Dawson claim that she
was entitled to the $50 million in General Motors
stock she believed Leroy B. Sloan had, but she claimed
that as Leroy Sloan had been a special agent for the
United States Treasury Department and an auditor
for the Internal Revenue Service, he had amassed
great wealth by taking bribes from taxpayers or from
would-be or should-be taxpayers.

App.l77a

68. Leroy B. Sloan had often said he had his
stock certificates in a safe deposit box in the Central
Fidehty Bank on Main Street in Lynchburg. Therefore
the Law Firm of Pendleton and Gamble served sub­
poenas on Central Fidelity Bank and on all of the
other banks in Lynchburg seeking access to his safe
deposit box.
69. However, in reality, Leroy B. Sloan never
had a safe deposit box in Lynchburg or anywhere else.
Helen Marjorie Sloan, Plaintiffs mother, had a safe
deposit box there.
70. That box has since disappeared. The vault
containing that box now belongs to Bank of the James
on Main Street in Lynchburg.
71. Dr. Helen Marjorie Sloan never had the
opportunity to get into that box after she was forced
to flee Lynchburg on August 25, 1986, because she
was never able to return to Lynchburg.
72. All efforts to locate the box or its contents
including with the Virginia Department of Abandoned
Property have failed.
73. The General Motors stock if it exists is now
worthless as General Motors filed for bankruptcy.
74. Following the death bed marriage, the law
firm of Pendleton and Gamble filed several court cases
against Plaintiff and his mother Helen Marjorie Sloan.
Copies of the pleadings are included in the exhibits
already submitted here.
75. After J. Michael Gamble was appointed as a
circuit court judge in 1991, he took jurisdiction over all

App.l78a

the Sloan cases even though he was obviously dis­
qualified as he had filed them as attorney for Alma
Coates Dawson.
76. Chief Judge Mosby Perrow Jr. several times
ordered that all judges in the 24th judicial district
were disqualified from hearing any of the Sloan cases
due to conflict in interest. The conflict was obviously
because Judge Gamble was one of those judges and he
had filed several court cases pending against Sloan.
77. None of those court cases have ever been
resolved and all of them are still technically pending
to this day.
78. All of the defendant judges here are judges of
the 24th Judicial District, yet none of them have dis­
qualified or removed themselves from these cases.
79. Helen Marjorie Sloan also filed a case against
Sovran Bank for freezing her bank account. The
pleadings in that case were lost by the courts and the
attorney filing them David C. Dickey has since died
but the pleadings have recently been found and are
included in the submitted exhibits here.
80. Following the kidnapping of Sloan’s daughter
from the front yard of Sloan’s residence in Fujairah,
United Arab Emirates, Sloan almost immediately
called the FBI Office in Roanoke Virginia to inform
them of the kidnapping of his eight-year-old child.
81. After that, Sloan called the FBI innumerable
other times and spoke to different FBI agents about
this.
82. In spite of all these calls, the FBI undertook
no investigation of these kidnappings.

App.l79a

83. The reason we know that the FBI did not
investigate these kidnappings is that had they done so
they would have interviewed the people involved and
with knowledge of the facts including Renuka,
Shantilatha, Dayawathie, the Plaintiff and the kidnap­
ping victims Shamema Honzagool Sloan and her
grandmother Dr. Helen Marjorie Sloan.
84. None of these people were ever contacted or
interviewed, so we know that the FBI never investigated
this crime.
85. It is submitted that the FBI was required by
law to issue an Amber Alert that the child age 8 had
gone missing. The FBI never did so.
86. The Department of Justice and the Attorney
General are properly named as defendants here
because they supervise the FBI and thus should have
required the FBI to investigate these crimes to this day.
87. The obvious reason why the FBI never investi­
gated this was they and the US Attorney in Roanoke
believed that Charles and Shelby Roberts had legal
custody of Shamema Honzagool Sloan by order of
Judge Lawrence Janow.
88. However, this was not true. Judge Janow
had never issued an order awarding custody of Shamema
to the Roberts. The order in effect at the time Sloan
left the Commonwealth with his mother and daughter
had given custody of Shamema to Plaintiff himself.
That order is included in the exhibits.
89. Even though the defendants disapproved of
the life-style, the religion, and the many wives and
children of Plaintiff, they could not legally ignore the

App.l80a

fact that an eight-year-old child had been kidnapped
by non-relatives, the Roberts.
90. It was total fiction that the Roberts had legal
custody of Shamema but nevertheless law enforce­
ment agencies around the world were informed by the
Roberts, Bill Petty and Judge Janow and led to believe
that the Roberts had legal custody of Shamema.
91. On the day before an appeal hearing was
scheduled to be heard in the Virginia Supreme Court,
Plaintiff was arrested in the back yard of his mother’s
house at 917 Old Trents Ferry Road in Lynchburg
Virginia where he was visiting with his daughter.
92. Sloan was charged by defendant William G.
Petty with “attempted abduction” of his own daughter.
93. This was a felony charge but the charge was
bogus because in order to be a felony the child must
have been taken out of state but here the child had
never even left the vicinity of her grandmother’s house.
94. After she was kidnapped and taken to Virginia
in October 1990, Shamema went on a self-declared
strike and refused to speak to the Roberts or to any­
body associated with them for several years.
95. When asked why she never talked, the Roberts
said that she was “a quiet child”.
96. However, Shamema had been a non-stop
talker before she had been kidnapped in the United
Arab Emirates. Thus she was an abused child, abused
by the Roberts and their church as shown by the fact
that she never talked.
97. Shamema was a victim of child abuse in several
respects, one being she was led to be confused as to who

App.l81a

her real parents were. Shelby Roberts said to her “I
am your mother” and Shamema got scared and ran
away. After that, she was required to call Shelby Roberts
“Mom” and Charles Roberts “Dad”.
98. To this day, Shamema, now 36 with two
children, does not fully understand what happened.
99. When Sloan was arrested in 1992, he was a
declared candidate for Governor of Virginia. This was
later announced in the Richmond Times Dispatch.
100. However, plaintiff was not able to run for
governor or any other elected position because of the
felony disenfranchisement law, as he was convicted of
a felony in January 1993, even though the acts he was
charged with were not really felonies.
101. Sloan wanted to be able to run for election so
he could bring his case to the people about his mother
and daughter being kidnapped, the same case pre­
sented here.
102. Finally, in 2018 the Governor of Virginia
signed an order restoring his civil rights so Sloan was
able to run for US Congressman from the 6th Con­
gressional District.
103. Sloan and his campaign manager Shantilatha
circulated petitions and collected all the required
signatures and paid all the required fees and filed
with the Virginia Department of Elections.
104. In spite of completing in every way the
requirements to get on the ballot, the name of Sam
Sloan did not appear in the primary ballot.
105. No reason for this has been given except that
the Democratic Party Chairman for this district,

App.l82a

Defendant Maria Childress, told Shantilatha that
“her boss” had told her not to allow the name of
Plaintiff to appear on the ballot.
106. We do not know what the name of her boss is
but we infer that her boss must be either Shayam Ra­
man, Political Director of the Democratic Party of
Virginia, Susan Swecker is the Chairwoman of the
Democratic Party of Virginia, Chris Bolling Executive
Director to the Democratic Party of Virginia, Ralph
Northam, then Governor of Virginia, or Mark Herring,
Attorney General of Virginia.
107. Plaintiff is a long time resident of the
Commonwealth of Virginia and was born in Richmond.
108. Plaintiff was a candidate for Election as a
Democrat to the United States Congress from the 6th
Congressional District. That District includes Roanoke,
Lynchburg, Harrisonburg, Staunton, Lexington and
places in between.
109. Judge Gamble removed Sloan’s two criminal
defense attorneys from defending him over the strenuous
objections by Sloan and Judge Gamble appointed in
their place an attorney who he know was not going to
defend Sloan.
110. Plaintiff only served 18 months in Powhatan
and Dillwyn Prisons in Virginia even though defendant
Commonwealth Attorney Willian G. Petty had tried to
have him sentenced to 15 years in prison
111. Plaintiff intended upon his release from
prison to return back to his mother’s house located at
917 Old Trent’s Ferry Road in Lynchburg Virginia,
the same house where he had been arrested in 1992.

App.l83a

112. However, in order to deprive Sloan and his
children of a place to live, only three weeks before
Sloan was due to be released, Judge Gamble ordered
his mother’s house sold to a Mr. Taylor.
113. However, Mr. Taylor died only two weeks
later so then Judge Gamble ordered the house sold to
another person.
114. All this was done without the slightest
scintilla of jurisdiction. No summons and complaint
had been served on either Plaintiff or on his mother
who was locked up in Aiken, South Carolina. There
was no reason nor legal basis to sell the house. There
was no mortgage nor taxes owed on the house.
115. As there was no jurisdiction for the same of
the house, the sale of the house was null and void and
still belongs to Plaintiffs family.
Almost all of the proceeds for the sale were paid
as legal fees to Cecil Taylor and to Frank G. Davidson
III, the same person who had started all this litigation
and who now claimed to be the guardian ad litem for
Helen Marjorie Sloan.
116. None of the proceeds were received by Plaintiff
or by his mother.
117. Following Sloan’s release from prison, the
Roberts started following Sloan around in their car
trying to catch him doing something that they could
claim was a parole violation so he would be sent back
to prison.
118. Realizing this, Sloan had his parole case
transferred to San Francisco California where the
Roberts’ further efforts to have Sloan arrested again
were unsuccessful.

App.l84a

119. Even after Sloan’s case was transferred to
California, the Roberts and their attorneys continued
to write letters to Senators, Congressmen, the President
and other politicians demanding that Sloan be arrested
and brought back and put back in prison.
120. Plaintiffs Father, Leroy B. Sloan, had been
an attorney and a special agent for the Internal
Revenue Service where he had been part of a team of
investigators trying to investigate Jerry Falwell of
Lynchburg Virginia.
121. Jerry Falwell was almost the only tele­
evangelist who did not go to prison. The reason that
he did not go to prison was he was protected by the
Lynchburg Area Judges, some of whom are defendants
here.
122. The Lynchburg defendants here had an
animus towards Leroy B. Sloan because he had been
trying to put their pastor, Jerry Falwell, into prison
especially for securities law violations by selling
worthless Church Bonds.
123. The sale of worthless church bonds was the
major reason why several banks and savings and
loans in Texas went bankrupt, but Jerry Falwell who
had sold those bonds was protected from prosecution
by some of these same judges here and he had never
had to pay the money back.
124. The defendants had animus towards plaintiffs
mother because she was a child psychiatrist and many
of the most devoted followers of Jerry Falwell were
mentally ill and were sent to prison or mental hospital
upon the recommendation of plaintiffs mother.

App.l85a

125. Plaintiffs mother was also a doctor on the
staff of the Lynchburg Training School and Hospital,
otherwise known as “the Colony” where severely
mentally retarded and basket cases were kept near to
the home of the Roberts.
126. The two attorneys who represented the Roberts
in court were Linda Williams Groome and Lisa
Schenkel. Both of them were employees of Jerry
Falwell and were primarily teachers in the Thomas
Road Baptist Church and Liberty Christian Academy.
127. Judge J. Michael Gamble and Judge Janow
were long time law partners before they both became
judges.
128. When a case goes on appeal, the appellate
court judges are supposed to be independent from
each other and from the lower court judge. However,
Judge Gamble heard all the appeals from Judge
Janow, in spite of the objections by Plaintiff.
129. Here Judge Janow, Judge Gamble, Judge
Moon, now Judge Petty and the late Judge Turk live
near to each other and worked as a team together so
Plaintiff never had a chance to have his cases heard
by an independent judge.
130. Plaintiff had to wait until all of the above
judges retired or removed by the state legislature
before he could file a case with any chance for a
hearing, especially since all of these judges refused to
recuse themselves in spite of the repeated demands by
Plaintiff that they do so.
131. At a hearing before Judge Roy B. Willett in
1994, Shelby Roberts testified that she and her
husband Charles Roberts had paid $40,000 to have

App.l86a

Shamema picked up and brought from the United
Arab Emirates to Virginia. This included the money
they had paid to Boonchoo.
132. At a hearing before Judge Janow with
Charles Roberts present, Shantilatha testified that
Boonchoo had told her that if she did not cooperate by
helping the Roberts get Shamema, her baby will be
dead. It was this threat that caused her to cooperate
with the Roberts.
133. Upon hearing this testimony, Judge Janow
commented that “it was perfectly understandable”
that the Roberts would use this kind of threat to get
Shamema brought into their custody.
134. Plaintiff returned just last week in 2019 from
Pakistan where he visited the home of Honzagool, the
mother of Shamema, in Chitral, in Northwest Pakistan.
There, the cousin of Honzagool, who a lawyer and is
now a judge in the Civil Court of Swat, could not
understand how a court in Virginia where Honzagool
has never lived could have taken custody away from
the mother and given it to an unrelated third party
without notice or the opportunity for a hearing to the
mother.
135. Plaintiff was forced to explain this by revealing
that the courts in Virginia are even more crooked,
incompetent and corrupt than the courts in Pakistan.
COUNT ONE
(l) Plaintiff Repeats and Realleges each and every
allegation made in paragraphs 1 through 332 of the
original complaint and in all of the paragraphs of the
above amended complaint.

App.l87a
(2)Petitioners campaigning for Sloan collected
1226 signatures nominating him to run for United
States Congress. This was more than enough as only
one thousand signatures are required. These petitions
were submitted before 4:00 PM on Thursday March
29, 2018 at 915 Main Street, Room 304, in Lynchburg
to Maria Childress who is the Chairwoman of the
Democratic Party for the 6th Congressional District.
(3)Plaintiff paid the filing fee of $3480.00 to the
Virginia Department of Elections at 1100 Bank Street
in Richmond and complied in every way with the
requirements to run for election as a Democrat.
(4) Nevertheless, Defendant Maria Childress, who
is the Chairwoman of the Democratic Party for the 6th
Congressional District, threw him off the primary
ballot several days later without giving any reason
therefore and without even returning his many phone
calls.
(5) Plaintiff seeks to declare Unconstitutional the
Virginia Felony Disenfranchisement Law. In Virginia,
79% of the inmate population is Black whereas only
19.7% of the general population is Black. In Virginia,
Blacks are routinely sent to prison for minor offenses
such as traffic violations for which White men are
never imprisoned. In Virginia, 208,343 Black men
cannot vote because of the felony disenfranchisement
law, enough to change the results of this and many
other elections. The same law has already been
declared unconstitutional by the US Supreme Court
decision in Hunter v. Underwood, 471 U.S. 222 (1985),
an Alabama case.
(6)Plaintiff Samuel H. Sloan has a residence at
18 West Princeton Circle, Apartment 38, Lynchburg

App.l88a

VA 24503. Until recently, Plaintiff resided at 1018
Orchard Street, Forest Acres VA 24551.
(7) Plaintiff is a book publisher who has published
more than 900 books. Plaintiff is the author of “The
Slave Children of Thomas Jefferson” and several
other books. Plaintiff is the sole owner of Ishi Press, a
publishing company.
(8) Plaintiff argued orally before the United States
Supreme Court and won against the Securities Ex­
change Commission in SEC vs SamuelH. Sloan, 436
US 103 (1978). The Wikipedia Profile of Samuel H.
Sloan is available online at https://en.wikipedia.org/
wiki/Sam_Sloan
WHEREFORE, whereas the name of Plaintiff
that has been removed from the primary ballot of June
12, 2018 by Maria Childress and the Democratic Party,
Plaintiff must be restored by order of this court and
allowed to run as a Democratic Party candidate and
the election subsequently held must be declared void.
(9)Whereas Judge Michael Gamble illegally took
the Sloan Family residence at 917 Old Trents Ferry
Road, that house must be restored to the possession of
Plaintiff and the Sloan Family as Judge Gamble had
been disqualified from hearing that case by order of
Chief Justice Mosby Perrow III since Judge Gamble
was also representing plaintiff Alma Coates Dawson
in suits against Sam Sloan.
(10) WHEREAS Judge Gamble illegally took away
custody of Sloan’s daughters Shamema and Jessica
and gave them to the Roberts Family, those orders
must be reversed and declared Null and Void, as there
is no legal bases for taking a child away from the
natural parents and giving her to unrelated third

App.l89a

parties who only wanted the child for purposes of
religious conversion.
(ll) The convictions of Plaintiff Samuel H. Sloan
for attempted abduction of his own daughter and
failure to appear for a trial that never took place must
be set aside and declared null and void because
Plaintiff Sam Sloan had custody of his daughter by
order of the Bronx New York Supreme Court and under
the Uniform Child Custody Act custody proceedings
could not be transferred to another state such as
Virginia.
(12) The Felony Disenfranchisement Law of
Virginia must be declared unconstitutional and null
and void. Sloan was falsely convicted of non-crimes
while he was a declared candidate for Governor of
Virginia in 1992-1993 and he was prevented from
running for public office for 25 years because of these
wrongfully obtained convictions.
(13) Judgment should be awarded in favor of
Plaintiff for $50 million, the same amount Defendants
thought they were going to get from the estate of the
father of Plaintiff.
(14) WHEREAS Defendants Lawrence Janow, J.
Michael Gamble, William G. Petty, Frank G Davidson
III and Norman K. Moon are clearly guilty of kidnapping
and conspiring to kidnap Plaintiffs daughter and
cover-up of these crimes, and since they have insider
friends who will spring them from the jails, they
should be placed under arrest and placed in a secure
location from which there will be no escape such as
Guantanamo Bay.
(15) and this action be tried by Jury

App.l91a
BRIEF IN SUPPORT OF RENEWED
MOTION TO DISMISS AMENDED COMPLAINT
(JANUARY 25, 2019)
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
RICHMOND DIVISION
SAMUEL H. SLOAN,
Plaintiff,
v.
MARIA CHILDRESS, ET AL„
Defendants.
Civil Action No. 3:18cv260MHL
Defendant Judge William G. Petty (“Judge Petty”),
by counsel, moves the Court pursuant to Rules 12(b)(1)
and 12(b)(6) and Rule 8(a) of the Federal Rules of Civil
Procedure to dismiss all claims in this action against
him on the grounds that Plaintiff, in his Amended
Complaint filed January 18, 2019 (the “Amended
Complaint”), has failed to comply with this Court’s
December 21, 2018 Memorandum Order (the “Memo­
randum Order”), has not pleaded federal claims, has
failed to state a claim upon which relief may be
granted, has pleaded claims that are time barred
because of applicable statutes of limitations, and that
Judge Petty is protected by the doctrine of immunity

App.l92a
because he was a Commonwealth’s Attorney during
the period of which Plaintiff complains.1 Judge Petty
adopts and incorporates by reference his Motion to
Dismiss and Brief in Support of the Motion to Dismiss
that he filed on May 17, 2018 (“First Motion to Dis­
miss”).

In support of the instant Motion to Dismiss,
Judge Petty relies upon Plaintiff s Amended Complaint,
the Memorandum Order and this brief. Therefore,
Judge Petty respectfully states the following:
I.

The Memorandum Order

In its Memorandum Order, the Court stated that
Plaintiffs Complaint “plainly offends Federal Rule of
Civil Procedure 8 which requires a short and plain
statement for . .. jurisdiction and a statement [setting
forth why] the plaintiff is entitled to relief.” Memo­
randum Order at page 3. Specifically, Plaintiffs
Complaint offends Rule 8 because it “fails to give
Defendants reasonable notice if the causes of action
brought against them.” Id. The Court ordered that the
Amended Complaint set forth “in simple and straightfor­
ward terms” the relief he seeks and the jurisdiction of
the Court. Plaintiff has failed to do either.
II. Rule 8 Motion to Dismiss
The Plaintiff has failed to satisfy the requirements
of the Memorandum Order. Like the Complaint, the
Amended Complaint is but a stream of consciousness
mishmash of nonsense and conclusory invective. Rule

1 Since 2006, Judge Petty has been on the Virginia Court of Appeals
bench.

App.l93a

8(a) of the Federal Rules of Civil Procedure require
that all pleadings must contain
(1) a short and plain statement of the
grounds for the court’s jurisdiction, unless
the court already has jurisdiction and the
claim needs no new jurisdictional support;
(2) a short and plain statement of the claim
showing that the pleader is entitled to relief;
and
(3) a demand for the relief sought, which may
include relief in the alternative or different
types of relief.
Fed. R. Civ. P. 8(a). While the Amended Complaint is
shorter, it is still 25 pages and 150 paragraphs.
Furthermore, it adds new allegations regarding a
kidnapped wife and the intrigue of a mysterious
“Boonchoo.” If this were a film, it would drop immed­
iately to DVD because no one could follow it. Un­
fortunately, it is not a film and it cannot be ignored at
RedBox. As an Amended Complaint, it fails to inform
Judge Petty (or any other defendant) of the nature of
the claims against him and it certainly fails to set out
facts and derived claims as to each defendant, as
required by the Memorandum Order.
Plaintiffs statement regarding jurisdiction is
nothing more than a recitation of certain amendments
to the United States Constitution and several statutes.
There is no statement regarding how this Court has
grounds to hear the matter(s) presented, if indeed
there are any.
In its 135 confused and longwinded paragraphs,
Judge Petty is rarely mentioned or referenced in the

App.l94a
Amended Complaint. At paragraph 15, Judge Petty is
alleged to have “led [unnamed] others to believe a case
had been transferred to Virginia from New York.” At
paragraph 26, Plaintiff states that Judge Petty was
the Lynchburg Commonwealth’s Attorney “at that
time,” although it is unclear when that was. At para­
graph 27, Plaintiff makes a conclusory statement that
Judge Petty was involved “in this case” because
another Commonwealth’s Attorney determined that
the Commonwealth had no jurisdiction. At paragraph
28, Plaintiff again proffers the conclusory statement
that Judge Petty “agreed to take the cases even
though there was no jurisdiction in Lynchburg.”
(Plaintiff alternates between “case” and “cases” through­
out the Amended Complaint, adding even more confu­
sion to an already barely comprehensible Amended
Complaint.) Or is Plaintiff simply stating that, as
Commonwealth Attorney, Judge Petty handled certain
matters that were referred his office in their normal
course? Our guess is as good as Boonchoo’s. At para­
graph 29, Plaintiff alleges that Judge Petty is a mem­
ber of “Jerry Falwell Baptist Church,” “who wanted
the child,” spurring Judge Petty to take the “cases.”
These are hardly statements that lay out facts or any
clear claim against Judge Petty or why Plaintiff is
entitled to any relief.
At paragraphs 90 and 129, Plaintiff vaguely
asserts that Judge Petty, with others, misled unnamed
law enforcement agencies about the legal custody of a
child and that he lived near other judges, who inferentially were working to deny Plaintiff an independent
hearing. No time frame or statement or actions by
Judge Petty is offered. Paragraph 90’s use of “[it] was
plain fiction” can be applied to the entirety of the

App.l95a

Amended Complaint. In paragraph 14 of “Count
One,’’/Prayer at page 25, Plaintiff simply concludes,
without any supporting factual allegations, that Judge
Petty is “clearly guilty” of kidnapping and covering-up
the kidnapping, for which he should be sent to
Guantanamo Bay to await a trial. This is sheer lunacy.
Because of the foregoing, the Amended Complaint
should be dismissed, with prejudice, as to Judge Petty.
III. Rule 12 Motion to Dismiss
Judge Petty incorporates by reference the argu­
ment set forth in his First Motion to Dismiss. Because
of this, the Amended Complaint should be dismissed,
with prejudice, as to Judge Petty.
IV. Conclusion
Plaintiff fails to state a claim upon relief can be
made and fails to concisely state the jurisdiction of the
court or set forth any relief that he would be entitled
to and, therefore, the Amended Complaint should be
dismissed, with prejudice, as to Judge Petty.

App.l96a

Respectfully submitted,
WILLIAM G. PETTY
By Counsel
/s/ Thomas N. Jamerson
William F. Etherington
(VSB # 14152)
Thomas N. Jamerson
(VSB # 75035)
1001 Boulders Parkway
Suite 510
Richmond, VA 23225
(804) 788-1500
(804) 788-0135 (facsimile)
wetherington@bealelaw.com
tjamerson@bealelaw.com

EXHIBIT A
AWADALLAH WRIT OF HABEAS CORPUS
(DECEMBER 9, 1981)

Exhibit A
Plaintiff filed a child custody case for his daughter
Shamema Honzagool almost immediately after her
mother had given birth on October 15, 1981 because
her affairs had been taken over by Militants from
Pakistan. These Pakistan militants were associated
with Columbia University in New York. They were
enraged that a Pakistan girl had been married to an
American Man. This case is entitled M. Ismail Sloan

App.l97a

vs. Abdul Awadallah and Honzagool Index No. 17815/
1981 and generated a tremendous amount of newspaper
and television publicity including front page pictures
in the New York Daily News and the New York Post
and more than one hundred newspaper articles in
Pakistan. Here is the complaint filed in this case.

App.l98a

PETITION FOR WRIT OF HABEAS CORPUS
SUPREME COURT OF THE STATE OF
NEW YORK, COUNTY OF BRONX

ISMAIL SLOAN,
Petitioner,
v.
ABDUL AWADALLAH and HONZAGOOL,
Respondents.
Index Number. 17815/81
To: The Supreme Court of the County of Bronx:
The petition of Ismail Sloan shows that:
1. The petition is made on behalf of petitioner’s
daughter, Shamema Honzagool Sloan, who is detained
by Abdul Awadallah, a male person unrelated to
petitioner’s daughter, and by petitioner’s wife, Honzagool
(the mother of Shamema Honzagool Sloan) at 312
East 187th Street, Bronx, New York 10454.
2. Petitioner’s daughter, Shamema Honzagool
Sloan a/k/a Shamema Honzagool (“Shamema”), was
born on October 15, 1981 at Columbia Presbyterian
Medical Center, 622 West 168th Street, New York,
New York. (The birth certificate improperly identifies
the infant as “Shamema Honza Gool”, which was done
to permit respondents to apply for various welfare

App.l99a

benefits as if the child were illegitimate.) Respondent
Abdul Awadallah has induced respondent Honzagool
to reside with Shamema in a building located at 312
East 187th Street, Bronx, New York, in which he
maintains an apartment. Respondent Honzagool and
Shamema moved into such apartment and they now
reside there.
3. A court or judge of the United States does not
have exclusive jurisdiction to order the release of
Shamema.
The Relief Sought
4. The purpose of this writ is to seek the removal
of petitioner’s daughter Shamema from the custody of
her mother, respondent Honzagool, and place Shamema
in the custody of her father, the petitioner Ismail
Sloan. Such a change of custody would be in the best
interests of the child for the following reasons.
a.

Honzagool is an illiterate 19 year old from a
remote region of Pakistan, barely speaks
English and cannot function in this society,
whereas petitioner is a financial consultant
and author with various publications to his
credit;

b.

Honzagool is living in open and notorious
adultery with respondent Abdul Awadallah,
the self-styled “Sheikh” or “Imam” of a
religious cult and respondent Abdul Awadallah
is exploiting his relationship with Honzagool
to fraudulently obtain various monies from a
number of welfare agencies, while petitioner
on the other hand, intends to take Shamema

App.200a

to reside with himself and his mother, a child
psychiatrist;
c.

Honzagool has indicated a desire to return
with the infant Shamema to her native
region of Pakistan which would be highly
damaging to the best interests of the child
because the Chitral district, where Honzagool’s
family lives, is a remote and underdeveloped
region in which no medical services are
available and the infant mortality rate is
approximately 50%.

For all those reasons, it is imperative that this Court
immediately intervene to prevent petitioner’s rights
and those of his child from being irremediably damaged.
The Marriage and the Parties
1. Petitioner Ismail Sloan and respondent
Honzagool were lawfully married in a ceremony on
February 21, 1980 in Village Damik, District Chitral,
N.W.F.P., Pakistan.
2. Petitioner Ismail Sloan is a financial consultant
in the Wall Street Financial District. He received his
undergraduate education at the University of California
at Berkeley. He is presently a masters degree candidate
in the New York University Department of Linguistics.
He is a frequent traveler to countries of the Middle
East, including Pakistan. He is the author of a
dictionary published in Pakistan on the Khowar
language, which is the native language spoken by
respondent Honzagool.
3. Respondent Honzagool is a 19 year old and is
a native and a citizen of Pakistan. She has virtually
no formal education. She is unable to read or write her

App.201a

native language, which is Khowar, nor can she read,
write or speak the national language of Pakistan,
which is Urdu. She has only a limited ability to speak
English and cannot read or write English.
4. Abdul Awadallah is the fictitious name of the
respondent by that name, who is a converted American
Muslim. Petitioner has attempted to ascertain the
real, legal or original name of Abdul Awadallah but
has been unable to do so.
Honzagool’s Abandonment of Petitioner
Cohabitation with Adbul Awadallah

and

5. On or about April 19, 1981 respondent
Honzagool, the lawful wife of petitioner, abandoned
the marital residence of petitioner and respondent
without justifiable cause. From that date until October,
1981, petitioner was unable to determine the where­
abouts of Honzagool.
6. At some time thereafter, respondent Honzagool
took up residence with respondent Abdul Awadallah,
with whom she now resides.
7. Respondent Honzagool is now and, for some
time in the past has been, residing in a state of open
and notorious adultery with respondent Abdul
Awadallah, to the detriment of the best interest of
Shamema, the child of the marriage between petitioner
and respondent Honzagool.
The Best Interests of the Infant Shamema Would Be
Served by Residing with Petitioner
Petitioner Ismail Sloan is ready, willing and able
to support his child, Shamema Sloan, as well as his
wife, respondent Honzagool. In the event of the death

App.202a

or disability of petitioner, the mother of petitioner, Dr.
Majorie Sloan, who is a medical doctor practicing at
Western State Hospital in Stanton, Virginia, is ready,
will and able to support her granddaughter, Shamema
Sloan.
9. Respondent Abdul Awadallah is unemployed.
He is the head of a small Islamic religious cult
headquartered at the apartment which he shares with
Honzagool. He is known as “the Sheik” and is called
the “Imam” of this religious cult. He bills himself as a
lecturer on “mystic dance.” His control over respondent
Honzagool is based at least in part on claims of
religious superiority over petitioner Ismail Sloan. He
is unable to speak Khowar, the language of Honzagool,
and communicates with her in English which she
barely speaks or understands. He is unable to provide
proper financial support to Honzagool and to Shamema
Sloan. His telephone number has been disconnected.
The rent to the apartment in which he lives with
respondent Honzagool is paid for primarily by funds
received from the New York City Department of Social
Services in the form of Aid to Dependent Children.
10. Respondent Abdul Awadallah has grossly
interfered with the parental rights of petitioner Ismail
Sloan. He has threatened to kill petitioner. He has
repeatedly harassed petitioner and has assaulted him
physically. He has asserted to petitioner that he is the
de facto father of the child of petitioner and may be
the biological father as well. He has told petitioner
that he (Abdul Awadallah) is primarily the one
responsible for feeding the child, holding the child,
changing the diapers of the child and, in general,
caring for the child.

App.203a

11. Recently, respondent Honzagool has been
spending all or most of her days away from the child
while visiting “friends”. Respondent Abdul Awadallah,
who is unemployed and stays at home, has become the
primary caretaker of the child. Respondent Honzagool
has been prevented from taking the child from the house.
12. All of the above circumstances are detrimental
to the best interest of the child, Shamema Sloan. In
addition, the child may be in physical danger. There­
fore, custody of the child should be awarded to her
legal father, petitioner Ismail Sloan.
Honzagool’s Desire to Return to Chitral, Pakistan
13. Another reason why the requested change of
custody is in the child’s best interests is that Honzagool
now wishes to return with her to Pakistan. After
respondent Honzagool abandoned her husband, peti­
tioner Ismail Sloan, on April 19, 1981, she demanded,
through her relatives, that she be returned to Chitral,
Pakistan so that the child of this marriage would be
born in Pakistan and be raised there. Petitioner
Ismail Sloan refused to finance her return to Pakistan
on the ground that he wanted the child to be born in
the United States and to enjoy the benefits of United
States citizenship.
14. Respondent Honzagool now wishes and intends
to depart with her child from the United States and to
return with it to her home in Village Damik, Chitral,
N.W.F.P., Pakistan.
15. The removal of the child of petitioner to
Chitral, Pakistan would result in a gross interference
with the parental rights of petitioner and would be
detrimental to the best interests of the child. Chitral

App.204a
is the most backward and underdeveloped area of
Pakistan. There are no doctors in the area of respondent
Honzagool’s village in Chitral. Because of the local
custom of concealment of women, which is strictly
observed, women are not allowed to travel to visit a
doctor or a hospital in any case. Children’s diseases go
untreated in Chitral and the infant mortality rate in
the area is approximately 50%. Therefore, it would
obviously not be in the best interests of the child to be
exposed to the severe risk of disease and death
entailed in growing up in Chitral.
Abdul Awadallah’s Fraudulent
Honzagool and Shamema

Exploitation

of

16. One of the most pernicious aspects of
Honzagool’s cohabitation with Abdul Awadallah is
that this ignorant 19 year Pakistani girl is being
ruthlessly exploited by Abdul Awadallah for the
purpose of obtaining monies from unsuspecting welfare
agencies. This systematic pattern of fraudulent activity
includes the following:
a.

Honzagool has applied to the New York City
Department of Social Service for welfare
assistance (obviously with the assistance of
Abdul Awadullah, as she cannot read or write
English) falsely claiming to be unmarried.
Various forms of welfare assistance are
being received by her from this agency and
are being converted by Abdul Awadallah;

b.

Since the birth of Shamema, Honzagool has
also applied for and has been receiving aid to
dependent children from the New York City
Department of Social Services. In applying for

App.205a

such aid, Honzagool has fraudulently repre­
sented that the child is illegitimate (in further­
ance in which she refused to permit the name
“Sloan” to appear on the child’s birth certificate
so as to make the child appear illegitimate)
and that the father of the child is unwilling to
support her. Again, the funds have actually
been paid over to Abdul Awadallah; and
c.

None of these applications reveal that peti­
tioner is actually attempting to support her
and has caused his mother, Dr. Marjorie
Sloan, to send checks for $500 to Honzagool,
none of which has been disclosed to the
welfare authorities. Also, such checks have
simply been cashed and the monies converted
by Abdul Awadallah.

17. No previous application has been made in
this Court for the relief requested herein.
WHEREFORE, your petitioner prays that a writ of
habeas corpus issue, directed to respondents, requiring
the respondents to produce the said Shamema
Honzagool Sloan before a justice of this Court at
Special Term Part 5 thereof, County of Bronx, on
December, 1981.
/s/ Ismail Sloan
Bragar Spiegel Schulman
Rubin & Driggin
attorneys for petitioner
477 Madison Avenue
New York, New York 10022
Dated: December 9, 1981

App.206a
EXHIBIT B
ANSWER FILED IN BRONX SUPREME COURT
BY APPOINTED COUNSEL PHILIP NEWMAN
(DECEMBER 22, 1981)
Exhibit B
Here is the answer filed by Court Appointed
Counsel Philip Newman who is still practicing law in
the Bronx Supreme Court.

App.207a

NOTICE OF CROSS-MOTION
SUPREME COURT OF THE STATE OF
NEW YORK, COUNTY OF BRONX
ISMAIL SLOAN,
Plaintiff,
v.
ABDUL AWADALLAH and HONZA GOOL,
Defendant.
Index Number. 17815/81
SIRS:
PLEASE TAKE NOTICE, that upon the annexed
affidavit of HONZA GOOL, sworn to the 22nd day of
December, 1981, and upon all pleadings and proceedings
heretofore had herein, the defendant will cross-move
this Court at a Special Term, Part I, held in and for
the County of Bronx at the Courthouse located at 851
Grand Concourse, Bronx, New York on the 7th day of
January, 1981 at 9:30 o’clock in the afternoon of that
day or as soon thereafter as counsel can be heard for
an Order Granting attorney’s fees, support and tem­
porary alimony and for an Order denying petitioner’s
Writ of Habeas Corpus and for such other and further
relief as to this court may seem just and proper.

App.208a

Yours, etc.

GALLIN & NEWMAN, ESQS.
Attorneys for Defendant
Office & Post Office Address
860 Grand Concourse
Bronx, New York 10451
(212) 585-3512
Dated: Bronx, New York
December 22, 1981

To: Bragar Spiegol Schulman
Rubin Drigrrin, Esqs.
Attorneys for Plaintiff-Petitioner
477 Madison Ave.
New York, New York 10022

App.209a

AFFIDAVIT IN SUPPORT OF CROSS-MOTION
SUPREME COURT OF THE STATE OF
NEW YORK, COUNTY OF BRONX

ISMAIL SLOAN,
Plaintiff,
v.
ABDUL AWADALLAH and HONZA GOOL,
Defendant.
Index Number. 17815/81
HONZA GOOL, being duly sworn, deposes and says:
1. I am making this reply affidavit in response to
the petition for Writ Habeas Corpus brought against
me. The relief requested in that petition is for the
custody of my infant daughter Shamema Honza Gool.
I love my daughter very much.
In spite of the extraordinary circumstances I have
been thrown into by the diabolical petitioner, Sloan, I
am doing the very best I can to take care of my baby
daughter, who I pray is never separated from me and
who would be seriously damaged should she be sepa­
rated from me.
2. I am receiving public assistance because I
receive no support from my husband. Furthermore, I

App.210a

receive the assistance friends who have been wrongfully
vilified because they choose to help me.
3. The facts are that the petitioner came to my
country in March, 1980 and approached my parents
and told my parents that he wanted to marry me. The
petitioner, who is a graduate of Berkley University
and presently candidate for a master’s degree in lin­
guistics in New York University paid $600.00 in
consideration for the marriage.
4. Consequently, bringing me here to this country,
he felt that he could hit me when he wanted and treat
me as a chattel not as a person. As a matter of fact, in
April of 1981, he threw me out of the apartment with
just my coat and my shoes even though I was three
months pregnant. He knew I was pregnant because he
took me to the doctor to confirm my pregnancy. He
now chastises me for seeking shelter with friends who
are also of Muslim sect.
5. Originally when I was thrown out, I was taken
in by a former countryman, Sher Malik of 215
Alexander Avenue, Bronx, New York. He was kind
enough to assist me because my husband, the
petitioner even though he know I was three months
pregnant went back to Pakistan and left me alone. He
didn’t give me any money then and has never given
me any money. Even though he is a “financial
consultant and author” with various publications to
his credit.
6. The petitioner is attempting to obtain custody
of my daughter in spite of the fact that he brought a
petition in Family Court and when he didn’t like way
it was turning out, he discontinued it. I am requesting
that this court deny the petition for the petitioner and

App.211a

grant me an Order of support and temporary alimony
because Shamema is his daughter and thus far he has
done no act commensurate with childhood.
7. It is quite ironic for the petitioner who took me
away from my country to a strange place and then throw
me out to chastise the very people who take care of me.
I am enrolling in the English as A Second Lan­
guage School, a school in the Bronx. I will start my
classes at the end of January. After I graduate, I plan
to obtain a job and as soon as I can, I will move out by
myself in my own apartment with my daughter, who
I love very much.
8. The scandalous allegations regarding Abdul
Awadallah are totally untrue. Mr. Awadallah and his
wife are friends and teachers who have taken me in
after my own husband throw me out. We are all Muslims
and that is why they have been willing to help me and
I have received no help from my husband.
9. It is ridiculous to state that it in the best interest
of my daughter to take her away from me, the trauma
connected with such a separation would he irreparable
to my daughter.
Furthermore, it is even more ridiculous and
totally unfounded to state:
“In addition, the child may be in physical
danger, therefor, custody of the child should
be awarded to her legal father”.
10. The petitioner is trying every argument he
can, however unsubstantiated to convince this court
that there is some merit to his arguments. However,
there is no merit to his argument that I intend to leave
the country. I plan to learn to speak the English

App.212a

language and to read and write it as well. I intend to
bring my daughter up as an American Citizen so that
she can benefit from growing up in this country.
11. The petitioner has had visitation with our
daughter even though he has never bought any
clothes or given me any money for the child support. I
do not intend to deny him visitation provided it is
supervised due to his stated intention to take the child
from me.
WHEREFORE, your respondent respectfully prays
that the Writ of Habeas Corpus be denied and the
cross-petition for child support, temporary alimony
and attorney’s counsel fees be granted.
I have heard/read this affidavit and the contents
thereof are true.

/s/ Honza Gool
Sworn to before me this__day of December, 1981
/s/ Phillip Newman
Notary Public
State of New York
No. 60-1364675
Qualified in Westchester County
Term Expires March 30, 1983

App.213a
STATE OF NEW YORK
COUNTY OF BRONX
AZIZ Ur REHMAN being duly sworn deposes and
states:
That I am competent 1- the Chitral dialogue of
Pakistan and have road the foregoing affidavit to
Honza Gool Sloan.
I read and write English language and also speak
the Chitral language (dialogue). Chitral is a dialogue
language of Pakistan and is not a written language
but just an argot.
/s/ Aziz Ur Rehman
Sworn to before me this__day of December, 1981
/s/Phillip Newman
Notary Public
State of New York
MO. 60-136-1675
Qualified in Westchester County
Term Expires March 30, 1983

App.214a
STATE OF NEW YORK
COUNTY OF NEW YORK
Hope M. Stefenson, being duly sworn, deposes and
says:
1. I am not a party to the action and am over 18
years of age. I reside in Westport, Connecticut.
2. On April 13, 1982, I served the foregoing Peti­
tioner’s Post-Trial Memorandum upon William Lake,
Esq., attorney for respondent in this action at 55 West
125th Street, New York, New York 10027, the address
designated by said attorney for that purpose, by
depositing a true copy of same enclosed in a post-paid
properly addressed wrapper in an official depository
under the exclusive care and custody of the United
States Postal Service within the State of New York.
/s/ Hope M. Stefenson
Sworn to before me this 13th day of April, 1982
/s/Phillip Newman
Notary Public
State of New York
MO. 60-136-1675
Qualified in Westchester County
Term Expires March 30, 1983

App.215a

PETITIONER’S POST-TRIAL MEMORANDUM
(MAY 26, 1982)
SUPREME COURT OF THE STATE OF
NEW YORK, COUNTY OF BRONX

ISMAIL SLOAN,
Petitioner,
v.
ABDUL AWADALLAH and HONZAGOOL,
Respondents.
Index Number. 17815/1981

Statement of the Case
This is a habeas corpus child custody proceeding
in a complex factual setting. In this proceeding, the
petitioner-father seeks to obtain custody of his fivemonth old child. In view of the length of the trial, no
attempt will be made to get forth all of the pertinent
facts in detail here. The most essential facts are as
follows:
Petitioner, Ismail Sloan (“Sloan”), is a native born
U.S. citizen. He is 37 years old and works as a financial
consultant. He also the author of a Khowar-English
Dictionary, Khowar being the language spoken in the
Chitral District of the Northwest Frontier Province of

App.216a

Pakistan (“Chitral”). Respondent Honzagool (“Honzagool”) is a 19-year old citizen of Pakistan who married
Sloan in her home village of Damik in Chitral on Febru­
ary 21, 1980. They have a baby daughter (“Shamema”)
who was born on October 15, 1981 at Columbia
Presbyterian Hospital in New York City, and whose
name is listed on the birth certificate as Shamema
Honza Gool. Respondent Honzagool testified at the
trial that she has not had sexual intercourse with any
man other than Sloan since the marriage and that Sloan
is the father of her child. Petitioner Sloan acknowledges
that he is the father of the child.
Respondent Honzagool herself testified that she
cannot read or write in any language; that she cannot
speak English; that she has never worked; that she
has no means of support; and that the Department of
Social Services has terminated her welfare payments.
It was conceded during the trial that the environ­
ment in which Honzagool had been living from the
time of Shamema’s birth through February 1982, to wit,
the home of respondent Abdul Awadallah (“Awadallah”)
was an unsuitable environment in which to raise a
young child. Respondent Honzagool refused to disclose
her current address to the Court and the record
now before the Court is absolutely silent regarding
the present conditions under which Honzagool and
Shamema are living.
As a result, her present whereabouts are unknown,
except at those times when she is actually physically
present in court. Nothing is known about the physical
surroundings and circumstances in which Shamema,
the child, is being kept and it is apparent that, wherever
she may be, Honzagool has resided with her child at
her current address for less than four weeks. It is also

App.217a
not known whether the family she is living with
intends to keep her there permanently, to shuttle her
about from family to family, to send her back to live
with Awadallah or to send her and the baby back to
Pakistan after this case has been concluded. Neither
Honzagool nor any other members of the “Pakistani
community” offered any testimony at the trial regarding
the circumstances under which Shamema is currently
being kept.
Conclusion
On the basis of the record now before this Court
and the legal authorities set forth in this brief, this
Court is foreclosed from awarding custody of Shamema
to Honzagool because, among other reasons, (i)
Honzagool cannot provide for herself, let alone for
Shamema, (ii) this Court has no information concerning
the conditions under which Honzagool and Shamema
are living, (iii) an award of custody to Honzagool is
tantamount to an award of custody to such undesignated
person or persons with whom Honzagool may be living
from time to time, (iv) Honzagool has permitted
substantial interference with Sloan’s right to visit
with Shamema, (v) Honzagool intends to depart with
Shamema for Chitral and as she herself testified,
there is no assurance that she will be able to return to
New York—even if she wishes to return and (vi)
Honzagool is subject to deportation by the Immigration
and Naturalization Service and, therefore, an award
of custody of Shamema to Honzagool could deprive
Shamema of the rights which she possesses as an
American citizen. The Court should therefore award
custody of Shamema to Sloan.

App.218a

Argument
Point I—Respondent Honzagool Is Incapable of
Functioning in American Society or of Taking Care of
and Raising the Child on Her Own
Initially, it should be pointed out that the sole
issue before the court is a determination of the “best
interests of the child.” Although this case involves a child
who is only five months old, there is no legal presump­
tion that custody of the child should be awarded to the
mother. Domestic Relations Law Section 240. Moreover,
the so-called “tender years presumption” has specifically
been declared unconstitutional. Barkley v. Barkley, 60
A.D.2d 954, 402 N.Y.S.2d 228, (3rd Dept. 1978). In
Barkley, the court awarded custody of a fourteen
month old child to the father even though the father
and the mother were equally fit and even though the
father would be required to hire a third party baby
sitter to care for the child. Recent appellate court deci­
sions have repeatedly emphasized that any doctrines of
“maternal superiority” are now outdated. See, e.g.,
Andrews v. Andrews, 74 A.D.2d 546, 425 N.Y.S.2d 120
(1st Dept. 1980).
In the case presented here, the mother, Honzagool,
comes from a remote village in the Hindu Kush branch
of the Himalaya mountains in the extreme northwest
of Pakistan. Her home district of Chitral has historically
been considered to be a part of Afghanistan and was not
fully incorporated into Pakistan until 1970. Honzagool’s
education stopped at the fifth grade. She has never
learned to read or write her mother language, which
is Khowar, or the national language of Pakistan,
which is Urdu, or any other language at all. Although
Sloan sent her to school to take courses in English as

App.219a

a second language and also hired a private tutor to
teach her three times a week, she still has not learned
to read or write English and claims to speak it to only
a limited degree. There are only eight other Khowar
speakers in the United States, one of whom, her
cousin Aziz-Ur-Rehman, is the subject of an out­
standing warrant for arrest and deportation. So far,
none of the Khowar speakers have shown the willing­
ness and/or ability to provide her and the child with
appropriate support. In fact, one Khowar speaker,
Sher Malik, who acted as her unofficial interpreter at
the trial, refused to provide her with living quarters
after she left or was taken away from Sloan in 1981.
It is conceded that Honzagool is completely
incapable of caring adequately for this child on her
own. Not only is she illiterate, but she has no job, no
income and no living place of her own. She testified
that she is living entirely on charity which she
receives from members of the “Muslim community.”
Previously, she was receiving Aid for Dependent
Children; however, her checks were cut off in February
1982. She has allowed herself to be manipulated and
even exploited by others who do not have her best
interests at heart. For example, a witness who testified
on behalf of Honzagool said that during Honzagool’s
pregnancy, Aziz-Ur-Rehman actually attempted to
arrange for an abortion for Honzagool, without obtaining
the consent of Honzagool herself. Also, it appears that
Awadallah was keeping Honzagool in his home because
Nadia, his wife, was collecting rent from her in the
amount of $160.00 per month, which was half of her
welfare check, and because Honzagool was performing
cooking and housekeeping chores for Nadia. We note
that Honzagool met Nadia at the time she made an

App.220a
application for welfare and that, according to Nadia’s
testimony, Honzagool moved into Nadia’s house within
five hours of their initial meeting.
For these and numerous other reasons which are
self-evident from observing the respondent herself,
respondent’s counsel has never argued that she is
capable of adequately caring for the child herself, but
rather that the people with whom she is residing are
capable of helping her to care for herself and the child.
However, the record before this Court is silent both
about the character or qualifications of the people
with whom she is living and about whether she
intends to stay there or move elsewhere after this case
has been concluded. Instead, after the respondent’s
case had rested, respondent’s counsel offered to supply
the court with a list of names of nine Pakistani
families who were willing to take in Honzagool and
provide her and Shamema with a place to live. He
stated that he would provide this list in affidavit form
at the time of the submission of post-trial briefs. Such
information is no part of the record before this Court.
which record, of course, is now closed, and cannot be
given any weight bv the Court.
This point raises a fundamental question. If this
Court awards custody of the infant to Honzagool, it is
really awarding custody to that person or those persons
with whom Honzagool is residing or who are otherwise
controlling her affairs. Since the record is absolutely
silent as to who these people are, the Court is foreclosed
from awarding custody to Honzagool for the people
with whom Honzagool is residing are not subject to
the jurisdiction of this Court. In addition, it is evident
that Honzagool has moved to her new residence just
to satisfy the court in this case. There is no reason to

App.221a

believe that she actually wants to live in her current
situation, whatever it may be, on a long term basis. If
she continues to live in that situation, she will have to
learn to speak the language of that home, which is
probably Punjabi. She will have to learn to adopt
different customs and to eat different kinds of food
from which she is accustomed to in her native Chitral.
Moreover, the infant Shamema will be totally denied
her birthright by being raised in a culture and learning
to speak a language which is totally alien to that of
either her mother or her father. Consequently, the facts
indicate that she has taken up her current residence
just as a “showcase” for the duration of this trial.
Presumably, Honzagool does not wish any actual
harm to come to her child and there is not that much
proof of overt abuse or neglect on her part. Her illit­
eracy and inability to function in American society are
not her fault but rather the result of her upbringing in
a culture and society where women are denied the
opportunity for an education or even the right to leave
their house without the permission of a father or male
family members, which is rarely granted. Therefore,
it has been argued that it would be an unjust
deprivation of her own rights to take the child away
from her for reasons which are beyond her control.
However, New York courts have repeatedly rejected
arguments of this sort, since the father also has rights
which are equally balanced with those of the mother.
See e.g., People v. Uzielli, 260 N.Y.2d 329, 332 23
A.D.2d 260, affd, 16 N.Y.2d 1057, 266 N.Y.S.3d 131,
213 N.E.2d 460 (1965). Moreover, the records of
Columbia Presbyterian Hospital, which were admitted
into evidence at the trial, show that Shamema has
only been taken in twice since birth for regular

App.222a

checkups (the last time being late November 1981,
four and one-half months ago) and that Honzagool has
a record of missing appointments which were made by
the hospital both before and after the baby was born.
Due to her illiteracy and her obvious ignorance of the
need of regular medical attention on the part of an
infant, she may neglect the child and bring about its
severe illness or even death without any malicious
intention on her part.
An analogous situation is presented by the case
of Thomas J.D. v. Catharine K.D., 79 A.D.2d 1015, 435
N.Y.S.2d 338 (2d Dept. 1981). That case involved a
mother who was struggling to do her best to take care
of her children but was suffering from periodic recur­
rences of mental illness for approximately five to ten
days, twice a year. The trial court established a special
procedure under which the children would be cared for
by third parties when the mental illness occurred. The
appellate court reversed, on the law, as follows:
“It is manifestly clear from this record that
both parties are deeply concerned parents
who love their children very much. Moreover,
we are not unmindful of the fact that Special
Term has expended substantial effort and has
demonstrated great compassion in formu­
lating a procedure by which the defendant
would not be deprived of the custody of her
children on account of an illness over which
she has no control and against which she has
long struggled. We, of course, are not unsym­
pathetic to the defendant’s plight. Yet, we are
commanded by law and by sound consid­
erations to resolve custody disputes, not of
sympathy for the circumstances of the parent,

App.223a
but out of concern for the best interests of the
child. (See Domestic Relations Law, §§ 70,
240; Obey v. Degling, 37 N.Y.2d 768; 375
N.Y.S.2d 91; 337 N.E.2d 601; Entwistle v.
Entwistle, 61 A.D.2d 380; 402 N.Y.S.2d 213,
44 N.Y.2d 851; Matter of Mouscardy v.
Mouscardy, 63 A.D.2d 973, 405 N.Y.S.2d
759; see, also, Matter of Bennett v. Jeffreys,
40 N.Y.2d 543; 387 N.Y.S.2d 821, 356 N.E.2d
277).
qualified to care for their own children and are there­
fore, entitled to do so.” Matter of Jabril P., 105 Misc.
2d 219, 431 N.Y.S.2d 899 (Family Ct„ N.Y.C. 1980).
Sloan is capable of providing for the needs of this
infant. In preparation for establishing a permanent
home for this child, he has moved to his family
residence in Lynchburg, Virginia where he intends to
take the child if awarded custody. The prospective
residence for the child is a three story split level fully
paid-for home in a residential neighborhood which has
been appraised as having a value of $55,000 for
property tax purposes. Sloan’s mother, who also lives
there, is a practicing child psychiatrist who testified
that she has more than $100,000 in the bank and
is willing to provide financially for every care and
need of the child including a full time governess, if
necessary or appropriate. There can be no doubt that
the future of this child is secure if raised in such an
environment. Moreover, Sloan, as the parent, has the
absolute right to raise this child over and above the
right of any third parties with whom Honzagool may
chose, or be forced, to reside. “No court can, for any but
the gravest reasons, transfer a child from its natural
parent to any other person.” (citations omitted). The

App.224a
right of a parent, under natural law, to establish a
home and bring up children is a fundamental one and
beyond the reach of any court.” People v. Strasser, 303
N.Y. 53, 104 N.E.2d 895 (1952). “A child’s best interest
is that it be raised by its parent unless the parent is
disqualified by gross misconduct.” Bennett v. Jeffreys,
40 N.Y.2d 543, 387 N.Y.S.2d 821, 825 (1976).
Sloan also testified that he is willing to grant
Honzagool unlimited visitation with the child, to pay
for her airplane fare for regular visits to Virginia, to
give her own apartment in Lynchburg or to give her
own private room in the Sloan family dwelling so that
she can be near the child, as she desires. Honzagool,
on the other hand, wishes to deprive Sloan of any
access to the child at all and has from time to time
expressed a desire to take the baby back to Pakistan.
Under normal circumstances, the parent most willing
to allow visitation to the other parent should be
awarded custody. Gloria S. v. Richard B., 80 A.D.2d
72, 437 N.Y.S.2d 411, 415, (2nd Dept. 1981).
The thrust of the respondent’s contention that
the father is unfit to have custody of the child has
centered almost entirely on the claim that he has
engaged in unorthodox sexual activity including, in
particular, the claim that his sexual activity with
Honzagool which produced this child was either
bigamous or adulterous. However, the courts have
ruled that, “amorality, immorality, sexual deviation
and aberrant sexual practices do not ipso facto constitute
unfitness of a parent for custody.” Feldman v. Feldman,
45 A.D.2d 320, 358 N.Y.S.2d 507, 510 (1974). See also
Saunders v. Saunders, 60 A.D.2d 701, 400 N.Y.S.2d
588 (1977). This is especially true where, as here, the
allegedly “deviant” sexual activity not only has had no

App.225a

effect on the child but actually occurred entirely before
the child was even born. Moreover, the testimony
itself is unworthy of belief and, if true, merely proves
that Honzagool is incapable of taking care of herself
and her child. According to Honzagool’s testimony, as
translated by Sher Malik who is clearly not unbiased,
Sloan had mistreated her sexually throughout the
time they were living together but she had never
complained about it to anyone, including her cousin,
Aziz-vi-Rehman, who was living with her and Sloan
throughout much of this time.
The only other testimony in any way probative
came from Sloan’s former wife, Anda Sloan. However,
Anda Sloan’s testimony before this court paralleled
the testimony she gave at her divorce trial between
Sloan and her before Judge Ascione. At the conclusion
of a trial which lasted one and one-half days, Judge
Ascione denied Anda Sloan a divorce on the ground of
cruel and inhuman treatment, clearly because he did
not believe her testimony. In particular, Judge Ascione’s
decision stated: “I find that the defendant did not
subject the plaintiff to cruel and inhuman treatment.”
Judge Ascione spent a lot of time on that case, when
the recollections of the parties were fresh. It would
clearly be improvident for this court to rule that Judge
Ascione’s decision was wrong, based on the limited
testimony before this court.
Under these circumstances, the applicable case
law requires that custody of the child be awarded to
the petitioner-father. Indeed, there is not even a
single reported case where a mother in the position of
Honzagool has been awarded custody nor is there a
single case where a court has even entertained a
contention that a father should be declared to be unfit

App.226a
on the basis of the allegations of the type presented by
__ respondent’s counsel here.
Point II—Respondent Mother’s Refusal to Permit
Visitation on the Part of the Petitioner Father
Requires an Award of Custody to the Father
On November 5, 1981, Judge Mainzer of the
Family Court of the City of New York, County of
Bronx, entered a temporary order of visitation on
behalf of the father with visitations to take place each
Saturday from 2:00 to 3:00 p.m. It is undisputed that
on each of the next six Saturdays, Sloan attempted to
exercise his visitation rights. On three of these six
occasions he was told that Honzagool and the baby
were not home and he was not even allowed in the
door. On the other three occasions he was allowed to
see the baby, once with police escort. However, when
the police were not present, he was harassed by
Awadallah and was once pushed to the floor while
holding the baby. Also, his camera was forcibly taken
away from him by Awadallah while he was attempting
to take a photograph of his own baby. Since that time
respondents have made it clear that they will not
under any circumstances allow the petitioner to visit
his own child and threats have been made against the
life of the petitioner.
In the trial before this court, respondent, by her
own testimony and through counsel, has maintained
that she will not allow the petitioner to have normal
visitation with his child. She has refused to reveal
even the address where the child is being kept. She
even stopped taking the baby to the doctor for fear
that in some way this would give petitioner information
about the child. In a short colloquy after both sides

App.227a

had rested and the summations had been completed,
the court asked her, through the interpreter, Sher
Malik, whether she would cooperate if visitation were
awarded to the father. At first she said “no”, but then
stated that she would allow the father to see the child,
“only if the police are present at all times.” (We note
that Honzagool was not under oath at the time she
made such statements and that petitioner was not
given an opportunity to question respondent again
regarding her obvious disinchnation to permit petitioner
to visit with his child.) It is obvious that under these
circumstances it would be unwise to follow the course
of other cases where the mother is awarded custody of
the child but the father is granted liberal visitation
rights, because of the great and obvious hostility
which the respondent and her “friends” bear towards
the petitioner. This renders visitation unsafe and
unwise for both the father and the child. Also, there
exists an apparent likelihood that respondent will
abscond with her child if faced with a strengthened
court order awarding visitation to Sloan and prohibiting
her from departing the jurisdiction with Shamema,
and that she will take the baby to parts unknown or
to Pakistan. The possibility that the respondent will
“disappear” with the child is obvious in view of the
history of this case. Respondent disappeared from the
marital home she shared with petitioner in April
1981. In spite of petitioner reporting her as a missing
person with a resulting police investigation of the
matter and a search of Sher Malik’s apartment, plus
the hiring of a private detective agency by the
petitioner, petitioner was unable to learn anything
about the whereabouts of Honzagool until October
1981 when he saw her in Bronx Family Court in the
company of Sher Malik. Still, he did not know where

App.228a

she was residing but knew only that she was about to
give birth imminently. By calling virtually every
hospital in New York City with obstetrical facilities
every day for the next few weeks and by inquiring
whether a person by the name of Honzagool had gone
into labor, he learned on October 15, 1981 that she
had just given birth to a baby daughter. Sloan was
able to get a Bronx Family Court summons Issued and
served upon her the next day, following which she
quickly checked herself and the baby out of the
hospital. Only in this way did he invoke the jurisdiction
of the New York courts, as a result of which he
eventually learned her address. However, recently she
has moved to a new address which she refuses to
reveal, in spite of the requirement that a parent reveal
the residential address of her child in child custody
proceedings. Matter of Jacqueline F, 47 N.Y.2d 215,
417 N.Y.S.2d 884, 889 (1979). In view of this history, it
is evident that the likelihood of respondent disappear­
ing with her baby into points unknown is great and
there is no viable alternative but to award custody to
the father.
A similar situation was presented by Entwistle v.
Entwistle, 61 A.D.2d 308, 402 N.Y.S.2d 213 (1978). In
its opinion, the court noted:
“There is reason to beheve that the respondent
took affirmative action to keep the appellant
ignorant of her where-abouts ... The appellant
was forced to employ an investigator to
ascertain the location to which his own two
children had been removed . . ' It is readily
apparent that the respondent’s very act of
preventing the two children of tender age
from seeing and being with their father is an

App.229a

act so inconsistent with the best interests of
the children as to, per se, raises a strong
probability that the mother is unfit to act as
a custodial parent.” 402 N.Y.S.2d at 215-216
(emphasis added).
It should be noted here that the witness produced
by respondents’ counsel to buttress her claim that
petitioner should be denied not only custody but also
visitation was petitioner’s former wife, Anda Sloan,
who is the mother of their two children, Peter Sloan
and Mary Sloan. In spite of her vituperative remarks
about the petitioner, she admitted that Peter Sloan
and Mary Sloan “love their father very much.” She
also testified that he had never interfered with her
custody of them, had never even threatened to take
them away from her and that petitioner had regularly
stayed home and taken care of Peter while Anda Sloan
was working when Peter was an infant. As to any
claims of his actual mistreatment of the children, she
only cited one instance in the years they were living
together with their children. That concerned an occasion
when she returned home from work and found some
photographs there which had not been present
previously. From this, she jumped to the conclusion
that Sloan had gone out and picked up some pictures
from the local camera shop during the time that he
was supposed to be at home taking care of Peter.
However, she cited no basis for this belief, other than
this summary conclusion, and did not claim to have
witnessed his absence.
The fact that the New York Supreme Court has
awarded the petitioner the right to weekly visitation
with his children after a trial demonstrates that
court’s determination of his fitness as a parent and its

App.230a
disbelief of any claims by Anda of mistreatment on his
part.
During the course of the lengthy trial of this case,
the respondent mother allowed her infant daughter to
be passed around the courtroom from hand to hand
and from man to man indiscriminately within the view
of the court. By the end of the trial, scores of people
had handled the child at one time or another. Virtually
the only person in the courtroom who was not allowed
to hold the child was the petitioner father. This indis­
criminate attitude of allowing persons of unknown
character and background to hold the child while
preventing the very father of the child from exercising
his paternal rights demonstrates the mother’s unfitness
to be the custodial parent of this child.
Point III—Respondent Is an Illegal Alien Subject to
Deportation and Consequently Should Not Be Given
Custody of the Child
“Custody of children should be established on a
long-term basis.” Obey v. Degling, 37 N.Y.2d 768, 375
N.Y.S.2d 91, 93 (1975). In the case presented here,
respondent Honzagool is a native and a citizen of
Pakistan. She was brought to the United States by the
petitioner father to be his wife. However, now that she
is here, she contends that this is a bigamous marriage
and that she is not married to the petitioner father. In
open court, Honzagool’s counsel volunteered that her
case is currently under investigation by an investigator
from the United States Immigration and Naturalization
Service by the name of Rossi. He also stated that she
had been requested to appear before the Immigration
and Naturalization Service on March 22, 1982 but
that her attorney had obtained a postponement of that

App.231a
appearance because the trial of the instant case was
also being conducted on that date. It is unknown, of
course, whether the Immigration and Naturalization
Service will actually institute proceedings for the
arrest and deportation of Honzagool. However, it is
undisputed that her current status is that of an illegal
alien. The applicable statute is 8 U.S.C. § 61251(c),
which states:
“Fraudulent entry. An alien shall be deported
as having procured a visa or other documen­
tation by fraud within the meaning of
paragraph (19) of section 212(a) (8 USC
§ 1182(a)(l9)), and to be in the United States
in violation of this Act within the meaning of
subsection (a)(2) of this section, if (l) hereafter
he or she obtains any entry into the United
States with an immigrant visa or other docu­
mentation procured on the basis of a marriage
entered into less than two years prior to such
entry of the alien and which, within two years
subsequent to any entry of the alien into the
United States, shall be judicially annulled or
terminated, unless such alien shall establish
to the satisfaction of the Attorney General
that such marriage was not contracted for
the purpose of evading any provisions of the
immigration laws; or (2) it appears to the
satisfaction of the Attorney General that he
or she has failed or refused to fulfill his or
her marital agreement which in the opinion
of the Attorney General was hereafter made
for the purpose of procuring his or her entry
as an immigrant.”

App.232a
There are numerous cases, which generally fall
under the classification of “marriage fraud” cases,
where aliens have been deported based upon facts
similar to those presented here. See e.g. Ex Parte
Soucek, 101 F.2d 405 (7th Cir. 1939); United States v.
Diogo, 320 F.2d 898 (2d Cir. 1963); Karayannes v.
Brownell, 348 F.2d 80 (D.C. Cir. 1957). See also Reid
v. Immigration and Naturalization Service, 420 U.S. 619
(1975). In addition, numerous state court decisions
have found marriages to be fraudulent where entered
into for the purpose of gaining entry into the United
States. See Pastore v. Pastore, 100 N.Y.S.2d 552 (Sup.
Ct. Cayuga Co. 1950); Brillis v. Brillis, 207 Misc. 104,
137 N.Y.S.2d 32 (Sup. Ct. Queens Co. 1954); Morganie
v. Morganie, 21 N.Y.2d 875, 389 N.Y.S.2d 217 (1968).
It has been argued, however, that since Honzagool
is not at the moment the subject of an order of depor­
tation, she should not be deprived of custody until
there is evidence that such deportation is imminent.
This contention should be rejected. Admittedly, there
is by no means any guarantee that she will be deported.
To the contrary, her cousin, Aziz-ur-Rehman, who
accompanied her to United States in the first instance,
has been in America totally illegally for approximately
two years, has been arrested but was released on
§2,000 bail, has jumped bail and now had a warrant
issued for his arrest, but still is present in the United
States and may yet continue to remain here for a long
time to come.
On the other hand, Aziz-Ur-Rehman was financially
capable of posting a $2,000 bail and hired a lawyer,
Jeffrey Pollack, Esq., to represent him in the deportation
proceedings, thereby prolonging his case. His main
contention before the INS has been that he should be

App.233a

allowed to remain in the United States until the
conclusion of this child custody proceeding so that he
can protect the interests of his cousin Honzagool and
so that he can take her and the baby back to Pakistan
if she is awarded custody by this court.
If the INS determines that Honzagool is here
illegally, she is likely to be arrested and taken to the
INS detention center on the spot, and since she
testified that she has no money at all, she will
presumably be unable to post a bond of $2,000 or to
hire a lawyer to represent her. The normal procedure
in such cases is that she will be taken before an INS
judge within a few days and then would likely be
summarily put on an airplane back to Pakistan.
Indeed, from the facts of this case, it appears unlikely
that she would even object to deportation. She has
stated that she intends to take a trip to Pakistan in
any case. Apparently, only three things are keeping
her here: (l) she does not have funds for an airplane
ticket, (2) Sloan has her passport (although by now it
is likely that she has obtained a replacement) and (3)
her cousin Azia-ur-Rehman is not willing to leave the
United States voluntarily and has been using her
presence as his “passport” to keep him in the United
States. However, deportation would automatically
“solve” these problems since (l) by being deported, she
would automatically be provided with an airplane
ticket for her and, if she desires it, for her child, at
U.S. Government expense and (2) the INS has developed
procedures which permit a foreign national to be
boarded onto an airplane and sent back to his or her
home country without the necessity of a passport. As
for Aziz-ur-Rehman, the fact that a warrant has been
recently issued for his arrest and deportation means

App.234a

that her usefulness to him here has come to an end.
In fact, at the trial, Josiane Canada, a friend of
Honzagool and an acquaintance of Azia-ur-Rehman,
testified as the respondent’s witness that she had
spoken to Azia-ur-Rehman and that he told her that
he wished “to take the baby back to Pakistan.”
One common misconception regarding the U.S.
immigration laws concerns Honzagool’s right to remain
in the United States in view of her having given birth
to a child in the United States. The fact is that this
circumstance is of no benefit to her under existing
U.S. law except that, once her child achieves the age
of 21, Shamema will be able to petition to have her
mother admitted as an immediate relative to the
United States. Specifically, 8 U.S.C. 5115(b) states:

r

“Immediate relatives defined: The immediate
relatives referred to in subsection (a) of this
section shall mean the children, spouses, and
parents of a citizen of the United States,
provided, that in the case of parents, such
citizen must be at least twenty-one years of
age [in order to file an immediate relative
visa petition.]
The validity of this procedure is well established.
See Perdido v. Immigration and Naturalization Service,
420 F.2d 1179, 1181 (5th Cir. 1969), where the court
observed:
“It is undisputed that the Perdido children
have every right to remain in this country.
The parents, however, enjoy no such right.”
As a result, the Perdido parents were ordered to
be deported to the Philippines in spite of the obvious
%

App.235a

hardship on their children, ages one and two respec­
tively, whom they were forced either to take out of the
country or to leave behind. See also Qureshi v. INS,
519 F.2d 1174 (5th Cir. 1975). In fact, cases of this sort
are routinely decided by the INS every day and a high
percentage of all illegal aliens actually deported have,
or can claim to have, citizen children born in the
United States.
Moreover, the notion that Honzagool should be
given custody until deportation is actually imminent
assumes that petitioner will be able to stay abreast of
any new developments in her case. In fact, proceedings
before the INS are confidential, the files being normally
sealed, and third parties are not permitted to know
about them. Thus, it is unlikely that petitioner will be.
able to learn about imminent deportation proceedings,
file a motion for an order to show cause, obtain a
hearing and secure an order awarding a change of
custody, all within the few days before actual deportation
takes place. Moreover, a state court judge will not
even have the Jurisdiction to order the United States
Immigration and Naturalization Service to stay depor­
tation until a hearing can be had.
The reality of a possible deportation cannot be
disputed. In fact, at a conference before Judge Mercorella
on March 5, 1982, Philip Newman, who was then
Honzagool’s lawyer, advised the court that his client
was unwilling to have the petitioner’s name listed as
the father on the birth certificate, although his paternity
was undisputed, because in the event that she is
deported she does not want the father to be in a
position to prevent her from taking the baby out of the
country. This position is unchanged and respondents’
counsel still has not agreed to have the father’s name

App.236a
listed on the birth certificate. It is also obvious that
the respondent and her “Pakistani friends” have had
five months since the birth of Shamema to make
specific arrangements to transport the baby out of the
country in the event of the deportation or other
departure of Honzagool and there can be little doubt
that they are actively looking into this matter or have
actually completed arrangements for the departure of
the child. Although this court can and, in fact, already
has ordered that this child not be taken out of the
United States, that order only binds the actual respond­
ents in this case, namely Awadallah and Honzagool,
and would not prohibit third parties, such as the
unknown Pakistani family with whom Honzagool and
Shamema are actually now residing, from securing the
departure of the child. For example, if Honzagool is
actually arrested and deported, the physical custody of
Shamema will automatically fall in the hands of those
persons with whom the baby is then living, and the
facts and circumstances of this case suggest that those
persons will immediately make arrangements to send
the baby out of the country, which they will be able to
do without a violation of any court order on their part,
or on the part of Honzagool, who will have already
presumably deported. In addition, there is the obvious
point that any order of the New York State courts will
become just a worthless piece of paper once the baby
is taken out of the jurisdiction and arrives in Pakistan.
See OShea v. Brennan, 88 Misc. 2d 233, 387 N.Y.S.2d
212, 215 (Sup. Ct. Queens Co. 1976). Accordingly,
custody should be given to the Father.

App.237a

Point IV—Respondent Has Declared an Intention and
Desire to Take the Infant Out of the United States
and, as a Result, Respondent Must Be Denied Custody
The petition for a writ of habeas corpus specifically
alleges that Honzagool intends to take the baby out of
the United States. This has never been denied. Rather,
respondents’ counsel has vaguely stated that Honzagool
“wants to live in the United States.” However, at a
conference in chambers before Justice Mercorella on
March 5, 1982 and again in her testimony in open
court on March 24, 1982, Honzagool stated that she
wants to take the baby “on a trip” to see her family in
Chitral “as soon as this case is over.”
In his summation, Honzagool’s attorney vigorously
argued that, inasmuch as Honzagool has not seen her
family for two years, she should be granted her wish
to take this baby back to Pakistan so that Honzagool’s
mother can see the child, among other things. He
represented that Honzagool was “certain” to return
with the child.
It is undisputed that Chitral is an extremely remote
and backward area of Pakistan which is surrounded
by high mountains and snowbound for seven months
out of the year. Although there are flights in and out
of Chitral during the winter, the demand for seats and
the infrequency of flights as a result of the prevalent
bad weather are such that it takes an average of one
month to get into Chitral and an average of another
moth to catch a flight out of Chitral. It is also undis­
puted that the nutritional and health standards are
extremely poor in Chitral and only five doctors are
available for a population of 250,000 spread out Over
a 200 mile long area. Honzagool herself testified that
she had never seen a doctor in her entire life until she

App.238a

was taken out of Chitral by Sloan in 1980 and that her
mother has not seen a doctor in her life. Islamic
custom, as it is observed in Chitral, prohibits women
from being seen by male doctors and in fact there are
no female doctors in Chitral.
The petition for a writ of habeas corpus alleges,
and petitioner testified at the trial, that the infant
mortality rate in Chitral is approximately 50%. Respond­
ent’s attorney represented to the court that he was
going to present the testimony of doctors and other
experts who would establish that the infant mortality
rate is less than 50% in Chitral, but, in fact, no such
expert testimony or evidence was ever produced.
(Respondents did produce a student at Columbia
University who said that he was a relative of the
former Prime Minister Bhutto, who was since deposed
and executed, that he had visited Chitral for one week
in 1979 as an official government representative, and
that doctors are available “everywhere in Pakistan.”
His testimony was obviously worthless and, in cutting
short petitioner’s cross-examination of this witness,
Justice Mercorella ruled that because the witness had
virtually no knowledge about Chitral, he would give
no weight to his testimony.) It is obvious that even a
favorable witness from respondents’ point of view would
have been forced to testify that the health conditions
in a primitive and remote area of North West Pakistan
are far below those in the United States.
In any event, it is not necessary to prove that the
infant mortality rate there is 50%. The law is clear
that a parent who is a citizen of a foreign jurisdiction
and who has expressed an intention or desire to take
the child out of the United States, even for a short trip.
must be denied custody. Indeed, there is not even a

App.239a

single reported case where a child who is a U.S. citizen
was awarded to the custody of a non-citizen parent
where that parent desired to take the child out of the
United States. This is true even in cases where the
intention was to take the child to a modern advanced
country where the health facilities were comparable
to those available in the United States, such as France
or Australia, and where the non-citizen parent was
manifestly more fit than the citizen parent, which is
clearly not the case here. For example, O’Shea v.
Brennan, supra, involved a situation where the U.S.
citizen mother, who had already been awarded custody,
applied to the court for permission to take her sevenyear old daughter to Australia, inasmuch as she had
married an Australian man. In response, the father
petitioner for a change of custody, which was granted.
This case is directly on point. There, the court observed:
“Once the infant is removed to Australia, this
court loses its jurisdiction over her . . . This
court will jealously guard the treasured
birthright of this child . . . The benefits, envi­
ronment. educational opportunities, cultural
climate, as well as the economic standards of
the father are known factors which will act
towards the benefit of the child if custody is
awarded to the father. However, these
factors would be unknown if the mother is
permitted to remove the infant to Australia.”
387 N.Y.S.2d at 215-216 (emphasis added).
Similarly, People v. Uzielli, 23 A.D.7d 260, 260
N.Y.S.2d 329 (1st Dept. 1965) involved infants who
were actually born in France and had dual FrenchAmerican citizenship. The mother was awarded custody
by the French courts. However, the father succeeded

App.240a
in bringing the children to the United States, where
he was awarded custody by the New York courts. In
addition, the court ruled that under no circumstances
would it permit the children to be taken back to
France, even for a short visit. The court stated that:
“Obviously so long as the French decree remains in its
present form, respondent dare not take or permit the
child to be taken to France.” 260 N.Y.S.2d at 334.
This ruhng has particular relevance to the instant
case because at the trial, the respondents produced a
witness from Iraq who testified as an expert on
Islamic law and who stated that under the law of
Pakistan, the mother, Honzagool, is automatically
entitled to the custody of the child “until at least the
age of seven.” This means that once Honzagool is able
to take the baby to Pakistan, ostensibly on a short
trip, she will automatically be entitled to custody
there and under no circumstances will the petitioner
father be able to secure the return of the child to the
United States. Obviously, the case law requires that
under these circumstances this court should ensure
that the child will not be taken to Pakistan for any
reason until it reaches its majority. The only way to
ensure this is to award the custody of Shamema to the
U.S. citizen father.
In Ex parte Djurovic, 205 Misc. 216, 130 N.Y.S.2d
389 (Sup. Ct. N.Y. Co. 1954) both parents were citi­
zens of Yugoslavia. The father, however, had sought
political asylum in the United States whereas the
mother had secreted the children from him and
apparently intended to take them back to her native
country. The mother was represented by an attorney
provided by the Yugoslav counsel. In view of the fact that
the mother apparently wanted to take the children out

App.241a

of the United States, the Diurovic court awarded
custody of the children to the father.
The applicable case law is summarized in Law
and the Family-New York by Foster and Freed, Vol. 2,
§ 29:18, which states:
“While the courts will ordinarily award the
custody of children of tender years to their
mother, the custody of such children may be
awarded to their father where the mother
intends to remove them to a foreign country
thereby effectively depriving the father of all
rights of visitation. This is particularly true
where the children are native-born citizens
of the United States.”
There can be no doubt in this case about
Honzagool’s inclination to take the baby back to
Pakistan. In addition to her own testimony, her best
friend, Fatima Malik, who testified on her behalf and
who was obviously trying to present her case in the
most favorable light, stated that even before the baby
was born, Honzagool wanted to be “released” from her
husband (petitioner), to go back to her native village
in Pakistan, to have the baby born there, and to spend
the rest of her life in that village, but that she had
been forced to remain in the United States by petitioner,
who took her passport. It is thus only as a result of the
actions of the petitioner that this child was actually
born in the United States and became a U.S. citizen
in the first instance. It is true that Fatima Malik also
testified that Honzagool is now willing to remain in
the United States “because of her baby” but her desire
to return at least temporarily to Pakistan has never
been doubted. Another friend of Honzagool, who also
testified as her witness, was Josiane Canada, who

App.242a

added that she had spoken to Honzagool’s cousin,
Aziz-ur-Rehman, and that he told her that he was
“going to take the baby back to Pakistan” and
furthermore that petitioner Sloan “will never get the
baby.” Her former English teacher, Hazel Fershleiser,
also testified that she met Honzagool with her baby in
Brooklyn within the past month and Honzagool said
that she was planning to take the baby back to
Pakistan as soon as this trial is concluded. Finally, her
attorney, Mr. Lake, represented to the court that she
wants to take the baby on a trip to Pakistan.
At trial, the court suggested that Honzagool might
be allowed to go back to Pakistan with the provision
that Sloan be awarded custody of the child while she
is gone. To this, she strenuously objected, stating that
she “will never go anywhere without this baby”. If this
court awards custody to Honzagool, with the provision
that she will never be allowed to take the baby back
to Pakistan until it reaches majority, it will be creating
a dangerous situation. Honzagool obviously wants to
visit her family in Pakistan, which is totally under­
standable. She has testified that she will never go
without the baby and will never surrender custody of
the baby to Sloan, even temporarily. On the other hand,
it is unreasonable to expect that she will be prepared
to wait for 18 years, until her child grows up, to realize
the long sought reunion with her family Therefore, the
temptation to violate the court order will be great,
especially when it becomes apparent that the legal
remedies have been exhausted. However, once she
takes the child to Pakistan, she will not be able to
return because if she does she will be subject to being
held in criminal contempt and actual imprisonment.
Also. Honzagool herself testified that she will not be

App.243a

allowed to depart from her family’s house in Chitral
without the permission of her male family members.
In view of the fact that her cousin, Aziz-ur-Rahman,
was the only family member willing to accompany her
to America on her initial trip here, plus the fact that
there is now an outstanding warrant for his arrest and
deportation, plus the scandal which this case will no
doubt cause in Pakistan by the publicity generated in
the press, it is difficult to believe that having returned
to Chitral she will ever be allowed by her family to
return here, or will be able to raise the funds and
complete the formalities for visas and airline tickets.
Moreover, the claim that she will be able to return to
the United States.
Point V—Islamic Law and Related Considerations
Require an Award of Custody to the Father
In the marriage agreement between petitioner
Sloan and members of the family of respondent
Honzagool, it was specified that the marriage and the
upbringing of any children would be conducted strictly
in accordance with the Hanafi school of the Sunni
branch of Islamic law. This is undisputed, but there
has been conflicting expert testimony as to what the
applicable Islamic law is. The main dispute has been
over the Islamic law regarding the custody of children.
An expert from the World Muslim League (which he
called the “Muslim World League”) Who was for 15
years a Judge of a Family Court in Iraq but who
admitted that he knew nothing about the manner in
which Islamic law is interpreted or applied in Chitral,
testified that in countries such as Iraq and Pakistan,
custody goes to the mother “until at least seven years”
and often longer, after which custody is turned over to
the father. On the other hand, a professor from the

App.244a

Islamia College of the University of Peshawar in
Pakistan testified that “in all cases the child belongs
to the father.” It is noteworthy that Peshawar is the
nearest major (or minor) city to Chitral and is the
capital of the province in which Chitral is located.
The law of Pakistan divides the country into
“settle areas” and “tribal areas”, the tribal areas being
a few small regions adjacent to the border with
Afghanistan in which the government of Pakistan has
never been able to exercise effective authority, and
consequently has been forced to allow the tribes to
settle their own disputes, including especially family
disputes, in accordance with tribal laws and customs.
Chitral, which was never ruled by tribal chieftains but
rather had its own king (or “mehtar”), has been legally
classified as a “tribal area” with respect to marital and
family disputes but is regarded as “settled” ever since
1970 in other types of matters. Therefore, for example,
the marriage of infant females (such as Shamema) is
allowed in Chitral whereas the civ. laws of Pakistan
prohibit the marriage of a girl until she reaches the
age of 16 years. (This latter provision is widely ignored
even in the settled areas.)
The characteristic feature of the tribal areas is
that there, Koranic law is strictly applied and the civil
law of Pakistan is totally ignored. Professor Abdul
Ahad Bahar of the University of Peshawar testified
that it is explicitly set forth in the Koran that the
custody of the child shall go to the father. He based
this upon a quotation from surah 233 of the Koran,
“The Cow”, which, in translation, states:
“After divorce, the mother shall give suck to
their offspring for two whole years, if the
father desires to complete the term, but he

App.245a

shall bear the cost of their food and clothing.
. . . No mother shall be treated unfairly on
account of her child, nor father on account of
his child. If ye decide on a foster mother for
your offspring, there is no blame on you
provided ye pay what ye offered on equitable
terms—but fear God.” Translation by Abdullah
Yusuf Ali, p. 93, Daru Kitab Al-Masri Dar
Ketab Al-Lebanane.
The judge of the Iraqi Family Court testified, on
the other hand, that his interpretation is based upon
the “oral tradition” rather than upon the Koran itself.
No specific oral tradition was cited. Nevertheless,
petitioner concedes that jurisdictions such as Iraq,
Egypt and the Islamic republics of the Soviet Union,
including Tajikistan S.S.R., which has a border only
eight miles from Chitral at one point, interpret Islamic
law as requiring that initial custody be awarded to the
mother. This is also the rule under the civil law of
Pakistan (but not under the tribal law). However, it is
noteworthy that this rule only applies after divorce.
Moreover, under Islamic law a man can divorce his
wife at any time, without any reason, merely by
saying “I divorce you” three times, whereas a woman
has no right to divorce except under five extremely
limited circumstances which are (l) extreme cruelty,
(2) forceable sodomy, (3) impotence, (4) prolonged
absence from the marital residence and (5) apostacy
(conversion from Islam). Moreover, unless a wife can
prove one of the five grounds for divorce, she is not
even allowed to leave her husband’s house without his
permission and he can even keep her a prisoner there
indefinitely. Even the Iraqi Family Court Judge testified
that a woman can only get custody of the child if (l)

App.246a

she is divorced or (2) she can convince the court that
her husband has been extremely cruel to her or to the
child. Otherwise, she cannot take the child away from
the father and even cannot leave the house.
This circumstance leads to the perception by nonMuslims that under Islamic law, women can be treated
like slaves or mere chattel. We will not attempt to
pass judgment on the Islamic law here. Suffice it to
say that the religious law does not permit a wife such
as Honzagool here cavalierly to take off to another
man’s residence with the child, unless she has been
severely mistreated by her husband and is in a position
to prove it to a court.
Indeed, it is evident that precisely for this reason,
respondents’ counsel has attempted to prove that
Honzagool was actually severely mistreated by the
husband and for that reason she was justified in
fleeing his residence. It is up to this court, as the trier
of the fact, to determine if this testimony is credible or
not, assuming Islamic law is deemed to be relevant.
The accusation has also been made, primarily in
newspapers, radio and television reports and in repre­
sentations by counsel, rather than in actual testimony,
that this case involves the mistreatment of Honzagool
by the petitioner who forced her into sex acts prohibited
by Islam. The general Muslim public appears to believe
that the allegation here is one of sodomy, since that is
the only sex act regarded as being prohibited by Islam.
However, Honzagool has given no testimony in this
regard. Moreover, the same surah of the Koran, “The
Cow,” states:
“Keep away from women in their monthly
courses and do not approach them until they

App.247a

are clean. But when they have purified them­
selves, ye may approach them in any manner,
time or place. . . . Your wives are as tilth
unto you, so approach your tilth when or how
ye will.” Id. page 88.
On this basis, Professor Abdid Ahad Bahar
testified that the Koran allows “every kind of sex.”
Indeed, in Christianity, celibacy and sexual purity are
regarded as virtues of the highest order, whereas, in
Islam, they are condemned. A Muslim man is required
to marry, provided that he can afford it. Having
married, he is required to provide sexual satisfaction to
his wife and she is required to provide sexual satisfac­
tion to her husband. A woman cannot refuse sex to her
husband except when she is gravely ill and in other
extreme circumstances. This accounts for the high birth
rate in all Mushm areas and the frustration experienced
by population control experts in those regions.
A very recent New York Court of decision ordered
a change of custody to the father because of violations
by the mother of Jewish religious law. See Friederwitzer
v. Friederwitzer, N.Y. Court of Appeals, Feb. 16, 1982.
This case is applicable here.
In this case, a number of witnesses have testified
that, throughout the marriage, Honzagool was in the
habit of spending at least one night each week in the
house of Sher Malik. Sloan testified to this effect, as
did Sher Malik, and also his wife, Fatima Malik, as
well as Honzagool herself. Sher Malik, obviously aware
that this conduct constitutes a grave violation of Islamic
law, testified that she did so with her husband’s
permission. However, this testimony is hearsay and,
in any event, hardly credible. Moreover, it is undisputed
that on April 20, 1981, Honzagool left Sloan’s house

App.248a

for good and took up residence first with Sher Malik,
then with Abdul Awadallah, and, most recently, with
an unknown Pakistani family in Queens.
It is clear that under the religious law, this conduct
is justified only if Honzagool were forced to leave her
husband as a result of his extreme cruelty. However,
in spite of the innuendos of cruelty and mistreatment
in this case, it has never been alleged that Honzagool
left her husband’s bed and board for that reason. To
the contrary, her girlfriend, Fatima Malik, testified
that once every week Honzagool came to her house,
complained about being mistreated and spent the
night there, but then returned voluntarily by herself
to her husband’s apartment. It is clear that Honzagool
was in no wav being forced to live with Sloan. Rather,
the testimony establishing that she left him not
because of cruelty but because he refused to take her
back to Chitral to have the baby there. (Also, she
expressed anger because of the fact after she left him
he went to Chitral without taking her with him.)
One cannot help but be sympathetic with the
desire of Honzagool to return to her remote mountain
village in North West Pakistan to visit her family and
friends there. Also, her desire to give birth to her child
among friends in the familiar surroundings provided
by the dirt floor in the mud hut in Chitral where she
and her mother live, as opposed to a New York City
hospital, is perfectly understandable. At the same
time, her conduct clearly violates Islamic law. Indeed,
the fact that she is living with a man not her husband
carries with it the presumption under Islamic law
that she is committing adultery, whether she actually
is nor not. She could have lessened (but not removed)
the appearance of impropriety by living with her cousin

App.249a

Aziz, but has not done so. Therefore, the religious law
requires that custody of Shamema be given to the
father.
Point VI—Collateral Issues
Respondent has refused and continues to refuse
to list petitioner’s name as the father on the birth
certificate. In addition, respondents’ counsel has gone
to great lengths to prove that the respondent is not
legally married to the petitioner under the law of New
York State. The respondent has also invited the news­
papers and other media to the trial, apparently in an
effort to widely publicize this fact. In so doing, it
appears that the respondent and her “friends” are
trying the best they can to lose this case. Publicity
about bigamy seems guaranteed to insure the depor­
tation of the respondent. It appears that this court is
now forced to rule that the marriage is invalid under
New York State law. However, this in no way helps
the respondent. Under Section 24 of the Domestic
Relations law, Shamema is still the legitimate child of
petitioner, because there has been a marriage ceremony,
even though the marriage may be “void or voidable.”
Moreover, even if Shamema is deemed illegitimate,
the rights of a father to the custody of his illegitimate
child are now no different from his rights to custody of
his legitimate child. In other words, legitimacy or
illegitimacy is irrelevant. See e.g., Richard D. v.
Wendy P., 41 N.Y.2d 943, 419 N.Y.S.2d 949 (1979);
Alberto B. v. Rosa O., 102 Misc. 2d 147, 423 N.Y.S.2d
111, 113 (1979); Wallace v. Teal, 100 Misc. 976, 420
N.Y.S.2d 336, 339 (1979).
In addition, in cases where, as here, a mother has
attempted to defeat a father’s custody petition by

App.250a

having her own children declared illegitimate, the
courts have awarded custody to the father. See Hill v.
Hill, 20 A.D.2d 923, 429 N.Y.S.2d 751 (1964).
Conclusion
For all of the reasons set forth above, custody of
Shamema should be awarded to the petitioner.
Respectfully submitted,

Ishmail Sloan, Petitioner

App.251a
EXHIBIT C
DECISION OF THE BRONX SUPREME COURT
GIVING LEGAL CUSTODY TO MOTHER
(JUNE 7, 1982)
Exhibit C
After two weeks of trial before Judge Anthony
Mercorella and Judge Irwin Silbowitz in the Bronx
Supreme Court, this was the decision of the court
giving legal custody to the mother “as long as she
remains together with the child in the State of New
York”.

App.252a

PETITIONER’S POST-TRIAL MEMORANDUM
(MAY 26, 1982)
SUPREME COURT OF THE STATE OF
NEW YORK, COUNTY OF BRONX
ISMAIL SLOAN,
Petitioner,
v.
ABDUL AWADALLAH and HONZAGOOL,
Respondents.
Index Number. 17815/81
Before: Honorable Anthony MERCORELLA, Justice.
A petition having been made by the above named
petitioner for a Writ of Habeas Corpus, such petition
being duly verified on December 10, 1981 and a writ
having been thereupon duly allowed in the above
matter, by Hon. Irwin M. Silbowitz, Justice of the
Supreme Court, and the said writ having been duly
issued to the Clerk of the Court on the 10th day of
December, 1981 and the respondents Abdul Awadallah
and Honzagool having been duly commanded by such
writ to have the body of the child, Shamema Honza
Gool, before Hon. Irwin M. Silbowtiz, a Justice of the
Supreme Court, at the County Courthouse at 851
Grand Concourse, Bronx, N.Y. on December 15, 1981
and the said respondents having duly appeared at

App.253a

such time and place and having thereupon produced
the said child, and the respondents having submitted
the affidavit of Honzagool in opposition to the relief
sought by the petition sworn to the 22nd day of
December, 1981 as and for their written return to the
said writ and the issues thereby raised having duly
come on for hearing at the above captioned time and
place and the body of Shamema Honza Gool having
also been duly produced into Court at such time and
place and William S. Beslow, Esq. appearing for the
petitioner and William J. Lake Esq. appearing for the
respondents and after hearing allegations and proofs
of the parties, and due deliberation having been had
and the Court having made and filed its decision in
writing, it is hereby:
ADJUDGED AND DECLARED, that Shamema
Honza Goal, who was born in New York City on
October 15, 1981, is the legitimate daughter of the
petitioner Ismail Sloan, and it is further
ORDERED AND ADJUDGED that the name of
the said child, Shamema Honza Gool, shall henceforth
be Shamema Honzagool Sloan and no other and it is
further
ORDERED AND ADJUDGED that the custody of
Shamema Honzagool Sloan be and the same hereby is
awarded to her mother, Honzagool, at least during her
formative years while of tender age provided respondent
Honzagool remains together with the child in the
State of New York and it is further
ORDERED AND ADJUDGED that Honzagool
shall permit Ismail Sloan, the father to said Shamema
Honzagool Sloan, to see and visit with the said child
every Sunday from 12:00 noon until 2:00 P.M. and

App.254a

that such visitation shall be exercised at the residence
of Honzagool unless Honzagool notifies Ismail Sloan
at least five days in advance that such visitation shall
take place at a specified local mosque or other place of
worship and it is further
ORDERED AND ADJUDGED that only the peti­
tioner, Ismail Sloan, the respondent, Honzagool, and
the child, Shamema Honzagool Sloan, are permitted to
be present during these visitations and no one else is
allowed to be present and it is further
ORDERED AND ADJUDGED that the paternal
grandmother of the child, Doctor Helen M. Sloan,
shall be allowed to visit with the child at the same
time and under the same conditions when petitioner
Ismail Sloan is permitted to visits the child, or in the
event that petitioner Ismail Sloan is unable to visit
with the child at the specified time, Honzagool shall
permit his mother to visit with the child at that time
and it is further
ORDERED AND ADJUDGED that respondent
Honzagool is directed to disclose her residence to
petitioner forthwith and is directed to inform petitioner
of any changes in her residence and it is further
ORDERED AND ADJUDGED that Shamema
Honzagool Sloan is not to be removed from New York
State until she has reached the age of 14 years except
upon an order of this court and it is further
ORDERED and ADJUDGED that should respond­
ent Honzagool permit the child to be taken out of New
York State except upon the order of this court, the
custody of the child is hereby automatically awarded
to the petitioner and it is further

App.255a

ORDERED AND ADJUDGED that during the
specified hours of visitation the petitioner shall be
prohibited from harassing, intimidating, assaulting or
striking the respondent and it is further
ORDERED AND ADJUDGED that this court may
modify, alter or change this order, by the making of
such further provision or provisions with respect to
the custody of such child as it may at any time in the
future deem necessary or proper and it is further
ORDERED AND ADJUDGED that petitioner is
granted leave to apply for a change in custody should
the circumstances warrant.
Enter,
/s/ Anthony Mercorella
J.S.C.

App.256a
EXHIBIT D
LETTER DENYING PASSPORT MARCH, 1982
(MARCH 16, 1982)
Exhibit D
The mother Honzagool and the militants who
CONTROLLED HER APPLIED FOR A PASSPORT SO AS TO
TAKE THE CHILD TO PAKISTAN. THE REQUEST FOR A
PASSPORT WAS DENIED BECAUSE OF THIS COURT CASE.

Here is the letter dated March 1982 denying the
PASSPORT. As A RESULT, THE MOTHER RETURNED TO

Pakistan on August 27, 1982 leaving the child
ONLY TEN MONTHS OLD WITH THE FATHER. HER
ATTORNEY TRIED TO GET BRONX SOCIAL SERVICES TO
HOLD THE CHILD DURING HER “TEMPORARY” VISIT TO

Pakistan, but Bronx Social Services said they
COULD NOT HOLD A CHILD AS A STAKE HOLDER SO THE
father,

Plaintiff here, got physical custody of

THE CHILD.

App.257a

PASSPORT OFFICE
This form of communication is used to expedite con­
sideration of your case or inquiry. Should a reply be
necessary, it should be addressed as follows to insure
prompt receipt:
New York Passport Agency
630 Fifth Avenue
New York, NY 10111
In reply refer to: US Hold 3/ 8/82
Date: March 16, 1982
Honza Gool
312 East 187th Street
Apartment 2
Bronx, NY 10458

RE: YOUR DAUGHTER, SHAMEMA H. GOOL
Our office in Washington D.C., has indicated that
at this time we cannot issue a passport to your child
Shamema H. Gool.
Please submit a letter requesting a refund of your
Ten Dollar ($10.00) passport fee, the Five ($5.00) dollar
execution fee is not returnable by law.
Please return this letter with your request.

/s/ {Illegible}
Passport Agent

App.258a

EXHIBIT E
BRONX SUPREME COURT ORDER
AWARDING FULL CUSTODY
(OCTOBER 27, 1994)

Exhibit E
After the passage of some years during which the
mother never returned from Pakistan, Plaintiff applied
for a change of custody. The Bronx Supreme Court re­
quired that Plaintiff serve process on the mother in
Pakistan. This was difficult and time consuming
because the mother resides in Chitral, a remote area
of Northwest Pakistan. Eventually, service of process
was completed on the mother in Pakistan. Then a
hearing was held in the Bronx Supreme Court which
resulted in full custody being awarded to the father,
the plaintiff. Meanwhile, the same militants who had
controlled the mother had been placed on the US State
Department Watch List so they are effectively barred
from visiting the United States again. Here is the
order of the Bronx Supreme Court awarding full
custody to the father, the Plaintiff here.

App.259a
ORDER OF THE SUPREME COURT
NEW YORK SUPREME COURT
COUNTY OF BRONX
M. ISMAIL SLOAN,
v.
ABDULLAH AWAD ALLAH.
Part-11-17
Index Number. 17815/81
Before: Hon. Lorraine BACKAL, Justice.
The following papers numbered 1 to 5 read on this
motion for an order modifying custody order.
No 1 on calendar of October 7, 1994
Notice of motion-order to Show Cause-Exhibits
and Affidavits Annexed
Papers number 1-5
Upon the foregoing papers this motion for an order
modifying the child custody provisions of an order of
this court dated June 7, 1982 that awarded custody
of the parties’ infant issue, Shamema Honzagool
Sloan, date of birth October 15, 1981 to the defendant
mother, Honzagool, is granted on default. Pursuant to
the June 7, 1982 order, defendant mother was granted
custody of the infant issued provide she remain with
the child in the State of New York. On or about October
1, 1982, defendant mother abandoned plaintiff-father,

App.260a

M. Ismail Sloan, and the infant issue in the united
states and returned to the native Pakistan. To date,
defendant-mother has not returned to the United
States. Plaintiff-Father has been the de facto
custodial parent of the infant issue since the time of
defendant-mother’s departure and has provided the
child with a caring and stable home environment for
the past 12 years. Accordingly it is in the child’s best
interest that the custody order of this court dated June
7, 1982 be modified to the extent of awarding custody
of the infant issue, Shamema Honzagool Sloan, to the
Plaintiff-Father M. Ismail Sloan.
This shall constitute the decision and order of the
court.

/s/ Lorraine Backal
A.J.S.C
Dated: October 25, 1994

App.261a
EXHIBIT F
APPOINTMENT OF SLOAN AS ADMINISTRATOR
(JUNE 19, 2017)

Exhibit F
Here is the appointment of Samuel H. Sloan, the
Plaintiff here, as Administrator of the Estate of his
father, Leroy B. Sloan. His administration is still in
effect.

App.262a

QUALIFICATION CERTIFICATE FOR SMALL
ASSET ESTATE COMMONWEALTH OF VIRGINIA
Commonwealth of Virginia
VA. Code § 64.2-1411
Court File No. WB#55 PG#539
Lynchburg Circuit Court
I, the duly qualified clerk/deputy clerk of this
Court, CERTIFY that on 02/21/1986 (Date)
Name(s) of Person(s) Qualifying:
Samuel H. Sloan
duly qualified in this Court, under applicable
provisions of law, as Administrator eta of the
estate of
Leroy B. Sloan.
[3 Deceased
The powers of the fiduciary(ies) named above con­
tinue in full force and effect.
$20.000.00 bond has been posted.
The maximum amount of estate, guardianship,
conservatorship or committeeship assets that may be
collected pursuant to this certificate shall not exceed
$25,000.
ANY PERSON MAY PAY OR DELIVER TO THE
FIDUCIARY NAMED IN THIS CERTIFICATE ANY
ASSET, BELONGING, OWED, OR DISTRIBUTABLE
TO THE SPECIFIED DECEASED PERSON, INCA­
PACITATED WARD, OR MINOR HAVING A VALUE,

App.263a

ON THE DATE OF PAYMENT OR DELIVERY, OF
NO MORE THAN $25,000.
This certificate may only be used once and is not
effective if it does not have an impression seal of the
court clerk. Photocopies of this certificate are not effec­
tive. The pay or shall retain possession of this certificate.
Given under my hand and the seal of this Court on
June 19, 2017
Date

Eugene C. Wingfield
Clerk

by /s/ Liz Walker
Deputy Clerk

App.264a

LETTER REQUESTING
COPY OF THE APPOINTMENT
(JUNE 21, 2017)
Sam Sloan
1664 Davidson Ave., Apt. IB
Bronx NY 10453-7877
Tel. 917-507-7226
917-659-3397
samhsloan@gmail.com
Liz Walker
Deputy Clerk
Lynchburg Circuit Court
900 Court
Lynchburg, Virginia 24505
Re: Estate of Leroy B. Sloan
Dear Ms. Walker:
Enclosed please find two dollars as payment for a
copy of the appointment of me as Executor of my
father’s estate.
My father died in Lynchburg on January 19, 1986.
I was appointed executor of his estate.
My father’s documents were in a safe deposit box
at Central Fidelity Bank on Main Street in Lynchburg.
That physical location is now occupied by Bank of the
James.
Central Fidelity Bank was taken over by Wells
Fargo. I have been to Wells Fargo and they inform me
that all the boxes have been moved out to various
places, not necessarily to the same place.

App.265a

I have been assuming that the box was escheated
to the state. However, the state offices inform me that
they have no record of receiving the belongings of
either my father Leroy B. Sloan or my mother Dr.
Helen Marjorie Sloan.
In order to get Wells Fargo to undertake a search
for this safe deposit box and its contents I need a copy
of the court order appointing me as the executor of my
father’s estate.

Very Truly Yours
/s/ Sam Sloan

App.266a

Official Receipt
Lynchburg Circuit Court
Wills/Fiduciary
Date: 06/23/2017
Receipt#: 17000013215
Cashier: ECW
Instrument: WB55PG539
Indexed: Slaon, Leroy
Principal: Sloan, Leroy
Received of: Slaon, Leroy
Cash: $2.00
Time: 11:40:34
Transaction#: 17062300036
Register#: A379
Case #: 680CWFWB55PG539
Filing Type: Other
Recorded: 06/23/2017
Payment: Full Payment
AT: 11:39
LOC: 01
PCT:100%
Account Code

Description

Paid

302

Wills & Admin

$2.00

Tendered: $2.00
Amount Paid: $2.00

App.267a

EXHIBIT G
JUDGE GAMBLE WAIVER OF DISQUALIFICATION
(AUGUST 7, 1991)

Exhibit G
Judge J. Michael Gamble prepared this waiver of
disqualification form and asked Sam Sloan to sign it
saying that without his signature on this form he
would have to recuse himself. Sloan refused to sign
this form and instead demand that Judge Gamble be
disqualified. Then Judge Gamble did the opposite. He
took jurisdiction over all the Sloan cases and insisted
that he be the judge. Among other things, Judge
Gamble took away Sloan’s daughter Shamema and
awarded her to the Roberts. This is unknown in the
law. A judge cannot take somebody’s child and award
her to a stranger. Judge Gamble also took the Sloan
Family Home located at 917 Old Trents Ferry Road
and “sold” it to a relative of the attorney Cecil Taylor
for the ridiculously small sum of $75,000. Virtually all
of this $75,000 was given to the attorneys as their
legal fees. Dr. Marjorie Sloan and the Sloan Family
got nothing for the house.

App.268a

WAIVER OF DISQUALIFICATION
VIRGINIA: IN THE CIRCUIT COURT
FOR THE COUNTY OF AMHERST
IN RE: CUSTODY OF
SHAMEMA HONZAGOOL SLOAN, a minor,
Case #7321;
APPEAL OF CONTEMPT
MATTER OF M. ISMAIL SLOAN, Case #7369,
On this day came the parties on the Appeal of M.
Ismail Sloan in the above-styled matters. The
undersigned J. Michael Gamble, Circuit Court Judge,
has advised the parties that there are circumstances
which could require that he recuse himself from this
case. Further, J. Michael Gamble has advised all
parties that he will recuse himself unless all parties
waive in writing their possible objections to his service
as Judge in these cases. The circumstances are as
follows:
(1) M. Ismail Sloan consulted with J. Michael
Gamble in 1985 about representing him in the matters
involved in this case at a time when J. Michael Gamble
was a practicing attorney. Although J. Michael Gamble
did not take the case M. Ismail Sloan did talk with J.
Michael Gamble about the facts of the case for about
one hour. Also, J. Michael Gamble accepted a retainer
fee which he returned by mail the same day.
(2) Stephen C. Martin, a former law partner of J.
Michael Gamble, represented M. Ismail Sloan in earlier

App.269a

proceedings in the matters in this case. Confidential
or privileged information was provided to Stephen C.
Martin as a result of such representation.
(3) Donald G. Pendleton, a former law partner of
J. Michael Gamble, represented a person claiming to
have an adverse interest in M. Ismail Sloan in the
Estate of the father of M. Ismail Sloan. Possibly confi­
dential or privileged information was given to Donald
G. Pendleton, at the time he was the partner of J.
Michael Gamble.
(4) Lawrence Janow, Juvenile and Domestic
Relations District Judge of Amherst County, who has
heard many of the proceedings in this case, was a law
partner of J. Michael Gamble from 1974-1979.
(5) J. Michael Gamble has heard many discussions
of this case by numerous sources.
(6) Linda B. Carroll, the former legal secretary of
J. Michael Gamble, is a close friend of Mr. and Mrs.
Charles Roberts, a party to these proceedings.
Notwithstanding the above disclosures, we the
undersigned waive the right to request J. Michael
Gamble to recuse himself, and waive the disqualifica­
tion of J. Michael Gamble to hear the matters involved
in this Appeal. We fully understand that by hearing
this Appeal J. Michael Gamble does not necessarily
agree to hear any other proceedings which may come
before this Court in this matter.
Given under our hands this 7th day of August,
1991.

App.270a
EXHIBIT H
ALMA DAWSON SET ASIDE OF WILL
(MARCH 25, 1986)

Exhibit H
Alma Coates Dawson was a former lady friend of
Leroy B. Sloan and they had broken up some years
before. Leroy B. Sloan was by then residing in the Elks
National Home in Bedford Virginia. He was senile and
his mind was gone. After having not seen each other
for some time, on New Years Eve 1985 Alma Dawson
went to the Elks National Home and realizing his
condition, dragged him down to the office of Attorney
Preston Sawyer to get married! However, Leroy B.
Sloan collapsed on the floor in the office of Preston
Sawyer. Emergency 911 was called and the life-saving
crew came and took Leroy B. Sloan to the Emergency
Room of the Lynchburg General Hospital. Alma
Dawson went there in her own car and insisted on
being married to him even though he was suffering a
brain seizure and was on life support equipment.
Leroy B. Sloan died shortly after this emergency room
marriage. Here Alma Dawson represented by Pendle­
ton & Gamble purports to set aside the Will of Leroy
B. Sloan and take from his estate as his wife and heir.

App.271a

RENUNCIATION OF WILL
VIRGINIA: IN THE CIRCUIT COURT FOR
THE CITY OF LYNCHBURG

IN RE: ESTATE OF LEROY BAYFIELD SLOAN
RENUNCIATION OF WILL
BY ALMA C. SLOAN, WIDOW
Serve On: Samuel H. Sloan, Administrator
917 Old Trents Ferry Road
Lynchburg, Virginia 24503
TO THE HONORABLE JUDGES OF SAID COURT:
Know All Men by This Present That:
WHEREAS. Leroy Bayfield Sloan, a resident of
the City of Lynchburg, Virginia, departed this life on
the 19th day of January, 1986, seized and possessed
of certain real and personal estate; and,
WHEREAS, the said Leroy Bayfield Sloan in his
lifetime made his Last Will and Testament, which has
been probated before the Clerk of the Circuit Court of
the City of Lynchburg, Virginia, and recorded in the
aforesaid Clerk’s Office in Will Book 55, at page 539,
reference to which Will is hereby made for the terms,
conditions, devises and legacies therein.
WHEREAS, I, Alma C. Sloan, widow of the said
Leroy Bayfield Sloan, deceased, am entitled to a dower
share in the said Estate of Leroy Bayfield Sloan, as per
Virginia Code Section 64.1-19, as amended, and do
hereby renounce said Will.

App.272a

NOW, THEREFORE, I, Alma C. Sloan, widow of
Leroy Bayfield Sloan, deceased, of Lynchburg, Virginia,
do hereby elect to claim my dower interest in my late ■
husband’s estate, real, personal and mixed, as I would
have, had the said Leroy Bayfield Sloan died
intestate.
WITNESS my hand and seal this 25th, day of
March, 1986.

/s/ Alma C. Sloan
STATE OF VIRGINIA
AT LARGE, to-wit:
Subscribed and sworn to before me in my
jurisdiction aforesaid this 25th day of March, 1986, by
Alma C. Sloan.
My commission expires: 6/13/87.
Is/ (Illegible}
Notary Public

/s/ Donald G. Pendleton
Pendleton and Gamble
P.O. Box 1226
Amherst, Virginia 24521
Counsel for Anna C. Sloan

App.273a

EXHIBIT I
GARY FEULNER LETTER TO JUDGE MILLER
(FEBRUARY 28, 1987)

Exhibit I
Letter dated 28 January 1987 from Gary R.
Feulner partner in the Prestigious Washington DC
Law Firm of Chadbourne & Parke to Judge Richard
Miller and lawyers in the Creighton Sloan vs. Sovran
Bank case stating that he had had dinner with Dr.
Helen Marjorie Sloan that her vision is sharp, her
mind is clear, she is fully with her senses and there is
no reason she should be deprived of access to her
assets.
Feulner states she is living a life of luxury in Abu
Dhabi, the richest country of the world, and has every
reason to want to stay there.
Gary Fuelner concludes that after reviewing the
order by Judge Miller and the papers in this case “the
case should not proceed and the orders should not
stand in their present form”.
Nevertheless, in spite of this letter, there was no
change. The criminal conspiracy to kidnap Dr. Helen
Marjorie Sloan aged 76 and her granddaughter
Shamema Honzagool Sloan aged 4 and to bring them
by force to the United States continued for another 4
years until 1990 when Dr. Helen Marjorie Sloan was
kidnapped in September 1990 and Shamema
Honzagool Sloan was kidnapped in October 1990.

App.274a
. LETTER FROM GARRY R. FEULNER
(FEBRUARY 28, 1987)
CHADBOURNE, PARKE & AFRIDI
Legal Consultants
Ahmed Rashid Building
P.O. BOX 3961
Abu Dhabi
United Arab Emirates
TEL: 329134; TELEX: 23632
Facsimile: 526905
M.A.K. Afridi
Daniel J. Greenwald, III
Of Counsel
Nicholas B. Angell
Associated Advocates
A.R. Hilal & Associates

Hon. Judge Richard Miller
Circuit Court of the City of Lynchburg
P.O. Box 4
Lynchburg, Virginia 24505
U.S.A.
Re: Sloan v. Sovran, N.A.
Dear Judge Miller:
I am an American attorney associated with
Chadbourne & Parke, a New York law firm, and I am
a member of the New York and Washington D.C. bars.
As it happens, I am a graduate of the University of the

App.275a

Virginia School of Law, but I am not a member of the
Virginia Bar. I am presently in charge of the Abu Dhabi
office of Chadbourne, Parke & Afridi, licensed legal
consultants in the United Arab Emirates.
We have been contacted locally by Mr. Ismail
Sloan, a/k/a Samuel H. Sloan, in connection with the
possible representation of the interests of his mother,
Dr. Helen Marjorie Sloan in connection with the
above-captioned matter. We have at this point made
no determination to undertake such representation. A
matter of this sort is very much outside the scope of
our normal commercial practice, but we feel obligated to
make available such legal services as we can where a
need appears that cannot otherwise be satisfied.
From a preliminary discussion concerning the
above-captioned litigation, it is apparent that Dr.
Sloan’s interests can best be protected by engaging a
lawyer in Virginia, and that the only services which we
might reasonably perform on behalf of Dr. Sloan would
be to assist in engaging such counsel and thereafter to
assist as necessary locally, e.g., in the preparation of
affidavits, forwarding of information, etc., as might be
necessary. I have so advised Mr. Sloan.
Nevertheless, even for such a limited purpose I
am mindful of the need to exercise extreme caution in
a matter where the competence of a prospective client
is apparently in question. In fact, I would be very
much inclined to consider seeking court approval in
connection with any such representation in order to
validate it and, indeed, in order obviate any sub­
sequent challenge to our fees in connection of such
representation.

App.276a
I note that in considering this matter, we have
been careful to distinguish between the interests of
Dr. Sloan and her son Ismail, who has been quite
candid with us in revealing court orders and other
information relating to child custody litigation in
which he is involved in Amherst County, Virginia. I
should add that Mr. Sloan is in no way attempting to
conceal his presence or that of his family, or his activ­
ities in Abu Dhabi. In fact, he had contacted officials
at the U.S. Embassy in Abu Dhabi even prior to
consulting us.
At this point, I have reviewed Bill of Complaint
filed 11 December 1986 and the Decree entered 2 Jan­
uary 1987 in the above-captioned case, and while I am
hesitant to comment, not being privy to supporting evi­
dence that may have been submitted to the court,
nevertheless it seems to me that the complaint in this
matter is remarkably thin and the order, by contrast,
remarkably broad. This alone inclines me to the belief
that legal assistance is required on behalf of Dr. Sloan
and that the case should not proceed, and the orders
should not stand in their present form, without the
appointment of counsel on behalf of Dr. Sloan.
The complaint, to the extent that it alleges that a
retired physician commenced several months of foreign
travel and that her expenses during that period may
(or may not) have been greater than when she lived
with relatives in the United States, would describe a
number of retired persons in my acquaintance.
To the extent that the complaint implies that the
decision to reside in Abu Dhabi is itself evidence of
mental instability, this reflects an amusing but regret­
table ignorance. As it happens, the United Arab
Emirates has the highest per capita income of any

App.277a

country in the world, and Abu Dhabi is the richest of the
seven individual Emirates. Fully 80% of the population
of the U.A.E. consists of expatriates, including approx­
imately 25,000 British citizens and 5,000 Americans,
who are about equally divided between Abu Dhabi and
Dubai, the two principal urban areas in the U.A.E.
Many of these individuals have resided here for a long
time, but new companies and new people arrive each
year. Indeed, a record number of visas were issued in
Abu Dhabi last year, despite a relative economic
decline owing to reduced oil prices. Abu Dhabi, in par­
ticular, is experiencing a tourist mini-boom, with the
major hotels (Intercontinental, Sheraton, Meridian and
Hilton) bringing in substantial tour groups each week
during the “winter” season, usually from Northern
Europe. For your information, Ramada and Holiday
Inn are also represented in Abu Dhabi. The rate of
crime is much lower than in the United States. I often
leave my car doors unlocked, leave my apartment keys
with doormen, repairmen, etc., and one may feel free
to drive or walk in any areas of Abu Dhabi.
Without pretending to any special expertise, I
have met Dr. Sloan (I treated her to lunch with her
granddaughter). I found her in relatively good physical
condition for her age. She needed no help getting in
and out of vehicles, or up and down stairs, her vision
is sharp and she read (from a relatively exotic menu)
both rapidly and fluently. We talked for about two
hours on a range of subjects including her family, her
former employment, and her foreign travel. At a mini­
mum, it is not at all clear to me that she should be
deprived of the right to dispose of her own assets. I have
also conferred with a local U.S.-trained psychiatrist,
Dr. Ghada Al-Asadi, a Syrian national, who examined

App.278a

Dr. Sloan in interviews totaling several hours, and
who has expressed to me a similar view, although I
cannot and do not pretend to represent the medical
judgment of Dr. Al-Asadi.
Accordingly, a court order which does not even
allow for Dr. Sloan’s her minimal living expenses
pending a final determination of the matters at issue
seems unjustified. More troubling is the fact that the
extant decree does not simply freeze Dr. Sloan’s assets,
but gives her son Creighton the power to operate her
accounts without any accountability to or supervision
by the court. If such supervision is in fact exercised,
as might be hoped, it is not evident in the order.
Unfortunately, it appears that Creighton Sloan has to
some extent relied in the past on income and support
from his mother, and that his record of financial
responsibility is open to question. This suggests a
potentially serious disregard for the interests and
assets of Dr. Sloan, who has to date never even
received notice from the court regarding this action
against her interests. To the extent that this may have
been at one point due to her travel status, I believe the
court is now aware that she can be addressed at P.O.
Box 2507, Abu Dhabi, U.A.E.
At this point I am concerned that any efforts to
obtain Virginia counsel in this matter will be hampered
by Dr. Sloan’s inability to pay or to make arrangements
for payment of the necessary fees owing to the court
order. Her son Ismail reports that he has experienced
difficulty in obtaining counsel in Lynchburg owing to
his family’s personal relationships over the years with
many lawyers there.
I therefore respectfully suggest, as one on whom
this matter has been thrust without my entirely

App.279a
wishing it, that the court consider whether it may be
appropriate to appoint a guardian ad litem, perhaps
on a temporary basis, to protect the interests of Dr.
Sloan, and in particular to raise immediately the
issues whether the extant order should be modified (l)
to address the possible abuse of Dr. Sloan’s assets by
her son Creighton and (2) to provide at least minimum
support payments for her maintenance in Abu Dhabi
pending a more permanent resolution of her situation.
Legal action by Dr. Sloan against the various parties
involved in this matter would be a subject for further
decision by either such a guardian or by counsel subse­
quently appointed by Dr. Sloan. We would be willing to
cooperate with such counsel to the extent necessary
locally.
I understand that the court and/or counsel for
Creighton Sloan is in contact with the U.S. Embassy
in Abu Dhabi in regard to the health and welfare of
Dr. Sloan. For your information, the relevant Embassy
officials are also aware that we have been contacted
and are considering representation of Dr. Sloan. I have
also made them aware of my preliminary impressions
in this matter.
Very truly yours,
/s/ Gary R. Feulner
cc: Killis T. Howard, Esq.
Leighton Houck, Esq.

App.280a

P.S.: Subsequent to preparation of the foregoing letter,
I have been advised that Dr. Sloan has received
notice from Killis T. Howard, Esq. of a hearing
scheduled for 13 March 1987 in Lynchburg, and
has been told that Creighton Sloan has made
arrangements to supply to Dr. Sloan a one-way
plane ticket to Washington, D.C., plus approxi­
mately $385 in spending money. Dr. Sloan has
indicated informally that this is not really an
acceptable arrangement, as it effectively continues
to deprive her of her right to travel freely and to
dispose of her own assets. I do not think that this
latest development affects the merit of the
suggestions offered above.
/s/ G.R. Feulner

App.281a

EXHIBIT M
CHARLES ROBERTS PETITION
FOR A WRIT OF MANDAMUS
(AUGUST 30, 1990)
Exhibit M
Charles Roberts vs. William G. Petty
Not realizing that Bill Petty was his best friend,
Charles Roberts sued Bill Petty for a Warrant for the
Arrest of Sam Sloan, on a petition for a writ of
mandamus dated August 31, 1990.
This suit was ineffective because no such warrant
existed. Also, there was no prior order granting custody
of Shamema Honzagool Sloan to Charles Roberts.
Because of this lawsuit, Bill Petty disqualified
himself from being the prosecutor in the subsequent
criminal case against Ismail Sloan a/k/a Samuel Sloan.
Perry was also a defendant in the case Helen Marjorie
Sloan vs. Judge Miller.
However, when the criminal case against Sloan
came for trial, Petty could not find any other
Commonwealth Attorney willing to prosecute this case,
so he prosecuted it anyway by having his sub-ordinate
Kimberly Slayton White be the public prosecutor while
he waited outside and listened through the door. Then,
whenever Kimberly Slayton White had a legal question,
she would say “I have to go ask my boss” and she would
leave the courtroom and come back with the answer he
gave.

App.282a

PETITION FOR A WRIT OF MANDAMUS
VIRGINIA: IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG

CHARLES ROBERTS,
Petitioner,
v.
WILLIAM G. PETTY,
Commonwealth’s Attorney for the City of Lynchburg,
Defendant.
Come now the petitioner Charles and petitions this
Court for a Writ of Mandamus pursuant to Section
8.01-644 of the Code of Virginia as follows:
(1) By Order entered by the Amherst County
Juvenile and Domestic Relations District Court on
September 9, 1986 (attached hereto), petitioner and
his wife, Shelby Roberts, were granted physical custody
of Shamema Sloan.
(2) Shamema Sloan was taken out of the country
by her natural father, Ismail Sloan a/k/a Samuel
Sloan in violation of a previous court order after which
an abduction order was issued in the City of Lynchburg
against Mr. Sloan which warrant is still pending.
(3) The petitioner has learned that Mr. Sloan is
presently in Thailand and is seeking a renewal of his
visa which expires September 2. He is further advised
that Thai authorities have requested background

App.283a

information regarding Mr. Sloan and specifically the
status of the pending warrant in Lynchburg, Virginia.
(4) The petitioner has sought to obtain a copy of
the aforesaid warrant from the Lynchburg Police
Department; however, he has been advised by Officer
Dennis Lariviere that he has been instructed by
William G. Petty, Commonwealth’s Attorney for the City
of Lynchburg, not to release a copy of the warrant.
(5) That the petitioner is entirely without remedy
unless it be afforded by the interposition of the Court.
Wherefore petitioner prays a writ of mandamus
against said William G. Petty, Commonwealth’s
Attorney for the City of Lynchburg, be granted and
that he be commanded to order the release of a
certified copy of the warrant against Ismail Sloan
a/k/a Samuel Sloan presently on file in the Lynchburg
Police Department.

/s/ Charles Roberts
Subscribed and sworn to before me this 31st day
of August, 1990.
/s/ Carole H. Brown
Notary Public
My Commission Expires
August 3, 1992

App.284a

ORDER OF THE AMHERST COUNTY JUVENILE
AND DOMESTIC RELATIONS DISTRICT COURT
(SEPTEMBER 5, 1986)
VIRGINIA: IN THE AMHERST COUNTY
JUVENILE AND DOMESTIC RELATIONS
DISTRICT COURT FOR THE TWENTY-FOURTH
JUDICIAL DISTRICT
RE: SHAMEMA HONZAGOOL SLOAN
This 4th day of September, 1986, appeared Frank
G. Davidson, III, Esquire, Attorney for Mr. and Mrs.
Charles Roberts, and Stephen Martin, Esquire, Attorney
for Ismail Sloan, upon a request for hearing by Frank
G. Davidson, III, Esq., Attorney for Mr. and Mrs.
Roberts, and, it appearing that the Court entered an
Order dated April 2, 1986, granting joint custody of
Shamema Honzagool Sloan to the custodians, Mr. and
Mrs. Charles Roberts, and to the biological father,
Ismail Sloan, with physical custody to Mr. and Mrs.
Charles Roberts, and an Order dated August 25, 1986,
granting joint custody to Mr. and Mrs. Roberts and
Ismail Sloan with physical custody to be turned over
to Ismail Sloan on September 7, 1986, (copies of which
are hereto attached), and that the father, Ismail Sloan,
contrary to the Court Orders and the best interest of
the child, has failed to return Shamema Honzagool
Sloan from visitation pursuant to said Orders, and the
whereabouts of the child are unknown to the Court
and Mr. and Mrs. Charles Roberts, therefore, the
Court doth ADJUDGE, ORDER, and DECREE as
follows:

App.285a

(1) That the Order of this Court dated August 25,
1986, is suspended and the Order of this Court dated
April 2, 1986, is, therefore, reinstated thereby leaving
physical custody of Shamema Honzagool Sloan with
Mr. and Mrs. Charles Roberts until further Order of
this Court;
(2) That the child is in the physical possession of
the Natural Father and that the child remaining with
the Natural Father is and has been contrary to the
Order(s) of this Court;
(3) That the appropriate law enforcement agency
and department of social services and/or equivalent
agency shall pick up and seize said Shamema Honzagool
Sloan and place said child in the custody of the
Amherst County Department of Social Services pending
further Order of this Court;
(4) That Shamema Honzagool Sloan is a missing
child pursuant to Section 15.1-131.9;
(5) And, that certified copies of this Order shall be
mailed/delivered to or served on Frank G. Davidson,
III, Esq., Mr. and Mrs. Charles Robert, Stephen Martin,
Esquire, Amherst County Department of Social
Services, Amherst County Sheriffs Department, Mr.
Ismail Sloan, David Embrey, Esquire, Honzagool
(Sloan), J. Thompson Shrader, Esquire, and all other
interested parties.

Entered: /s/ {illegible}
Dated: 9/5/86

App.286a

NOTICE OF APPLICATION
FOR WRIT OF MANDAMUS
VIRGINIA: IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG

CHARLES ROBERTS,
Petitioner,
v.
WILLIAM G. PETTY,
Commonwealth’s Attorney for the City of Lynchburg,
Defendant.
Take notice that the undersigned will on Friday,
August 31, 1990, at 2:30 o’clock P.M. or as soon there­
after as counsel may be heard, move the Circuit Court
of the City of Lynchburg, Virginia, sitting at the
courthouse in Lynchburg, Virginia to award the
petitioner a writ of mandamus in accordance with the
prayer of the petitioned for a writ of mandamus, a
copy of which is attached hereto and made a part of
this notice.
Given under my hand this 31st day of August,
1990,

CHARLES ROBERTS
By

Is/ {Illegible}
Of Counsel

App.287a

PROOF OF SERVICE
VIRGINIA: IN THE CIRCUIT COURT
OF THE CITY OF LYNCHBURG

CHARLES ROBERTS
Petitioner,
v.
WILLIAM G. PETTY, Commonwealth’s Attorney
for the City of Lynchburg, Virginia,
Defendant.
Chancery No. Ch90016150
Returning shall be made hereon, showing service
of: Notice of Application and Petition for Writ of
Mandamus filed August 31, 1990, attached:
Executed on the 31st day of August, 1990, in the
City of Lynchburg, Virginia, by delivering a true copy
of the above mentioned papers attached to each other,
to William G. Perry Commonwealth’s Attorney for
City in person.

I.W. Simpson. Jr.____________
Sheriff, City of Lynchburg, VA.
By: {illegible}_____
Deputy Sheriff

App.288a

NOTICE OF ORDER
TO DISCONTINUE THE CASE
(MAY 12, 1993)
Larry B. Palmer, Clerk
Clerk’s Office
Lynchburg Circuit Court
P.O. Box 4
Lynchburg, Virginia 24505
804-847-1590
William W. Sweeney, Judge
J. Michael Gamble, Judge
J. Samuel Johnston, Jr., Judge
Richard S. Miller, Judge
Mosby G. Perrow, III, Judge
R. Edwin Burnette, Jr., Esq
800 Main Street
Lynchburg, VA 24504
In re: Charles Roberts vs. William G. Petty
CH90016150
Dear Mr. Burnette:
As directed by the Judges of this Court, this office
has identified the above-styled case as being a case
pending in this Court for more than two years, and
there appears to have not been any order or proceeding
held in this case.
Pursuant to Sec. 8.01-335, Code of Virginia, as
amended, consider this as notice that unless sufficient
cause can be shown to the Court for not striking this

App.289a

case from the docket, the case will be stricken from the
docket and discontinued. All responses should be
made to the Court on or before 9:00 a.m., on June 4,
1993.
Please do not hesitate to contact us should you
have any questions.
With kind personal regards and best wishes,

Very truly yours,
/s/ Larry B. Palmer
Clerk

App.290a

ORDER OF THE LYNCHBURG CIRCUIT COURT
STRIKING THE CASE FROM DOCKET
(JUNE 4, 1993)
VIRGINIA: LYNCHBURG CIRCUIT COURT
CHARLES ROBERTS
v.
WILLIAM G. PETTY
CH90016150
Before: Mosby G. PERROW, Judge.
This cause has been pending in this Court for more
than two years and there have not been any order or
proceeding held in this case.
It appearing to the Court that notice as required
by Sec. 8.01-335, Code of Virginia, has been duly given
to all parties that unless good cause could be given for
not doing so, the case would be dismissed from the
docket.
No objections having been noted, the Court doth
order that this case be stricken from the docket and
placed among the ended cases.
Enter:
/s/ Mosby G. Perrow
Judge

App.291a

EXHIBIT N
CHIEF JUDGE MOSBY PERROW III
DISQUALIFIED ALL OF THE JUDGES OF THE
24TH JUDICIAL CIRCUIT
(JUNE 18, 1991)

Exhibit N
Virginia Supreme Court is asked to assign judges
because Judge Gamble has been ruled off the case by
Chief Judge Mosby Perrow III.
Because of the many suits filed by Pendleton and
Gamble, Judge Gamble’s Law Firm, against the Sloan
Family including Sam Sloan and his mother Dr. Helen
Marjorie Sloan, and Judge Gamble being appointed as
a judge, the Chief Judge Mosby Perrow III disqualified
ALL of the judges of the 24th Judicial Circuit from
hearing any of the Sloan cases and asked the Virginia
Supreme Court to assign out-of-area judges to these
cases.
However, Judge Gamble ignored the order of
the Chief Judge and kept jurisdiction over them and
refused to recuse himself and herd the cases himself.
Judge Gamble removed three different criminal
defense attorneys from representing Sloan, also
convicted Sloan in absentia in an appeal from the
Amherst J & D Court, and also appointed a “Special
Commissioner” to sell the Sloan Family residence at
917 Old Trents Ferry Sloan and tried to get Sloan con­
victed and sentenced 15 years in prison when Sloan
had done nothing remotely wrong and illegal.

App.293a

ORDER OF DISQUALIFICATION
(JUNE 18, 1991)
VIRGINIA: IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG

ALMA D. SLOAN,
Plaintiff,
v.
SAMUEL H. SLOAN, Administrator of the
Estate of LEROY B. SLOAN, Deceased,
and H. MARJORIE SLOAN,
Defendants.
Case No. CL89014790
Before: Mosby G. PERROW, Chief Judge.
The Judges of the Twenty-Fourth Judicial Circuit,
being so situated in respect to the above styled case
pending in this Court as to render it improper, in their
opinion, for them to preside at the trial thereof, such
fact is hereby entered of record.
Entered this 18th day of June, 1991.

/s/ Mosbv G. Perrow
Chief Judge

App.294a
LETTER FROM TWENTY-FOURTH
JUDICIAL CIRCUIT
(JUNE 18, 1991)
TWENTY-FOURTH JUDICIAL
CIRCUIT OF VIRGINIA
Commonwealth of Virginia
Cities of Lynchburg and Bedford
Counties of Amherst, Bedford,
Campbell and Nelson
Richard S. Miller, Judge
900 Court Street
Lynchburg, Virginia 24504
(804) 8474490
Mosby G. Perrow, III, Judge
900 Court Street
Lynchburg, Virginia 24504
(804) 8474490
Frederick A. Hodnett
Assistant Executive Secretary
Supreme Court of Virginia
Third Floor
Supreme Court Building
100 North Ninth Street
Richmond, VA 23219
Re: M. Ismail Sloan, Individually, and on behalf of his
son, Michael R. Sloan, an infant, v. Officer F. D.
McFarland, Michael W. Cox, and Lynchburg
Police Department
Case No. CL90015617

App.295a

M. Ismail Sloan, Individually, and on behalf of his
son, Michael R. Sloan, an infant v. Charles
Roberts, Captain Coffey, and Sharon Haberer
Case No. CL90015643-01
Alma D. Sloan v. Samuel H. Sloan, [a/k/a M. Ismail
Sloan] Administratrix of the Estate of Leroy B.
Sloan, Deceased, and H. Marjorie Sloan
Case No. CL89014790
Helen Marjorie Sloan, M.D. v. Sovran Bank, N.A.,
and Creighton Wesley Sloan
Case No. CH90016156
Creighton Wesley Sloan, Son and next friend of
Helen Marjorie Sloan v. Sovran Bank, N.A.
Case No. CH86014986
Dear Fred:
I am enclosing a copies of orders of disqualification
of the Judges of the Twenty-Fourth Judicial Circuit in
each of the above five cases. We are of the opinion, in
the language of Canon 3(C), that the impartiality of
the Judges of this Circuit “might reasonably be
questioned.” Mr. Sloan is a prolific pro se litigator and
you will recall that Judges Ballou and Peatross have
previously been designated to handle other filings.
The first two cases listed in the caption appear to
be related matters and could possibly be heard together.
In each motion for judgment Mr. Sloan seeks compen­
satory damages against the named defendants by
reason of their alleged participation in a kidnapping. In
the first case F. D. McFarland, a Lynchburg Police
Officer, and the Lynchburg Police Department are
represented by Walter C. Erwin, Deputy City Attorney,
City Hall, Lynchburg, VA 24505 (1-804-847-1310),

App.296a

and Michael W. Cox is represented by William S.
Kerr, P. 0. Box 706, Appomattox, Virginia 24522 (l804-352-5366). In the second case Charles Roberts is
represented by Linda W. Groome, Davidson, Sakolosky
& Richards, P.C., P. O. Box 798, Lynchburg, VA 24505
(1-804-847-4444). No responsive pleadings have been
filed on behalf of Sharon Haberer who was served
pursuant to the Virginia Longarm Statute, Sections
8.01-328 et seq of the Virginia Code, as amended.
The third case listed in the caption is a motion for
judgment filed against Samuel H. Sloan [a/k/a M.
Ismail Sloan] as administrator of the Estate of Leroy
B. Sloan and H. Marjorie Sloan as surety, which
alleges that the administrator has converted assets of
the estate. Mr. Sloan has filed a counterclaim against
the plaintiff beneficiary in this proceeding. Donald G.
Pendleton originally represented Alma D. Sloan but
was granted leave to withdraw. Alma D. Sloan is
apparently unrepresented at this time and there is no
current address for her in the court file. Samuel H.
Sloan, a/k/a M. Ismail Sloan, is proceeding pro se. No
responsive pleadings have been filed on behalf of H.
Marjorie Sloan. The last address in the file for Samuel
H. Sloan, a/k/a M. Ismail Sloan, and H. Marjorie Sloan
is 917 Old Trents Ferry Road, Lynchburg, Virginia
24503.
The fourth and fifth cases listed in the caption are
chancery matters that have been consolidated for trial.
The fourth case is a bill of complaint for accounting
filed in the Circuit Court for the City of Charlottesville,
Virginia, on December 8, 1987, and transferred to the
Lynchburg Circuit Court by order entered in the
Circuit Court for the City of Charlottesville, Virginia,
on September 4, 1990. Helen Marjorie Sloan is

App.297a

represented by David C. Dickey, 202 East Main Street,
Standardsville, Virginia 22937 (1-804-985-7744); Sovran
Bank, N.A., is represented by Leighton S. Houck of
Caskie & Frost, P.O. Box 6360, Lynchburg, Virginia
24505 (1-804-846-2731); and Creighton Wesley Sloan
is represented by Killis T. Howard, P. O. Box 99,
Lynchburg, Virginia 24505 (1-804-528-1067).
The fifth case in the caption arises out of a trust
agreement executed by Helen Marjorie Sloan on
August 26, 1985. The plaintiff is Creighton Wesley
Sloan, son and next friend of Helen Marjorie Sloan.
The plaintiff seeks to enjoin waste of trust assets and
to determine the competency of the testator. Creighton
Wesley Sloan is represented by Killis T. Howard and
Sovran Bank, N.A., is represented by Leighton S. Houck.
The Clerk of the Circuit Court for the City of
Lynchburg, Virginia, is Juanita E. Shields, whose
address is P.O. Box 4, Lynchburg, Virginia 24505, and
whose telephone number is 1-804-847-1590. The Court’s
docket secretaries are Vicki K. Hunt and Brenda
Nuckles (1-804-847-1490), either of whom would be
glad to assist in scheduling any hearing.
We appreciate your assistance in arranging for
the designation of a Judge to hear these matters.
With best wishes and kindest regards, I am
Very truly yours,

/s/ Mosbv G. Perrow. III
Chief Judge

App.298a

MGP, III/vkh
Enclosures
cc: M. Ismail Sloan
Marjorie H. Sloan
Walter C. Erwin, Esq.
William S. Kerr, Esq.
Linda W. Groome, Esq.
David C. Dickie, Esq.
Sharon Haberer
Killis T. Howard, Esq.
Leighton S. Houck, Esq.

App.299a
LETTER FROM ADMINISTRATIVE ASSISTANT
(DECEMBER 29, 1994)
Twenty-Fourth Judicial Circuit of Virginia
Commonwealth of Virginia
Cities of Lynchburg and Bedford
Counties of Amherst, Bedford,
Campbell and Nelson
Richard S. Miller, Judge
Lynchburg Circuit Court
900 Court Street
P.O. Box 4
Lynchburg, Virginia 24505
(804) 8474490
Mosby G. Perrow, III, Judge
Lynchburg Circuit Court
P.O. Box 4
900 Court Street
Lynchburg, Virginia 24505
(804) 8474490
Frederick A. Hodnett
Assistant Executive Secretary
Supreme Court of Virginia
100 North Ninth Street
Richmond, VA 23219
Re: Creighton Wesley Sloan, Son and next friend of
Helen Marjorie Sloan v. Sovran Bank, N.A.
(Lynchburg Circuit Court File Nos. CH86014986
and CH90016156 Consolidated)
Alma D. Sloan v. Samuel H. Sloan, Administrator
of the Estate of Leroy B. Sloan, Deceased, and H.

App.300a

Marjorie Sloan, His Surety (Lynchburg Circuit
Court File No. CL89014790)
Dear Mr. Hodnett:
In reference to the above matter, you will find
enclosed a copy of Judge Perrow’s letter to you dated
June 18, 1991, forwarding copies of orders of disqualifi­
cation of the Judges of the Twenty-Fourth Judicial
Circuit for each of the captioned cases. Copies of the
disqualification orders are also enclosed.
Mr. Sloan has recently requested that a Judge or
Judges be designated to hear these matters and we
would appreciate your assistance in arranging for
these designations.
Thank you for your assistance.

Very truly yours,
Vicki K. Hunt
Administrative Assistant
/vkh
Enclosures
cc: J. Samuel Johnston, Jr., Judge
Hon. Mosby G. Perrow, III, Judge
Hon. Richard S. Miller, Judge
Hon. William W. Sweeney, Judge
Hon. J. Michael Gamble, Judge
Larry Palmer, Clerk
M. Ismail Sloan
Leighton S. Houck, Esq.
Killis T. Howard, Esq.
David C. Dickey, Esq.

App.301a

ORDER OF DISCHARGE OF DEBTOR
(MARCH 4, 1995)
UNITED STATES BANKRUPTCY COURT
Chapter 7 Discharge of Debtor

IN RE ISMAIL M. SLOAN, 231-56-6416, aka
SAMUEL H. SLOAN

Case Number 94-33552 dtc
Before: Thomas E. CARLSON, Bankruptcy Judge.
Address of Debtor
2550 Webster St.
San Francisco, CA 94115
It appearing that a petition commencing a case
under title 11, United States Code, was filed by or
against the person named above on 9/8/94, and that
an order for relief was entered under chapter 7, and
that no complaint objecting to the discharge of the
debtor was filed within the time fixed by the court (or
that a complaint objecting to discharge of the debtor
was filed and, after due notice and hearing, the
objection was not sustained);
IT IS ORDERED that:
1. The above-named debtor is released from all
dischargeable debts.
2. Any judgment heretofore or hereafter obtained
in any court other than this court is null and void as a

App.302a

determination of the personal liability of the debtor
with respect to any of the following:
a.

debts dischargeable under 11 U.S.C. § 523;

b.

unless heretofore or hereafter determined by
order of this court to be nondischargeable,
debts alleged to be excepted from discharge
under clauses (2), (4), (6), and (15) of 11
U.S.C. § 523(a);

c.

debts determined by this court to be dis­
charged.

3. All creditors whose debts are discharged by
this order and all creditors whose judgments are
declared null and void by paragraph 2 above are
enjoined from instituting or continuing any action or
employing any process or engaging in any act to collect
such debts as personal liabilities of the above-named
debtor.

By the Court:
Thomas E. Carlson
Bankruptcy Judge
Date 03/04/95

App.303a
ORDER OF LYNCHBURG CIRCUIT COURT
DISCONTINUING THE CASE
AND STRIKE THE DOCKET
(JANUARY 20, 1999)
VIRGINIA: AT LYNCHBURG CIRCUIT COURT
ALMA D. SLOAN,
Plaintiff,
v.
SAMUEL H. SLOAN, Admr. & C„
Defendants.
Case No. CL89014790
Before: Mosby G. PERROW, Chief Judge.
It appearing to the Court that for more than three
(3) years there has been no order or proceeding in this
case. Pursuant to Sec. 8.01-335(B), Code of Virginia,
as amended, the Court Both ADJUDGE and ORDER
that this case be discontinued and stricken from the
docket.
The Clerk shall mail or deliver a true copy of this
order to all counsel of record.
Enter: January 20, 1999
Is/ Mosby G. Perrow. Ill
Judge

App.304a

EXHIBIT O
BILL OF COMPLAINT TO ANNUL MARRIAGE
OF ALMA COATES DAWSON (SLOAN)
(MAY 23, 1986)
Exhibit 0
Because of the suspicious circumstances of the death
bed marriage and death of Leroy B. Sloan while in the
presence of Alma Coates Dawson, Steve Martin, Sloan’s
attorney, filed a case requesting an autopsy of Leroy
B. Sloan and opposing the claim of Alma to inherit from
the estate of Leroy B. Sloan.
This motion was opposed by Pendleton & Gamble,
Judge Gambles Law Firm.
Here is the complaint and answer.

App.305a

BILL OF COMPLAINT TO ANNUL MARRIAGE
OF ALMA COATES DAWSON (SLOAN)
(MAY 23, 1986)

VIRGINIA: IN THE CIRCUIT COURT FOR THE
CITY OF LYNCHBURG

LEROY B. SLOAN, by his Administrator, c.t.a.
SAMUEL H. SLOAN
917-Old Trent’s Ferry Rd.
Lynchburg, Virginia 24503,
Petitioner,
v.
ALMA COATES DAWSON (SLOAN)
Cavalier Apartments
2925 Rivermont Ave.
Lynchburg, Virginia 24509,
Defendant.

CIT 86014991
Comes now your petitioner, Samuel H. Sloan, and
after being duly sworn, and in support of his verified
bill of complaint respectfully states as follows:
1. This Court has subject matter jurisdiction over
this action under Section 20,89-1 of the Code of
Virginia of 1950, as amended.

App.306a

2. Your petitioner is the administrator, c.t.a, of
the estate of Leroy Bayfield Sloan, who was the petition­
er’s natural father (see copy of letters testamentary
attached hereto as Exhibit “A”).
3. Leroy Bayfield Sloan was born May 2, 1910
and died on January 19, 1986 in the City of Lynchburg,
Virginia (see death certificate attached hereto as
Exhibit “B”).
4. On December 31, 1985 Leroy B. Sloan was
married to Alma Coates Dawson while in the emer­
gency room at Lynchburg General Hospital while Mr.
Sloan was being treated for a serious coronary and
circulatory collapse.
5. Prior to December 31, 1985 Leroy B. Sloan had
been in failing health and had become forgetful and
disoriented.
6. The marriage between Leroy B. Sloan and the
defendant was procured by the defendant and at her
suggestion and insistence for the primary purpose of
convincing the defendant to turn over all his assets to
her and to take a dower portion of any estate he may
have had upon his death.
7. Defendant defrauded plaintiff by convincing
him that she was marrying him to take care of him,
when in fact her real motives were to improve her own
financial position.
8. The facts in support of defendant’s fraud are
as follows:
(a) Defendant had on at least one occasion asked
Leroy Sloan to marry her and been refused.

App.307a

(b) Defendant had expressed to Leroy Sloan’s
son that she was entitled to some of his
money and had told Leroy Sloan’s friend,
Mike Robinson, that she planned to get onethird of his estate.
(c)

In late December, 1985 Leroy B. Sloan had
expressed intentions to marry one Maggie
Coffey of Lynchburg, Virginia.

(d) On December 31, 1985, the defendant, a
divorced friend of Leroy Sloan, removed him
from the Elks Home where he had been
residing for the past two and a half years,
drove him to the Lynchburg City Court
Clerk’s Office to obtain a marriage license.
At the Clerk’s Office Mrs. Dawson and Mr.
Sloan asked Mr. Preston Sawyer, a Lynchburg
attorney, to marry them. He agreed. After
walking to Mr. Sawyer’s office on Court
Street Mr. Sloan immediately collapsed with
an attack of some type and appeared to be
having a seizure and to be unable to breathe.
Mrs. Dawson insisted that she had to marry
Mr. Sloan in spite of his grave condition and
requested Mr. Sawyer to continue with the
marriage, thereby delaying his removal to the
hospital. Mr. Sawyer refused. The rescue
squad was called and took the deceased to
the Lynchburg General Hospital Emergency
Room where he was treated by the duty phy­
sician.
(e)

Mrs. Dawson again insisted on marrying Mr.
Sloan then and there and the chaplain was
called to the emergency room and married

App.308a

Mrs. Dawson and Mr. Sloan in a treatment
room.
(f)

Mr. Sloan left the hospital several days later
and was taken by Mrs. Dawson to her home
at 210 Forestdale Drive, Lynchburg, Virginia.
Although he had a serious condition, he was
not seen by his doctor and had little contact
with friends and family over the last two
weeks of his life.

(g) During those two weeks Mrs. Dawson, over
Mr. Sloan’s objections, attempted to obtain
his charge cards and a key to his lock box
from a close friend, Mr. Mike Robinson, who
followed Mr. Sloan’s request and refused to
turn them over.
(h) Mrs. Dawson took Mr. Sloan to the Elks
Home on approximately January 16, 1986
and had him resign his membership and
then asked the Elks Home to send her the
approximately Eighteen Hundred Dollars
($1800.00) which Mr. Sloan had in an account
at the Elks Home. She signed Mr. Sloan’s
name on the resignation and was refused by
the Elks Home staff.
(i)

Mr. Sloan died on January 19, 1986 with no
doctor in attendance.

(j)

He left a will leaving his estate to his two
sons,

(k) Three days after his death, on January 22,
1986, Mrs. Dawson by her lawyer notified
Mr. Camillus Robinson, who she believed
was managing some of Mr. Sloan’s affairs,

App.309a

that she was seeking one-third of Mr. Sloan’s
gross estate as his widow. This intention was
further stated to the Central Fidelity Bank
Trust Department on January 23, 1986.
Subsequent to Mr. Sloan’s death, Mrs. Sloan,
without authority, signed Mr. Sloan’s name
to four checks to withdraw funds from Mr.
Sloan’s bank account, which funds were sub­
sequently repaid by direction of the bank.
9. All of these actions by Mrs. Dawson constituted
a fraud upon Leroy B. Sloan. As a result of said actions
the marriage between Alma Coates Dawson and
Leroy B. Sloan is void.
WHEREFORE, plaintiff respectfully requests that
the marriage between Leroy B. Sloan and Alma
Coates Dawson be annulled.

/s/ Samuel H. Sloan
Date: 5/23/86
/s/ Stephen C. Martin. Esquire
Martin & Nicks
P.O. Box 447
Amherst, Virginia 24521
804/946-5510
Counsel for Samuel H. Sloan

App.310a

EXHIBIT A TO BILL OF COMPLAINT
State of Virginia:
City of Lynchburg:
To- wit:
I, Juanita E. Shields, Clerk of the Circuit Court
of the City of Lynchburg, in the State of Virginia, do
hereby certify that on the 21st day of February, 1986,
Samuel H. Sloan duly qualified in my said Court
as Administrator c.t.a. of Leroy. B. Sloan, deceased,
and gave bond as such according to law in the penalty
of $20,000, 00,

And I do further certify that the said quali­
fication is still in full force and effect and
has not been revoked:
Given under my hand and the seal of said
court this 21st day of February ,1986.
/s/ Juanita E. Shields

App.311a

EXHIBIT B TO BILL OF COMPLAINT
Commonwealth of Virginia
Certified Copy of Death Record
Commonwealth of Virginia-Certificate of Death
Department of Health—Division of Vital
Records and Health Statistics—Richmond

For Local Health Department
Registration Area Number: 214
Certificate Number: 47
Decedent
Full name of Decedent: Leroy Bayfield Sloan
Sex: Male
Race: Caucasian
Date of Death: January 19, 1986
Age: 75
Date of Birth: May 2, 1910
Place of Death
Name of the Hospital or Institution of Death: None
City or Town of Death: Lynchburg
Address: 210 Forestdale Drive
State: Virginia
City or Town of Residence: Lynchburg
Street Address: 210 Forestdale Drive
Zip Code: 24502
Personal Data of Decedent
Name of the Father Deceased: Howard C. Sloan

App.312a

Maid Name: Emily Bayfield
Citizen if what Country: U.S.A
Birthplace: Illinois
Married: 13
If Married Name of Spouse: Alma Coates Sloan
Social Security Number: 325 03 4606
Usual or Last Occupation: Auditor, ret.
Kind of Business or Industry: J.S. Government
Informant-or source of Information:
Samuel Sloan & Alma C. Sloan
Medical Certification
Cause of Death
Immediate Case: Ventricular fibrillation
Due to: text not legible
Interval Between Onset and Death: 9 years
Date Signed: 1-20-86
Funeral Director
Burial 13
Place of Burial Removal Etc.:
Spring Hill Cemetery, Lynchburg, Virginia
Name of Funeral Home and Address:
W.D. Diuguid, Inc. Lynchburg, VA 24505
Registrar
Signature not legible
Date Record filed: 1-22-86
This is to certify that this is a true and correct
reproduction of the original record filed with the
Lynchburg Department of health, Lynchburg, Virginia.

App.313a

/s/ signature not legible
Date issued: 2-13-86

App.314a
EXHIBIT 0-1
COVER LETTER TO BILL OF COMPLAINT
(MAY 28, 1986)
Martin & Nicks
Attorneys at Law
P.O. BOX 447
Amherst, Virginia 24521
Tel (804)946-5510
Stephen C. Martin
H. Troy Nicks
Mrs. Juanita Shields, Clerk
Lynchburg Circuit Court
P.O. Box 60
Lynchburg, Virginia 24505
Re: Leroy B. Sloan, by his Administrator, c.t.a
Samuel H. Sloan, v. Alma Coates Dawson
Sloan
Dear Mrs. Shields:
Enclosed please find a bill of complaint to annul
a marriage, together with one copy for filing. Also
enclosed please find our check for $47.00, together
with a check made out to the Lynchburg Sheriffs
Department in the amount of $5.00 to cover the service
of process. Thanks very much for your cooperation.
Sincerely,
/s/ Stephen C. Martin

App.315a

EXHIBIT 0-2
SUBPOENA IN CHANCERY
(MAY 28, 1986)
COMMONWEALTH OF VIRGINIA
In the Circuit Court of the City of Lynchburg

The party upon whom this writ and the attached
paper are served is hereby notified that unless within
twenty-one (21) days after such service, response is
made by filing in the Clerk’s Office of this court a
pleading in writing, in proper legal form, the allegations
and charges may be taken as admitted and the court
may enter a decree against such party, without fur­
ther notice, either by default or after hearing evi­
dence. Appearance in person is not required by this
subpoena.
Done in the name of the Commonwealth of
Virginia, this 28th day of May, 1986.
Juanita E. Shields
Clerk
/s/ K.J. Fridecv
Deputy Clerk
Stephen C. Martin
P.O. Box 447
Amherst, Virginia

App.316a

EXHIBIT 0-3
ANSWER OF ALMA COATES DAWSON (SLOAN)
VIRGINIA: IN THE CIRCUIT COURT FOR THE
CITY OF LYNCHBURG
LEROY B. SLOAN, by his Administrator, c.t.a.
SAMUEL H. SLOAN,
Plaintiff,
v.
ALMA COATES DAWSON (SLOAN),
Defendant.
The defendant, Alma Coates Dawson Sloan, by her
attorney, for answer to a Bill of Complaint hereto filed
against her by the plaintiff, answers and says as
follows;
1. She admits the allegations contained in Para­
graphs 1, 2, 3 and 4 of said Bill of Complaint.
2. She neither admits nor denies the allegations
contained in Paragraph 5 of said Bill of Complaint,
and demands strict proof thereof.
3. She denies the allegations contained in Para­
graphs 6, 7, 8 and 9 of said Bill of Complaint and
demands strict proof thereof.
WHEREFORE, the defendant having answered
the said Bill of Complaint prays that the same be dis­
missed.

App.317a

Alma Coates Dawson Sloan
By Counsel
/s/ Donald G. Pendleton
Pendleton and Gamble
P.O. Box 1226
Amherst, Virginia 24521

App.318a

EXHIBIT 0-4: AFFIDAVIT OF ATTORNEY
IN SUPPORT OF SUBPOENA DUCES TECUM
VIRGINIA: IN THE CIRCUIT COURT FOR THE
CITY OF LYNCHBURG
LEROY B. SLOAN, by his Administrator, c.t.a.
SAMUEL H. SLOAN,
Plaintiff,
v.
ALMA COATES DAWSON (SLOAN),
Defendant.
Donald G. Pendleton, duly sworn, says that he is
the attorney for Alma Coates Dawson Sloan in the
above styled action.
Said action is a civil action now pending in this
Court wherein the plaintiff, as administrator of his
deceased father’s estate, is seeking to have the marriage
between his deceased father, Leroy B. Sloan, and the
defendant. Alma Coates Dawson Sloan annulled.
That the Sovran Bank, 801 Main Street,
Lynchburg, Virginia, has copies of bank records and
cancelled checks pertaining to the checking account of
the said Leroy B. Sloan, as well as a list of the contents
of a safety deposit box which the decedent had there,
which are in their possession or under their control
and the Sovran Bank is not a party to these proceed­
ings.

App.319a

That the above information is material to the pro­
ceedings in this cause.
WHEREFORE, I pray that a Subpoena Duces
Tecum be issued.

/s/ Donald G. Pendleton
STATE OF VIRGINIA
AT LARGE, to-wit:
I, Barbara G. Ramsey, a Notary Public in and for
the State of Virginia, At Large, do hereby certify that
Donald G. Pendleton, whose name is signed to the
foregoing Affidavit of Attorney in Support of
Subpoena Duces Tecum, has acknowledged the same
before me in my jurisdiction aforesaid.
My commission expires: 6/13/87.
Given under my hand this 3rd day of June, 1986.
/s/ Barbara G. Ramsey
Notary Public

App.320a

EXHIBIT 0-4
SUMMONS
Commonwealth of Virginia
Sheriff of City of Lynchburg, to-wit:
To the Sheriff of said City, Greeting:
WE COMMAND YOU, in the name of the
Commonwealth of Virginia, that you summon:
Larry Crank
Sovran Bank
801 Main Street
Lynchburg, Virginia
to produce copies of all bank records and cancelled
checks for one (l) year prior to the death of Leroy B.
Sloan on January 19, 1986, as well as a list of the
contents and copies of any documents in the lock box
of the said Leroy B. Sloan in his possession at the time
and date shown below:
Time 10:00 a.m.
Date: June 16, 1986
Place: Clerk’s Office, Circuit Court
City of Lynchburg 900 Court Street
Lynchburg, Virginia
WITNESS, Juanita Shields, Clerk of the Circuit
Court of the City of Lynchburg, Virginia, this llth_day
of June, 1986.

/s/ Juanita Shields
Clerk of the Court

App.321a

Re: Leroy B. Sloan, by his Administrator, c.t.a
Samuel H. Sloan, v. Alma Coates Dawson
(Sloan)
Donald G. Pendleton
Pendleton and Gamble
P.O. Box 1226
Amherst, Virginia 24521
Of Counsel for Defendant

App.322a

EXHIBIT 0-5
NOTICE FROM CLERK
(OCTOBER 21, 1988)
Clerk’s Office
Lynchburg Circuit Court
P.O. Box 4
Lynchburg, Virginia 24505
To: Stephen C. Martin, Esq.
P.O. Box 447
Amherst, VA 24521
and
To: Donald G. Pendleton, Esq.
P.O. Box 1226
Amherst, VA 24521
In Re:
Leroy B. Sloan, by & c.v. Alma
Coates
Dawson Sloan
Take Notice:
That in the above suit now pending in the Circuit
Court for the City of Lynchburg, Virginia, no order or
proceeding has been entered or taken therein for more
than two years.
Unless on or before the 7th day of November,
1988, at 2 p.m., in the Court House of said City suffi­
cient cause be shown to the said Court for not striking
said suit from its docket and discontinuing same
under the provisions of § 8.01-335, as amended, of the
Code of Virginia, the same will be so stricken from the
docket and discontinued.

App.323a

This notice is given at the direction of the Judge
of said Court.

Yours very truly,
/s/ Juanita Shields
Clerk, Circuit Court of the City
of Lynchburg

App.324a

EXHIBIT 0-6
COURT STRIKES CASE FROM DOCKET
(NOVEMBER 7, 1988)
VIRGINIA: AT LYNCHBURG CIRCUIT COURT
LEROY B. SLOAN, by his Administrator, c.,
Complainant,
v.
ALMA COATES DAWSON SLOAN,
Defendant.
It appearing to the Court that for more than two
years there has been no order or proceeding in this
case, and that notice as required by the provisions of
Section 8.01-335, as amended, of the Code of Virginia,
has been duly given, the Court doth so adjudge; and it
appearing to the Court proper so to do, the Court pur­
suant to the provisions of said Code Section doth order
that this case be discontinued and stricken from its
docket.

Enter: 11/7/88
/s/ signature not legible
Judge

App.325a

EXHIBIT 0-7
LETTER FROM ISMAIL SLOAN OPPOSING
REQUEST OF MARTIN TO WITHDRAW
(MAY 20, 1990)
Ismail Sloan
Ismail Computer Company
P.O. Box 11829
Fujairah
United Arab Emirates
Tel: 011-9717027562 (office)
011-9717027516 (res.)
Fax: 011-9717027526
Stephen C. Martin
Attorney for the Estate
P.O. Box 1226
Amherst, Virginia 24521
U.S.A.
Dear Steve,
I have received your request to withdraw as
counsel of record for the estate. About two days later,
after I had already drafted my response, I received a
copy of a complaint filed by your new law partner in
his new case against me and my mother.
Under the circumstances, it is out of the question
for me to agree for you to withdraw as counsel of
record. It took me a long time to obtain your services
as the attorney for the estate. You were paid a
retainer fee and have since been paid up to date for
your hourly billings. You have suffered no incon­
venience by being the attorney for the estate.

App.326a

The only reason you now have for wanting to
withdraw as counsel for the estate is that you want to
give a free hand to your new law partner to proceed
against the estate.
Not only cannot I agree to allow you to withdraw
as counsel, but I must insist that you immediately
appear on behalf of the estate and vigorously defend
against the suit which your law partner has brought.
As you know, the estate has enough money left in its
bank account to pay you reasonable legal fees.
Very Truly Yours,

/s/ M. Ismail Sloan
copy to: Juanita Shields, Clerk
Lynchburg Circuit Court

App.327a

EXHIBIT 0-8
OPPOSITION TO PETITION
(MAY 16, 1990)
VIRGINIA: IN THE CIRCUIT COURT FOR THE
CITY OF LYNCHBURG
LEROY B. SLOAN, by his Administrator, c.t.a.
SAMUEL H. SLOAN,
Plaintiff,
v.
ALMA COATES DAWSON,
Defendant.
Comes now the plaintiff, Samuel H. Sloan, as
Administrator c.t.a. for the Estate of Leroy B. Sloan,
in opposition to the petition of the attorney for the
Estate, Stephen C. Martin, to withdraw as counsel of
record for the estate, and says the following:
1. This is in opposition to the petition of the attor­
ney for the Estate, Stephen C. Martin, to withdraw as
counsel for the estate.
2. This lawsuit arose because of the efforts of
Alma Coates Dawson to marry my father, Leroy B.
Sloan, then aged 75, on December 31, 1985, at a time
when my father was in the midst of a brain seizure
and was attached to various life support equipment in
the emergency room of the Lynchburg General Hos­
pital.

App.328a

3. My father died on January 19, 1986, just 19
days later, and two days after that I was informed by
Donald G. Pendleton, the attorney for Alma Coates
Dawson, that his client wished to make a claim for the
“widow’s share” of my father’s estate. One month
later, I was appointed Administrator c.t.a. of my
father’s estate after the Central Fidelity Bank, which
had been named as the executor in my father’s will,
declined to serve. The reason that the Central Fidelity
Bank declined to serve was the small value of the
assets in my father’s estate.
4. After I was appointed Administrator c.t.a., I
secured on behalf of the estate the services of a lawyer,
Stephen C. Martin, who commenced this action
against Alma Coates Dawson. Stephen C. Martin now
wishes to withdraw as counsel of record for the estate.
5. The only reason given by Stephen C. Martin
for his request to withdraw as counsel of record for the
estate is that he has since formed a law partnership with
Donald G. Pendleton, the attorney for the other side.
He says that this relationship creates a conflict of
interest.
6. There is no doubt that his new partnership
with his legal adversary in this case puts him in an
awkward position. However, logically speaking, it also
places his law partner in exactly the same position.
Therefore,
they
should
both
be
seeking
simultaneously to withdraw as counsel for their res­
pective clients. However, this is not the case. While
Stephen C. Martin wishes to withdraw as counsel for
my side, there is no indication whatever that Donald
G. Pendleton intends to withdraw as counsel for Alma
Coates Dawson. To the contrary, I received word only
about three weeks ago that Officer Calloway, who

App.329a

works for the Sheriff of the City of Lynchburg, was
going around Lynchburg seeking to locate my
present whereabouts on the request of Donald G.
Pendleton. I am sure that Donald G. Pendleton knows
my exact current address, in view of his partnership
with Stephen C. Martin, but instead he preferred to
send the sheriff on a wild goose chase looking for me.
7. Stephen C. Martin also states in his petition
that I have been out of communication with him. This
is not true. I have called him on the telephone quite
often, relative to the inactive nature of this case. The
fact is that there has been not much need to
communicate with him because the litigation
involving the estate has been essentially dormant. It
now appears that the litigation is about to heat up
again. In fact, only two days after I received a copy of
this petition to withdraw as counsel, I learned that
Donald G. Pendleton had filed a new suit against me
as the administrator of the estate and also against my
mother. It is obvious that the reason that Stephen
Martin wishes to withdraw as counsel for the estate is
that he wants to avoid defending against the lawsuit
being brought by his new law partner.
8. It should be mentioned that being the attorney
for the estate has not inconvenienced Mr. Martin in
any way. All legal bills have been paid up to date. The
estate still has enough money left to be able to contin­
ue paying such reasonable legal bills as might be
incurred. Some time around last August (I cannot
remember the exact date) I called Stephen C. Martin
on the telephone to inform him that I was thinking of
closing out the estate because the Lynchburg Commis­
sioner of Accounts, Preston Sawyer, Jr., had requested
that I do so. I asked Stephen C. Martin to submit a

App.330a

final legal bill so that all the bills of the estate could
be paid. However, Stephen C. Martin informed me
that all the legal bills were paid up to date and no
additional charges had been incurred.
9. It is evident that the real reason that Stephen
C. Martin wishes to withdraw as counsel for the estate
is to give a free hand to his new law partner, Donald
G. Pendleton, to proceed against the estate. There is
simply no other possible reason why Stephen C.
Martin would wish to withdraw as counsel at this par­
ticular time. In that light, it is obviously out of the
question for me to agree for Stephen C. Martin to
withdraw.
10. Going back into the history of this case, after
my father died and I became aware of the threatened
litigation by Alma Coates Dawson, I approached many
attorneys in Lynchburg asking them to represent the
estate. Indeed, I started approaching attorneys even
before my father had died because already, in the last
19 days while he was still alive, Alma Dawson was
doing everything she could to get his money. She even
told me while my father was still alive that she
wanted to make a claim for a one-third share of his
estate in the event that he died. Because of this, I
would say that I approached a majority of all of the
attorneys practicing in Lynchburg, asking them to
represent me and my father. All of them declined to
take this case, citing a potential conflict of interest.
Generally speaking, the reason for this was that
Lynchburg is a small town. My father was a lawyer
and virtually every lawyer in Lynchburg knew him
and knew my mother, whose name is Dr. Helen
Marjorie Sloan. They also knew my father’s friends
and they knew Donald G. Pendleton. Some of them

App.331a

even knew Alma Coates Dawson. They knew that this
was going to be a sticky and heavily litigated case and
would not provide the easy money which they were
accustomed to receiving. Therefore, every attorney in
Lynchburg wanted to avoid this case.
11. For this reason, I was forced to go outside of
Lynchburg and I eventually found Stephen C. Martin
in Amherst.
12.The reason I mention this now. is that if
Stephen C. Martin is allowed to withdraw, the estate
will suddenly be defenseless. Donald G. Pendleton will
be able to attack the estate and the estate will have
no attorney with which to defend itself: I will have to
go walking in the street searching here and there for
an attorney. It is quite possible that I will not be able
to find an attorney and if I do find one the estate might
not have enough funds left to pay a reasonable
retainer fee.
13. On the other hand, Stephen C. Martin is fully
familiar with the facts of this case. He has already
received a retainer fee and there is no need for any
further fees to be paid at the moment. He met with me
many times and discussed the facts of this case with
me in great detail. I realize the danger that he may
have already passed some privileged information about
this case to his new law partner. While this may
create problems, nevertheless the estate really has no
choice but to continue with Stephen C. Martin as its
lawyer. Also, I am confident that the estate will win
this case provided that the true facts are available to
the courts. For these reasons, it is contrary to the
interests of justice that Stephen C. Martin be allowed
to withdraw.

App.332a

14.1 want to take this opportunity to say a few
things about the merits of this case. The estate
presently has an account at Sovran Bank with only
$2420.49 in the account. I estimate the total known
assets and liabilities of the estate outside of that
account to be less than two hundred dollars. I am
entitled to pay myself an administrator’s fee of some­
thing like five hundred dollars but have not bothered
to do so.
15. From what I understand, Donald G. Pendleton
fancies himself as a big shot lawyer who never bothers
with cases involving less than six figures. Why would
he be interested in a case involving an estate with only
$2420.49 in the bank?
16.The answer is that when my father was alive,
he was unfortunately a braggart. Everybody who
knew my father knew that he liked to tell tall tales.
One such tale that my father often told was that when
his father died in Cook County, Chicago in around
1936, he had left 4000 shares of General Motors stock
in trust, but that the money could not be touched until
his son (my father) died. After stock splits and
accumulated dividends, this 4000 shares in 1936 had
become worth some huge amount, perhaps as much as
$50,000,000 in today’s money.
17.1 was surprised to learn that many of my
father’s best friends who should have known better,
actually beheved this story. The one person who knew
that the story was not true was my mother. She had
nursed my father’s father during the last years of his
life. He died completely destitute of Parkinson’s disease
and was buried in a pauper’s grave. There was no will
and no estate.

App.333a

18.My father’s father had apparently been a
stockmarket speculator at some point in his life, but
all of the companies he invested in went out of busi­
ness. To this very day, some of his stock certificates are
on top of my mother’s refrigerator in her house in
Lynchburg. About ten years ago, I sent photocopies to
R. H. Smyth & Co. in New York,-a division of Herzog
& Co., which specializes in old stock certificates. They
informed me that these certificates had no value
whatever, not even as collectors items.
19.In spite of all this, Alma Dawson sincerely
believed that my father had stashed away somewhere
$50,000,000 worth of General Motors stock. She asked
me about this many times during the 19 days between
the incident in the Emergency Room of the Lynchburg
General Hospital and my father’s death 19 days later.
I have no doubt that she will always believe that story
about the $50,000,000. Even Donald Pendleton and his
law partner Michael T. Garrett asked me about it as
well.
20.Another thing which Alma Dawson believed
was that my mother’s house at 917 Old Trent’s Ferry
Road in Lynchburg belonged at least in part to my
father. She had big plans in early 1986 to move into
that house. Actually, the story about that house was
as follows: My mother, Helen Marjorie Sloan, was a
practicing medical doctor with a high income. On the
other hand, my father worked for the IRS and had a
relatively low income. My mother always had much
more money than my father. Unlike most families
where the husband supports the wife, in my family the
situation was rather the opposite. Finally, in 1961, my
mother decided to build a house at 917 Old Trent’s
Ferry Road. (She had purchased the land much

App.334a

earlier, in 1956). However, the law in Virginia in 1961
was that if one member of a married couple owned a
house, then the house belonged jointly to both of them.
My mother was going to pay for this house 100% with
her own money. Therefore, she naturally did not want
to invest so much in a house and thereafter have it
belong half to my father. For this reason, they decided
to get a divorce so that the house would belong
entirely to may mother. That is the reason that they
were divorced in 1961 and the house was also built in
1961. These transactions were handled by Cecil
Taylor, a Lynchburg lawyer.
21.1 understand that since then, the law of
Virginia has changed. There is now a way for a
married person to buy and sell a house without the
spouse becoming half owner of the house. However,
that loophole did not exist in 1961. Otherwise, I am
sure that my mother and father would never have
divorced and that they would have remained married
right up until my father’s death in 1986.
22.Again, this is one of the things which both
Alma Dawson and Michael Garrett asked me about.
They were quite disappointed to learn that half of my
mother’s house did not belong to my father. Actually,
I myself did not know the story recounted above until
after may father’s death. I was never really sure
whether they were married or divorced. They never
discussed the subject.
23. The third great disappointment which Alma
Dawson faced was to learn that even though they were
divorced, my father’s financial affairs were managed
entirely by my mother right up until the Lime of my
father’s death. Since my father worked for the IRS,
everybody assumed that he was the financial expert

App.335a

in the family. In reality, my father, being a lawyer,
knew the tax law but he could barely do arithmetic.
My mother handled the finances. In fact, my mother
prepared my father’s income tax returns right up
until the year that he started working for the IRS.
24.As recently as 1983; my mother was residing
in Staunton where she worked as a doctor in residence
at the Western State Hospital. She had rented her
house at 917 Old Trent’s Ferry Road to my father at a
rather nominal rent. This is the reason that Alma
Dawson got the idea that the house belonged to my
father. My father was always there and my mother
was never there.
25. In August, 1983, my father suffered a massive
heart attack in that house. Fortunately, Dr. Whitehouse
is almost a next door neighbor to my mother’s house,
so he came over and brought my father back to life.
After that, my father was sent to the Virginia Baptist
Hospital and from there went to the Lynchburg Med­
ical Center, a nursing home. From there, he was
admitted into the Elk’s National Home in Bedford,
because he was a life long members of the Elk’s, even
though he was technically too sick to be admitted into
the Elk’s Home under their rules.
26. One of my father’s best friends at the Elk’s
National Home was Dick Friend. Prior to his
retirement, Dick Friend had been the owner of a well
known restaurant in Madison Heights. It was widely
assumed that Dick Friend had money. Alma Dawson
came frequently to the Elk’s National Rome and she
saw my father and Dick Friend there. Dick Friend was
a big tipper at restaurants. It was said that he would
order a cup of coffee and leave a five or a ten dollar tip.
Alma Dawson, who is a woman of limited capability

App.336a

and who has always worked as a restaurant waitress in
her life, was impressed by this, so in late 1984 she
decided to get married to Dick Friend.
27.According to Dick Friend’s two sons, with
whom I discussed this matter in great detail, Alma
Dawson kidnaped Dick Friend out of the Elk’s National
Home. For about two or three weeks, his children did
not know where he was. Then, suddenly, Dick Friend
showed up on the doorstep of one of his son’s house,
accompanied by a friend, both of them being heavily
drunk. Dick Friend had been bodily thrown out by
Alma Dawson.
28. What had happened in the meantime was
that Alma Dawson had discovered that Dick Friend
did not have any money after all. Shortly after
abducting Dick Friend from the Elk’s National Home,
Alma had said that, as a married couple, they needed
a car. She proposed the purchase of a yellow Cadillac.
(I am perhaps mistaken about the color and make of
the car, but that is immaterial). Dick Friend had said
that this sounded like a mighty fine idea. Both of them
expected the other one to pay for the car. When Alma
found out that Dick Friend did not have the money to
buy a new car, she threw him out.
29. In reality, Dick Friend had no money at all.
His sons were paying his bills at the Elk’s National
Home and were providing him with a small allowance.
It was with that allowance that Dick Friend was
leaving those five and ten dollar tips.
30. After kidnaping him out of the Elk’s National
Home, Alma Dawson had gotten legally married to
Dick Friend. When she found out that he had no
money, she realized that she had made a blunder

App.337a

because not only would she get no money from him,
but she would lose her alimony and her pension from
Sweet Briar. College, where she had worked as a
waitress for many years. I am not completely sure
about this, but, as best I understand it, her original
maiden name was Alma Coates. She then married
Dawson, who died. After that, she married somebody
else, who paid her alimony. She prefers to use the
name Dawson rather than the other man’s name
because of bitter feelings towards the latter. Her third
husband therefore was Dick Friend.
31. Upon realizing that she would not gain any
financial profit out of her marriage to Dick Friend but
rather would suffer a loss, she went to her trusty
attorney, Donald G. Pendleton, who arranged to have
the marriage annulled. Once the marriage was legally
annulled, she went back to the Elk’s National Home,
where she latched onto Dick Friend’s best friend,
namely, my father.
32.Dick Friend, incidentally, harbored no bitter
feelings towards Alma Dawson. He felt that he got a
good fling out of Alma Dawson, besides which it did
not cost him any money. The two or three weeks that
he had spent with Alma Dawson had provided with a
memorable experience which was rare for a man in his
age and condition. The difference was, however, that
while Dick Friend felt that he had gotten a good time
with Alma, when she did exactly the same thing with
my father, my father died.
33.On approximately December 24, 1985, I
received a telephone call from Howell Robinson, my
father’s best friend, who said that my father’s condition
had gotten much worse during the past few weeks and
that “he is not going to be long for this world.” I

App.338a

thanked him for this sad news but did not do anything
because my father had been in such bad shape since
1983 that we considered it remarkable that he was
still alive at all. At this time, I was working as a Wall
Street Financial Consultant in New York City. At
approximately midnight on the night of December
31st, I was working late in my office at 40 Exchange
Place in New York City when I received another
telephone call. I was expecting the caller to tell me
that my father had died. Instead, he told me that my
father had gotten married.
34.1 then called Howell Robinson who told me the
details of what had happened and also told me that
already Alma was asking around about where my
father’s money could be located.
35. What had happened, in short, is that on the
morning of December 31st, Alma had picked up my
father at the Elk’s National Home. She had taken him
down to the office of the clerk of the Lynchburg Circuit
Court and said that they wanted to get married. (I am
not sure if Juanita Shields was the person working
there on that day or not). The clerk had informed them
that while the court was officially open, none of the
judges were available, being that it was New Year’s
Eve. Someone in the court suggested that a retired
judge, Preston Sawyer, had an office only about one
block away and still had the power to perform
marriages. Therefore, Alma Dawson forced my father,
who walked with a walker and could not walk
unaided, to walk the distance of one block from the
courthouse to Preston Sawyer’s office. Upon reaching
his office, my father sat down and Preston Sawyer
asked his secretary to type the marriage forms. While
the forms were being typed, my father, exhausted by the

App.339a

long walk considering his age and condition, turned
green, keeled over and fell on the floor unconscious.
36. Preston Sawyer immediately called the
ambulance. However, Alma Dawson insisted that the
marriage ceremony should be performed anyway.
Preston Sawyer contended that he could not perform
a marriage ceremony with my father being unconscious
on the floor. Alma however insisted that my father
only a few minutes earlier had expressed a willingness
to get married and that the fact that he had now lost
consciousness was irrelevant. She also said that she
was afraid that my father was going to die before the
marriage ceremony could be performed.
37.There was apparently some sort of argument
or exchange of words between Preston Sawyer and
Alma Dawson about this before the ambulance could
arrive. After my father was put inside the ambulance,
Alma Dawson started talking to the ambulance driver
about this and the departure of the ambulance was
delayed. Finally, my father was taken to the Emergency
Room in the ambulance and Alma Dawson followed in
her own car, carrying with her the marriage forms
which had been typed in Preston Sawyer’s office. In
the hospital, my father was diagnosed as being in the
middle of a brain seizure and was hooked up to various
equipment to keep him alive. Alma again called Preston
Sawyer to ask him to come down to the hospital to per­
form the marriage ceremony. She also offered to have
the ambulance bring my father back to Preston
Sawyer’s office after my father’s condition had stabi­
lized. Preston Sawyer refused, saying that he was
closing his office for the day.
38.Alma Dawson, obviously believing like most
others present that my father was going to die at any

App.340a

moment, then started asking around for somebody
else who would be willing to perform this marriage. At
that point, the always helpful and friendly staff of the
Lynchburg General Hospital pointed out that there
was a chaplain on 24 hours duty in the hospital and
that he had the power to perform marriages.
39.1 later on spoke to the chaplain in question. He
was about 25 years old and had just recently arrived
from Texas. He knew nothing about my father, my
mother (who had previously been a doctor on the staff
of the Lynchburg General Hospital), or about Alma
Dawson. He said that he performed the marriage
ceremony in spite of my father’s obvious incapacity
because the marriage had already been “approved” by
Preston Sawyer, a well known Lynchburg lawyer, to
such an extent that even the forms had been typed by
Preston Sawyer’s office.
40. Within a few days, this incident was reported
on a local Lynchburg radio talk show as a heart­
warming episode involving an elderly couple whose
only desire was finally to get married before the man
died and who was assisted in doing so by the kindly
Lynchburg General Hospital Emergency Room staff.
Nobody apparently considered the possibility that the
couple was not really a couple and that the elderly
man in question had an actual family which had
slipped his mind due to his senility and the isolation
of being confined to the Elk’s National Home.
41. As mentioned before, I was sitting in my
office in the Wail Street Financial District of New
York City when I learned that this had happened. I
immediately called my mother, who was attending a
family reunion in Key Largo, Florida at the Lime.
Since it is difficult to get flights to Lynchburg, I went

App.341a

to the airport and caught a flight to Charlotte, North
Carolina. I had no car there but I had an old friend
named John Karmondy living in Charlotte and he
agreed to drive we from Charlotte to Lynchburg in
view of the emergency situation. By the time that I
arrived, my father had been transferred to the Virginia
Baptist Hospital. We arrived at the hospital in the
afternoon. My father said nothing about getting
married and I did not bring up the subject. My father
did, however, state that he wanted me to check some
items in his safe deposit box. I reminded him that I
did not have the authority to go into his box and also
I did riot have the key. The reason for this was that
my father did not keep the key to his own box. He
entrusted the key to my mother.
42. My father then told me to go to the bank, get
some forms authorizing me to go into the box, and
come back the next morning for him to sign the forms.
However, when I returned the next morning at about
10:00 A.M., I found out that Alma Dawson had
already checked him out of the hospital about one
hour earlier. I was concerned about this as it has been
clear that my father was in no condition to leave the
hospital.
43.Finally, I tracked my father down to 210
Forestdale Drive in Lynchburg, where Alma Dawson
lived. It was quite a spacious and beautiful house. I
was surprised to see Alma Dawson living at such a
place because I knew that she had never had any
money in her life, aside from the money she got from
her various husbands. While talking to my father and
Alma Dawson in this house, I began to imagine that
my father was not as senile as he appeared to be. This

App.342a

house seemed to offer a more comfortable living situa­
tion than the Elk’s National Home. Although Alma men­
tioned that they were planning to move out of the
house and into an apartment soon, I did not attribute
any importance to this remark.
44. It was not until later that I found out that the
situation was vastly different than it seemed to be.
Less that fifteen minutes after I left the house, a
foreclosure auction started. The house was sold to the
highest bidder, Gail Boswell Associates, for $55,000. It
later became clear that the reason that Alma Dawson
had been in such a big hurry to check my father out of
the hospital that morning and to take him over to this
house was that she wanted him to bid at the auction
and to buy the house for her. The reason I found out
all about this is that after I learned what had really
happened, I myself went to Gail Boswell Associates
and bought the house from them.
45. The story about that house also has some
relevance to this case. The house was owned by an
attractive young woman named Deborah Singleton,
aged about 32 years old. She had the remarkable
distinction of having already buried two husbands.
She had been married twice to men with high incomes,
both less than 40 years old. Both had died suddenly.
In both cases, there had been a substantial life insur­
ance policy with respect to which Deborah Singleton
had been the sole beneficiary. Although the house at
210 Forestdale Drive was a family type dwelling,
Deborah Singleton had never occupied the house with
either of her two husbands. Rather, she had bought
the house herself with the insurance money after her
second husband died. I later on spoke to the bank
officer who had given her the loan. He said that as

App.343a

soon as she bought the house, she had quit her job at
the bank. She started frequenting the discos and was
actively looking for a third husband. With no income
and an expensive life style, she quickly exhausted
the money she had gotten from her late husband’s
insurance. She never really started making payments
on the house. When the bank started foreclosure pro­
ceedings, she was informed that she could get a good
price for the house by listing the house with a real
estate agent. However, she was so careless with
money that she did not want even to be bothered with
that. Finally, there was nothing that the bank could
do but foreclose and sell the house at public auction
at a distress price. Had Deborah Singleton sold it
normally, she could have gotten $67,000 for it, which
is the price I got for it when I owned it and sold it
myself later on.
46.Although the house was sold at auction on
January 2, 1986, Deborah Singleton, Alma Dawson
and my father were not required to move out right
away. They were given one month before they were
scheduled to be evicted. The reason I decided to buy
the house myself was that my father seemed to be
comfortable there and I did not want him to be thrown
out on the street. Therefore, I secretly contacted Gail
Boswell Associates and arranged to buy the house. By
that time, my mother had arrived from Florida and
she actually paid the initial payment of $1000 urgent
money to secure the transaction. Neither my father nor
Alma Dawson ever knew about this because my father
died in that house before the deal could be closed.
47.1 never found out how it happened that Alma
Dawson was living in that house in the first place.
Alma claimed that she was only renting a room, but

App.344a

this was not reasonable. Even a small room in such a
house would cost more than Alma could afford. Alma
was 66 and Deborah was 32. They were not relatives
and did not seem to have anything in common. I could
not help but notice one similarity between them, how­
ever. Both were women with low income and earning
capability. Both of them did not at present have a
steady job. Finally, both of them had primarily earned
their livelihood by getting their money from wealthy
husbands. On January 19, 1986, the night my father
died, he was alone in that house with Alma Dawson
and Deborah Singleton. There were no other
witnesses to my father’s death. I called him on the
telephone from New York City at around 9:30 P.M.
that night and spoke to him for around a half hour.
We discussed matters of family history, mainly the
question of whether his ancestors came from what is
now Northern Ireland or from what is now the Irish
Republic. (I think that they came from Northern
Ireland, he thought from the Irish Republic). No men­
tion was made of Alma Dawson or of his current situ­
ation in this entire conversation. About one hour .after
the conclusion of this telephone conversation, my
father died. The Lynchburg Lifesaving Crew was
belatedly called by Alma Dawson, but arrived around
midnight, long after my father was already dead.
49. Going back to the events of January 2, 1986,
when the house was being sold at public auction, at
that time my mother was still at a family reunion with
her four brothers and one sister in Key Largo, Florida.
In spite of the emergency situation and the fact that
my father had entrusted my mother with all of his
financial affairs, she was not able to pry herself loose
from her relatives immediately. Actually, the truth is

App.345a

that my mother’s brothers and sister always disliked
my father for the last fifty years. They also apparently
don’t like me because they believe that I strongly
resemble my father, as opposed to my brother, who they
somehow think more resembles my mother. I am sure
that they would riot be sympathetic to the idea of my
mother rushing to Lynchburg to help get my father
out of trouble. I suspect that my mother did not even
tell them why she was in a big rush to leave Florida.
Otherwise, they might have tried to detain her there
longer. Instead, she probably told them that she was
gong to Charlotte to see Creighton, who,
coincidentally, lived there. Anyway, on January 2,
1986, John Karmondy drove me back to Charlotte,
North Carolina, while simultaneously my mother flew
from Florida up to Charlotte. My mother then rented
a car with her visa card because my brother,
Creighton, had taken her own car, which was an Audi,
and was riot likely to be willing to return it. Actually,
my mother wanted to lay down the law and insist that
Creighton give back the Audi, but I convinced her to
rent a car and avoid the family feud which would have
undoubtedly erupted if my mother had insisted on
taking back the Audi. We then drove to Lynchburg,
arriving on January 3. In Lynchburg, Alma Dawson
started calling repeatedly on the telephone. She
demanded that I hand over to her the key to my
father’s safe deposit box, the key to his mailbox (box
number 75 in the downtown post office), and his
gasoline credit card. I told her that my mother had the
key to my father’s safe deposit box and I would ask my
mother if she wanted to give this key to Alma Dawson.
The other two items I did not personally have. Actu­
ally, there was a story about the gasoline credit card.
Previously, Alma Dawson had served in effect as a

App.346a

chauffeur to my father, who gave up driving years ago.
He had therefore entrusted the gasoline credit card
with her. Apparently, when Alma was short of money,
she had sometimes bought a set of tires on my father’s
gasoline credit card and given or sold the tires to her
son. At some point, my father had gotten angry about
this. Alma was living in an apartment house near the
bridge on Rivermont Avenue in Lynchburg. She
claimed that my father broke into her apartment,
stole back his gasoline credit card, and also stole some
of her personal jewelry as well. Whatever the truth to
this bizarre story, it was a known fact that Alma
Dawson and my father were not on friendly terms
throughout much of 1985. My father stopped having
Alma Dawson drive him around. (He always paid her
for this service, incidentally.) Instead, he had another
lady named Mary Anne Lewis pick him up at the Elk’s
National Home and drive him around. Unfortunately,
Mary Anne Lewis died suddenly in the Virginia
Baptist Hospital in late 1985. Apparently, my father,
being senile, simply forgot that he was having a feud
with Alma Dawson and that she was publicly accusing
him of stealing her jewelry. On December 10, 1985,
my father went with some of his friends to the Red
Lobster Restaurant in the Ramada Hotel and it
happened that Alma Dawson was working there as a
waitress. This is how they re-established contact. A
few days later, she went to Florida. She came back
from Florida after Christmas and on December 31st,
early in the morning, went out and picked up my
father at the Elk’s National Home. This was either the
first or the second time that she picked him up under
this renewed relationship. Then, she took him to the
Lynchburg Circuit Court to get married. This date is
easy to remember because many witnesses assumed

App.347a

that they were in such a big rush to get married on
that day because it was the very last day of the year
and that they needed to get married for tax reasons.
They did not realize that Alma Dawson had such a
nominal income that she paid virtually no taxes.
50. Again, like in the case of Dick Friend, Alma
Dawson failed to realize that my father did not keep
anything of value with him. Sometimes I think that
my father was more alert than we all think he was
and that he actually planned that it would turn out
like this (except that he didn’t plan-that he would die
in the middle of it). My father had long ago assigned
virtually everything of value to my mother. Right up
almost until his death, he bought savings bonds jointly
in my mother’s name. As mentioned previously, he lived
in my mother’s house until 1983 when it became no
longer safe for him to live alone. This is the reason
that many people, including even myself, were not
completely sure whether my mother and my father
were still married or not. Of course, being something
of a ladies man, my father always told women such as
Alma Dawson, Mary Anne Lewis and also his
girlfriend, whose name was Maggie Coffey, that he
was divorced, but who could be sure that this was
true. In mid-December, 1985, he apparently told some
of his friends that he was thinking of getting married
to Maggie Coffey.
51.In any case, Alma Dawson tried in every
possible way to get my father’s money during the
remaining 19 days of his life but, as far as I can deter­
mine, did not get much of anything. On January 16,
1986, just three days before my father died, she
presented a letter to the Elk’s National Home, pur-

App.348a

portedly signed by may father, resigning his member­
ship in the Elk’s National Home. She thereupon cleaned
out his room and took all of his personal effects to 210
Forestdale Avenue. I have a copy of the letter to the
Elk’s. I showed it to someone who shared an office
with my father for many years. He says that the
signature on that letter is not the signature of my
father. It seems quite possible that Alma Dawson
forged my father’s signature. It is inconceivable that
my father would resign his membership in the Elk’s
National Home. Ever since I was a small boy, may
father always said that one reason he belonged to the
Elk’s Club is when he got old he would go to live in the
Elk’s National Home. Also, the rent was so cheap,
something less than $200 per month including free
medical care, that a person would have to be crazy or
senile to resign from a deal like that. Alma Dawson,
on the other hand, would clearly have wanted him to
resign so as to burn his bridges behind him, since it
was a known fact that if he resigned he would not be
allowed to join again. She would have wanted to make
sure that he could not break up with her and go back
to the Elk’s again.
52.1 must mention here that Walter Carwile,
Director of the Elk’s National Home, states that my
father accompanied Alma Dawson on January 16,
1986, when the letter was presented and she cleaned
out his room at the Elk’s. He therefore assumed that
the letter was actually signed by my father, even
though he did not personally watch it being signed.
This was apparently the last time in his life that my
father went anywhere in public. Everyone who saw
him on that day, and on the preceding day when
Alma took him the Central Fidelity sank to add her

App.349a

name to one of his checking accounts, has remarked
that it was obvious that he was not going to live much
longer.
53.My father died three days later. About ten
days after that, Alma Dawson and Deborah Singleton
held a yard sale in front of 210 Forestdale Drive. At
that yard sale, all of my father’s personal effects,
including the items from his room which had been
cleaned out at the Elk’s National Home, were sold. As
far as I know, the only things of economic value which
my father really had in that room were a few suits of
clothing and some books as well as some letters and
personal correspondence. These items probably did
not fetch much at the yard sale, but they would have
been of great sentimental value to me and my family.
54.1 was not informed about the yard sale. On the
afternoon of the sale, Howell Robinson called me and
told me that the sale had been advertised in the
Lynchburg News that morning. I immediately rushed
to 210 Forestdale Drive, but the sale was already over.
Also, the house itself had been vacated. The only thing
left was a cardboard sign which said “yard sale”. I took
the sign back to my mother’s house at 917 Old Trent’s
Ferry Road. It is still there. This sale of course was
illegal as Alma Dawson was legally required to hand
my father’s assets over to the administrator of his
estate, namely me. She had no legal right to sell his
assets at a yard sale.
55. Regarding the suits of clothing taken from the
Elk’s National Home: One thing which my father had
was many suits. When my father was going to be
buried, the Diuguid Funeral Home called me up and
asked me to provide a suit for my father to be buried
in. I told them that Alma Dawson had taken all the

App.350a

suits and I provided her telephone number. They
called Alma Dawson, but she couldn’t be bothered to
provide a suit for my father’s funeral. Therefore, I had
no choice but to authorize Diuguid’s to purchase a new
suit for my father to be buried in.
56. Finally, Alma Dawson did get some of my
father’s money in one way. She got his checkbook from
Sovran Bank and forged his signature to four checks,
emptying out his bank account. However, even in this
case, Alma Dawson’s low IQ resulted in her undoing.
The date on each of the four checks was after the date
of my father’s death. I brought this matter to the
attention of Larry Crank, the bank officer concerned.
He confronted her with this and she confessed to
having forged my father’s signature on each of the
four checks. Since she also had a bank account with
the same bank, the bank officer just transferred the
money out of her account and back into my late
father’s account. I approached Bill Petty, the
Lynchburg Commonwealth Attorney, and tried to get
him to prosecute Alma Dawson for this obvious
forgery case, but he declined to do so.
57. Nevertheless, I have heard that Alma Dawson
did collect on a government insurance policy on my
father in the amount of $4,000. Unfortunately, I have
not been able to obtain any details on this. It is clear
that she had no legal right to collect on any government
insurance policy, but it is possible that the government
made a mistake and that an erroneous payment was
made. If true, this $4,000 is an item which the estate
should try and collect.
58.1 realize that most of this goes far afield from
the original petition by Stephen C. Martin to withdraw

App.351a

as counsel. Nevertheless, since it seems that this liti­
gation is about to become active again, I decided to
use this opportunity to put these facts on the record.
Basically, I view the current situation as an uneasy
truce. As long as Don Pendleton does not do anything,
I will also not do anything. If, as I expect, he starts to
litigate, I will also start to litigate, frankly, I believe
that Don Pendleton wants to join the growing list of
attorneys who are trying to get my mother's money.
He is also probably planning to work with his former
law partner. Judge Janow, in this connection. I have
always suspected that the reason that Judge Janow
has been so hot to get me and my mother these past
four years has to do with the friendship between
Judge Janow and Don Pendleton, both of whom live in
Amherst.
59. Getting back to the original point regarding
this motion to withdraw, when I hired Stephen Martin
I mentioned the fact that Donald Pendleton was
known to be the attorney for Alma Dawson and that
coincidentally both of them lived in the small
community of Amherst. I asked if he was not concerned
about a potential conflict of interest, especially since
so many other attorneys had refused this case on
these grounds. Steve Martin replied that he is on the
opposite side of Don Pendleton in many cases, so this
would be just another case against that same attorney.
60. Having said that, I do not believe that Stephen
Martin can now be allowed to withdraw as counsel,
leaving the estate defenseless against future litigation
by Don Pendleton. Indeed, it is clear that the reason
Don Pendleton has been quiet recently is that if he
takes any court action, he will have to face Steve
Martin. AS a result, I believe that the petition by

App.352a

Stephen C. Martin to withdraw as counsel of record
should be denied.
WHEREFORE, the undersigned respectfully
requests that the petition to withdraw as counsel of
record be denied.

Respectfully Submitted

/s/ Samuel H. Sloan
P.O. Box 11829
Fujairah
United Arab Emirates
Tel: 011-9717027562 (office)
011-9717027516 (res.)
Fax: 011-9717027526

App.353a

EXHIBIT 0-9
OPINION IN SEC V SLOAN, 436 U.S. 103, 56 L
ED 2D 148, 98 S CT 1702
(MAY 15, 1978)
SUPREME COURT OF THE UNITED STATES

SECURITIES AND EXCHANGE COMMISSION
Petitioner,
v.
SAMUEL H. SLOAN,
Defendant.

No. 76-1607
Before: REHNQUIST, Justice.
Mr. Justice Rehnquist delivered the opinion of the
Court.
Under the Securities Exchange Act of 1934, ch.
404, 48 Stat. 881, the Securities and Exchange Com­
mission has the authority “summarily to suspend
trading in any security ... for a period not exceeding
ten days” if “in its opinion the public interest and the
protection of investors so require.”! Acting pursuant
1 This authority is presently found in § 12(k) of the Act, which
was added by amendment in 1975 by Pub. L. 94-29 § 9, 89 Stat.
118. It provides in pertinent part:

App.354a

to this authority the Commission issued a series of
consecutive orders suspending trading in the common
stock of Canadian Javelin, Ltd. (CJL), for over a year.
The Court of Appeals for the Second Circuit held that
such a series of suspensions was beyond the scope of
the Commission’s statutory authority. 547 F. 2d 152,
157-158 (1976). We granted certiorari to consider this
important question, 434 U. S. 901 (1977), and, finding
ourselves in basic agreement with the Court of
Appeals, we affirm. We hold that even though there
be a periodic redetermination of whether such action
is required by “the public interest” and for “the protec­
tion of investors,” the Commission is not empowered
to issue, based upon a single set of circumstances, a
series of summary orders which would suspend
trading beyond the initial 10-day period.

I
“If in its opinion the public interest and the protection of
investors so require, the Commission is authorized
summarily to suspend trading in any security (other than
an exempted security) for a period not exceeding ten
days. . . . No member of a national securities exchange,
broker, or dealer shall make use of the mails or any
means or instrumentality of interstate commerce to
effect any transaction in, or to induce the purchase or
sale of, any security in which trading is so suspended.”
15 U. S. C. § 78Xk) (1976 ed.).
This power was previously found in §§ 15(c)(5) and 19(a)(4) of the
Act, which for all purposes relevant to this case were substan­
tially identical to the current statute, § 12(k), except that
§ 15(c)(5) authorized summary suspension of trading in securities
which were traded in the over-the-counter market, while
§ 19(a)(4) permitted summary suspension of trading in securities
which were traded on the national exchanges. 15 U. S. C.
§§ 78o(c)(5) and 78s(a)(4). Congress consolidated those powers in
§ 12(k).

App.355a

On November 29, 1973, apparently because CJL
had disseminated allegedly false and misleading press
releases concerning certain of its business activities,
the Commission issued the first of what was to become
a series of summary 10-day suspension orders
continuously suspending trading in CJL common
stock from that date until January 26, 1975. App. 109.
During this series of suspensions respondent Sloan,
who owned 13 shares of CJL stock and had engaged
in substantial purchases and short sales of shares of
that stock, filed a petition in the United States Court
of Appeals for the Second Circuit challenging the
orders on a variety of grounds. On October 15, 1975,
the court dismissed as frivolous all respondent’s
claims, except his allegation that the “tacking” of 10day summary suspension orders for an indefinite
period was an abuse of the agency’s authority and a
deprivation of due process. It further concluded, how­
ever, that in light of two events which had occurred
prior to argument, it could not address this question
at that time. The first event of significance was the
resumption of trading on January 26, 1975. The
second was the commencement of a second series of
summary 10-day suspension orders, which was still in
effect on October 15. This series had begun on April
29, 1975, when the Commission issued a 10-day order
based on the fact that the Royal Canadian Mounted
Police had launched an extensive investigation into
alleged manipulation of CJL common stock on the
American Stock Exchange and several Canadian
stock exchanges. App. 11-12. This time 37 separate
orders were issued, suspending trading continuously
from April 29, 1975, to May 2, 1976. The court thought
the record before it on October 15 inadequate in light
of these events and dismissed respondent’s appeal

App.356a

“without prejudice to his repleading after an adminis­
trative hearing before the SEC . . . which hearing,
though apparently not required by statute or regula­
tion, had been offered by the Commission at oral argu­
ment. 527 F. 2d 11, 12 (1975), cert, denied, 426 U. S.
935 (1976).
Thereafter respondent immediately petitioned
the Commission for the promised hearing. The hearing
was not forthcoming, however, so on April 23, 1976,
during the period when the second series of orders was
still in effect, respondent brought the present action
pursuant to § 25 (a) (l) of the Act, 15 U. S. C. § 78y
(a)(l) (1976 ed.), challenging the second series of
suspension orders. He argued, among other things,
that there was no rational basis for the suspension
orders, that they were not supported by substantial
evidence in any event, and that the “tacking” of 10day summary suspension orders was beyond the Com­
mission’s authority because the statute specifically
authorized suspension “for a period not exceeding ten
days.”2 The court held in respondent’s favor on this
latter point. It first concluded that despite the fact
that there had been no 10-day suspension order in
effect since May 2, 1976, and the Commission had
asserted that it had no plans to consider or issue an
order against CJL in the foreseeable future, the case
was not moot because it was “'capable of repetition, yet
evading review.’" 547 F. 2d, at 158, quoting from

2 Respondent also argued that the orders violated his due
process rights because he was never given notice and an oppor­
tunity for a hearing and that § 12(k) was an unconstitutional
delegation of legislative power. The court found it unnecessary to
address these issues.

App.357a

Southern Pacific Terminal Co. v. ICC, 219 U. S. 498,
515(1911).
The court then decided that the statutes which
authorized summary suspensions—§ 12 (k) and its
predecessors—did not empower the Commission to
issue successive orders to curtail trading in a security
for a period beyond the initial 10-day period. 547 F.
2d, at 157-158. We granted certiorari, specifically
directing the attention of the parties to the question
of mootness, 434 U. S. 901 (1977), to which we now
turn.
II
Respondent argues that this case is not moot
because, as the Court of Appeals observed, it is
“capable of repetition, yet evading review.”3 The Com­
mission, on the other hand, does not urge that the case
is demonstrably moot, but rather that there simply
are not enough facts on the record to allow a proper
determination of mootness. It argues that there is no
“reasonable expectation” that respondent will be harmed
by further suspensions because, “'the investing public
now halving] been apprised of the relevant facts, the
concealment of which had threatened to disrupt the
market in C JL stock, there is no reason to believe that
it will be necessary to suspend trading again.’" Brief
for Petitioner 15, quoting from Pet. for Cert. 12 n. 7.
Cf. Weinstein v. Bradford, 423 U. S. 147, 149 (1975).
The Commission concedes, however, that respondent,
in his capacity as a diversified investor, might be
3 Respondent also contends that he has suffered collateral legal
consequences from the series of suspension orders, and thus the
case is not moot. Cf. Sibron v. New York, 392 U. S. 40. 57 (1968).
We find it unnecessary to address this further contention.

App.358a

harmed in the future by the suspension of some other
security which he owns. But it further contends that
respondent has not provided enough data about the
number or type of securities in his portfolio to enable
the Court to determine whether there is a “reason­
able” likelihood that any of those securities will be
subjected to consecutive summary suspension
orders.4
Contrary to the Commission’s contention, we
think even on the record presently before us this case
falls squarely within the general principle first
enunciated in Southern Pacific Terminal Co. v. ICC,
supra, and further clarified in Weinstein v. Bradford,
supra, that even in the absence of a class action a case
is not moot when “(l) the challenged action was in its
duration too short to be fully litigated prior to its
cessation or expiration, and (2) there was a reasonable
expectation that the same complainingparty would be
subjected to the same action again.” Weinstein v.
Bradford, supra, at 147 (emphasis added). That the
first prong of this test is satisfied is not in dispute. A
4 The Commission contends that to determine the mathematical
probability that at least one of the securities held by respondent
will be subjected to consecutive suspension orders it is necessary
to know, in addition to other information admittedly available in
the Commission’s own records, the number of publicly traded cor­
porations of which respondent is a shareholder. This datum
cannot be ascertained with any accuracy on this record, however,
claims the Commission, because respondent has made various
representations regarding that number at various stages of the
litigation. Compare App. 153 with Brief in Response 18. The
Commission adds that the probability could be determined with
even greater accuracy if respondent revealed the nature of his
portfolio because certain securities—those listed on the New
York Stock Exchange, for example—are seldom summarily
suspended.

App.359a
series of consecutive suspension orders may last no
more than 20 days, making effective judicial review
impossible during the life of the orders. We likewise
have no doubt that the second part of the test also has
been met here. CJL has, to put it mildly, a history of
sailing close to the wind.5 Thus, the Commission’s
protestations to the contrary notwithstanding, there
is a reasonable expectation, within the meaning of
Weinstein v. Bradford, supra, that CJL stock will
again be subjected to consecutive summary suspension
orders and that respondent, who apparently still owns
CJL stock, will suffer the same type of injury he
suffered before. This is sufficient in and of itself to
satisfy this part of the test. But in addition, respond­
ent owns other securities, the trading of which may
also be summarily suspended. As even the Commis­
sion admits, this fact can only increase the probability
that respondent will again suffer the type of harm of
which he is presently complaining. It thus can only
buttress our conclusion that there is a reasonable
expectation of recurring injury to the same complaining
party.
5 Within the last five years the Commission has twice issued a
series of orders, each of which suspended trading in CJL stock
for over a year. In the various staff reports given to the Commis­
sion in connection with and attached to the second series of
orders, the Division of Enforcement indicates in no less than six
separate reports that either the Commission or the various stock
exchanges view CJL as a “chronic violator.” App. 20, 22, 24, 26,
28, 31. And reference is made to “the continuous [CJL]
problems.” Id., at 61. Furthermore, counsel for the Commission
represented at oral argument that there were in fact three
separate bases for the second series of suspensions—alleged
market manipulation, a change in management of the company,
and a failure to file current reports. Tr. of Oral Arg. 17-18.

i

App.360a
III
A
Turning to the merits, we note that this is not a
case where the Commission, discovering the existence
of a manipulative scheme affecting CJL stock, suspended
trading for 10 days and then, upon the discovery of a
second manipulative scheme or other improper activity
unrelated to the first scheme, ordered a second 10-day
suspension.6 Instead it is a case in which the Com­
mission issued a series of summary suspension orders
lasting over a year on the basis of evidence revealing
a single, though likely sizable, manipulative scheme.7
6 Neither does the first series of orders appear to be of this type.
Rather, like the second series, it appears to be predicated mainly
on one major impropriety on the part of CJL and its personnel,
which impropriety required the Commission, in its opinion, to
issue a year-long series of summary suspension orders to protect
investors and for the public interest.
7 As previously indicated, see n. 5, supra, the Commission
advances three separate reasons for the suspensions, thus
implicitly suggesting that perhaps this is a case where the Com­
mission discovered independent reasons to suspend trading after
the initial suspension. We note first that there are doubts
whether these “reasons” independently would have justified
suspension. For example, we doubt the Commission regularly
suspends trading because of a “change in management.” A
suspension might be justified if management steps down under
suspicious circumstances, but the suspicious circumstance here
is the initial reason advanced for suspension—the manipulative
scheme—and thus the change in management can hardly be
considered an independent justification for suspension. More
importantly, however, even assuming the existence of three inde­
pendent reasons for suspension, that leaves 34 suspension orders
that were not based on independent reasons and thus the ques­
tion still remains. Does the statute empower the Commission to
continue to “roll over” suspension orders for the same allegedly

App.361a

Thus, the only question confronting us is whether,
even upon a periodic re determination of “necessity,”
the Commission is statutorily authorized to issue a
series of summary suspension orders based upon a
single set of events or circumstances which threaten
an orderly market. This question must, in our opinion,
be answered in the negative.
The first and most salient point leading us to this
conclusion is the language of the statute. Section 12
(k) authorizes the Commission “summarily to suspend
trading in any security . . . for a period not exceeding
ten days. ...” 15 U. S. C. § 787(k) (1976 ed.) (emphasis
added). The Commission would have us read the
underscored phrase as a limitation only upon the
duration of a single suspension order. So read, the
Commission could indefinitely suspend trading in a
security without any hearing or other procedural
safeguards as long as it redetermined every 10 days
that suspension was required by the public interest
and for the protection of investors. While perhaps not
an impossible reading of the statute we are
persuaded it is not the most natural or logical one. The
duration limitation rather appears on its face to be
just that—a maximum time period for which trading
can be suspended for any single set of circumstances.
Apart from the language of the statute, which we
find persuasive in and of itself, there are other reasons
to adopt this construction of the statute. In the first
place, the power to summarily suspend trading in a

improper activity simply upon a redetermination that the contin­
ued suspension is “required” by the public interest and for the
protection of investors?

App.362a
security even for 10 days, without any notice, oppor­
tunity to be heard, or findings based upon a record, is
an awesome power with a potentially devastating
impact on the issuer, its shareholders, and other
investors. A clear mandate from Congress, such as
that found in § 12 (k), is necessary to confer this
power. No less clear a mandate can be expected from
Congress to authorize the Commission to extend,
virtually without limit, these periods of suspension.
But we find no such unmistakable mandate in § 12
(k). Indeed, if anything, that section points in the
opposite direction.
Other sections of the statute reinforce the conclu­
sion that in this area Congress considered summary
restrictions to be somewhat drastic and properly used
only for very brief periods of time. When explicitly
longer term, though perhaps temporary, measures are
to be taken against some person, company, or security,
Congress invariably requires the Commission to give
some sort of notice and opportunity to be heard. For
example, § 12 (j) of the Act authorizes the Commis­
sion, as it deems necessary for the protection of
investors, to suspend the registration of a security for
a period not exceeding 12 months if it makes certain
findings “on the record after notice and opportunity for
hearing....” 15 U. S. C. § 787 (j) (1976 ed.) (emphasis
added). Another section of the Act empowers the Com­
mission to suspend broker-dealer registration for a
period not exceeding 12 months upon certain findings
made only “on the record after notice and opportunity
for hearing.”^ 78o(b) (4) (1976 ed.) (emphasis added).
Still another section allows the Commission, pending
final determination whether a broker-dealer’s
registration should be revoked, to temporarily

App.363a

suspend that registration, but only “after notice and
opportunity for hearing.” § 78o (b) (5) (1976 ed.)
(emphasis added). Former § 15 (b) (6), which dealt
with the registration of broker-dealers, also lends sup­
port to the notion that as a general matter Congress
meant to allow the Commission to take summary
action only for the period specified in the statute when
that action is based upon any single set of circum­
stances. That section allowed the Commission to
summarily postpone the effective date of registration
for 15 days, and then, after appropriate notice and
opportunity for hearing, to continue that postponement
pending final resolution of the matter8 The section
which replaced § 15 (b) (6) even further underscores
this general pattern. It requires the Commission to
take some action—either granting the registration or
instituting proceedings to determine whether
registration should be denied—within 45 days. 15 U.
8 The former § 15(b)(6) provided in pertinent part:
“Pending final determination whether any registration
under this subsection shall be denied, the Commission
may by order postpone the effective date of such
registration for a period not to exceed fifteen days, but if,
after appropriate notice and opportunity for hearing
(which may consist solely of affidavits and oral argu­
ments), it shall appear to the Commission to be necessary
or appropriate in the public interest or for the protection
of investors to postpone the effective date of such
registration until final determination, the Commission
shall so order. Pending final determination whether any
such registration shall be revoked, the Commission shall
by order suspend such registration if, after appropriate
notice and opportunity for hearing, such suspension shall
appear to the Commission to be necessary or appropriate
in the public interest or for the protection of
investors. ...” 15 U. S. C. § 78o(b)(6).

App.364a
S. C. § 78o (b) (l) (1976 ed.). In light of the explicit
congressional recognition in other sections of the Act,
both past and present, that any long-term sanctions
or any continuation of summary restrictions must be
accompanied by notice and an opportunity for a
hearing, it is difficult to read the silence in § 12 (k) as
an authorization for an extension of summary
restrictions without such a hearing, as the Commis­
sion contends. The more plausible interpretation is
that Congress did not intend the Commission to have
the power to extend the length of suspensions under
§ 12 (k) at all, much less to repeatedly extend such
suspensions without any hearing.
B
The Commission advances four arguments in
support of its position, none of which we find persuasive.
It first argues that only its interpretation makes sense
out of the statute. That is, if the Commission discovers
a manipulative scheme and suspends trading for 10
days, surely it can suspend trading 30 days later upon
the discovery of a second manipulative scheme. But if
trading may be suspended a second time 30 days later
upon the discovery of another manipulative scheme, it
surely could be suspended only 10 days later if the
discovery of the second scheme were made on the eve
of the expiration of the first order. And, continues the
Commission, since nothing on the face of the statute
requires it to consider only evidence of new manipulative
schemes when evaluating the public interest and the
needs of investors, it must have the power to issue
consecutive suspension orders even in the absence of
a new or different manipulative scheme, as long as the
public interest requires it.

App.365a

This argument is unpersuasive, however, because
the conclusion simply does not follow from the various
premises. Even assuming the Commission can again
suspend trading upon learning of another event which
threatens the stability of the market, it simply does
not follow that the Commission therefore must
necessarily have the power to do so even in the
absence of such a discovery. On its face and in the
context of this statutory pattern, § 12 (k) is more
properly viewed as a device to allow the Commission
to take emergency action for 10 days while it prepares
to deploy its other remedies, such as a temporary
restraining order, a preliminary or permanent
injunction, or a suspension or revocation of the
registration of a security. The Commission’s argu­
ment would render unnecessary to a greater or lesser
extent all of these other admittedly more cumbersome
remedies which Congress has given to it.
Closely related to the Commission’s first argu­
ment is its second—its construction furthers the
statute’s remedial purposes. Here the Commission
merely asserts that it “has found that the remedial
purposes of the statute require successive suspension
of trading in particular securities, in order to maintain
orderly and fair capital markets.” Brief for Petitioner
37. Other powers granted the Commission are, in its
opinion, simply insufficient to accomplish its pur­
poses.
We likewise reject this argument. In the first
place, the Commission has not made a very persuasive
showing that other remedies are ineffective. It argues
that injunctions and temporary restraining orders are
insufficient because they take time and evidence to
obtain and because they can be obtained only against

App.366a

wrongdoers and not necessarily as a stopgap measure
in order to suspend trading simply until more infor­
mation can be disseminated into the marketplace. The
first of these alleged insufficiencies is no more than a
reiteration of the familiar claim of many Government
agencies that any semblance of an adversary proceed­
ing will delay the imposition of the result which they
believe desirable. It seems to us that Congress, in
weighing the public interest against the burden imposed
upon private parties, has concluded that 10 days is
sufficient for gathering necessary evidence.
This very case belies the Commission’s argument
that injunctions cannot be sought in appropriate
cases. At exactly the same time the Commission com­
menced the first series of suspension orders it also
sought a civil injunction against CJL and certain of its
principals, alleging violations of the registration and
antifraud provisions of the Securities Act of a recog­
nized authority in this area of the law called attention
to the fact that the Commission was gradually
carrying over the summary suspension power granted
in the predecessors of § 12 (k) into other areas of its
statutory authority and using it as a pendente lite
power to keep in effect a suspension of trading
pending final disposition of delisting proceedings. 2 L.
Loss, Securities Regulation 854-855 (2d ed. 1961).
The author then questioned the propriety of
extending the summary suspension power in that
manner, id., at 854, and we think those same ques­
tions arise when the Commission argues that the
summary suspension power should be available not
only for the purposes clearly contemplated by § 12 (k),
but also as a solution to virtually any other problem
which might occur in the marketplace. We do not

App.367a

think § 12 (k) was meant to be such a cure-all. It pro­
vides the Commission with a powerful weapon for
dealing with certain problems. But its time limit is
clearly and precisely defined. It cannot be judicially or
administratively extended simply by doubtful argu­
ments as to the need for a greater duration of
suspension orders than it allows. If extension of the
summary suspension power is desirable, the proper
source of that power is Congress. Cf. FMCv. Seatrain
Lines, Inc., 411 U. S. 726, 744-745 (1973).
The Commission next argues that its interpretation
of the statute—that the statute authorizes successive
suspension orders—has been both consistent and
longstanding, dating from 1944. It is thus entitled to
great deference. See United States v. National Assn,
ofSecurities Dealers, 422 U. S. 694, 719 (1975); Saxbe
v. Bustos, 419 U. S. 65, 74 (1974).
While this undoubtedly is true as a general
principle of law, it is not an argument of sufficient
force in this case to overcome the clear contrary
indications of the statute itself. In the first place it is
not apparent from the record that on any of the
occasions when a series of consecutive summary
suspension orders was issued the Commission actu­
ally addressed in any detail the statutory authorization
under which it took that action. As we said just this
Term in Adamo Wrecking Co. v. United States, 434 U.
S. 275, 287 n. 5 (1978):
“This lack of specific attention to the statu­
tory authorization is especially important in
light of this Court’s pronouncement in
Skidmore v. Swift & Co., 323 U. S. 134, 140
(1944), that one factor to be considered in
giving weight to an administrative ruling is

App.368a

'the
thoroughness
evident
in
its
consideration, the validity of its reasoning,
its consistency with earlier and later
pronouncements, and all those factors which
give it power to persuade, if lacking power to
control.”'
To further paraphrase that opinion, since this
Court can only speculate as to the Commission’s
reasons for reaching the conclusion that it did, the
mere issuance of consecutive summary suspension
orders, without a concomitant exegesis of the statu­
tory authority for doing so, obviously lacks “power to
persuade” as to the existence of such authority. Ibid.
Nor does the existence of a prior administrative prac­
tice, even a well-explained one, relieve us of our res­
ponsibility to determine whether that practice is con­
sistent with the agency’s statutory authority.
“The construction put on a statute by the agency
charged with administering it is entitled to deference
by the courts, and ordinarily that construction will be
affirmed if it has a 'reasonable basis in law.’ NLRBv.
Hearst Publications, 322 U. S. Ill, 131; Unemploy­
ment Commission v. Aragon, 329 U. S. 143, 153-154.
But the courts are the final authorities on issues of
statutory construction, FTCv. Colgate-Palmolive Co.,
380 U. S. 374, 385, and 'are not obliged to stand aside
and rubber-stamp their affirmance of administrative
decisions that they deem inconsistent with a statutory
mandate or that frustrate the congressional policy
underlying a statute.’ NLRBv. Brown, 380 U. S. 278,
291.” Volkswagenwerk v. FMC, 390 U. S. 261, 272
(1968).
And this is just such a case—the construction
placed on the statute by the Commission, though of

App.369a

long standing, is, for the reasons given in Part III-A of
this opinion, inconsistent with the statutory mandate.
We explicitly contemplated just this situation in FMC
v. Seatrain Lines, Inc., supra, at 745, where we said:
“But the Commission contends that since it
is charged with administration of the statu­
tory scheme, its construction of the statute
over an extended period should be given
great weight. . . . This proposition may, as a
general matter, be conceded, although it
must be tempered with the caveat that an
agency may not bootstrap itself into an area
in which it has no jurisdiction by repeatedly
violating its statutory mandate.”
And our clear duty in such a situation is to reject
the administrative interpretation of the statute.
Finally, the Commission argues that for a variety
of reasons Congress should be considered to have
approved the Commission’s construction of the statute
as correct. Not only has Congress re-enacted the sum­
mary suspension power without disapproving the
Commission’s construction, but the Commission par­
ticipated in the drafting of much of this legislation and
on at least one occasion made its views known to Con­
gress in Committee hearings9 Furthermore, at least
9 In 1963, when Congress was considering the former § 15(c)(5),
which extended the Commission’s summary suspension power to
securities traded in the over-the-counter market, the Commis­
sion informed a Subcommittee of the House Committee on
Interstate and Foreign Commerce of its current administrative
practice. One paragraph in the Commission’s 30-page report to
the Subcommittee reads as follows:
“Under section 19(a)(4), the Commission has issued
more than one suspension when, upon reexamination

App.370a

one Committee indicated on one occasion that it
understood and approved of the Commission’s prac­
tice.10 See Zuberv. Allen, 396 U. S. 168, 192 (1969);
United States v. Correll, 389 U. S. 299, 305-306
(1967); Fribourg Navigation Co. v. Commissioner, 383
U. S. 272, 283 (1966).

at the end of the 10-day period, it has determined that
another suspension is necessary. At the same time the
Commission has recognized that suspension of
trading in a security is a serious step, and therefore
has exercised the power with restraint and has pro­
ceeded with diligence to develop the necessary facts in
order that any suspension can be terminated as soon
as possible. The Commission would follow that policy
in administering the proposed new section 15(c)(5).”
Hearings on H. R. 6789, H. R. 6793, S. 1642 before a
Subcommmittee of the House Committee on Interstate
and Foreign Commerce, 88th Cong., 1st Sess., 219
(1963).
10 The Senate Committee on Banking and Currency, when it
reported on the proposed 1964 amendments to the Act, indicated
that it understood and did not disapprove of the Commission’s
practice. It stated:
“The Commission has consistently construed section
19(a)(4) as permitting it to issue more than one suspen­
sion if, upon reexamination at the end of the 10-day
period, it determines that another suspension is
necessary. The committee accepts this interpretation.
At the same time the committee recognizes that
suspension of trading in a security is a drastic step
and that prolonged suspension of trading may impose
considerable hardship on stockholders. The committee
therefore expects that the Commission will exercise
this power with restraint and will proceed with all dil­
igence to develop the necessary facts in order that any
suspension can he terminated as soon as possible.” S.
Rep. No. 379, 88th Cong., 1st Sess., 66-67 (1963).

App.371a

While we of course recognize the validity of the
general principle illustrated by the cases upon which
the Commission relies, we do not believe it to be
applicable here. In Zuberv. Allen, supra, at 192, the
Court stated that a contemporaneous administrative
construction of an agency’s own enabling legislation
“is only one input in the interpretational equation. Its
impact carries most weight when the administrators
participated in drafting and directly made known
their views to Congress in committee hearings.” Here
the administrators, so far as we are advised, made no
reference at all to their present construction of § 12 (k)
to the Congress which drafted the “enabling legislation”
here in question—the Securities Exchange Act of
1934. They made known to at least one Committee
their subsequent construction of that section 29 years
later, at a time when the attention of the Committee
and of the Congress was focused on issues not directly
related to the one presently before the Court. H Al­
though the section in question was re-enacted in 1964,
and while it appears that the Committee Report did
recognize and approve of the Commission’s practice,
this is scarcely the sort of congressional approval
referred to in Zuber, supra.
We are extremely hesitant to presume general
congressional awareness of the Commission’s construc­
tion based only upon a few isolated statements in the
thousands of pages of legislative documents. That
11 The purpose of the 1964 amendments was merely to grant the
Commission the same power to summarily deal with securities
traded in the over-the-counter market as it already had to deal
with securities traded on national exchanges. The purpose of the
1975 amendments was simply to consolidate into one section the
power formerly contained in two

App.372a

language in a Committee Report, without additional
indication of more widespread congressional awareness,
is simply not sufficient to invoke the presumption in a
case such as this. For here its invocation would result
in a construction of the statute which not only is at
odds with the language of the section in question and
the pattern of the statute taken as a whole, but also is
extremely far reaching in terms of the virtually
untrammeled and unreviewable power it would vest
in a regulatory agency.
Even if we were willing to presume such general
awareness on the part of Congress, we are not at all sure
that such awareness at the time of re-enactment
would be tantamount to amendment of what we conceive
to be the rather plain meaning of the language of § 12
(k). On this point the present case differs significantly
from United States v. Correll, supra, at 304, where the
Court took pains to point out in relying on a construction
of a tax statute by the Commissioner of Internal
Revenue that “to the extent that the words chosen by
Congress cut in either direction, they tend to support
rather than defeat the Commissioner’s position. ...”
Subsequent congressional pronouncements also
cast doubt on whether the prior statements called to
our attention can be taken at face value. When
consolidating the former §§ 15 (c) (5) and 19 (a) (4) in
1975, see n. 1, supra, Congress also enacted § 12 (j),
which allows the Commission “to suspend for a period
not exceeding twelve months, or to revoke the
registration of a security, if the Commission finds, on
the record after notice and opportunity for hearing,
that the issuer of such security has failed to comply
with any provision of this chapter or the rules and
regulations thereunder.” 15 U. S. C. § 787 (j) (1976 ed.).

App.373a

While this particular power is not new, see 15 U. S. C.
§ 78s (a) (2), the effect of its exercise was expanded to
include a suspension of trading. 12 “With this change,”
stated the Senate Committee on Banking, Housing and
Urban Affairs, “the Commission is expected to use this
section rather than its ten-day suspension power, in
cases of extended duration.” S. Rep. No. 94-75, p. 106
(1975) (emphasis added). Thus, even assuming,
arguendo, that the 1963 statements have more force
than we are willing to attribute to them, and that, as
the Commission argues, § 12 (j) does not cover quite
as broad a range of situations as § 12 (k), the 1975
congressional statements would still have to be read
as seriously undermining the continued validity of the
1963 statements as a basis upon which to adopt the
Commission’s construction of the statute.
In sum, had Congress intended the Commission
to have the power to summarily suspend trading
virtually indefinitely we expect that it could and
would have authorized it more clearly than it did in
§ 12(k). The sweeping nature of that power supports
this expectation. The absence of any truly persuasive
legislative history to support the Commission’s view,
and the entire statutory scheme suggesting that in
fact the Commission is not so empowered, reinforce
our conclusion that the Court of Appeals was correct

12 Under the new provision, when the Commission suspends or
revokes the registration of a security, “[n]o . . . broker, or dealer
shall make use of the mails or any means or instrumentality of
interstate commerce to effect any transaction in, or to induce the
purchase or sale of, any security the registration of which has
been and is suspended or revoked pursuant to the preceding
sentence.” 15 U. S. C. § 78^j) (1976 ed.).

App.374a

in concluding no such power exists. Accordingly, its
judgment is Affirmed.
MR. JUSTICE BRENNAN, with whom MR. JUSTICE
MARSHALL joins, concurring in the judgment.
Although I concur in much of the Court’s reasoning
and in its holding that “the Commission is not
empowered to issue, based upon a single set of circum­
stances, a series of summary orders which would
suspend trading beyond the initial 10-day period,”
ante, at 106,1 cannot join the Court’s opinion because
of its omissions and unfortunate dicta.

I
The Court’s opinion does not reveal how flagrantly
abusive the Security and Exchange Commission’s use
of its § 12 (k) authority has been. That section author­
izes the Commission “summarily to suspend trading
in any security ... for a period not exceeding ten
days. ...” 15 U. S. C. § 787(k) (1976 ed.). As the Court
says, this language “is persuasive in and of itself’ that
10 days is the “maximum time period for which
trading can be suspended for any single set of circum­
stances.” Ante, at 112. But the Commission has used
§ 12 (k), or its predecessor statutes, see ante, at 105 n.
1, to suspend trading in a security for up to 13 years.
See App. to Brief for Canadian Javelin, Ltd., as
Amicus Curiae la. And, although the 13-year
suspension is an extreme example, the record is
replete with suspensions lasting the better part of a
year. See App. 184-211. I agree that § 12 (k) is clear
on its face and that it prohibits this administrative
practice. But even if § 12 (k) were unclear, a 13-year
suspension, or even a 1-year suspension as here,

App.375a

without notice or hearing so obviously violates funda­
mentals of due process and fair play that no reason­
able individual could suppose that Congress intended
to authorize such a thing. See also 15 U. S. C. § 787 (j)
(1976 ed.) (requiring notice and a hearing before a
registration statement can be suspended), discussed
ante, at 121-122.
Moreover, the SEC’s procedural implementation
of its § 12 (k) power mocks any conclusion other than
that the SEC simply could not care whether its § 12
(k) orders are justified. So far as this record shows, the
SEC never reveals the reasons for its suspension
orders. 13 To be sure, here respondent was able long
after the fact to obtain some explanation through a
Freedom of Information Act request, but even the
information tendered was heavily excised and none of

13 The only document made public by the SEC at the time it
suspends trading in a security is a “Notice of Suspension of
Trading.” Numerous copies of this notice are included in the
Appendix and each contains only the boilerplate explanation:
“It appearing to the Securities and Exchange Commis­
sion that the summary suspension of trading in such
securities on such exchange and otherwise than on a
national securities exchange is required in the public
interest and for the protection of investors; [therefore,
trading is suspended]
SfeeApp. 11, 13, 16, 19, 21, 23, 25, 27, 30, 33, 36, 39, 41, 44, 47,
50, 53, 56, 59, 62, 65, 67, 69, 71, 73, 76, 79, 82, 85, 88, 91, 94, 97,
100, 103, 106. The sole exception to this monotonous pattern is
the notice which issued after respondent lodged his verified
petition with the SEC. That notice recounted the allegations of
the petition and stated in some detail why it was necessary to
continue the suspension of Canadian Javelin stock. See id., at
109-110.

App.376a

it even purports to state the reasoning of the Commis­
sioners under whose authority § 12 (k) orders issue. 14
Nonetheless, when the SEC finally agreed to give res­
pondent a hearing on the suspension of Canadian
Javelin stock, it required respondent to state, in a
verified petition (that is, under oath) why he thought
the unrevealed conclusions of the SEC to be wrong. 15
This is obscurantism run riot.
Accordingly, while we today leave open the ques­
tion whether the SEC could tack successive 10-day
suspensions if this were necessary to meet first one
and then a different emergent situation, I for one
would look with great disfavor on any effort to tack
suspension periods unless the SEC concurrently adopted
a policy of stating its reasons for each suspension.
Without such a statement of reasons, I fear our
holding today will have no force since the SEC’s
administration of its suspension power will be

14 In each instance, the explanation consists only of memoranda
from the SEC’s Division of Enforcement to the Commission. See,
e. g., id., at 12, 14, 15. In at least one instance, the memorandum
postdates the public notice of suspension. Compare id., at 11 with
id., at 12. In no case is there a memorandum from the Commis­
sion explaining its action. The Court apparently assumes that
the memoranda of the Division of Enforcement adequately
explain the Commission’s action, although the basis for any such
assumption is not apparent. Moreover, since the recommenda­
tions portion of each memoranda is excised, presumably as per­
mitted (but not required) by Exemption 5 of the Freedom of Infor­
mation Act, see EPA v. Mink, 410 U. S. 73, 89 (1973). there is no
statement of reasons in any traditional sense in any of the
memoranda.
15 See Brief for Respondent 19; App. to Brief for Respondent 20a21a.

App.377a

re viewable, if at all, only by the circuitous and timeconsuming path followed by respondent here.
II
In addition, I cannot join the Court’s reaffirmance
of Adamo Wreckings increasingly scholastic approach
to the use of administrative practice in interpreting
federal statutes. See ante, at 117-118. This reaffirmance
is totally unnecessary in this case for, as the Court
notes, whatever that administrative construction might
be in this case, it is “inconsistent with the statutory
mandate,” ante, at 118, which is clear on the face of
the statute. Ante, at 112.
Worse, however, is the Court’s insistence that, to be
credited, an administrative practice must pay “'specif­
ic attention to the statutory authorization’" under
which an agency purports to operate. Ante, at 117,
quoting Adamo Wrecking Co. v. United States, 434 U.
S. 275, 287 n. 5 (1978). As my Brother STEVENS
noted in dissent in Adamo, see id., at 302, Norwegian
Nitrogen Co. v. United States, 288 U. S. 294 (1933)—
perhaps our leading case on the use of administrative
practice as a guide to statutory interpretation—says
not a word about attention to statutory authority. Nor
does it reduce the value of administrative practice to
its “persuasive effect” as the Court would apparently
do here. Instead, as I understand the case, Norwegian
Nitrogen
focuses
on
the
“contemporaneous
construction of a statute by the men charged with the
responsibility of setting its machinery in motion,” id.,
at 315, precisely because their action is itself evidence
of assumptions—perhaps unspoken by either the
administrators or Congress—brought to a regulatory
problem by all involved in its solution. Indeed,
common experience tells us that it is assumptions

App.378a

which everyone shares which often go unspoken
because their very obviousness negates the need to set
them out.
Therefore, while I do not dispute that well-reasoned
administrative opinions which pay scrupulous attention
to every jot and tittle of statutory language are more
persuasive than unexplained actions—and certainly
more in keeping with a norm of administrative action
that ought to be encouraged—I cannot dismiss, as the
Court apparently does, less well-reasoned, or even
unexplained, administrative actions as irrelevant to
the meaning of a statute.

MR. JUSTICE BLACKMUN, concurring in the judg­
ment.
I join the Court in its judgment, but I am less sure
than the Court is that the Congress has not granted
the Securities and Exchange Commission at least
some power to suspend trading in a nonexempt
security for successive 10-day periods despite the
absence of a new set of circumstances. The Congress’
awareness, recognition, and acceptance of the Com­
mission’s practice, see ante, at 119-120, nn. 9 and 10,
at the time of the 1964 amendments, blunts, it seems
to me, the original literal language of the statute. The
1975 Report of the Senate Banking Committee,
stating that the Commission was “expected to use”
§ 12 (j)’s amended suspension-of-registration provision
“in cases of extended duration,” ante, at 122, certainly
demands new circumspection of the Commission, but
I do not believe it wholly extinguished Congress’
acceptance of restrained use of successive 10-day
suspensions when an emergency situation is

App.379a

presented, as for instance, where the Commission is
unable adequately to inform the public of the existence
of a suspected market manipulation within a single
10-day period. Section 12 (j)’s suspension remedy pro­
vides no aid when a nonissuer has violated the
securities law, or where the security involved is not
registered, or in the interim period before notice and
an opportunity for a hearing can be provided and a
formal finding of misconduct made on the record.
Here, the Commission indulged in 37 suspension
orders, all but the last issued “quite bare of any
emergency findings,” to borrow Professor Loss’ phrase.
Beyond the opaque suggestion in an April 1975
Release, No. 11,383, that the Commission was awaiting
the “dissemination of information concerning
regulatory action by Canadian authorities,” share­
holders of CJL were given no hint why their securities
were to be made nonnegotiable for over a year. Until
April 22, 1976, see Release No. 12,361, the SEC pro­
vided no opportunity to shareholders to dispute the
factual premises of a suspension, and, in the absence
of any explanation by the Commission of the basis for
its suspension orders, such a right to comment would
be useless. As such, I conclude that the use of
suspension orders in this case exceeded the limits of
the Commission’s discretion. Given the 1975 amend­
ments, a year-long blockade of trading without
reasoned explanation of the supposed emergency or
opportunity for an interim hearing clearly exceeds
Congress’ intention.

App.380a

EXHIBIT 0-10
ADDENDUM TO THE AFFIDAVIT
VIRGINIA: IN THE CIRCUIT COURT FOR THE
CITY OF LYNCHBURG
SAMUEL H. SLOAN, administrator C.T.A. of
the Estate of LEROY B. SLOAN, deceased,
Plaintiff,
v.
ALMA DAWSON,
Defendant.
Comes now the plaintiff, Samuel H. Sloan,
administrator C.TA. of the Estate of LEROY B.
SLOAN, deceased, and, after being duly sworn, states:
1. This is an addendum to the affidavit previously
filed with this court dated about May, 1790 in opposi­
tion to the motion by the counsel for the estate, who
has recently become the law partner of the counsel for
the defendant, to withdraw as counsel of record in this
case.
2. The purpose of this affidavit is to present an
exhibit to this court, namely a copy of the letter of
resignation which purports to have been signed by my
father on January 16, 1986, three days before he died,
for the purpose of resigning his membership in the
Elk’s National Home in Bedford, Virginia.

App.381a

3. As I have mentioned in my previous affidavit,
my father had the life long plan of living out his
retirement years in the Elk’s National Home and it is
unthinkable that he could have ever resigned his
membership voluntarily.
4. Also included in the same exhibit is a copy of a
check number 915 drawn on my father’s bank account
in favor of Alma Dawson dated February 18, 1986. (I
am sorry for the poor condition of the photocopy, but
this is the condition in which it was given to me by the
bank.)
5. Looking at the check, it is important to note
the date and the signature. My father died on January
19, 1986. Therefore, he was in no condition to sign a
check on February 18, 1986. Also, this was not a
simple error in the date. The check was deposited at
Sovran Bank by Alma Dawson into her own bank
account on the same date, February 18, 1986, as the
stamps and the signature on the back of the check
demonstrate.
6. The inescapable fact is that Alma Dawson, the
defendant herein, forged my late father’s signature on
the check. Indeed, a few days later, the Sovran Bank
Branch Manager, Larry Crank, called Alma Dawson
into his office and she admitted the forgery. Because
she also had an account with Sovran Bank, he simply
deducted the funds from her bank account and
restored it to my late father’s account.
7. The enclosed photocopy shows only one of four
checks on the same bank account wherein Alma
Dawson forged my father’s signature after he had
already died. All four checks were handled by Larry
Crank in the same manner.

App.382a
8. Now look at the signature on the letter of
resignation from the Elk’s National Home. It can be
seen that the signature there is the same as the
forged signature on the check. What this proves is
that both were signed by the same person. Jr. other
words, Alma Dawson also signed the letter of resign­
ation to the Elk’s National Home.
9. In short, the truth is that my father never
resigned from the Elk’s National Home. Anybody who
knew my father will agree that he was very proud of his
membership in the Elk’s and would never dream of
resigning. '
10. What this in turn means is that my father
never voluntarily left the Elk’s and went off to live
with Alma Dawson. Rather, she was the one who
removed him from there in his incapacitated condition.
In this lawsuit, she is claiming the right to inherit
part of his estate. However, since she forged my
father’s signature on both the checks and the letter of
resignation it seems clear that she lacks a valid legal
claim.
11. By the way, these four checks were at that
time submitted to William G. Petty, the Lynchburg
Commonwealth Attorney, with a request that Alma
Dawson be prosecuted on a forgery charge. However,
the reality is that my father’s personal best friend was
Joe Oppleman, who was a long time political opponent
of Mr. Petty (who is an elected official) and for that
reason there was no snowball’s chance that Mr. Petty
would ever do anything to help my family. This also
explains the fact that to the contrary Mr. Petty has
been trying to have me and my mother arrested for
the past four years, after the Commonwealth Attorney
in Amherst County, which had actual jurisdiction over

App.383a

that other case (the Shamema case), declined to
prosecute.
12. Since the date of my father’s will, I have
changed my name to M. Ismail Sloan. As a result, I
sign my name both ways, at various times.
13.Further the affirmant sayeth not.
/s/ M. Ismail Sloan

App.384a

EXHIBIT 0-11
LEROY SLOAN RESIGNATION LETTER
(JANUARY 16, 1986)
Elks National Home
of the Benevolent and Protection Order of Elks
A Home Away from Home
Bedford, VA 24523-1399
Tel (703) 589-8292
William P. Pickett
Executive Director
Elks National Home
Bedford, VA 24523
Dear Brother Pickett:
This is to notify you that I wish to resign from the
Elks National Home as of this date, as I have married.
My new address Is P. 0. Box 2185, Lynchburg,
VA 24501.

Sincerely,
/s/ Leroy Sloan

App.385a

EXHIBIT 0-12
ORDER DENYING PETITION TO WITHDRAW
(JUNE 14, 1990)

Twenty-Fourth Judicial Circuit of Virginia
Commonwealth of Virginia
Cities of Lynchburg and Bedford
Counties of Amherst. Bedford,
Campbell and Nelson
Stephen C. Martin, Esq.
Martin & Nicks
P.O. Box 447
Amherst, Virginia 24521
Re: Leroy B. Sloan, etc. v. Alma Coates Dawson
(Sloan)
Dear Mr. Martin:
Your petition for leave to withdraw as counsel of
record due to conflict of interest in the captioned case
with notice and proposed order were received by the
Clerk on June 8, 1990, On November 7, 1988, the case
was stricken from the docket under Section 8.01-335
since there had been no order entered or proceeding in
the matter for a period of two years. Therefore, it
would be inappropriate to enter your proposed order.
Sincerely,
/s/ Mosbv G. Perrow III
Judge
MGP, III/vkh
cc: Donald G. Pendleton, Esq.

App.386a

EXHIBIT 0-13
MARTIN PETITION FOR LEAVE TO WITHDRAW
AS COUNSEL OF RECORD FOR SLOAN DUE
TO CONFLICT OF INTEREST

VIRGINIA: IN THE CIRCUIT COURT FOR THE
CITY OF LYNCHBURG
LEROY B. SLOAN, by his Administrator, c.t.a.
SAMUEL H. SLOAN,
Plaintiff,
v.
ALMA COATES DAWSON (SLOAN),
Defendant.
Comes now the undersigned attorney for Samuel
Sloan and in support of his Petition for Leave to With­
draw as Counsel of Record respectfully alleges as follows:
1. On May 23, 1986 Samuel H. Sloan, as admini­
strator, c.t.a. of the estate of Leroy B. Sloan, filed a
suit in the Circuit Court of the City of Lynchburg to
annul the marriage of Alma Dawson Sloan and Leroy
B. Sloan on the basis the marriage took place while
Leroy B. Sloan was seriously ill and mentally incapable
of knowing the consequences of the step he was taking
and that Alma Coates Dawson Sloan procured the
marriage by fraud, in order to obtain Leroy Sloan’s
assets.

App.387a

2. Since the filing of the aforesaid suit Samuel
Sloan has been out of the United States and, although
he has sent correspondence or made telephone contact
from various countries around the world, he has for all
practical purposes been out of communication with the
undersigned.
3. On January 1, 1989 the undersigned joined
the firm of Pendleton and Gamble and became a
partner of Donald G. Pendleton, the attorney of record
for Alma Coates Dawson Sloan, the defendant in the
aforesaid suit.
4. Because of the partnership with Donald G.
Pendleton the undersigned believes it would be a
conflict of interest to represent the estate of Leroy B.
Sloan in this matter.
5. The undersigned has sent a letter and a copy
of this Petition and Order to Samuel H. Sloan at his
last known address on April 24, 1990, a copy of which
is attached. Mr. Sloan has declined to agree to allow
the undersigned to be relieved as counsel of record and
has urged the undersigned to proceed with the case
even though he is a partner of Donald G. Pendleton
who has been counsel on various matters for Alma
Dawson (Sloan). A copy of the notice of hearing, this
petition, and order were then sent to Mr. Sloan by
certified mail.
WHEREFORE, the undersigned respectfully
requests that he be granted leave to withdraw as
counsel of record in this matter.
/s/ Stephen C. Martin
Counsel for Samuel Sloan

App.388a

EXHIBIT 0-14
NOTICE OF MARTIN PETITION TO WITHDRAW
AS COUNSEL OF RECORD FOR SLOAN

VIRGINIA: IN THE CIRCUIT COURT FOR THE
CITY OF LYNCHBURG
LEROY B. SLOAN, by his Administrator, c.t.a.
SAMUEL H. SLOAN,
Plaintiff,
v.
ALMA COATES DAWSON (SLOAN),
Defendant.
To: M. Ismail Sloan
a/k/a SAMUEL H. SLOAN
P.O. Box 11829
Fujeirah, United Arab Emirates
PLEASE TAKE Notice that the attached Petition
for Leave to Withdraw as Counsel of Record in the
above-captioned matte will be presented to the Circuit
Court of the City of Lynchburg on July 25, 1990 at
9:00 a.m. for entry. You are invited to attend and
present any objections which you may have.
/s/ Stephen C. Martin________
Attorney of record for Plaintiff

App.389a
EXHIBIT P
SLOAN’S COMPLAINT AGAINST
PHONE CONVERSATION BETWEEN
JUDGE GLEN AND JUDGE JANOW
(SEPTEMBER 4, 1986)
Exhibit P
Sloan complains to New York State Commission
on Judicial Conduct about phone conversation between
Judge Glen of the New York State Supreme Court and
Judge Larry Janow of the Amherst County J & D Court
on September 4, 1986

App.390a

COMPLAINT
(NOVEMBER 18, 2005)
New York State Commission on Judicial Conduct
Complaint Form — Confidential
Download, complete and mail this form to the
Commission office nearest you:
61 Broadway, New York, NY 10006
38-40 State Street, Albany, NY 12207
400 Andrews Street, Rochester, NY 14604
The law requires that complaints to the Commission
be in writing and signed by the complainant. (See
Section 44.1 of the Judiciary Law of the State of New
York.) A complaint does not have to be sworn or
notarized. You may submit a complaint by letter or by
using this complaint form. If you submit a letter,
please include the kind of information requested by
this form.
Background Information
November 18, 2005
Today’s Date:
Your Name:
Samuel H. Sloan
Address:
1664 Davidson Avenue. Apt. 10
Bronx NY 10453
Home Phone:
917-507-7226
Business Phone: 347-869-2465
Are you represented by a lawyer? No
Complaint Information
Judge’s Name:
Judge’s Court:
County:
Date(s) of Incident(s):

Kristin Booth Glen
Supreme Court
New York
September 4, 1986

App.391a

Details of Complaint:
Below and on the back of this sheet, describe the
alleged misconduct. Include as much detailed
information as possible, such as what happened,
where and when; the names of witnesses; who said
what to whom, and in what tone of voice; etc. Use addi­
tional sheets if necessary.
Notarized Affidavit detailing the alleged misconduct
is on the attached sheets

Complainant’s Signature:
/s/ Samuel H. Sloan

STATE OF NEW YORK)
COUNTY OF BRONX
1. I hereby request that disciplinary proceedings
be brought against Judge Kristin Booth Glen. Although
the incident in question occurred 19 years ago, Judge
Glen has just been elected to the position of New York
Surrogate. I believe that Judge Glen’s misconduct in
September 1986 was more than mere misconduct. It
was a crime for which Judge Glen should be punished
with some years in prison. Because of the actions of
Judge Glen, I was prevented from seeing two of my
children until they became adults, and I was forced to
flee the country with my mother and my one remaining
child, because Judge Glen was in league with a gang
of kidnappers who were trying to kidnap my daughter
and my mother.
2. I believe that Judge Glen should not be allowed
to take public office as a New York Surrogate. She is

App.392a

clearly disqualified from assuming such an important
and powerful position. Accordingly, I request an
immediate hearing and disposition of this matter,
prior to January 1, 2006, the date when Judge Glen is
scheduled to take office.
3. The cases are Sloan vs. Sloan, 36654/1980 and
Sloan vs. Sloan, 8485/1986, Supreme Court, New York
County. Until yesterday, the original court file on
Sloan vs. Sloan, 36654/1980 was scheduled for
destruction. I was able to get the Clerk of New York
County to have the case file brought back from
Philadelphia, where it was being microfilmed as a
preliminary to the shredding of the file. I reviewed the
file yesterday and copied the attached order signed by
Judge Glen. I request that the New York State
Commission on Judicial Conduct take control of the
original file, to safeguard against it being shredded.
4. This case was pending before Judge Kristin
Booth Glen from April to September, 1986. Attached
hereto is the only order Judge Glen ever signed in the
case. It states:
“I am recusing myself from this hearing and
motion & case because it would be inappropriate to sit
as a judge for the support and visitation hearings
involving Mr. Sloan when I took some part in his
arrest in this courtroom on September 4, 1986. I
believe it would not be fair to Mr. Sloan to have the
same judge who witnessed his arrest for custodial
interference, also decide the pending visitation issues.
Accordingly this action is referred to IAS Trial Support
Office for reassignment to another IAS Part.”
KBG

App.393a

5. The above court order greatly misrepresents
what really happened. What really happened was that
Judge Glen herself called the New York City Police
and told them to arrest me. She said that she had done
this on the basis of a telephone call she said that she
had just received from “Judge Larry Janow” of Amherst,
Virginia. I was arrested and taken to the police station
on Elizabeth Street in Chinatown, but I was released
only two hours later when the police discovered that I
had committed no crime, there was no warrant for my
arrest and they had no grounds to hold me. I immediately
returned to the courthouse on 60 Centre Street and
went to Judge Glen’s courtroom, hoping to get the
hearing which Judge Glen had repeatedly postponed
since April. I arrived back in Judge Glen’s courtroom
before 4:00 PM, but Judge Glen had already gone for
the day and her courtroom was empty.
6. I realized that I was dealing with crazy,
lunatic, mentally disturbed judges and that I dare not
return to her courtroom, as I would not only not get
my two children back, but I would lose my one
remaining child, Shamema. This left me with no
choice but to flee the country with my one remaining
child, Shamema, age 4. I had to abandon all hope of
seeing my daughter Mary again and to this day, 19
years later, I have never seen her again, although I
am talking to my other child, Peter, on the phone right
now while I am typing this.
7. The actions of Judge Glen including receiving
a telephone call about me while a hearing was taking
place and then on the basis of this telephone call
calling to police and having me arrested was a clear
violation of numerous provisions of the Code of
Judicial Conduct including Section 100.3 (B) (6) of

App.394a

that code, and of the Rules of the Appellate Division,
First Department (22 NYCRR §§ 701.2[a], [c], 701.4)
(“First Department Rules”); and Judge Glen should be
disciplined for cause, pursuant to Article 6, Section 22,
subdivision a, of the New York State Constitution and
Section 44, subdivision 1, of the Judiciary Law. She
should not be allowed to take office as New York
Surrogate.
8. The Canons of Judicial Conduct, 22 NYCRR
100.3 (B) (6), provide:
A judge shall accord to every person who has
a legal interest in a proceeding, or that
person’s lawyer, the right to be heard
according to law. A judge shall not initiate,
permit, or consider ex parte communications,
or consider other communications made to
the judge outside the presence of the parties
concerning a pending or impending proceeding
9. Obviously, Judge Glen did more than merely
“consider” communications made ex-parte. She actually
ordered me to be arrested in the basis of what she had
heard on the telephone and she cancelled a hearing
which had been pending since April, 1986.
10. Common sense should have dictated that
Judge Glen not call the police and have me arrested.
Rather than call Judge Glen, the caller could have
called 911. Anybody can call the police. There are
police officers all over the courthouse. The fact that I
had not committed an arrestable offense should have
been evident.
11. As background as to how this case came
before Judge Glen, in 1981 there was a two day trial
before Supreme Court Judge Alfred Ascione. At that

App.395a

time, counsel for my ex-wife was the Law Firm of
Parker Duryee. (As an aside, I have recently learned
that Parker Duryee was a man who was a close
associate and blood a relative of a railroad tycoon
named Sam Sloan, who was one of the richest men in
America. I believe that Parker Duryee thought that I
was a descendant of that Sam Sloan and that I had a
lot of money. That law firm certainly spent an extra­
ordinary amount of time and effort litigating this case,
and this produced a voluminous case file which I am
asking this body to review.)
12. When Parker Duryee finally realized that I
had no money, they dropped the case. In 1982, my exwife remarried and moved, leaving no forwarding
address. For the next three years I was unable to
locate my children. I finally found them in 1985 when
I found Anda’s name in a parking violations computer
in the Kings County Supreme Courthouse. Judge
Ascione had awarded me two hours weekly visitation
with my children, Peter and Mary, which I had been
unable to exercise because I did not know where they
were. Thereafter, Anda did allow me to visit the
children five times in 1985, but then cut off visitation
again. As a result, I filed a petition in Brooklyn Family
Court to enforce my visitation rights.
13. On the scheduled hearing date in Brooklyn
Family Court, my ex-wife Anda arrived with her new
attorney, Walter Anderocci. While waiting for my case
to be called, Anderocci called the police, who arrested
me. This was obviously a tactic to stop the hearing
from taking place. I was put in a police van and trans­
ported to Manhattan Supreme Court, where I was
brought before Judge Schackman in case number
36654/1980. Judge Schackman eventually ordered my

App.396a

release. I asked that he hear the underlying question
of Anda’s violation of the order of Judge Ascione by
denying my visitation rights, but Judge Schackman
then disqualified himself from hearing my case.
14. I rushed back to Brooklyn Family Court, but
they said that my case there had been dismissed due
to my non-appearance when the case had been called,
as I had been in jail.
15. On April 14, 1986, filed a habeas corpus
petition in Brooklyn Supreme Court, Sloan vs. Sloan,
Index No. 8864/1986. My petition was signed and a
hearing was held before Judge Kron. I testified at the
hearing but the judge told me that I should try to get
along with my ex-wife. An observer in the courtroom
stated that the judge had handled the highly contentious
matter “with aplomb”, but I found Judge Kron’s state­
ment to be ridiculous and stupid, because I was trying
my best to get along with my ex-wife; but she was
obviously not willing to get along with me. She had
violated the writ of habeas corpus by not bringing the
children to court as required by the order and she has
expressed no willingness to allow me visitation with
the children. Nevertheless, Judge Kron dismissed my
petition.
16. The reason I had filed these habeas corpus
cases in Brooklyn was that my ex-wife Anda was now
living in Brooklyn with my children, Peter and Mary.
After Judge Kron dismissed my petition there, I filed
another habeas corpus petition in Manhattan Supreme
Court where Judge Ascione had ordered that I have
two hours weekly visitation. The name of this new
case was Sloan vs. Sloan, Index No. 8485/1986. It was
assigned to Judge Kristin Booth Glen, who was
handling matrimonial cases at the time.

App.397a

17. Although my habeas corpus petition, which I
am requesting that you review, described in horrifying
detail not only the fact that my ex-wife was contumacious
in refusal to comply with the order of Judge Ascione,
but also the fact that she was abusing and neglecting
the children, Judge Glen refused to sign my habeas
corpus petition. This is another grounds for this
complaint to the New York State Commission on
Judicial Conduct, because under the circumstances of
this case and under CPLR 7003 Judge Glen was
required by law to sign such a petition.
18. Instead, Judge Glen scheduled a hearing in
Case no. 36654/1980 and at the first hearing, Judge
Preston Booth Glen ordered both Anda and I to submit
to psychological testing and evaluation. This was
ridiculous because I had already been awarded two
hours weekly visitation with the children and there
was no dispute about the fact that Anda was refusing
to comply with the court order. Therefore, there was
nothing to be done except either hold Anda in contempt,
or give me custody of the children or possibly admonish
her and give her another chance to comply. Instead,
by ordering psychological testing, Judge Glen was
reopening the entire matter of giving me visitation
with the children. She did this even though Anda’s
attorney had not moved for a change in visitation.
Please check the court file and you will find that
Anda’s counsel filed nothing, zero, in writing.
19. Judge Glen referred this matter to Martha
Petluka of the Office of Family Services in the
Supreme Court Building. (That office ceased to exist
when Mrs. Petluka retired a few years later.) Mrs.
Petluka required us both to hire a psychologist named
Dr. Richard Bennett, who would evaluate us. The fee

App.398a
we were required to pay was one thousand dollars
each in advance.
20. Dr. Bennett arranged to see me with my
children, Peter and Mary, in his office on August 6,
1986. This was to prove to be a significant date
because I brought to this meeting my other daughter,
Shamema, who I had been raising as a single parent
after Shamema’s mother, Honzagool, had gone back to
her native Pakistan when Shamema was only nine
months old and had never returned. By bringing
Shamema to this meeting with Peter and Mary, the
three half-brothers and sisters got to meet each other
for the first time. All three children vividly remember
this event to this day, even though they were only 7, 6
and 4 years old at the time. They were never to see
each other again until they were adults, when they got
back together.
21. However, it was because of this meeting in
the office of Dr. Richard Bennett on August 6, 1986
that the proverbial s hit the fan and all h broke loose
because when I brought my daughter, Shamema, back
to Virginia that evening I received a call from my
attorney in Virginia, Steve Martin, who informed me
that both Anda in New York and Shelby Roberts, the
baby sitter I had hired in Virginia to take care of
Shamema in the absence of her mother, were enraged
and angry that I had introduced the brothers and
sisters to each other. I was astounded by this
development because I had not told either of them or
indeed anybody at all, not my lawyer, not anybody,
that I was taking Shamema to New York to meet her
brother and sister. This entire operation had been con­
ducted in top secrecy. Also, as far as I knew, Anda and
Shelby Roberts did not know about each other and did

App.399a

not even know that the other person existed. I now
realized that Anda and Shelby were in contact with
each other, which was extremely upsetting because I
had hidden Shamema with Shelby Roberts for the ex­
press purpose of hiding and protecting Shamema from
Anda, because Anda had invited to her home a man
named Raja Eshan Aziz who wanted to kidnap
Shamema and take her to Pakistan. Raja Eshan Aziz
was a close associate of Khalid Shaikh Mohammed
who was later named the mastermind of the World
Trade Center Bombing. Honzagool, the mother of
Shamema, had been married to the brother of Raja
Ehsan Aziz after her return to Pakistan.
22. Because I now realized that Anda and Shelby
Roberts were in contact with each other, I did not
bring Shamema to court with me on September 4,
1986, because I was apprehensive that something
would happen. My fears were proven justified. Instead,
I hid Shamema with my friend Sayed Durali Shah in
Far Rockaway, Queens, New York and his wife and
eight children there. My daughter still vividly remem­
bers being left with that family on that day, even
though she was only four years old at the time.
Shamema was upset that my mother and I did not
take her with us on that day and cried all day long
until we returned. I have often stated that if the arrest
ordered by Judge Kristin Booth Glen on September 4,
1986 had held up, I would never have revealed the
location of Shamema and that Sayed Durali Shah,
who I had met in Afghanistan, would have protected
Shamema in the Afghan tradition and raised her to
adulthood.
23. My fears proved to be well founded, as Judge
Kristin Booth Glen stated in open court on September

App.400a

4, 1986 that if I had brought my child to court on that
day she was going to have the child detained and sent
to Virginia, where without my knowledge Charles and
Shelby Roberts had filed a custody petition on August
27, 1986, one week earlier.
24. I have explained this background so that you
can understand that the situation was so severe that
it became necessary for me and my mother to flee the
country to get away from Judge Kristin Booth Glen.
My daughter has since grown up and joined the
United States Marines. I have often told her that if I
had not left her with Sayed Durali Shah and his eight
children on that fateful day, Shamema still would
have fought the War in Afghanistan. The only difference
would have been that instead of fighting on our side,
she would have been fighting on the other side, as her
mother is an ethnic Afghan.
25. The main point here is that by accepting a
telephone call in the middle of a scheduled hearing on
September 4, 1986 and then by calling the police and
ordering them to arrest me, Judge Kristin Booth Glen
placed the entire lives of my family in jeopardy. Of
course, I realize that Judge Kristin Booth Glen could
not possibly have known that by her actions she could
be delivering my daughter, Shamema, into the hands
of the man since named as the mastermind of the
attack on the World Trade Center on 9-11. However,
Judge Kristin Booth Glen certainly did know that she
was engaging in an outrageous violation of the Code
of Judicial Conduct by accepting a telephone call from
anybody while a hearing before her was in progress
and then calling the police and telling them to arrest
me. This violation is so serious that Judge Kristin
Booth Glen should be removed as a judge and not

App.401a

allowed to take office as New York Surrogate on
January 1, 2006.
26. I have learned that Judge Glen got on the
ballot by surviving a close and hard-fought primary
contest in which she narrowly defeated her opponent
by just a few votes. Several other persons made
charges of misconduct against Judge Glen at that
time, but they were apparently ignored by the voters.
I wish to point out and emphasize that I was not
involved in any political way in that election. I know
nothing of her adversary. I did not even know that
Judge Glen was running until after the primary was
over. If I had known, I would certainly have gone out
and campaigned heavily against her as did several
other former litigants who had been maltreated by
Judge Glen.
27. The date was September 4, 1986, a date I
remember well because of the events which changed
the lives of my family and especially my children on
that date.
28. On that date a final hearing had been
scheduled for the custody of my two children, Peter
and Mary, in the New York Supreme Court at 60
Centre Street. My ex-wife Anda had been refusing for
more than a year to comply with a court order giving
me two hours of weekly visitation with my children,
since she had remarried. I had filed several petitions
for habeas corpus with respect to these children. In
violation of CPLR 7003, Judge Glen had refused to
sign the petition. She had postponed the matter
several times over a period of months. She had
ordered me and my ex-wife to submit to examination
by a psychologist, Dr. Bennett, who had charged us
each $1000. Dr. Bennett was supposed to have his

App.402a

report ready in time for the hearing, which was
scheduled for September 4, 1986.
29. I brought my mother, Dr. Marjorie Sloan,
who was an eminent and distinguished child psych­
iatrist, with me to the hearing. When the case was
called, the attorney for Anda, Walter Anderocci,
stated and indeed insisted that he needed urgently to
speak in private to the judge.
30. Judge Glen refused to agree to this. When
Anderocci persisted, Judge Glen told him that she
found his conduct objectionable.
31. At about that time, the clerk informed the
judge that she had received a telephone call. Judge
Glen went back into chambers to receive this call.
When she returned some time later, she stated that
she had received a call from “Judge Larry Janow” in
Virginia. Judge Janow had stated that he was the
judge in the case of the custody of another of my
children, Shamema, aged 4. Charles and Shelby
Roberts, who were unrelated to the child, had filed a
petition for the custody of the child. Judge Janow
wanted the child removed to Virginia. Judge Glen had
stated that she had seen me with a four year old child
when I had come to her courtroom to check on the
status of the case the previous day. Judge Glen had
concluded that this was the same child that Judge
Janow wanted. Therefore, Judge Glen had called the
police and ordered my arrest. As a result, she was dis­
qualifying herself from the case.
32. As Judge Glen was explaining all this, I
turned around and found several New York City
Police Officers standing behind me. Walter Anderocci
stated that he had arranged for my mother to be

App.403a

transported to my brother, Creighton’s, house in
North Carolina. My mother replied sharply that she
wanted nothing to do with Creighton. She preferred to
go to jail with me, she said. With that, the New York
City Police Officers carted us off to the Police Station
on Elizabeth Street in Chinatown and locked us up in
jail.
33. Only about two hours later, however, the
police unlocked the doors to the jail cells and let us
out. They stated that they had been on the phone with
the Commonwealth Attorney in Amherst County,
Virginia and had learned that there was no warrant
for our arrest and that Charles and Shelby Roberts
did not have legal custody of my daughter. They also
said that the silly assed judge had no right to order us
arrested and her order meant nothing. Therefore, they
were letting us go. They specifically referred to Judge
Kristin Booth Glen as a “silly assed judge”. That was
their exact words.
34. My mother and I immediately went back to
the same courtroom where we had been arrested a few
hours earlier. It was not yet 4:00 PM and I was still
hoping to get the hearing that had been delayed for
nearly a year for custody or visitation with my two
children, Peter and Mary Sloan. However, Judge
Kirstin Booth Glen had left the courthouse. The
courtroom was empty.
35. What Judge Glen did was plainly illegal.
Because of what Judge Glen did, I realized that the
situation was unsafe for me, my mother and my
daughter. Judge Janow had not told Judge Glen that
Charles and Shelby Roberts had only filed for custody
on August 27, 1986, one week earlier. No hearing had
been held on the matter. There was no jurisdiction in

App.404a

Virginia because neither the child nor either of the
parents of the child had been in Virginia since the
time of filing. The mother of the child was in Pakistan
and I, the father of the child, was in New York. In any
event, the courts of Virginia had no jurisdiction
because the custody of the child had already been
decided by Judge Anthony Mercorella of the Bronx
Supreme Court in Sloan vs. Awadallah, 17815/1981.
Virginia had no jurisdiction to modify this award.
36. Had I been allowed to speak, I could have
addressed these issues and demonstrated that what I
was saying was factually correct. However, Judge
Kristin Booth Glen had given me no opportunity to
say anything. Based on nothing more than a telephone
call from a person she did not know, she had called the
police and ordered my arrest. She had also cancelled
the custody hearing which had been pending for
nearly a year.
37. Realizing that both Judge Glen and Judge
Janow were acting crazily, it was clear that my family
was in imminent danger. Therefore, my mother decided
that she had no choice but to flee the country. I agreed
to go with her, as I had already been scheduled to go
to Argentina as the chess trainer and manager for the
Polgar Sisters. My mother had never had a passport
in her life, because she had been born in a rural area
of Iowa in 1910 and no birth certificate had ever been
issued for her. Nevertheless, she managed to convince
the US Passport Office in Rockefeller Center to issue
a passport for her and off we went to Rio Gallegos,
Argentina.
38. Soon thereafter, we discovered that my brother
Creighton had frozen all the bank accounts of our
mother and had cancelled her credit cards, so she had

App.405a

no funds to travel on or to live on. I soon figured out
what should have been obvious all along that Creighton
was the mastermind of this entire plot. Creighton had
known both Anda and Charles and Shelby Roberts
and had introduced them to each other. That is how
Judge Janow in Virginia had known that a custody
hearing had been scheduled with respect to my other
children in New York in September 4, 1986.
39. We soon became aware that Charles and
Shelby Roberts were feverously trying to kidnap my
daughter Shamema and Creighton was trying to
kidnap his own mother. My mother, my daughter and
I became vagabonds traveling from country to country
without funds. Went to Argentina, Brazil, Paraguay,
Spain, France, Austria and Hungary. Eventually, we
reached Dubai, United Arab Emirates, where I got a
job working as a journalist for a newspaper, the Gulf
News. I earned enough money that we were able to
survive until I was able to open a computer business
there.
40. Exactly four years later, on September 3,
1990, Creighton finally succeeded in having his mother
kidnapped in Bangkok, Thailand and brought back to
America, where he had her locked up until she died 12
years later, in 2002. Creighton looted her bank
accounts, stealing more than one million dollars in her
funds. Shamema was kidnapped on October 7, 1990 in
Fujairah, United Arab Emirates and was brought to
Virginia where she was held prisoner by the Roberts
for ten years until she became of legal age, when she
joined the US Marines, and went to fight in Iraq.
41. My children, Peter and Mary Sloan, who
were the subject of the custody proceeding that was
supposed to have been heard on September 4, 1986,

App.406a

never got to see their father again. My daughter Mary,
who is now 26, refuses to See me because she believes
that I abandoned her when she was a child. She thinks
that I just stopped coming to see her. She does not
realize that her mother cancelled all visitation when
she remarried and that I went to court more than 50
times and filed three habeas corpus petitions and two
family court proceedings all in a fruitless attempt to
see her.
42. My son Peter recently established contact
with me because he has become a chess master and
sees me at chess tournaments. At the same time, he
had no contact with his father at all from 1982 until
he became an adult, except for a few visits that were
allowed in 1985.
43. My children have suffered problems because
of having no father. In spite of bring bright and
talented, scoring in the 99 percentile on standardized
tests, they have a history of failure and near failure in
school and being left back. They both have serious
problems which they might not have had it not been
for the actions of Judge Kristin Booth Glen.
44. The actions of Judge Glen were illegal. If
there were valid grounds for having me arrested,
Judge Janow could simply have contacted the police
in Virginia where he was a judge and the police could
then have contacted the New York City Police who
would then have come to the courtroom and arrested
me. This is obvious. Accordingly, Judge Glen should
have realized that the call was bogus. Judge Glen
simply had no right to call the police and have me and
my mother arrested.

App.407a

45. CPLR 7003 © provides for penalties for this
violation.
07OO3. (c) Penalty for violation. For a violation
of this section in refusing to issue the writ, a
judge, or, if the petition was made to a court,
each member of the court who assents to the
violation, forfeits to the person detained one
thousand dollars, to be recovered by an
action in his name or in the name of the
petitioner to his use.
46. The actions of Judge Kristin Booth Glen on
September 4, 1986 have had a devastating impact on
my life and the lives of my children and they were
illegal. Accordingly, Judge Glen should be removed as
a judge, disbarred from the practice of law and not be
allowed to take office as New York Surrogate on
January 1, 2006.
WHEREFORE, I hereby request and prey that
Judge Kristin Booth Glen be removed as a judge, dis­
barred from the practice of law and not be allowed to
take office as New York Surrogate on January 1, 2006.
/s/ Samuel H. Sloan______________
1664 Davidson Avenue, Apt. IB
Bronx NY 10453
samsloan@samsloan.com
http://www.samsloan.com/notoglen.htm
917-507-7226
347-869-2465
/s/ Samuel H. Sloan

App.408a

/s/ Kayo Kimura_________________
Notary Public, State of New York
No. 01KI6112896
Qualified in Kings County
Commission Expires July 12, 2008
New York, New York 10022

|
*Xf>.

111
m
yf:

n • i -

t

k

mmm
rfej

fnmfmwri:X

fcfafc: WttoMTt^U., XkttaSMBtiL___ -ifrfTnrt

TianWi

: S
r’ I

?/Wz6

C0tt*yCMfrNo.
f f—

L-*

App.409a

Vi
,a>.

f

!

i

iI

i

?

b

A

Ih 1
in
00

s
g
Q

§'

i'4

Vi

je

3
i
k

i£

3

i

z

li
^

1 «»:«
.J .'i *!l§ i i i J l"i

;
I

App.410a
EXHIBIT Q
SLOAN’S COMPLAINT ABOUT MISCONDUCT OF
JUDGE GAMBLE AND JANOW
(FEBRUARY 3, 1991)
Exhibit Q
Sloan complains to the Virginia Judicial Inquiry
and Review Commission about the misconduct of
Judge Gamble and Judge Janow.

App.411a

COMPLAINT REGARDING
JUDGE LAWRENCE JANOW
M. Ismail Sloan
917 Old Trent’s Ferry Road
Lynchburg, VA 24503
Tel: (804) 384-6862
Reno Harp III
Judicial Inquiry and Review Commission
P.O. Box 367
Richmond, VA 23203
Re: Judge Lawrence Janow Amherst County Juvenile
and Domestic Relations Court
Dear Mr. Harp:
I wish to make a complaint regarding Judge
Lawrence Janow of the Amherst County Juvenile and
Domestic Relations Court.
My complaint is so long and difficult to explain
that it is impossible to summarize the matter in a few
pages. Let me say, however, that I have a friend who
is a lawyer in Virginia who has been watching this
case from the sidelines over the past five years and
who told me recently that he has never seen or heard
of a case which is more suitable for inquiry by the
Judicial Inquiry and Review Commission.
The basic fact is that Judge Lawrence Janow and
I have been personal enemies for many years. His per­
sonal hostility towards me has long been well known.
Now, for the past five years, he has been attacking me
and my family relentlessly, trying to decimate and
destroy my family life and trying to kidnap my
children and have them all given away for adoption.

App.412a

Because of this, my family was forced to flee from the
United States in 1986. Subsequently, after four years
of constant effort, Judge Janow succeeded in having
my entire family kidnapped in Thailand and the
United Arab Emirates and brought back here in
September and October, 1990. More than that, only
this past Friday, January 25, he had the police pick
up my wife and my two-year-old daughter and remove
them from my home. My wife, believing that Judge
Janow intends to take her baby for adoption as well,
has, as a result, fled the State of Virginia and has
absconded to parts unknown.
While all this has been going on, Judge Janow
has not had proper jurisdiction over any case involving
me or my family. In the first place, we have never in
our lives resided in Amherst County. The only connection
I have ever had with Amherst County is that in 1982
I hired a woman to work as a baby sitter to take care
of my then eight month old daughter, Shamema
Sloan. That baby-sitter resides in Amherst County.
Although she was fully paid for her services as a baby
sitter, she has, now, more than eight years later,
kidnapped the child that she was hired to take care of.
She wants to be able to keep this child for adoption.
The woman in question is named Shelby Roberts.
She is an obese lady, is 52 years old and weighs 260
pounds. She happens to be a neighbor of the former
secretary of Judge Janow, which is how he came to
know about this case. She is also a fanatical follower
of Jerry Falwell.
Since I know that Judge Janow is, himself, not a
follower of Jerry Falwell, it has long been a mystery
to me why he is determined to such a fanatical degree
to kidnap my children and have them given away for

App.413a

adoption. I must mention here that I have six children
plus possibly one more on the way, so when Judge
Janow undertakes to kidnap all my children, this is
not only a major for undertaking for him but also a
serious threat to me.
One discovery that I have made in this regard is
that Judge Janow has adopted his own children. I
enclose a copy of an order in which Judge Janow
adopted a child now to be known as “Patrick Scott
Welch Janow”. The remarkable thing about this order
is that every lawyer and judge whose name is mentioned
in this order is in some way involved in this case. At
that time, Judge Janow was a partner in the law firm
of Pendleton, Janow and Gamble. Gamble is the
lawyer whom I originally hired to represent me in this
case, but he quickly withdrew and returned my
retainer fee, citing a conflict of interest. Pendleton is
the lawyer who represents a woman who claims to
have married my father in the emergency room of the
Lynchburg General Hospital just before he died and is
suing for her “widow’s share” of my father’s estate.
You may recall this case, because it was widely
publicized in the newspapers and on television in 1986
when it occurred.
Don Pendleton was heavily involved in trying to
gain control over my father’s assets during the last 19
days of my father’s life. My father died on January 19,
1986 and Judge Janow started getting involved in
trying to steal my own children on January 13, 1986,
so you can see that these two events occurred at
almost exactly the same time.
I must mention here that Judge Janow has a
history of doing things like this. There have been
numerous scandals reported in the newspapers

App.414a

regarding Judge Janow. A few years back, there was
a case of two 17-year-old murderers who were let out
on bail by Judge Janow, much to the outrage of the
community. It turned out that Judge Janow was a
close family friend of the murderers and had represented
them in legal matters before he became a judge.
I have found out that Judge Janow has a terrible
reputation in Amherst County. Judge Janow is hated
by so many people there that it becomes impossible to
determine whether some of these stories about Judge
Janow are based upon fact, or whether they are
merely being spread by those who simply don’t like
him.
For example, it is being said that Judge Janow is
a notorious womanizer and that he has often been
known to beat and mistreat women. I am told that his
first wife divorced him when she caught him in bed
with another woman. (That first wife, if my information
is correct, was the daughter of one of the most
prominent people in Amherst County. Naturally, I
will not mention her name here.) One of my informants
who is a 62 year old man who has lived his entire life
in Lynchburg, remembers Judge Janow as a youthful
offender. He sums it up simply by saying that,
“Lawrence Janow is bad when it comes to women.”
Again, I cannot tell you whether any of these
rumors are true or not. The difficulty is increased by
the fact many of the events in question appear to have
occurred years ago and few people have been in the
area long enough to remember him. At the same time,
I can assure you that I am not making all this up. This
is, in fact, the reputation of Judge Janow in Amherst
County. It seems obvious to me that if a man has a
reputation of being a “notorious womanizer”, he

App.415a

should especially not be a judge of Juvenile and
Domestic relations court. That particular job places
him in the position of being the judge over the lives of
numerous young women with children who are having
trouble with their present or former husbands and
who need help from a judge. The potential for abuse
in such a situation by the judge himself is obvious. As
mentioned previously, my own wife is terrified of
Judge Janow and has left the State of Virginia just to
get away from him.
Getting down to the particular facts of my own
case, my wife, whose name is Vithanage Santhilatha,
just arrived in America with our daughter, Jessica, on
October 9, 1990, which is less than four months ago.
Almost immediately, she was tricked by Frank Davidson
III, the lawyer for Charles and Shelby Roberts, who
are trying to adopt my daughter, Shamema Sloan,
into filing a custody suit against me before Judge
Janow. This occurred on October 23, 1990, just two
weeks after their arrival in the United States.
As I am sure that you know, both the Virginia
Uniform Child Custody Act and the Federal Parental
Kidnapping Act provide that a child must in a state
for at least six months before a petition for the custody
of the child can be filed in that state. Santhilatha and
Jessica were never residents of Amherst County at all.
They were just passing through. They never intended
to stay there for any extended period. Santhilatha,
who is from Sri Lanka, had just come to the United
States on a six months tourist visa.
I know well the devious strategies and tricks of
Frank Davidson III, so I immediately understood
what was at the bottom of this custody petition. Frank
Davidson III is an attorney who specializes in adoptions.

App.416a
He, like Judge Janow, has adopted his own children.
He likes to steal children from their parents and give
them to others for a high legal fee. That is how he
came to represent Charles and Shelby Roberts.
His general legal strategy is to get a natural
parent to file a custody petition and then to get his
own clients to intervene as third parties and try to
take away the child. I am not exactly sure why he does
it this way but I suppose that the reason must be that
a third party might find it difficult to file a custody
suit directly but might find it more easy to intervene
in a suit filed by a natural parent
Thus, when confronted with a suit filed for the
custody of Jessica by Frank Davidson III, I realized
immediately what he was up to. You must understand
that Santhilatha and I are on the best of terms. She
calls me every day and I was the one who obtained the
tourist visa for her to come to America. She had,
actually, no reason to file a suit against me for the
custody of Jessica.
When I asked her about this, she told me that,
sure enough, Frank Davidson III had been coming
frequently to the house where she was staying, had
expressed a special interest in Jessica, had often
played with Jessica and had even asked permission on
numerous occasions take Jessica out on a ride alone
with him in his car.
In spite of not knowing what kind of man Frank
G. Davidson III was, Santhilatha had been instinctively
afraid of him. She had allowed him as her lawyer to
play with Jessica but had refused to allow him to take
her for a ride in his car. In reality, Frank Davidson III
is not a known child molester (which is what someone

App.417a

else might be thinking, based upon these facts).
Rather, he is a man who likes to adopt children. He
was clearly testing Santhilatha, to see how far she
would let him go. Otherwise, what would a man aged
around 45 being doing with such an interest in playing
with a two year old girl?
This explains why Judge Janow and Frank
Davidson III are targeting me and my family. I am
apparently capable of producing children who are
highly intelligent, good looking and, in the case of
Shamema, gifted. I am able to do this in spite of the
extremely poor quality and somewhat backward nature
of the mothers. (Both Santhilatha, the mother of
Jessica, and Honzagool, the mother of Shamema, are
completely illiterate, even in their own native
languages). On the other hand, both Frank Davidson
III and Judge Janow are either incapable of or else are
too lazy to produce their own children, so they have
been trying to steal my children instead.
Getting back to the case of Jessica and Santhilatha,
after the custody petition was filed on October 23,
1990, Judge Janow entered an order dated December
19, 1990 in which Santhilatha and I were enjoined
from contacting each other. Santhilatha contacted me
and told me that she was quite happy about this. She
simply did not know the nefarious methods of Judge
Janow. Her exact words to me were “I won the case.”
What she did not understand was that this was just
going to be the first step towards losing her daughter.
Santhilatha and Jessica were dependent upon me for
financial support. The plan of Judge Janow and of
Frank Davidson III was to cut me off from supporting
my children thereby leaving the children homeless

App.418a

and destitute, in which case the state would take the
children and they would be given away for adoption.
Not only did I try to explain this to Santhilatha
but I filed a federal complaint on December 17, 1990
against Frank Davidson III and Judge Janow for
doing exactly this. A copy of this federal complaint is
enclosed. Incidentally, after filing such a federal case
against a judge, one would imagine that normally the
judge would withdraw and disqualify himself from the
case. However, I knew in advance that there was no
chance of Judge Janow doing that, because if he does
that then he will have to give up his plans of stealing
all of my children.
So far, I have sued Judge Janow three time and
my mother once. Each of these suits has alleged that
he is either attempting to kidnap or else has already
kidnapped one of my children. Still, he remains as the
judge on my cases. (Several collateral cases filed
before other judges, but all of those other judges
ultimately found those cases to be meritless and dis­
missed them. There is now no case against me any­
where in the entire world, except for the cases before
Judge Janow).
After Judge Janow entered his order dated
December 19, 1990, things continued fairly normally
for the next month with Santhilatha blissfully unaware
of the evil intentions of Judge Janow. I continued to
give Santhilatha money secretly, even though this
meant violating Judge Janow’s order. Then, on January
12, 1991, Santhilatha was caught by the police after
having been observed being picked up by me in front
of the Winn-Dixie in Madison Heights. Shelby Roberts
took all of her money away from her, including the one
hundred dollars which I had just given her. She was

App.419a

taken to the police station in Amherst County but not
booked, as she was obviously not guilty of anything.
She was checked into the Economy Lodge (formerly
known as the Green Tree Inn) in Madison Heights.
The police told her not to call me again and that if she
did so, her baby was going to be taken away from her.
On Monday, January 14, she was taken to the court
of Judge Janow. He ordered Rick Groff, a welfare case
worker, to take her to a shelter for homeless women
in Roanoke. There are two shelters for homeless women
in Lynchburg but Roanoke was selected to keep her
away from me. She was ordered not to contact me.
However, two days Later, she called me again, anyway.
When Judge Janow learned about that, he had her
transferred to another more secure shelter known as
the “Trust House”, where she could be kept more
strictly under confinement. However, the Trust House
is intended for women who are running away from
husbands and boyfriends, which was not the case
here. Two days later, she was able to sneak out and
call me again. After that, she was transferred to yet
another shelter.
Eventually, she was able to get back to my house
in Lynchburg. She arrived on Saturday, January 19,
and she succeeded in hiding out in my house for nearly
one week. Judge Janow found out about this on
Friday, January 25. Acting pursuant to his instructions,
two police cars came to my house and picked her up at
about 5:00 P.M. on that day. At that time, I was not at
home but was at the Virginia Baptist Hospital because
one of my children was sick. Without my knowledge,
Santhilatha and Jessica were taken to yet another
shelter, this time in Lynchburg. They escaped from
that shelter the following morning. This time, however,

App.420a

instead of contacting me, Santhilatha fled the state
altogether. I believe that she is now in California. She
calls me every day, but refuses to say where she is
because she is afraid, with good reason, that Judge
Janow will send the police and have her arrested
there.
It must be recalled that all this is based upon a
custody petition which Santhilatha herself filed. Since
then, she has been trying to withdraw that petition.
Judge Janow refuses to allow her to do so. On January
14, when she found out that she was going to be taken
to a shelter in Roanoke, she asked Judge Janow to
cancel the court case instead. Rick Groff, the social
worker, said that he had conveyed the message to
Judge Janow but the reply was that the judge would
not allow her to withdraw her own petition. In
addition, Judge Janow indicated that if she wanted to
withdraw her custody petition this meant that she
longer wanted custody of her baby and, therefore, she
wanted to give it away. In that case, Judge Janow
intended to give her baby away for adoption.
Starting on about Wednesday, January 15,
Santhilatha started calling her assigned legal aid
lawyer, Marian Baker, every day to say that she
wanted to cancel her court case. The answer from
Judge Janow which came back through Marian Baker
was, “Does that mean, that you no longer want your
baby?” In reply, Santhilatha said that she merely
wanted to get out of the shelter where she had been
confined pursuant to the orders of Judge Janow. She
understood that once the case was canceled, Judge
Janow would have no further jurisdiction over her.
According to Marian Baker, she called Judge
Janow several times about this and finally filed a

App.421a

motion to dismiss the case on Tuesday, January 21.
However, on Thursday, the answer came back. Judge
Janow would not agree to cancel the child custody case
involving Jessica because he wanted to keep Santhilatha
to testify against me in the Shamema case filed by
Charles and Shelby Roberts.
I think that if you have been reading this letter
carefully, you have caught the point. Judge Janow
himself is the one who wants Santhilatha, my wife
and the mother of our daughter, as a witness to testify
against me in another case. This might surprise
others, but it does not surprise me. This is typical of
the things which Judge Janow has been doing all
along. The only remarkable thing about this is that
Judge Janow admitted this publicly to another lawyer.
I want to make two important points about all
this. The first is that while I have repeatedly referred
to “orders, instructions and directives” of Judge Janow,
there have, in fact, been no officially entered orders at
all, other than his initial order dated December 19,
1990 in which he took jurisdiction over this case.
When I make such statements as that he ordered Rick
Groff to take my wife to a shelter in Roanoke or that
he ordered the police to pick up my wife from my
house, I am talking about verbal telephone “orders”
which did not involve any court appearance. This is
the reason that I keep filing civil lawsuits against
Judge Janow. There is no right of appeal from a verbal
instruction given to the police over the telephone. I
cannot go to a higher court. Moreover, such verbal
orders have had and will continue to have a devastating
effect upon me and my family. It took a long time and
effort to get my wife and our daughter back into our
home. Then, just one telephone call from Judge Janow

App.422a

and now she is hiding out, possibly in California, and
is unlikely to return except in the unlikely event that
Judge Janow agrees to allow her to cancel her own
case as she has been requesting him to do.
The second point is that these events are almost
an exact repetition of the events which occurred in
1986 which caused me and my family eventually flee
from the United States altogether. On January 13,
1986, not knowing the reputation of Judge Janow, I
filed a petition for the custody of my daughter,
Shamema Sloan. My petition was unopposed. Nobody
else filed a petition. Still, Judge Janow refused to hear
it, postponing the matter many times. Finally, after a
delay of seven months, in August, 1986, Judge Janow
announced that he was postponing the case again,
until October. At this point, tried to withdraw my
custody petition, just as Santhilatha is now trying to
withdraw her custody petition.
Finally, on August 25, 1986, I fired Shelby
Roberts as my baby-sitter and removed my daughter
Shamema from the State of Virginia on the same day.
At this point, Judge Janow, who had been sitting on
the case and refusing to take any action at all, was
galvanized into action. On the recommendation of
Judge Janow, Charles and Shelby Roberts filed a
petition for the custody of Shamema on August 27,
1986, two days later. On about September 5, 1986,
acting pursuant to the custody petition filed by them,
Judge Janow awarded custody to the Department of
Social Services. All of this was done ex-parte, since we
had never been served with a summons, being out of
the State of Virginia at that time. Judge Janow then
had a nationwide arrest order issued for us. Fortunately,
we had by then escaped from the country. All this was

App.423a

done by Judge Janow, based upon nothing more than
a petition filed by a mere baby-sitter who had no
legally recognizable standing to sue for the custody of
the child.
Again, this is only part of the story. The main
point I want to make is that Judge Janow is acting in
a manner which is completely improper for a judge. A
judge is supposed to avoid not only impropriety but
the appearance thereof. Judge Janow’s actions clearly
appear to be improper. He facilitated the kidnapping
of my children from a foreign country and then he took
jurisdiction over them when he clearly does not have
jurisdiction under the Virginia Uniform Child Custody
Act. He has continued to attack me personally as a
judge even though I already have three pending
lawsuits against him.
Incidentally, several attorneys whom I have con­
sulted have cautioned me not to write this letter on
the grounds that Judge Janow might sue me.
However, the possibility that Judge Janow might sue
me or even throw me in jail for contempt is
inconsequential when compared with the fact that he
is trying to take away by kidnapping or otherwise all
of my children. Secondly, I am immune from being
sued by Judge Janow because if he does that he really
will have to withdraw from the cases, which will
effectively end his campaign to steal all of my children.
I am sure that no other judge in the entire United
States of America would be so zealously interested in
stealing all of my children as it Judge Janow. As noted
previously, all of the other judges have dismissed their
cases against me, those other cases having been filed
essentially in sympathy with Judge Janow. Finally, if
he sues me, I will have the opportunity to defend on

App.424a

the grounds that the accusations are true. I can assure
you that I did not invent the accusations contained in
this letter. I have witnesses for everything. For ex­
ample, I would probably have to serve a subpoena to
compel his testimony, but I can definitely produce the
man who told me that Judge Janow was divorced by
his wife when she caught him in bed with another
man and that he has a reputation for beating and
abusing women. Of course, I do not have the slightest
idea of whether Judge Janow actually beats his wife
or not. I only know that he has a very bad reputation
for doing things like this in Amherst County where he
lives.
Finally, I have been cautioned that Judge Janow
might actually kill me for writing this letter. However,
that is of no moment. Already, Charles Roberts is out
actively trying to kill me. He is heavily armed and
dangerous and happens to be an extremely stupid
man. Charters Roberts is every day trying to shoot
deer, dogs, cats and other harmless animals in front
of his house. He has even taught my nine-year-old
daughter, Shamema, how to fire a handgun. Judge
Janow is presumably not so readily disposed towards
violence as is Charles Roberts. However, I suppose
that Judge Janow is much smarter and therefore more
dangerous. Nevertheless, that is just of the risks
which I have to take if I want to get my kidnapped
children back. Incidentally, there have been quite a
large number of murders in Lynchburg just in the past
two and a half months since I was forced to come back
here. A juvenile and domestic relations court substitute
judge was murdered in Lynchburg just a few weeks
ago, a perhaps you already know.

App.425a

I submit that under these circumstances, Judge
Janow should not be sitting as a judge and certainly
he should not be sifting as a judge in cases involving
me. I want to mention in conclusion that I am familiar
with the practice in the Supreme Court of New York
County. There are many judges to chose from there,
but only a handful of them are allowed to handle
domestic relations cases. Before judge is assigned to
such cases, there is a special background check for his
suitability to see if he has a secure family life. I had a
case in that county and my judge had been married to
the same woman for 37 years. This was not an
accident. Too many judges in New York have been
caught sleeping with the female litigants appearing in
the cases before them, and this is the reason that
these special background checks are required. I believe
that a similar background check should be made of
domestic relations judges in Virginia. I feel certain
that Judge Janow would not pass.
Very Truly Yours
M. Ismail Sloan

Only two days after I filed the above complaint
with the Virginia Judicial Inquiry and Review
Commission, I received back a brief note signed by
Reno Harp III stating that this complaint did not con­
cern a matter which would be considered by that
commission.

App.426a
EXHIBIT V
MANDAMUS PETITION TO REMOVE JUDGE
(APRIL 25, 2018)

Exhibit V
Sloan vs Janow, Mandamus Petition to Remove
Judge Janow from this case and to require the return
on the $1000 (one thousand dollars) bond.

App.427a
PETITION FOR A WRIT OF MANDAMUS
AND PROHIBITION TO REQUIRE THE
RETURN OF A ONE THOUSAND DOLLARS
CASH APPEARANCE BOND
(MAY 3, 1991)
VIRGINIA: IN THE CIRCUIT COURT
OF AMHERST COUNTY
M. ISMAIL SLOAN,
Petitioner,
v.
JUDGE LAWRENCE JANOW,
Respondent.

Comes Now, M. Ismail Sloan, and, being duly
sworn, petitions for a writ of mandamus and/or
prohibition pursuant to Sections 8.01-644 through 648
of the Code of Virginia to require the return of a cash
appearance bond in the amount of one thousand
dollars which is being unlawfully held by the
respondent, Judge Lawrence Janow of the Amherst
County Juvenile and Domestic Relations Court, on the
following grounds:
1. On November 13, 1990, I was arrested on two
capias issued by Judge Lawrence Janow on charges of

App.428a

contempt of court. These charges dated back to 1986.
The Amherst County Commonwealth Attorney has
since stated that he had not previously been aware of
these charges, as Judge Janow had apparently kept
the capias on his person.
2. In these charges, it was alleged that I was in
criminal contempt of court for disobedience an order
dated August 25, 1986 and that I had failed to appear
in court on September 8, 1986.
3. In fact, however, I had never been personally
served with either the order dated August 25, 1986 or
the order dated September 8, 1986. I left the State of
Virginia on August 25, 1986 and did not return until
November 12, 1990, the day before I was arrested. I
did not even see the order dated August 25, 1986, until
December, 1986, several months later. In addition,
the order dated August 25, 1986 did not specifically
order me to do or not to do anything.
4. As a result, it is clear that I did not know about
the orders dated August 25, 1986 and September 8,
1986 until long after they were entered. I cannot be
charged with contempt for failing to obey these orders.
I was also not personally served with a previous order
dated April 2, 1986, although that order was not
mentioned in either capias anyway.
5. Regarding the court hearing on September 8,
1986, I did not know about that hearing either,
because that hearing was not scheduled until after
Charles and Shelby Roberts filed a petition for the
custody of my daughter, Shamema Honzagool Sloan,
which was on August 27, 1986, after I had already left
the state with my daughter. I was never served with
their petition.

App.429a

6. Subsequent to my arrest on November 12,
Judge Janow stated orally on November 13, 1990 that
the September 8, 1986 date was a mistake and I
should have been charged with failure to appear in
court on October 8, 1986. However, it is clear from the
docket sheet that no court hearing took place on
October 8, 1986. I cannot be charged with failure to
attend a court hearing which never took place. (I was
not notified in time of that court date either).
7. When I was arrested on November 13, 1990,
Magistrate Dudley set a bond in the amount of $1,000
(one thousand dollars), cash or bond. That evening,
after dark, at about 6:30 P.M., I was brought from the
jail to the courtroom. Judge Janow appeared and
stated that he had reopened the court in the night
because he was going out of town the following
morning and he wanted to make sure that no other
judge would hear my case. He raised my bond to
$10,000 (ten thousand dollars) in cash and stated that
he intended to keep me in jail for one full year. He also
told me that he had removed my attorney, Steve
Martin, from the case.
8. On the next day, November 14, 1990, with no
attorney to represent me, I filed a handwritten notice
of appeal from my cell in the Amherst County Jail. I
induced a police officer in the jail to carry my notice of
appeal across the street to the Amherst County
Courthouse.
9. On November 16, 1990, Judge Goad of the
Amherst Country Circuit Court heard my appeal of
the bond. This hearing lasted all day, including
adjournments. When Judge Goad learned that the
court orders with respect to which I was being charged
with contempt had never been personally served upon

App.430a

me, he said that in that case he should throw out the
entire proceeding. It appeared, however, that during
the lunch break, Judge Goad had received a call from
Judge Janow. In the afternoon session, Judge Goad
stated saying that this was an appeal from a non-final
order (Judge Janow’s contention) and he had no choice
but to put me back in jail.
10. Finally, when it was nearing 5:00 P.M., after
consulting the legal authorities, Judge Goad decided
that he had jurisdiction to hear my appeal and he
thereupon reduced my bond back to the same $1,000
(one thousand dollars) which had originally been set
by Magistrate Dudley. I raised this bond and was
released the same evening.
11. The terms of my bond as set by Judge Goad
were that I was to appear in court at 9:30 A.M. on
December 19, 1990. This date had previously been set
by Judge Janow. Apparently, Judge Janow had
intended to keep me in jail for more than one month
without a hearing until that date.
12. I appeared in court on December 19, 1990 at
9:30 A.M., after my proceeding in federal court to
enjoin Judge Janow from further proceedings had
been turned down by Judge Turk of the United States
District Court just a few minutes earlier.
13. When I appeared in court on December 19,
1990 at 9:30 A.M., I found that Judge Janow was not
present and my case was not on the docket sheet.
Another substitute judge was there and he said that
he knew nothing about this case. I noted my
appearance. June Wood, the Clerk of the Amherst
County Juvenile and Domestic Relations Court, said

App.431a

that she would ask Judge Janow about this when he
came in.
14. Later the same afternoon, I again went to the
Amherst County J & D Courthouse. On this occasion,
I was told by June Wood that the matter of contempt
would be taken up on February 4, 1991 at 2:00 P.M.
15. On February 4, 1991 at 2:00 P.M., I again
appeared in the Amherst County Juvenile and
Domestic Relations Court. This time, a lengthy four or
five hour hearing was held involving about six lawyers
regarding the custody of my daughter, Shamema
Honzagool Sloan. No mention was ever made of the
two capias or of the contempt proceedings. The
custody matter was thereafter adjourned without
date.
16. The next day, I called June Wood and asked
for my one thousand dollars back. After consulting
with Judge Janow, she said that the money would be
kept and would not be returned until all the custody
proceedings involving my daughter, Shamema
Honzagool Sloan, had been concluded.
17. Subsequently, I wrote letters about this to
Judge Janow and to W. Edward Meeks, the Amherst
County Commonwealth Attorney. Copies of these
letters are annexed hereto and are fully incorporated
herein by reference. I never received a reply to either
one of these letters.
18. After sending these letters, I again called
June Wood and asked for my money back. Again after
consulting with Judge Janow, she stated that the
money would be kept indefinitely and that I should
not call the court again to inquire as to this matter.

App.432a
19. I had been hoping to raise this matter at the
time of my appeals in the related but different case
involving my daughter Shamema Honzagool Sloan
but was not able to do so. Since it now appears that
those matters will go up to the Court of Appeals and
may drag on for months or even years, I am now filing
this petition for a writ of mandamus.
20. It is highly unfair and prejudicial for this
contempt matter to be kept open indefinitely. I have
two small children to take care of, aged one year and
two years and ten months, and I need this one
thousand dollars to take care of my family. More than
that, the alleged pendency of these contempt
proceedings is being used as justification for denying
me the custody of my daughter, Shamema Honzagool
Sloan. Once these contempt proceedings are
dismissed, Judge Janow will have a difficult time
finding an excuse to deny me access to my daughter.
21. It is submitted that this matter of contempt
is no longer before the court. I appeared with my
attorney to contest this matter on December 19, 1990,
but the judge was not there and the matter was not
taken up or adjourned. At that point, the matter
concluded. In any event, I appeared again on
February 4, 1991, a date on which I had been told the
matter would be taken up, but again the matter was
not taken up nor was it adjourned. Thus, the case of
contempt is no longer before the court.
22. It is submitted that these contempt
proceedings are frivolous anyway because it is well
established that I was not personally served with the
court order with respect to which I am allegedly in
contempt. Without personal service, I cannot be found
to have knowingly violated this court order. In

App.433a

addition, the order dated August 25, 1986 did not
require me to do anything.
23. It is submitted that both Judge Janow and
the Commonwealth Attorney know that the charges
are frivolous and did not proceed forward with them
for that reason.
24. It is submitted that by appearing in court on
December 19, 1990, I discharged the bond and
therefore I am entitled to my money back, regardless
of any other proceedings before the court.
25. I have been advised that I should not raise
this issue because if I do so, Judge Janow will order a
hearing, revoke my bond and put me back in jail on
this or perhaps on some new contempt charges. For
this reason, I request a writ of prohibition against
Judge Janow.
26. These contempt proceedings should be
declared null and void and a writ of prohibition should
be issued prohibiting Judge Janow from reinstating
and/or proceeding on these contempt charges.
27. The petitioner has a clear legal right to the
return of his cash appearance bond. This matter is not
discretionary. The retention of this bond by Judge
Janow is unlawful. Under these circumstances, a writ
of mandamus and/or prohibition should issue
pursuant to the pertinent sections of the Code of
Virginia requiring Judge Janow to return the one
thousand dollars cash bond.
28. There is no other adequate remedy at law.
WHEREFORE, the petitioner demands a writ of
mandamus requiring the return of the one thousand
dollars cash appearance bond and a writ of prohibition

App.434a

prohibiting Judge Janow from reinstating
proceeding on these contempt charges.

or

/s/ M. Ismail Sloan
Sworn to before me this 3rd day of May, 1991
/s/ {Illegible}
Notary Public
My Commission Expires
July 29, 1991

Receipt for Fees Collected
County of Amherst Virginia 5.29 1991 Received
M. Ismail Sloan $ 4.00/100 Four of 00/100 Dollars for
Petition. In the matter of M. Ismail Sloan vs. Judge
Lawrence Janow

App.435a

ORDER OF THE
COURT OF APPEALS OF VIRGINIA
(MAY 17, 1994)
IN THE COURT OF APPEALS OF VIRGINIA

IN RE: M. ISMAIL SLOAN,
Petitioner,

Record No. 0181-94-3
Upon a Petition for a Writ of
Mandamus and/or Prohibition
Before: BARROW, KOONTZ and BRAY, Judges
This petition for a writ of mandamus and/or
prohibition is dismissed for the following reason:
Petitioner asks this Court to issue the writ
requiring (l) the circuit court to order the
preparation of the five trial transcripts at
Commonwealth expense, (2) the disquali­
fication of Judge Gamble from appearing as
the judge in this case and (3) that all of these
child custody proceedings brought by
Charles and Shelby Roberts be dismissed for
lack of jurisdiction and all of the orders
entered in this proceeding be vacated for lack
of jurisdiction, so that the custody of the
child shall revert to her natural parents.

App.436a

Petitioner’s complaints arise from the circuit
court’s actions in his child custody dispute with the
Amherst County Department of Social Services. That
case is pending before this Court. Sloan v. Depart­
ment ofSocial Servs., Record No. 1747-93-3.
“[T]he extraordinary remedy of mandamus may
not be used as a substitute for an appeal. Mandamus
‘lies to compel, not to revise or correct action, however
erroneous it may have been, and is not like a writ of
error or appeal, [which is] a remedy for erroneous
decisions.’” Richlands MedicalAss’n v. Commonwealth,
230 Va. 384, 387, 337 S.E.2d 737, 740 (1985) (citations
omitted).
Here, if the circuit court erred in (l) denying
petitioner’s request for free copies of transcripts, (2)
denying petitioner’s recusal motion, and/or (3) failing
to dismiss the proceedings for lack of jurisdiction, then
petitioner may address these matters on appeal to this
Court. Mandamus and/or prohibition does not lie as a
substitute for petitioner’s appeal of these allegedly
erroneous actions.
The Commonwealth shall recover of petitioner all
unpaid fees and costs in this cause which are to be
taxed by the clerk.
Costs due the Commonwealth by petitioner:
Filing fee
$25.00
A Copy, Teste:
By: Richard R. James. Clerk
Is/ (Illegible)
Deputy Clerk

App.437a
ORDER OF DISQUALIFICATION
(JUNE 20, 1991)
VIRGINIA: IN THE CIRCUIT COURT
FOR AMHERST COUNTY
M. ISMAIL SLOAN,
Petitioner,
v.
JUDGE LAWRENCE JANOW,
Respondent.
No. 6508
The Judges of the Twenty-Fourth Judicial Circuit,
being so situated in respect to the above styled case
pending in this Court as to render it improper, in their
opinion, for them to preside at the trial thereof, such
fact is hereby entered of record.
Entered this 20 day of June, 1991.
/si Mosbv G. Perrow
Chief Judge

App.438a

LETTER FROM THE CHIEF JUSTICE TO THE
ASSISTANT EXECUTIVE SECRETARY OF THE
SUPREME COURT OF VIRGINIA
(JUNE 20, 1991)
Twenty-Fourth Judicial Circuit of Virginia
Commonwealth of Virginia
Cities of Lynchburg and Bedford
Counties of Amherst, Bedford, Campbell and Nelson
Frederick A. Hodnett
Assistant Executive Secretary
Supreme Court of Virginia
Third Floor
Supreme Court Building
100 North Ninth Street
Richmond, VA 23219
Re: M. Ismail Sloan v. Judge Lawrence Janow
No. 6508
Dear Fred:
I am enclosing a copy of an order of disquali­
fication of the Judges of the Twenty-Fourth Judicial
Circuit in the above case. We are of the opinion, in the
language of Canon 3(C), that the impartiality of the
Judges of this Circuit “might reasonably be ques­
tioned.” Mr. Sloan is a prolific pro se litigator and you
will recall that Judges Ballou and Peatross have
previously been designated to handle other filings.
The captioned case is a Petition for a Writ of
Mandamus filed in the Circuit Court for Amherst
County. M. Ismail Sloan’s address is 917 Old Trents
Ferry Road, Lynchburg, Virginia 24503. A demurrer

App.439a

has been filed on behalf of Judge Janow by Barbara
Gaden, Assistant Attorney General, Office of the Attor­
ney General, Supreme Court Building, 101 North
Eighth Street, Richmond, VA 23219.
The Clerk of the Circuit Court for Amherst County
is Roy C. Mayo, whose address is P. O. Box 462,
Amherst, Virginia 24521, and whose telephone number
is 1-804-929-9321. The Court’s docket secretary is
Kathy Tomlin (1-804-929-9329), and she will be glad
to assist in scheduling any hearing.
We appreciate your assistance in arranging for
the designation of a Judge to hear these matters.
With best wishes and kindest regards, I am
Very truly yours,
/s/ Mosbv G. Perrow, III
Chief Judge
MGP, III/vkh
Enclosure
cc: M. Ismail Sloan
Barbara Gaden, Assistant Attorney General
Mr. Roy C. Mayo, III, Clerk

App.440a

DEMURRER
(JUNE 18, 1991)
VIRGINIA: IN THE CIRCUIT COURT
FOR THE COUNTY OF AMHERST

M. ISMAIL SLOAN,
Petitioner,
v.
JUDGE LAWRENCE JANOW,
Respondent.

Case No. F6508
COMES NOW the respondent, the Honorable
Lawrence Janow, Judge, by counsel, and for his
demurrer to the petition for a writ of mandamus and
prohibition to require the return of a $1,000 cash
appearance bond (“the petition”), states as follows:
1. Petitioner prays for (a) a writ of mandamus
requiring the return of a $1,000 cash appearance
bond, and (b) a writ of prohibition prohibiting Judge
Janow from reinstating or proceeding on contempt
charges now pending against the petitioner.
2. Although the petition is lengthy, very few
allegations contained therein are relevant to the issue
of the relief requested by the petitioner. These allega­
tions are as follows:

App.441a

(a) The late Honorable Robert C. Goad, Judge,
set a $1,000 bond for the petitioner’s appear­
ance on December 19, 1990, to answer
contempt charges. Petition | 11.
(b) The matter of the petitioner’s contempt was
later continued to February 4, 1991. Petition
1 14.
(c)

On February 4, 1991, the contempt matter
was neither taken up nor was it adjourned.
Petition t 21.

(d) The petitioner has declined to raise the con­
tempt issue for resolution by the Juvenile and
Domestic Relations District Court. Petition
t 25.
(e)

There is no other adequate remedy at law.
Petition 28.

3. The petition shows, on its face, that there has
been no adjudication or resolution of the matter for
which a bond was required to compel petitioner’s
appearance and that the pendency of the matter is due
at least in part to the petitioner’s refusal to seek a
resolution.
4. The modification or waiver of a bond during
the pendency of these proceedings is an issue left to
the discretion of the Juvenile and Domestic Relations
District Court Judge. Similarly, the resolution of the
contempt charges is also a matter for the judge’s
discretion.
5. Accordingly, the petition fails to show a minis­
terial act for which mandamus or prohibition lie, and
further fails to state facts upon which relief should be
granted.

\

App.442a

WHEREFORE, the respondent demurs to and
moves to dismiss the petition for writ of mandamus and
prohibition herein on the grounds that the petition is
not sufficient at law or in equity and fails to state a
cause of action upon which relief may be granted.
Respectfully submitted

The Honorable Lawrence Janow
Judge

By: {Illegible}
Counsel

App.443a
LETTER FROM THE
ASSISTANT ATTORNEY GENERAL
(JUNE 18, 1991)
Commonwealth of Virginia
Office of the Attorney General
Mary Sue Terry
Attorney General
H. Lane Kneedler
Chief Deputy Attorney General
Deborah Love-Bryant
Chief-of-Staff
K Marshall Cook
Deputy Attorney General
Finance & Transportation Division
R. Claire Guthrie
Deputy Attorney General
Human & Natural Resources Division
Gall Starling Marshall
Deputy Attorney General
Judicial Affairs Division
Stephen D. Rosenthai
Deputy Attorney General
Public Safety & Economic Development Division

App.444a

Federal Express
The Honorable Roy C. Mayo, III
Clerk
Circuit Court for the County of Amherst
100 Court Street
Amherst, Virginia 24521
Re: In Re M. Ismail Sloan, Case No. F6508
Dear Mr. Mayo:
Enclosed for filing please find a Demurrer on
behalf of respondent, the Honorable Lawrence Janow,
Judge, in the above-captioned case.
Thank you for your attention to this matter.
Sincerely yours,
/s/ Barbara J. Gaden
Assistant Attorney General
2:85-C7765/224
Enclosure
cc: Mr. M. Ismail Sloan

App.445a

ORDER ON PETITION FOR WRIT OF
MANDAMUS AND PROHIBITION
(JULY 24, 1992)
IN THE COURT OF APPEALS OF VIRGINIA

IN RE: M. ISMAIL SLOAN,
Petitioner,

Record No. 1211-92-3
Upon a Petition for a Writ of
Mandamus and Prohibition
Before: BAKER, DUFF and ELDER, Judges
The “Petition for a Writ of Mandamus and Prohibi­
tion” is dismissed for the following reasons:
Petitioner, through lengthy and rambling plead­
ings, seems to be requesting that respondents be
prohibited from hearing any case involving petitioner.
A writ of mandamus is to compel a public official to
perform a purely ministerial duty imposed by law.
Richlands Medical Assoc, v. Commonwealth, 230 Va.
384, 386, 337 S.E.2d 737, 739 (1985). Petitioner does
not allege the failure of respondents to perform any
ministerial acts. A writ of prohibition lies to prevent a
lower court from hearing cases in which it has no
jurisdiction or is exceeding its jurisdiction. County
School Board of Tazewell v. Sneed, 198 Va. 100, 104,
92 S.E.2d 497, 501 (1956). No such allegation is made
by petitioner.

App.446a

For the foregoing reasons the said petition is
dismissed. It is therefore ordered that the respondents
recover of the petitioner their costs by them expended
about their defense herein.
A Copy,

Teste:
Patricia G. Davis, Clerk
By: Is/ (Illegible)
Deputy Clerk
Respondents’ costs:
Attorney fee $50.00

Teste:
Patricia G. Davis. Clerk
By: Is/ {Illegible!
Deputy Clerk

App.447a

ORDER OF THE AMHERST COUNTY JUVENILE
AND DOMESTIC RELATIONS DISTRICT COURT
(AUGUST 25, 1986)
VIRGINIA: IN THE AMHERST COUNTY
JUVENILE AND DOMESTIC RELATIONS
DISTRICT COURT FOR THE
TWENTY-FOURTH JUDICIAL DISTRICT

RE: IN THE MATTER OF
SHAMEMA HONZAGOOL SLOAN,

This 25th day of August, 1986, appeared Ismail
Sloan with Counsel, Stephen Martin; Mr. and Mrs.
Charles Roberts with Counsel, Frank G. Davidson, III;
and J. Thompson Shrader, Esquire, Court appointed
guardian ad litem for Shamema Honzagool Sloan with
regard to the issue of enrollment of Shamema Honza­
gool Sloan in school and based upon the fact of the
child having attended Temple Baptist School in the
past, and the final hearing is set for October 8, 1986,
at 1:30 p.m., the Court Orders that this matter remain
in status quo and allows the child, Shamema
Honzagool Sloan, to be enrolled in Temple Baptist
School by Mr. and Mrs. Charles Roberts pending the
outcome of the final hearing
Effective September 7, 1986, at 2:00 p.m., the father
shall have physical custody of Shamema Honzagool
Sloan until further Order of the Court with reasonable

App.448a

overnight visitation to be allowed Mr. and Mrs.
Charles Roberts as Counsel agrees.

Entered: /s/ Lawrence Janow
Judge
Date: August 25, 1986

cc: All Parties & Counsel
Curt Service Unit

App.449a
ORDER OF THE
AMHERST COUNTY JUVENILE AND
DOMESTIC RELATIONS DISTRICT COURT
(AUGUST 25, 1986)
Name: Sloan, Ismail
Street Address: 917 Old Trent’s Ferry
City: Lynchburg
State: Virginia
SSN: 231-56-7957
DOB: 9-7-44
Sex: 0 M
Status: 0 Adult
Type Offense Charged: 0 MISD.
Charges under: 0 State
Charges
2 Charges of contempt of court—Fading to Appear;
Violating term of order.
Bond (if Applicable)
$ 10,000 Cash
To the Sheriff or Jailor:
You are hereby commanded to take custody of
and safely keep the person named above in accordance
with the appropriate instructions on the back of this
card.
/s/ Lawrence Janow
Judge
Date: 11-13-90

App.450a

LETTER FROM SLOAN TO THE
AMHERST COMMONWEALTH ATTORNEY
(MARCH 13, 1991)
M. Ismail Sloan
917 Old Trent’s Ferry Road
Lynchburg, VA 24502
Tel: (804) 384-6862
W. Edward Meeks
Amherst Commonwealth Attorney
Amherst, VA 24521
Dear Fred:
I am writing this letter with regard to my $1,000
(one thousand dollar) appearance bond. As you will
recall, this was the bond set by Judge Goad on
November 16, 1990, being reduced from the bond of
$10,000, as set by Judge Janow. It concerned a matter
of contempt of court.
The terms of this bond were that I was to appear
in the Amherst County Juvenile and Domestic
Relations Court at 9:30 A.M. on December 19, 1990.
I did, in fact, appear in that court on December
19, 1990 at 9:30 A.M. You will recall that I had to rush
over from the federal court hearing before Judge Turk
to make this appearance. However, Judge Jarrow was
not there. Another judge was present, but he said that
he did not know anything about this. Also, my case
was not on the calendar.

%

App.451a

Later that day, I was told that the matter would
be taken up by the court at a hearing on February 4,
1991.
I attended court on February 4, 1991, as did you.
However, there was no mention of the contempt case
or of the appearance bond. The matter was simply
forgotten about. The other case which was heard on
that day was adjourned without date.
As far as I am concerned, the matter is now over.
If you were unwilling or unable to proceed forward
with that contempt case on the date set, then I should
get my money back.
As I am sure that you are aware, the case for
having me held in contempt of court is totally devoid
of merit. In the first place, I was never served with
any of the court orders with respect to which I was
allegedly in contempt, nor was I served with the
original custody petition. In fact, the first time that I
was ever personally served with anything at all in this
case was when Michael Cox arrested me on November
13, 1990, pursuant to the capias. You, yourself, have
admitted that you were not previously aware of this
capias and that Judge Janow had apparently been
carrying it around in his hip pocket for the last four
years.
Furthermore, the orders with respect to which I
was allegedly in contempt did not require me to do
anything. For example, there was an order dated
August 25, 1986 which “allowed” my daughter to be
enrolled in the Temple Baptist School. However, I
Personally was not directed to do anything.
I think that both you and Judge Janow are fully
aware of these gross procedural defects and for that

App.452a

reason are unwilling to go forward. This is the real
reason why this matter keeps getting forgotten about.
It is unfair and prejudicial for you and/or Judge
Janow to keep my money and constantly leave this
matter hanging over me when you are fully aware
that the case against me has no merit at all. For this
reason, I demand that my one thousand dollars be
refunded to me immediately.
More than that, the appearance bond was nothing
more than that: an undertaking that I appear. I did
appear on the date and at the time requested. Having
done that, the bond is discharged and I am entitled to
my money back.
I have, of course, directly asked Judge Janow to
give me my money back, through the clerk of his court.
Knowing as you do the state of relations between me
and Judge Janow, it will not come as a great surprise
to you that he refuses to refund my money. However,
you, technically, are my legal adversary and if you are
willing to agree to give me my money back, I do not
see how the judge can object.
You will recall that all these points were discussed
, before Judge Goad on November 16, 1990. After a
perusal of the court record, it was found that there
was no certificate of personal service of any kind at
all. Judge Goad therefore stated that if the matter was
never served, then the entire proceeding ought to be
dismissed. At that point you objected, saying that you
were not fully familiar with the facts of this case and
that Judge Janow might well know something about
this case which did not appear in the record.
Therefore, you contended that the matter ought to be

App.453a

continued, rather than dismissed outright as Judge
Goad indicated he would otherwise do.
That was four months ago. It has since become
apparent that Judge Janow does not know anything
more than what appears in the record. For example,
at the hearing on February 4, 1991, he clearly had his
dates and facts mixed up. For example, at one point
he said that I did not attend court on August 25, 1986,
whereas the record clearly shows that I was present
on that date. It is wrong to rely on the faulty memory
of a judge to supplement the written record before the
court.
Under these circumstances, I think it is clear that
the matter of contempt was never properly before the
court and, if it was, it has since been dropped for lack
of prosecution. Therefore, in either case, am entitled
to my money back.
Very Truly Yours,
/s/ M. Ismail Sloan
Copy To: Judge Lawrence Janow
Barbara J. Gaden

App.454a

LETTER FROM SLOAN TO
JUDGE LAWRENCE JANOW
(MARCH 21, 1991)
M. Ismail Sloan
917 Old Trent’s Ferry Road
Lynchburg, VA 24502
Tel: (804) 384-6862
Judge Lawrence Janow
Amherst County Juvenile and
Domestic Relations Court
Amherst, VA 24521
Dear Judge Janow,
I absolutely and unconditionally demand that you
return the $1,000 (one thousand dollars) bail money
which you have taken from me on November 16, 1990.
That bail money was taken as a bond that I appear
in court at 9:30 A.M. on December 19, 1990 on a
hearing you had scheduled regarding contempt of court.
I did, in fact, appear in court at 9:30 A.M. on
December 19, 1990 but you were not present. I noted
my appearance anyway, but the substitute judge who
was present said that my case was not on the calendar
and that he did not know anything about this.
Later that day, I was told that the matter would
be taken up at 2:00 P.M. on February 4, 1991.
Again, I appeared at 2:00 P.M. on February 4,
1991. You were present on that day along with a room
full of lawyers, almost all of whom had been appointed
by you. However, again, this matter of contempt was

App.455a

not taken up. That matter was simply forgotten about.
The case which was heard at that time was thereafter
adjourned without date.
It is obvious that the reason that you keep failing
to take up this matter of contempt is that you are well
aware the contempt charges are utterly without
merit. The entire proceeding is based on an order of
service by publication which was published in the
Amherst New Era Progress at a time when all of the
legitimate parties to this case, including myself, the
mother and the child, were residing completely outside
of the United States. Obviously, not many people in
Pakistan read the Amherst New Era Progress, nor do
many people in Amherst County, for that matter. (That
publication has a total circulation of about 5,000).
There was no personal service of any court papers
on me, and without personal service, you simply do
not have any right to hold me in contempt or to have
me arrested, as you did on November 13, 1990.
More than that, even if I had been personally
served, I could not be held in contempt because your
orders were so deliberately vague and ambiguous that
they could be interpreted in many different ways. For
example, you say that you are charging me with
contempt for failing to obey your order dated August
25, 1986, which “allowed” my daughter, Shamema
Honzagool, to be enrolled in the Temple Baptist School.
This order arose because my daughter was then four
years old and was just getting ready to enter kinder­
garten for the first time. I wanted to enroll her in the
Paul Munro School, which is regarded as the best
elementary school in the City of Lynchburg and also
by coincidence happens to be just three minutes walk
from my house. However, you had the completely

App.456a

ridiculous idea that I should be required to take my
daughter all the way out to Amherst County to attend
a Baptist school which did not even have its own
building but was located inside a church, knowing full
well that both myself and the mother of my child are
Muslims.
The whole idea was so ridiculous that any judge
would order such a thing that this was what convinced
me that you are a complete lunatic. My attorney
informed me in advance that this was about to happen
and this contributed greatly to my decision to depart
from the State of Virginia. (Actually, my departure
from the State of Virginia was pre-planned, because I
had been scheduled to attend a chess tournament in
Argentina long before. To be more exact, I did not
come back to Virginia because I, by that time, had
found out that there was a judge in Amherst County,
Virginia who was completely crazy.)
Because of this, and knowing that I could not be
personally served, you asked Mr. Frank Davidson III
to file a custody petition for Shamema and then you
almost immediately entered an order for service by
publication. (My information from my attorney at that
time is that it was actually your idea that Mr.
Davidson file a custody petition, something which Mr.
Davidson himself was initially reluctant to do).
Being a judge concerned with these matters, you
know perfectly well that your jurisdiction does not
extend more than one mile beyond the county line of
Amherst County. My house in Lynchburg is only a few
hundred yards from the James River which marks the
county line of Amherst County, but you obviously
knew that you did not have any jurisdiction over a
child residing in the United Arab Emirates, especially

App.457a

when her mother was in Pakistan, which is only three
hundred miles away, across the Gulf of Oman.
I went to the library a few days ago and obtained
a copy of your order for service by publication as
published in the Amherst New Era Progress on
October 2, 1986. It orders me to appear in court at 1:30
P.M. on November 3, 1986. However, I have checked
the docket sheet and there was no court session on
November 3, 1986 or, for that matter, on October 8,
1986 (another date which has sometimes been
mentioned). Since there was no court at all on these
dates, you actually have no idea of whether I appeared
on those dates or not, and I cannot be held in contempt
for failure to appear at a hearing which never took
place.
Indeed, the last entry on the docket sheet is
actually dated September 8, 1986, the date of your
order for service by publication. After that, there were
no further proceedings. According to Section 8.01-335
of the Code of Virginia, any case in which there has
been no order of any kind for a period of more than
two years is subject to dismissal for want of
prosecution. Mr. Davidson did not want to go forward
with a hearing on this matter. In fact, I wrote several
letters from the United Arab Emirates both to my
attorney and to you during this period in which I
demanded that a hearing take place so that I could file
a notice of appeal. My letters were ignored. Thus, the
failure to prosecute this action was part of a deliberate
strategy both by yourself and by Mr. Davidson.
Nevertheless, from your dingy courtroom in the
basement of the Health Department building, you
claim to have exclusive world-wide, jurisdiction over
this matter, even without personal service of process.

App.458a

However, almost simultaneously with the filing of the
custody petition in your court, the Roberts, on
September 5, 1986, filed a custody petition in the
Supreme Court of New York State. That custody
petition was not personally served either, for the same
reasons. At best, you have no more than equal jurisdic­
tion with the courts of New York State and most would
agree that your jurisdiction is much less, than theirs,
because, there, the New York Court awarded custody
to the mother in 1982. You also obviously know that
you have no jurisdiction for another reason, because
this child has not now been in the State of Virginia for
six months, as required by Section 20-126 of the Code
of Virginia, as well as by the Uniform Child Custody
Act and the Federal Parental Kidnaping Prevention
Act. You have tried to give various explanations as to
why you feel that you have jurisdiction but New York
no longer has jurisdiction, but nobody, not even the
Roberts’ attorney, can follow your arguments or even
understand what you are taking about.
A new case started on October 19, 1990, after Mr.
Roberts had succeeded in kidnaping my daughter from
the United Arab Emirates, which was an act done,
according to him, with your approval. His petition
dated October 19, 1990 asks for an injunction against
the Amherst County Department of Social Services
against the removal of Shamema from his home. You
apparently regard this new petition as part of the old
petition which goes back to September, 1986.
You apparently believe that Mr. Roberts had'the
right to kidnap my daughter to effectuate your judg­
ment that my Muslim daughter should be required to
attend the Temple Baptist Church. My daughter has
since been enrolled in the now newly reconstructed

App.459a

Temple Baptist Church and School, the same school
you wanted her to attend back in 1986, over my
vehement protests. This obviously violates Article I,
Section 16 of the Virginia Constitution, but you just
as obviously care nothing about the law.
The more I do legal research into this matter, the
more I discover how grossly illegal your activities have
been. For example, you simply cannot remove
Shamema from my custody unilaterally without
notice and the opportunity for a hearing. There must
be a removal proceeding in accordance with Section
16.1-279 of the Code of Virginia. No such proceeding
has ever taken place. In addition, that proceeding
must be initiated by the Department of Social
Services, and cannot be done by the judge on his own
motion, as you in effect have done. The Amherst
County Department of Social Services has never
initiated such a proceeding and, to the contrary, has
repeatedly complained that they went to be divested
of this matter, which is consuming the time and the
limited financial resources of Amherst County.
Anyway, the main point of this letter is that I
want my money, and you have no legal right to keep
my money any more than you have the right to keep
my daughter. Also, the only legal grounds for
requiring the posting of a bond in the first place is that
I am a flight risk, and you know that I cannot possibly
go anywhere as long as you have got my daughter
detained and held a prisoner.
By the way, I want to mention that Vithanage
Santhilatha (also known as Renuka), after running
away from you and Mr. Davidson, has been calling me
every day from California. She has put $923 (nine
hundred twenty-three dollars) in collect telephone

App.460a

charges onto my telephone bill. Before that, I under­
stand that she put more than $600 (six hundred
dollars) in long distance telephone charges onto the
telephone bill of Charles and Shelby Roberts. This fact
may have contributed to their decision to kick
Santhilatha out of their house. Before that, she put
$3,000 (three thousand dollars) in less than two
months on my telephone bill in the United Arab
Emirates, most of these calls being to Charles and
Shelby Roberts, to my brother and their ally, Creighton
Sloan in South Carolina, and to Boonchoo in Thailand,
as well as to me. All this took place while I was with
my mother, Shamema, Jessica, and Michael in
Thailand and Santhilatha had returned unexpectedly
from Sri Lanka, broken into my house and started
using my telephone. I have never mentioned this
before, but when I arrived back in the United Arab
Emirates after all this, I was arrested over the
telephone bill. (In the United Arab Emirates and
other Arab countries on the Persian Gulf, a foreigner
can be arrested for failure to pay his bills, including
the telephone bill).
Right now, I need to get back the one thousand
dollars which you have illegally taken from me, so
that I can pay the telephone bill for the collect calls
from Santhilatha, which amounts to $923. I cannot
refuse her collect calls, because she has my daughter,
Jessica, with her. You, of course, caused this entire
situation, by frightening Santhilatha into believing,
with considerable justification, that you were getting
ready to take her daughter, Jessica, away from her,
just has you have taken Shamema away from me.
For these reasons, there is absolutely no justifi­
cation or excuse for you to withhold my money. I

App.461a

therefore demand that you return my money imme­
diately.
While I am on this subject, I want to renew my
demand, which I have been making at various times
continuously starting in 1986, that you disqualify
yourself from this case. Chief Judge Mosby Perrow
has issued an order disqualifying all of the judges of
the 24th Judicial District from participating in this
case, and you are one of those judges. Also, I assume
that it was you who sent Stan Ogden of the Virginia
State Pohce out to my house one month ago to question
me as to whether I had any plans or intentions to kill
you. Mr. Ogden told me in fact that he has never been
to question Mr. Roberts, ever though he is supposed to
be is investigating, as requested by Interpol, the
kidnaping by Roberts of my daughter. Also, it is
obviously you who keeps sending the police to my
house to serve me with various court orders, although,
from what I understand, these orders are not being
served upon Roberts. I think that everybody, including
even my opponents, realizes that you are actually
biased against me and that my demands that you
disqualify yourself are well founded.
Very Truly Yours,

/s/ M. Ismail Sloan
Copy To: Ed Meeks
James Massey, III

App.462a

TRANSCRIPT OF PROCEEDINGS
RELEVANT EXCERPTS
(JANUARY 12, 1993)
IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG

COMMONWEALTH OF VIRGINIA,
Plaintiff,
v.
M. ISMAIL SLOAN A/K/A
SAMUEL HOWARD SLOAN,
Defendant.
0934-93-3
Before: Honorable James M. LUMPKIN, Judge.

[January 12, 1993 Transcript, p. 6]
MR. BICE: Judge, if I may, I feel I do need to
notify the court that—that one of the members of
the panel is a—is a client of mine and it’s Larry
Banton, Lawrence Banton.
It may be just as well—we either have concluded
it or just about to conclude it fairly in an
uncontested divorce proceeding.
I just don’t know if that’s fair to the Common­
wealth.

App.463a

THE COURT: Well, if you—he is your client?
MR. BICE: He’s my client.
I guess rather than—rather than embarrassing
him or bringing it up, you might just want to—we
have three extras. You might just want to excuse
him.
THE COURT: Do you want to agree to excuse him?
MS. WHITE: That’s fine, Judge.
THE COURT: All right. Sheriff, Mr. Banton will be
excused by agreement.
All right. What else?
MR. BICE: All right. Your Honor, I guess the initial
matter that we would like to address with the
court is our motion in limine and I’m filing that
today and the reason that’s being filed as late as
today is simply because the transcripts—I received
the transcripts last week and having reviewed
them I’ve noticed that within the transcripts are
a number of references to possible harm coming
to the Roberts, who are the guardians, present
guardians of the child Shamema Sloan, Shamema
being the daughter of the defendant.
The concern that I have is the defendant is charged
with solicitation of another to commit or to—to
abduct a person and he is not charged with
solicitation with another to commit assault and
battery or to harm another in anyway whatsoever.
It’s my concern that if all of the phone transcripts
come in unedited that he will be irreparably
harmed and that the—the—a lot of what is in these
phone transcripts is just simply not probative

App.464a

whatsoever to the issue before the court and that
being did he, specifically, request another person
to abduct his daughter and to—to keep so that
she would be withheld from the custody of the
foster parents regarding—and—and the concern
that I, also, have is that no instruction by the
court is going to be sufficient to cure the harm
done.
I’ve set that out in my motion. I believe it’s the
last paragraph.
THE COURT: That’s right.
MR. BICE: Okay.
THE COURT: All right. Does that cover it?
MR. BICE: Yes.
THE COURT: All right. Miss White.
MS. WHITE: Judge, I have the copies for the court of
the three telephone transcripts that are involved
in this case. One call was made May 19th and one
May 20th and one June 16th and I’ll present
those to the court.
I have copies that are made for members of the
jury and I’ve, also, prepared that limiting instruc­
tion that’s often given to juries when they have a
tape and a transcript at the same time, to caution
them to determine what’s on the tape by what
they hear rather than what they read, and I’ll
introduce that at the appropriate time.
But, Judge, what the Commonwealth’s position is
that any comments that Mr. Sloan made with
regards to harm befalling, if I can use his terms,
on the Roberts is actually sum and substance of

App.465a

his—of his plans to abduct his—have his daughter
abducted from the Roberts.
In particular, if I could call the court’s attention
to the June 16 transcript at page four at the very
top, Mr. Sloan is discussing with Mr. Beneke—at
the bottom of page three Mr. Beneke says,
“Absolutely. I can get your daughter out of there
if that’s what you want to do.” Sloan says, “Sure.
Basically, the thing is—the thing is to get my
daughter out of there. Now, if some misfortune
befalls Mr. Roberts in the course of getting my
daughter out of there, that’s his tough luck and,
you know, another way to do it might actually
be—in some respects safer it might be—in some
respects easier to do something to Mr. Roberts,
although that would be illegal and then sort of see
my daughter kind of fall into my lap later on.”
Judge, that’s just one—one of the passages that
involves Mr. Sloan talking about some harm
occurring to Mr. Roberts and it seems to the
Commonwealth that that’s—that’s wrapped right
up in there in his attempt to solicit Mr. Beneke to
abduct his daughter. It’s part of the plan.
What the Commonwealth has to do is show that
Mr. Sloan was attempting to—to convince Mr.
Beneke to abduct his daughter and in showing
that he was actually attempting to get Mr.
Beneke to do this is to show that Mr. Sloan
actually had some plans and some ideas about
how to go about to do this.
It’s all part and parcel of the abduction plan.
MR. BICE: Of course, Your Honor, our position is that
there’s no specific request anywhere within any

App.466a

of those transcripts for him to—to actually seize
the child and that, basically, what the
Commonwealth is relying on is, hopefully, enough
prejudicial statements coming out that will incline
the jury to find him guilty of something and given
that the charge before them is abduction, then
they are going to go ahead and find him guilty of
abduction.
THE COURT: Are you making two points now: One,
possibility of harm to the Roberts and, two, that
there’s nothing in that to substantiate a solicitation
charge?
MR. BICE: Well, it’s my position that there isn’t, but
I don’t know what other evidence they intend to
present.
So, I’m not moving to quash the abduction—the
solicitation charge. I just am very concerned
about these comments.
THE COURT: All right. How many references are
there, such as, Miss White just read?
MR. BICE: There are probably about six and I would
have to go Through, you know, depending on how
you classify.
THE COURT: Do either of you have them marked?
MR. BICE: I do have them marked. I left the transcripts
out in the courtroom.
THE COURT: Well, are they in each conversation?
MR. BICE: I believe they are, primarily—yes, they are
in each conversation, but they are—but they are
easily excluded from the rest.

App.467a

In fact, what I would propose to the court is rather
than the playing of the tapes that the
Commonwealth restrict—I mean we’re going to
be—this whole process of presenting the trans­
cripts is going to take hours if we have to—if we
have to proceed on listening to the tapes and the
questioning of the investigator.
If instead the Commonwealth simply reads the
question and ask the investigator to read back
what Mr. Sloan said through the pertinent parts
of the tapes—because there’s an awful lot of dis­
cussion about purchasing of a house, the sale of
books, and whatever in those transcripts. If they
are limited to simply the pertinent parts that
address obtaining the child, then it’s going to be
a much briefer procedure and its certainly some­
thing that can be easily done.
THE COURT: How long are the tapes totally?
MS. WHITE: Judge, I listened to them again last night.
They are a total of an hour and five minutes for
all three of them.
It’s the Commonwealth’s position that, of course,
the tape is the best evidence of those conversations.
Even the references to the selling of the house
and Mr. Sloan’s book being published and those—
the book being published—each of those are part
and parcel of the plan to solicit the felony of
abduction.
The house was the first thing that was being
offered as some sort of payment to Mr. Beneke to
commit the felony. The book—Mr. Sloan admits
himself that the whole reason behind the book is

App.468a

to get his daughter back. He has high hopes of
making twenty, thirty, forty, fifty thousand
dollars and those were his words in the sale of
that book and he was going to use those proceeds
to pay Mr. Beneke or anyone Mr. Beneke helped
him to get to solicit that felony.
THE COURT: All right. Thank you, both.
Of course, it may very well be prejudicial, but
being prejudicial is not reason enough to exclude
otherwise admissible evidence.
MR. BICE: The concern that I have, Judge, is not that
its prejudicial. Certainly, they are going to pre­
sent a lot of evidence today that may be preju­
dicial against him.
THE COURT: I expect that’s what they intend to do.
MR. BICE: Right. It’s the probative value of the
evidence.
THE COURT: I understand.
MR. BICE: And I just—if he—were he charged with
a—with the crime of solicitation to commit a
felony, to wit, murder or malicious wounding,
assault and battery, anything that—that would
constitute harm against the Roberts, then we
would have no argument; but he’s just not
charged with that and I don’t want him to be on
trial today for something that he is not charged
with.
THE COURT: At what stage of the case would you
intend to introduce this?

App.469a

MS. WHITE: Judge, those are going to come in,
actually, through my last witness who’s Rolf
Beneke.
THE COURT: Have each of you got a separate witness
list?
MS. WHITE: I do, Judge.
THE COURT: Have you got it?
MR. BICE: Judge, frankly, Mr. Sloan is our witness.
THE COURT: All right. Do you expect to call all of
these?
MS. WHITE: Yes, sir. And I’ll tell you the first two will
probably take some period of time. Numbers
three, four, five, and six and seven will take a very
short amount of time.
THE COURT: All right.
MS. WHITE: And really the only ones that will take a
long amount of time would be one, two, thirteen,
and I have Investigator Wingfield on there twice
just because he relates to both of the major
charges against Mr. Sloan.
THE COURT: And will each of these be in the court­
room when we go in?
MS. WHITE: Number ten, Janet Bogacik—I can never
say her name, Bogacik. She is from Cosmo Travel
Agency, and number eleven is the one who’s my
boss that I said something to Mr. Bice about and
he won’t be in the courtroom.
THE COURT: All right.
MR. BICE: For the record—

App.470a

TIDE COURT: Then the others will be in the court­
room?
MS. WHITE: As far as I know. They are supposed to
be, Judge.
THE COURT: Because I want the jury to know if they
recognize any of them at the beginning.
All right. There was a motion to quash the indict­
ment relating to failure to appear.
Do you wish to be heard any further on that now,
Mr. Bice?
MR. BICE: Judge, the concern that’s been raised and
Miss White mentioned this is if the charge is not
quashed, then we’re facing the prospect of having
to have Mr. Petty, the Commonwealth’s Attorney,
come up and testify.
Frankly, it just—I think the facts are fairly clear
that the case had been continued by order of
January the second and so there was no order or
there was no case set on January the tenth for
him to appear at.
For that reason I think that we have two serious
charges that we really do need to address and I
just suggest that in some respects it’s piling on
and in other respects—but, frankly, I just don’t
see how somebody can fail to appear for a case
that’s already been continued.
THE COURT: All right. And your response is?
MS. WHITE: Judge, my response to that is really an
equitable one.
Should Mr. Sloan be permitted when he leaves the
jurisdiction and notifies not only his attorney but,

App.471a

also, Mr. Petty in my office that he has left and
that he’s absolutely not going to be in court on
January 10th—should he be able to then use his
failure to appear and what the court must do in
order to not call the jury in as a defense to not
appear on January 10th when he was required to
do so?
The evidence that Mr. Petty would introduce would
really be uncontradicted evidence, that which Mr.
Sloan has already admitted to at the motions
hearing, that, in fact, he knew that the trial date
was January 10th, that he—that he conveyed
information to various court officials, including
Mr. Petty, that he had to be out of the jurisdiction
on an urgent matter and that he would not appear
on January 10th, and that he, in fact, did not
attend trial on January 10th.
THE COURT: Well, I think that’s a jury issue. I will
deny that motion to quash on the basis of what’s
presented. Of course, I don’t know what the
evidence will be yet, but on the basis of what’s
presented the motion will be denied.
Then at the time you may make a motion to strike
and we’ll see.
MR. BICE: All right, Judge.
THE COURT: All right. Now, jury voir dire—you’ve
given me a list of questions in addition to the
statutory questions.
Do you have any objection to those?
MS. WHITE: No, sir.

App.472a

THE COURT: All right. And the matter of change of
venue will depend upon what the jurors’ responses
are.
MR. BICE: Okay.
THE COURT: To my questions and to counsels’ ques­
tions.
MR. BICE: I presented a plea of not guilty form that
is used in this jurisdiction and is signed my client
and myself that sets forth that he has reviewed
or we have reviewed his rights.
THE COURT: You want this made a matter of record
in the case?
MR. BICE: If it please the court, yes.
THE COURT: All right.
MR. BICE: You did read through that?
MR. SLOAN: Yes.
THE CLERK: Mr. Bice, there’s no date.
THE COURT: Now, it’s always possible that what is
presented as the evidence in the case may change
the court’s opinion and call for a different ruling,
but as of now I will indicate to you that the motion
in limine will be denied. The mere fact that it’s
prejudicial, of course, is not grounds for denial.
Now, sometime between now and the calling of
Mr. Beneke—is that the pronunciation?
MR. BICE: Yes.
THE COURT: —I will have hoped to have read these
transcripts and I’ll make a definitive ruling at
that time.

App.473a

MR. BICE: Okay.
THE COURT: All right.
MS. WHITE: Judge, this may be the appropriate time
for me to—to share with the defendant and the
court the instruction that we think would be
proper to be read by the court to the jury at the
time that the transcripts are offered to the court.
I pulled this from the Arnold case of the Court of
Appeals.
(Pause)
THE COURT: All right. Any problem with that?
MR. BICE: Well, of course, I tend to—-we object just
because we—
THE COURT: I understand your objection.
MR. BICE: Okay. Thank you.
THE COURT: All right. Now, let’s have him
arraigned.
Does the clerk do the arraigning here?
THE CLERK: Yes.
MS. WHITE: Judge, as I’ve notified the court and Mr.
Bice, I need to move to amend the felony failure
to appear indictment.
THE COURT: All right.
MS. WHITE: For the record, I’ll read what the indict­
ment should be and then I’ll let you take my
Exhibit “A” and amend it.
THE COURT: You’re going to read the amended
indictment?

App.474a

MS. WHITE: Yes, Judge.
THE COURT: All right.
MS. WHITE: The felony failure to appear indictment
should say on or about January 10, comma, 1992,
in the City of Lynchburg, Virginia, M. Ismail
Sloan AKA Samuel Howard Sloan unlawfully,
feloniously, and after having been indicted on a
felony charge of attempted abduction and after
having been released on bond pursuant to Article
One Title nineteen point two of the Code of
Virginia did willfully fail to appear before the
Circuit Court for the City of Lynchburg as required
by his bond in violation of Virginia Code Section
nineteen point two dash one two eight.
THE COURT: So, the only change would be the last
five words?
MS. WHITE: As required by his bond.
THE COURT: As required by his bond?
MS. WHITE: Yes, sir.
THE COURT: All right. Mr. Bice, any response?
MR. BICE: We’ve been notified of the amendment.
THE COURT: All right.
MR. BICE: And we’re aware that they have the right to.
THE COURT: It will be admitted as an amendment.
All right.
MS. WHITE: That actually tracks the language of that
statute.
THE COURT: All right. Arraign Mr. Sloan, please.
THE CLERK: Mr. Sloan, please, stand.

App.475a

MR. SLOAN: (Complies.)
THE CLERK: The grand jury charges that on or about
May 19, 1992, through June 16, 1992, in the City
of Lynchburg, Virginia, M. Ismail Sloan AKA
Samuel Howard Sloan unlawfully and feloniously
did command, entreat, or otherwise attempt to
persuade Rolf E. Beneke to commit a felony,
Virginia Code Section eighteen point two dash
two nine, all against the peace and dignity of the
Commonwealth.
How say you? Are you guilty as charged in the
indictment or not guilty?
MR. SLOAN: Not guilty.
MR. BICE: Judge, for the record, I believe that that
indictment, also, was clarified by the Common­
wealth to be not a felony but to commit an
abduction.
THE COURT: A felony, to wit, an abduction.
MS. WHITE: Yes, sir. That’s correct.
THE COURT: All right.
MR. BICE: Your plea is still not guilty?
MR. SLOAN: Not guilty, yes, sir.
THE CLERK: The grand jury charges—
MR. BICE: Please, remain standing.
MR. SLOAN: (Complies.)
THE CLERK: The grand jury charges that on or about
September 5, 1991, in the City of Lynchburg,
Virginia, Ismail M. Sloan AKA Samuel Howard
Sloan unlawfully and feloniously and by force,

App.476a

intimidation, or deception and without legal
justification or excuse did attempt to abduct
Shamema H. Sloan, age nine, with the intent to
deprive such person of her liberty, Virginia Code
Section eighteen point two dash four seven and
eighteen point two dash two six, against the
peace and dignity of the Commonwealth.
Are you guilty as charged in the indictment or not
guilty?
MS. WHITE: Judge, before you take the defendant’s
plea that should be M. Ismail Sloan rather than
Ismail M. Sloan.
THE COURT: All right.
(Whereupon, an off—the—record
discussion was had.)
THE COURT: All right. Go ahead.
MS. WHITE: Did you take his plea?
THE COURT: How do you plead, guilty or not guilty?
MR. SLOAN: Not guilty.
THE CLERK: The grand jury charges that on or about
January 10, 1992, in the City of Lynchburg,
Virginia, M. Ismail Sloan AKA Samuel Howard
Sloan unlawfully, feloniously, and after having
been indicted on a felony charge of attempted
abduction and after having been released on bond
pursuant to Article One Title nineteen point two
of the Code of Virginia did willfully fail to appear
before the Circuit Court for the City of Lynchburg
as required by his bond, Virginia Code Section
nineteen point two dash one two eight, against
the peace and dignity of the Commonwealth.

App.477a

Are you guilty as charged in the indictment or not
guilty?
MR. SLOAN: Not guilty.
MR. BICE: Sit down.
MR. SLOAN: (Complies.)
THE COURT: On your pleas of not guilty do you wish
to be tried by the court or by a jury?
MR. SLOAN: By a jury.
THE COURT: All right. Raise your right hand.
MR. SLOAN: (Complies.)
(Mr. Sloan is sworn by the Court.)
THE COURT: What is your full and proper name?
MR. SLOAN: I was born Samuel Howard Sloan in
Richmond, Virginia and I changed any name
legally in 1979 in New York to M. Ismail Sloan;
however, what’s happened is that Virginia still
has my name on my driver’s license, my mother
still has my name on her will, and my father still
has my name Samuel Howard Sloan on his will
and, therefore, I wind up using two names,
because my mother’s and father’s—and some of
my children’s birth certificates, also, have the
name Samuel Howard Sloan.
THE COURT: All right.
MR. SLOAN: But this particular child, because it was
born after the name change—the birth certificate
on the child that is the subject of this case is M.
Ismail Sloan, which is, also, the name I got
married to her mother under.

App.478a

THE COURT: And it’s pronounced Ismail?
MR. SLOAN: Yes, Ismail.
THE COURT: All right. How old are you?
MR. SLOAN: I’m forty-eight.
THE COURT: How far have you been through school?
MR. SLOAN: Well, I attended graduate school at New
York University in linguistics.
THE COURT: All right. Have you discuss this case
with your attorney, Mr. Bice?
MR. SLOAN: Yes, I have.
THE COURT: How many times have you talked with
him about the case?
MR. SLOAN: I think I discussed it with him about ten
times. I’m not sure exactly.
THE COURT: And you’re ready for trial?
MR. SLOAN: Yes, I am.
THE COURT: Did you tell him of any witnesses on
your behalf?
MR. SLOAN: Well, since I was arrested and extradited
from San Francisco I don’t know of anybody in
this area and, therefore, I don’t have any witnesses
here. I don’t know anybody here really.
THE COURT: All right. Do you understand each of the
charges?
MR. SLOAN: Yes, I do.
THE COURT: And do you understand the minimum
and maximum possible punishment if you’re found
guilty?

App.479a

MR. SLOAN: Of a felony, yes.
THE COURT: All right. And do you understand on
your pleas of not guilty you have a right to a jury
and you discussed it with Mr. Bice and after the
discussion it’s your decision the case be tried by a
jury?
MR. SLOAN: Yes, it is.
THE COURT: And you understand each question I’ve
asked you and each answer you’ve given me?
MR. SLOAN: Yes.
THE COURT: All right. Let the record show the court
finds the defendant understands the nature and
the consequences of the charges and his pleas are
voluntarily and intelligently entered as is his
election to a trial by a jury.
All right, sheriff.
A COURT OFFICER: Yes.
THE COURT: Counsel, ready?
MR. BICE: Yes. Thank you, Judge.
MS. WHITE: Yes.
(Whereupon, counsel and parties
proceed to open court.)
(The jury panel is called and
the matter proceeded as follows:)
THE CLERK: Members of the jury, please, stand and
raise your right hand.
(Jurors sworn by the Clerk.)
THE CLERK: You may be seated.

App.480a

MR. BICE: Judge, should we have called the extra
juror?
THE COURT: Did you call—
MR. BICE: The one added to the list.
A COURT OFFICER: Timothy Spencer, number
twenty-six.
THE COURT: Ladies and gentlemen, good morning to
you. I understand this is your first day on jury
service.
All right. Thank you.
There are three charges to be tried in this courtroom
by a jury which will be made up of some of your
number.
Will you hand me each of the indictments, please?
THE CLERK: (Complies.)
THE COURT: I’ll read the indictments to you and
then we’ll ask certain questions of you, I will and
the attorneys will. The purpose of that, of course,
is to draw a jury that is indifferent in this matter.
The first charge is on or about September 5th of
1991 in the City of Lynchburg, Virginia, M. Ismail
Sloan also known as Samuel Howard Sloan
unlawfully and feloniously and by force, intimida­
tion, or deception and without legal justification
or excuse did attempt to abduct Shamema H.
Sloan, age nine, with the intent to deprive such
person of her liberty.
The second indictment is that on or about May
19th, 1992, through June 16, 1992, in the City of
Lynchburg, Virginia, M. Ismail Sloan also known

App.481a

as Samuel Howard Sloan unlawfully and feloni­
ously did command, entreat, or otherwise attempt
to persuade Rolf E. Beneke to commit a felony.
The third indictment is that on or about January
10th of 1992 in the City of Lynchburg, Virginia,
M. Ismail Sloan also known as Samuel Howard
Sloan unlawfully, feloniously, and after having
been indicted on the felony charge of attempted
abduction and after having been released on bond
pursuant to Article One Title nineteen point two
of the Code of Virginia did willfully fail to appear
before the Circuit Court for the City of Lynchburg
as required by his bond.
On each of those charges the defendant has
entered a plea of not guilty and that’s why you’re
here, that is, to decide the case. So, the three
charges amount to, one, a charge of attempted
abduction and, two, a charge of solicitation to
commit a felony, to wit, abduction, and, number
three, failure to appear in a felony trial.
The defendant has entered a plea of not guilty
and that is why you are here.
Mr. Sloan, would you stand a moment, please?
MR. SLOAN: (Complies.)
THE COURT: Thank you. Turn around so everybody
can see you.
MR. SLOAN: (Complies.)
THE COURT: Thank you. Take your seat, please.
MR. SLOAN: (Complies.)
THE COURT: Ladies and gentlemen, are any of you
related to or do you know the accused?

App.482a

His whole proper name, again, is M. Ismail Sloan,
S-l-o-a-n, and he’s also known as Samuel Howard
Sloan.
Anybody related to or know the defendant?
A JUROR: I don’t know him, but I worked with the man
that has custody of his daughter.
THE COURT: All right. And your name, sir?
A JUROR: Frederick L. Schwartz.
THE COURT: Frederick Schwartz?
A JUROR: Yes, sir.
THE COURT: And you work with whom?
A JUROR: Mr. Roberts.
THE COURT: All right. How long have you worked
with him?
A JUROR: Five years.
THE COURT: Has this matter been discussed?
A JUROR: Yes, sir.
THE COURT: This custody matter has been discussed?
A JUROR: Yes, sir.
THE COURT: All right. In light of that, if you were
selected as a juror, would you be able to be fair to
both sides?
A JUROR: No, sir.
THE COURT: I appreciate your candor.
Does, counsel, have any other questions of him?
MR. BICE: No, thank you, Judge.

App.483a

THE COURT: All right. Mr. Schwartz, you’ll be
excused. See the sheriff. I expect the sheriff will
want to see you before you leave.
Anybody else?
All right. Do any of you folks have a personal
interest in the trial or the outcome of this case?
Now, I’ve been given a list of potential witnesses
in the case. I’m told that most or all of them are
in the courtroom now and as I call their names I’ll
ask them to stand and remain standing and ask
you afterwards if you are related to or do you
know any of them.
Excuse me.
Shelby Roberts.
Richard Groff is it?
MR. GROFF: Yes, sir.
THE COURT: Please, correct me on the pronunciation.
Justin Mays.
John Litaker.
Bo Daniels.
Is it S. I. Mack?
R. D. Viar.
E. C. Wingfield.
Barbara Clay.
Janet Bogacik.
MS. WHITE: judge, she’s on call.
THE COURT: Oh, she’s on call.

App.484a

MS. WHITE: It might help to tell the jury that she’s a
travel agent at Cosmo Travel Agency on Memorial
Avenue.
THE COURT: Ah right. William G. Petty.
Is he on call?
MS. WHITE: Yes, sir, he is. He’s the Commonwealth’s
Attorney for the City of Lynchburg.
THE COURT: All right. E. C. Wingfield.
Did I call your name?
MR. WINGFIELD: Yes.
THE COURT: All right. Rolf Beneke.
MS. WHITE: Mr. Beneke is here. He’s ill. He may
actually be in the bathroom, Judge.
THE COURT: All right.
Thank you. Take your seats.
Now, I would ask the jurors are any of you related
to or do you know, first of all, any of those folks
who just stood as potential witnesses in the case?
All right. Let’s see.
Are you Miss Blatzer?
A JUROR: I’m Miss Blatzer, yes.
I’m acquainted with Bo Daniels’ mother.
THE COURT: With whose mother?
A JUROR: With Bo Daniels’ mother. He’s the young
man over there.
THE COURT: All right. How long and how well do you
know her?

Y~

App.485a

A JUROR: An acquaintance for fifteen or fourteen
years.
THE COURT: Have you ever discussed this matter
with her or Mr. Sloan?
A JUROR: No, sir.
THE COURT: At any proceeding?
A JUROR: No, sir.
THE COURT: All right. Thank you.
And you, sir.
A JUROR: I’m Frank Dearing and I know Mr.
Wingfield.
THE COURT: Okay. How long and how well?
A JUROR: I’ve known him since he was a little boy.
THE COURT: I see. And have you ever discussed this
case or Mr. Sloan or any pending civil suit with
him?
A JUROR: No, sir.
THE COURT: If you were selected as a juror, would
you be able to be fair to both sides and would you
be able to treat Mr. Wingfield as any other
witness?
A JUROR: Right.
THE COURT: You’re confident of that?
A JUROR: Yes.
THE COURT: All right. And, Miss Blatzer, I didn’t
ask you.

App.486a

Would you be able to treat Mr. Daniels as you
would any other witness if you were a juror in the
case?
A JUROR: Yes, I would.
THE COURT: All right. Yes, ma’am, your name?
A JUROR: Merle Lee and I know Shelby Roberts.
THE COURT: How long and how well?
A JUROR: Probably, twenty years but not on a personal
basis.
THE COURT: All right. Have you ever discussed Mr.
Sloan with her or this case or anything relating
to this case or any pending civil case related to
this case?
A JUROR: No, sir.
THE COURT: All right. If he or she is called as a wit­
ness, would you be able to treat Shelby Roberts
as you would any other witness?
A JUROR: Yes.
THE COURT: All right. Thank you.
MR. BICE: Judge, there’s one more.
THE COURT: Yes. Your name, please?
A JUROR: Louise Marshall.
THE COURT: All right.
A JUROR: I know Mr. Wingfield on a businesslike
basis but not very well.
THE COURT: You know Mr. Wingfield.

App.487a

And the same question as to the others. If you
were selected as a juror, could you be fair to both
sides?
A JUROR: Yes.
THE COURT: Could you judge Mr. Wingfield as you
would any other witness in the case?
A JUROR: Yes.
THE COURT: All right. Thank you.
Anybody else?
Now, there are several witnesses not now in the
courtroom; Janet Bogacik, who is I’m told the
travel agent.
Is that name familiar to any of you?
Yes. Your name?
A JUROR: Nancy Saltz. I’ve just been to Cosmo Travel
and met her.
THE COURT: I’m sorry?
THE WITNESS: I’ve just been to Cosmo Travel and
met her.
THE COURT: Oh, I see. All right.
■(,

Anybody else?
And your name again?
A JUROR: Nancy Saltz.
THE COURT: All right. William Petty, who is not now
in the courtroom. He’s the Commonwealth Attorney
for the City of Richmond—Lynchburg, excuse me.
Do any of you know or are related to Mr. Petty?

App.488a

Rolf Beneke, who is not now in the courtroom.
What’s his occupation?
MS. WHITE: Judge—
THE COURT: Is he a Lynchburg resident?
MS. WHITE: Yes, he is. He’s a—he has a foreign accent
and he’s a builder/contractor.
THE COURT: All right.
MS. WHITE: I think Investigator Wingfield is going
to see if he needs help.
THE COURT: All right. It’s spelled B-e-n-e-k-e.
MS. WHITE: People may know him as Adrian actually.
MR. BICE: He has an alias, Adrian Vandercamp
(phonetic).
MS. WHITE: Here he is.
THE COURT: This is Mr. Beneke?
MS. WHITE: Yes.
THE COURT: All right. Take a seat, please.
MR. BENEKE: (Complies.)
THE COURT: Do any of you know or are you related
to Mr. Beneke?
Albright. Thank you.
The attorneys in the case are Miss White for the
Commonwealth and Mr. Bice for the defense.
Are any of you related to or do you know either of
the attorneys in the case?
Yes, ma’am, your name?

App.489a

A JUROR: Christine Pickle.
THE COURT: Which one?
A JUROR: I know Mr. Bice.
THE COURT: You know Mr. Bice?
A JUROR: Yes.
MR. BICE: Judge, my daughter goes to Bedford Hills
School and she’s the secretary there.
THE COURT: All right. Miss Pickle, would you be able
to be fair to both sides if you’re a juror in the case?
A JUROR: Yes.
THE COURT: All right. Anybody else?
Yes, ma’am. You are who? Your name, please?
A JUROR: Eleanor Braumiller.
THE COURT: All right.
A JUROR: I know Mr. Bice.
THE COURT: All right. Would you be able to be fair
to both sides if you’re a juror in the case?
A JUROR: Yes.
THE COURT: All right. No question in your mind?
A JUROR: No.
THE COURT: All right. Thank you.
Have any of you heard anything about this case
from any source before coming into the courtroom?
Have you heard anything about Mr. Sloan, read
anything, heard anything on television, or otherwise
about this case, about Mr. Sloan, about any
related cases to this?

App.490a

Anybody?
Let the record show there is no response.
I assume from your silence none of you have heard
anything about the case or read anything about
the case or seen anything on television or heard
it on the radio or from any other source?
All right. I treat the silence as a negative response
to the question.
Have any of you formed an opinion as to guilt or
innocence of the accused?
Are you sensitive of any bias or prejudice against
either side?
Anybody for any reason?
Do all of you understand that in this case as in
any criminal case the defendant is presumed to
be innocent and the burden is on the Common­
wealth to prove guilt as to each charge, every ele­
ment of each charge, and to prove it beyond a
reasonable doubt?
Does everybody understand that?
Do you further understand that with the burden
being on the Commonwealth there’s no burden on
the defense to produce any evidence?
Does everybody understand that?
And do you further understand that that being
the case, there being no burden—I cite that as a
cardinal rule of law, that there’s no burden on the
defendant to produce any evidence.
Do any of you disagree with that law?

App.491a

Do you have a videotape here to show?
THE CLERK: No. sir.
THE COURT: You’ve had orientation?
A COURT OFFICER: Yes, sir.
THE COURT: All right. Thank you.
Now, two more questions and then we’ll see what
questions the attorneys have.
It is possible this case may last beyond today.
Would that cause anybody any irreparable harm;
in other words, is there some conflict that you
have in your personal schedule that you just can’t
overcome?
Miss Saltz is it?
A JUROR: I’m a college professor at Lynchburg College
and the first day of classes is tomorrow and I have
four classes.
THE COURT: Suppose you were ill?
I don’t want to wish it on you, but if it happened,
what will you do?
A JUROR: I haven’t been sick yet. So, I don’t know.
THE COURT: Well,—
A JUROR: I mean you can cancel a class but practically
never on the first day.
THE COURT: I know it would be very difficult.
Anybody else?
(Whereupon, an off-the-record discussion
was had between the Clerk and the Court.)

App.492a

THE COURT: I have to ask each of you are any of you
under eighteen years of age?
Are any of you who have not lived in the City of
Lynchburg? You all live in the city, don’t you?
Are there any of you who have not lived in the
City of Lynchburg for six months?
Any of you who have not lived in the State of
Virginia for twelve months?
All right. Anything else?
THE CLERK: Have any of you served on a jury in the
last three years?
THE COURT: Your name, sir?
A JUROR: Rodney Bell.
THE CLERK: When was that?
A JUROR: I believe it was in 1990.
THE CLERK: 1990?
A JUROR: Yes, in this court.
THE COURT: Anybody else?
Yes, sir. When did you serve?
A JUROR: Ninety-one.
THE COURT: Ninety-one. And your name is?
A JUROR: Arnold Cheatham.
THE COURT: Counsel, step up here for a moment,
please.
(Whereupon, an off-the-record
discussion was had.)

App.493a

THC CLERK: Mr. Cheatham, do you know what
month?
A JUROR: (Indicates.)
THE CLERK: So, you probably never stayed and
qualified.
A JUROR: Yes, sir.
(Whereupon, an off-the-record
discussion was had.)
THE COURT: Mr. Bell, did you actually serve on the
jury case?
A JUROR: Yes, sir.
(Whereupon, an off-the-record
discussion was had.)
THE COURT: Ladies and gentlemen, one more question
that I have is this and it’s a catch all question.
Do any of you know of any reason why you
wouldn’t be able to give a fair trial to both sides,
under the law and the evidence in this case?
Anybody?
All right. Thank you. Subject to the clerk checking
on Mr. Bell’s date, actual date—
A JUROR: It might have been eighty-nine. I believe it
was ninety, but it may have been eighty-nine.
THE COURT: All right. Does counsel have further
questions?
MS. WHITE: Judge, I just have one question.
I’m Kimberley White and Kimberly Slayton was
my maiden name, because I’m newly married.

App.494a

Do any members of the panel know or knew family
members of Mr. Sloan?
His father, who is now deceased, was Leroy B.
Sloan. He was an attorney here in Lynchburg and
I believe, also, worked with the Internal Revenue
Service here in Lynchburg.
Yes, ma’am?
A JUROR: I knew him.
MS. WHITE: Okay. Your name?
A JUROR: Merle Lee.
MS. WHITE: Okay. Miss Lee. would your knowledge
or familiarity with Mr. Sloan’s father cause you
in anyway to put any weight one way or the other,
either on the defense or on the Common­
wealth’s . . .
[...]

App.495a
EXHIBIT W
APPEAL OF CRIMINAL CONVICTION TO COURT
OF APPEALS OF VIRGINIA REHEARING AND
REHEARING EN BANC GRANTED
(APRIL 25, 2018)
Exhibit W
Appeal of Criminal Conviction to Court of Appeals
of Virginia
Rehearing and rehearing En Banc Granted

App.496a
ORDER OF THE COURT
OF APPEALS OF VIRGINIA
(OCTOBER 4, 1994)
IN THE COURT OF APPEALS OF VIRGINIA
M. ISMAIL SLOAN, a/k/a
SAMUEL HOWARD SLOAN,
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Record No. 0934-93-3
Circuit Court Nos. CR91003195-00 and
CR92003936-01
Upon an appeal from a judgment rendered by the
Circuit court of the City of Lynchburg
Before: COLEMAN, KOONTZ and ELDER, Judges.
For reasons stated in writing and filed with the
record, appellant’s conviction of failure to appear
(CR92003936-01) is affirmed.
This Court previously denied the appellant’s
petition for appeal with regard to appellant’s conviction
of attempted abduction (CR91003195-00).

App.497a

It is ordered that the trial court allow counsel for
the appellant a fee of $400 for services rendered the
appellant on this appeal, in addition to counsel’s costs
and necessary direct out-of-pocket expenses.
The Commonwealth shall recover of the appellant
the amount paid court-appointed counsel to represent
him in this proceeding, counsel’s costs and necessary
direct out-of-pocket expenses, and the fees and costs
to be assessed by the clerk of this court and the clerk
of the trial court.
This order shall be certified to the trial court.
Costs due the Commonwealth by appellant in court of
Appeals of Virginia:
Attorney’s fee $400.00 plus costs and expenses
Filing fee 25.00

A Copy,
Teste:
Richard R. James
Clerk
By: /s/ Marly V.P. Rlilg
Deputy Clerk
Appellee’s Costs:
Attorney’s fee
$50.00
Appellee’s brief
35.20
Petition for rehearing and
suggestion for rehearing en banc 33.00

App.498a

Brief upon rehearing En banc

139.20

Teste:
Cynthia L. McCoy
Clerk
By: /s/ Marly V.P. Rlilg
Deputy Clerk
Additional costs due the Commonwealth pursuant
to Court’s June 6, 1995 order:
Attorney’s fee $200.00 plus costs and expenses

A Copy,
Teste:
Cynthia L. McCoy
Clerk
By: /s/ Marly V.P. Rlilg
Deputy Clerk

App.499a

ITEMIZED STATEMENT OF COSTS
(APRIL 16, 1997)
IN THE COURT OF APPEALS OF VIRGINIA

M. ISMAIL SLOAN, a/k/a
SAMUEL HOWARD SLOAN,
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Record No. 0934-93-3
Circuit Court Nos. CR91003195-00 and
CR92003936-01
Attorney’s fee:
(Code § 14.1-196)

$500

Appellee’s brief:
(Code § 14.1-182)

$35.20

Petition for rehearing: $33.00
and suggestion for rehearing en banc
(Rule 5A:30)
Brief upon rehearing:
en banc
(Code § 14.1-182)

$139.20

App.501a

MEMORANDUM OPINION* OF THE COURT
OF APPEALS OF VIRGINIA
(OCTOBER 4, 1994)
IN THE COURT OF APPEALS OF VIRGINIA

M. ISMAIL SLOAN, a/k/a
SAMUEL HOWARD SLOAN,
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Record No. 0934-93-3
Circuit Court Nos. CR91003195-00 and
CR92003936-01
From the Circuit Court of the City of Lynchburg
James M. Lumpkin, Judge Designate
Before: Sam W. COLEMAN III, Judge.
In this criminal appeal, we hold that the amended
indictment did not vary from the Commonwealth’s
evidence produced at trial. Therefore, we affirm the
appellant’s conviction for failure to appear in violation
of his bond.
* Pursuant to Code§ 17-116.010 this opinion is not designated
for publication.

App.502a

M. Ismail Sloan, appellant, argues that the
indictment varied fatally from the commonwealth’s
proof because the evidence proved that the January
10, 1992, trial was continued and that on that date, no
trial was held. Therefore, according to Sloan, he could
not be convicted of failure to appear for trial on Janu­
ary 10, when no trial was scheduled on that date. This
argument, however, addresses whether the evidence
is sufficient to support the conviction; it does not
address whether the indictment varied from the proof
adduced at trial. We do not....
The offense with which appellant was charged is
“willfully fail [in g] to appear before any court... as re­
quired.” See Code § 19.2-128. To prove a violation of
Code § 19.2-128 as charged in the indictment, the
Commonwealth had to prove that the appellant was
“required” to be present on January 10, 1992.
The Commonwealth presented evidence that
appellant’s trial had been scheduled for January 10,
1992; that prior to trial, the court had issued a capias
for the defendant and had declared him a fugitive for
leaving the Commonwealth in violation of the terms
of his bond; and that by order dated January 3, 1992,
the trial court continued “the jury trial scheduled for
January 10, 1992,” “until such time as the defendant
is apprehended on the capias or surrenders.” The
Commonwealth further proved that appellant failed
to appear in the Circuit Court for the City of Lynchburg
on January 10, 1992; that he had been released on a
bail piece conditioned upon his promise to appear
“before any court or judge to which the case is
rescheduled, continued, transferred, certified, or
appealed”; that the case was scheduled for trial Janu-

App.503a

ary 10, 1992; that although trial of the case was con­
tinued,! the appellant was required under the
conditions of his bond to be present on that date; and
that his failure to appear on January 10, 1992, was
willful.
[...]
Koontz, J., dissenting.
I respectfully dissent. In simple terms, the issue
in this appeal is whether the Commonwealth proved
the offense charged in the indictment. See Mitchell v.
Commonwealth, 141 Va. 541, 560, 127 S.E. 368, 374
(1925). In my view, it did not.
Code § 19.2-128 makes it a crime to willfully fail
to appear before any Court “as required.” Pursuant to
this statute, the indictment charged that Sloan
willfully failed to appear before the trial court on Jan­
uary 10, 1992, “as required by [his] bond.”
January 10, 1992 was the date previously set for
Sloan’s trial on an unrelated criminal charge. Acting
upon information that Sloan had left the
Commonwealth in violation of the conditions of his
bond and a letter from Sloan expressing his intent not
to appear on that date, the trial court on January 3,
1992 continued the case generally, declared Sloan a
fugitive, and issued a capias for Sloan’s arrest. Sloan
1 In fact, the Commonwealth introduced a letter dated January
3, 1992, that the defendant sent to the Commonwealth’s attor­
ney, received January 9, 1992, the day before his scheduled trial
date, stating “I am very, very sorry to say it will be impossible for
me to appear in court... on January 10, the scheduled date for
my trial.”

■O

App.504a

did not appear before the trial court on January 10
1992.
Upon these facts, the majority concludes that the
Commonwealth proved that Sloan “was required
under the conditions of his bond” to appear in the trial
court on January 10, 1992. The evidence in the record,
in my view, simply does not support that conclusion.
The pertinent conditions of Sloan’s bond required that
he appear before the trial court on any date to which
his case was “rescheduled” or “continued.” The trial
court’s order of January 3, 1992, although entered in
anticipation that Sloan willfully would not appear on
January 10, ... .
[...]

App.505a

ORDER OF THE COURT OF
APPEALS OF VIRGINIA DENYING
PETITION FOR REHEARING
(NOVEMBER 18, 1994)
IN THE COURT OF APPEALS OF VIRGINIA
M. ISMAIL SLOAN, aIkIa
SAMUEL HOWARD SLOAN,
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Record No. 0934-93-3
Circuit Court Nos. CR91003195-00 and
CR92003936-01
Upon a Petition for Rehearing
Before: COLEMAN, KOONTZ and ELDER, Judges.
On consideration of the petitions of the appellant
to set aside the judgment rendered herein on the 4th
day of October, 1994 and grant a rehearing thereof,
the said petitions are denied.
A Copy,
Teste:
Richard R. James
Clerk
By: Signature not legible
Deputy Clerk

App.506a
ORDER OF THE COURT OF
APPEALS OF VIRGINIA DENYING
PETITION FOR REHEARING EN BANC
(FEBRUARY 3, 1995)
IN THE COURT OF APPEALS OF VIRGINIA
M. ISMAIL SLOAN, aJkJa
SAMUEL HOWARD SLOAN,
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Record No. 0934-93-3
Circuit Court Nos. CR91003195-00 and
CR92003936-01
Upon a Petition for Rehearing En Banc
Before: COLEMAN, KOONTZ and ELDER, Judges.
on January 19, 1995 came the appellant, by courtappointed counsel, and filed a petition praying that
the Court set aside the order entered herein on Janu­
ary 5, 1995 and reinstate the rehearing en banc pro­
ceedings in this case.
On consideration whereof, the petition is granted,
the order entered on January 5, 1995 is vacated and
the rehearing en banc proceedings are reinstated on

App.507a

the docket of this Court. In accordance therewith, the
mandate entered herein on October 4, 1994 is stayed
pending the decision of the Court en banc, and the
appeal is reinstated on the docket of this Court.
The time for filing the appellee’s answering brief
shall commence from the date of this order.

A Copy,
Teste:
Richard R. James
Clerk
By: Signature not legible
Deputy Clerk

App.508a
ORDER OF THE COURT OF
APPEALS OF VIRGINIA
(JANUARY 5, 1995)
IN THE COURT OF APPEALS OF VIRGINIA
M. ISMAIL SLOAN, a/k/a
SAMUEL HOWARD SLOAN,
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Record No. 0934-93-3
Circuit Court Nos. CR91003195-00 and
CR92003936-01
It appears to the court that appellant’s courtappointed counsel has not complied with this Court’s
order of December 15, 1994.
Thus the rehearing en banc proceedings are dis­
missed and the stay of this Court’s October 4, 1994
mandate is lifted and the trial court’s decision is
affirmed.
A Copy,
Teste:
Richard R. James
Clerk
By: Signature not legible
Deputy Clerk

App.509a
ORDER OF THE COURT OF
APPEALS OF VIRGINIA
(JUNE 6, 1995)
IN THE COURT OF APPEALS OF VIRGINIA
M. ISMAIL SLOAN, a/k/a
SAMUEL HOWARD SLOAN,
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Record No. 0934-93-3
Circuit Court Nos. CR91003195-00 and
CR92003936-01
Upon Rehearing En Banc
Before: MOON, Chief Judge., BAKER, BENTON,
COLEMAN, KOONTZ, WILLIS, ELDER, BRAY and
FITZPATRICK, Judges.
On October 4, 1994, in an unpublished opinion, a
majority of a panel of this Court affirmed the convic­
tion of M. Ismail Sloan, a/k/a Samuel Howard Sloan,
for failure to appear in accordance with the terms of
his bond in violation of Code § 19.2-128. Judge Koontz
dissented from that opinion.

App.510a

A rehearing en banc was heard on May 11, 1995.
For the reasons stated in the panel's majority opinion,
the Court, sitting en banc, affirms the judgment of the
trial court. Accordingly, the stay of this Court’s Octo­
ber 4, 1994 mandate is lifted. Chief Judge Moon,
Judges Benton and Koontz would reverse the appel­
lant’s conviction for the reasons stated in Judge
Koontz’s dissent to the panel’s opinion.
It is ordered that the trial court allow counsel for
the appellant an additional fee of $200 for services
rendered the appellant on the rehearing portion of this
appeal, in addition to counsel’s costs and necessary
direct out-of-pocket expenses. This amount shall be
added to the costs due the Commonwealth in the Oct­
ober 4, 1994 mandate.
This order shall be certified to the trial court.
A Copy,
Teste:
Richard R. James
Clerk
By: Signature not legible
Deputy Clerk

App.511a

ORDER OF THE COURT OF
APPEALS OF VIRGINIA
(DECEMBER 15, 1994)
IN THE COURT OF APPEALS OF VIRGINIA

M. ISMAIL SLOAN, a/k/a
SAMUEL HOWARD SLOAN,
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Record No. 0934-93-3
Circuit Court Nos. CR91003195-00 and
CR92003936-01
Upon a Petition for Rehearing En Banc
This court’s order of November 18, 1994 indicated
that the Court granted the petition for rehearing en
banc filed by appellant pro se in this case.
The Court hereby amends the order to indicate
that a rehearing en banc is granted upon consideration
of the petition filed by court-appointed counsel for the
appellant.
The Court grants the appellee’s motion to strike
the petition for rehearing en banc filed by appellant
pro se.

App.512a

The rehearing en banc shall proceed upon the
petition for rehearing by appellant’s counsel and upon
such briefs as are filed by said counsel.
Counsel for the appellant shall be given 15 days
from the date of this order to refile an en banc brief
and appendix in accordance with Rule 5A:35(b). The
time for the filing of appellee’s answering brief shall
commence from the date the appellant’s en banc brief
is refiled.

A Copy,
Teste:
Richard R. James
Clerk
By: Signature not legible
Deputy Clerk

App.513a

ORDER OF THE COURT OF
APPEALS OF VIRGINIA
(NOVEMBER 18, 1994)
IN THE COURT OF APPEALS OF VIRGINIA

M. ISMAIL SLOAN, aJkIa
SAMUEL HOWARD SLOAN,
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Record No. 0934-93-3
Circuit Court Nos. CR91003195-00 and
CR92003936-01
Upon a Petition for Rehearing En Banc
Before the Full Court
On October 18, 1994, came the appellant, in proper
person, and filed a petition praying that the Court set
aside the judgment rendered herein on October 4,
1994, and grant a rehearing en banc thereof.
On consideration whereof, the petition for rehear­
ing en banc is granted, the mandate entered herein on
October 4, 1994, is stayed pending the decision of the
Court en bane, and the appeal is reinstated on the
docket of this Court.

App.514a

The parties shall file briefs in compliance with
Rule 5A:35. It is further ordered that the appellant
shall file with the clerk of this Court ten additional
copies of the appendix previously filed in this case.
A Copy,
Teste:
Richard R. James
Clerk
By: Signature not lesable
Deputy Clerk

App.515a
ORDER OF THE COURT OF
APPEALS OF VIRGINIA
(NOVEMBER 18, 1993)
IN THE COURT OF APPEALS OF VIRGINIA
M. ISMAIL SLOAN, a/k/a
SAMUEL HOWARD SLOAN,
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Record No. 0934-93-3
Circuit Court Nos. CR91003195700 and
CR92003936-01
Upon a Petition for Rehearing
Before: BENTON, COLEMAN and WILLIS, Judges.
On consideration of the petition of the appellant
to set aside in part the judgment rendered herein on
the 19th day of October, 1993 and grant a rehearing
thereof, the said petition is denied:
A Copy,
Teste:
Signature not legible
Acting Clerk

App.516a
ORDER OF THE COURT OF
APPEALS OF VIRGINIA DENYING
PETITION FOR REHEARING EN BANC
(JULY 24, 1995)
IN THE COURT OF APPEALS OF VIRGINIA
M. ISMAIL SLOAN, a/k/a
SAMUEL HOWARD SLOAN,
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Record No. 0934-93-3
Circuit Court Nos. CR91003195-00 and
CR92003936-01
Upon a Petition for Rehearing En Banc
Before the Full Court
On consideration of the petition for rehearing~
banc of the appellant to set aside the judgment
rendered herein on the 6th day of June, 1995 and
grant a rehearing en banc thereof, the said petition is
denied.
A Copy,

App.517a

Teste:
Richard R. James
Clerk
By: Signature not legible
Deputy Clerk

App.518a

PAROLEE ORDER
(MAY 6, 1994)
COMMONWEALTH OF VIRGINIA
Department of Corrections
Director
P.O. Box 26963
Richmond, Virginia 23261
(804) 674-3000
To: Court Clerk, Sentencing Court(s)
From: Community Release Unit (804) 674-3046
Re: Ismail Sloan
VSP No:
204991

Date:
5/6/94

Race:
W

Sex:
M

Dob:
9/7/44

Please be advised that this prisoner will be
released on/about 5/12/94 by the following parole type:
M Discretionary
Sentencing Jurisdiction
Lynchburg City Circuit ct.
Date of Offense
1/13/93
Offense
Attempted Kidnap Solicit for Felony Not Guilty
Sentence
5 years
Planned locality of residence:

App.519a

Lynchburg, VA
Comments:
We hope that the parolee/release will make
proper adjustment to the community with the assis­
tance of the Probation and Parole officer.

App.520a
PAROLEE ORDER
(MAY 6, 1994)
COMMONWEALTH OF VIRGINIA
Department of Corrections
Director
P.O. Box 26963
Richmond, Virginia 23261
(804) 674-3000
To: Chief Judge, Sentencing Court(s)
From: Community Release Unit (804) 674-3046
Re: Ismail Sloan
VSP No:
204991

Date:
5/6/94

Race:
W

Sex:
M

Dob:
9/7/44

Please be advised that this prisoner will be
released on/about 5/12/94 by the following parole type:
13 Discretionary
Sentencing Jurisdiction
Lynchburg City Circuit ct.
Date of Offense
1/13/93
Offense
Attempted Kidnap Solicit for Felony Not Guilty
Sentence
5 days
Planned locality of residence:

App.521a

Lynchburg, VA
Comments:
We hope that the parolee/release will make
proper adjustment to the community with the assis­
tance of the Probation and Parole officer.

App.522a

LETTER FROM DAVID B. BICE
(FEBRUARY 16, 1996)
NELSON & BICE, P.C.
Attorneys at Law
716 Court Street
P.O. Box 1358
Lynchburg, Virginia 24505
John Randolph Nelson
David B. Bice
Telephone (804) 528-1078
Facsimile (804) 845-0510
Larry B. Palmer, Clerk
Lynchburg Circuit Court
Post Office Box 4
Lynchburg, Virginia 24505
Re: Commonwealth of Virginia v. Ismail Sloan
Ismail Sloan v. Commonwealth of Virginia
Dear Mr. Palmer:
Please find enclosed a list of expenses in the
above captioned matters which I would appreciate
your submitting for payment at your earliest
convenience.
Thanking you for your assistance, I remain
Very truly yours,
Nelson & Bice, P.C.
/s/ David B. Bice

App.523a

ORDER OF THE SUPREME COURT OF VIRGINIA
(OCTOBER 25, 1995)
IN THE SUPREME COURT OF VIRGINIA

M. ISMAIL SLOAN, ETC,
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Record No. 951251
Court of Appeals No. 0934-93-3
From the Court of Appeals of Virginia
Upon review of the record in this case and
consideration of the argument submitted in support of
and in opposition to the granting of an appeal, the
Court refuses the petition for appeal.
The Circuit Court of the City of Lynchburg shall
allow court-appointed counsel the fee set forth below
and also counsel’s necessary direct out-of-pocket
expenses. And it is ordered that the Commonwealth
recover of the appellant the costs in this Court and in
the courts below.
Justice Koontz took no part in the consideration
of this case.

App.524a

A Copy,
Teste:
David B. Beach
Clerk
By: Signature not le sable
Deputy Clerk

costs due the commonwealth by appellant in Supreme
Court of Virginia:
Attorney’s fee $200.00 plus costs and expenses
Teste:
David B. Beach
Clerk
By: Signature not legible
Deputy Clerk

App.525a

ORDER OF THE SUPREME COURT OF VIRGINIA
(JANUARY 19, 1996)
IN THE SUPREME COURT OF VIRGINIA

M. ISMAIL SLOAN, ETC,
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Record No. 951251
Court of Appeals No. 0934-93-3
Upon a Petition for Rehearing
On consideration of the motion filed by counsel
and the petition, filed by the appellant, in proper
person, to set aside the judgment rendered herein on
the 25th day of October, 1995 and grant a rehearing
thereof, the prayer of the said petition is denied.
Justice Koontz took no part in the consideration
of this case.

Teste:
David B. Beach
Clerk

App.526a

LETTER FROM DAVID B. BICE
(JUNE 16, 1996)
NELSON & BICE, P.C.
Attorneys at Law
716 Court Street
P.O. Box 1358
Lynchburg, Virginia 24505
John Randolph Nelson
David B. Bice
Telephone (804) 528-1078
Facsimile (804) 845-0510
David B. Beach, Clerk
Supreme Court of Virginia
100 North Ninth street
Richmond, Virginia 23219
Re: Ismail Sloan a/k/a Samuel Howard Sloan v.
Commonwealth of Virginia
Circuit Court Number: CR91003195-00
CR92003926-01
Dear Mr. Beach:
Please find enclosed a Notice of Appeal which I
would appreciate your filing in the above captioned
matter at your earliest convenience.
Thanking you for your assistance, I remain
Very truly yours,
Nelson & Bice, P.C.
/s/ David B. Bice
DBB/ltt
xc: Larry B. Palmer, Clerk, Lynchburg Circuit Court

App.527a

NOTICE OF APPEAL
(JUNE 16, 1995)
IN THE SUPREME COURT OF VIRGINIA

M. ISMAIL SLOAN, a/k/a
SAMUEL HOWARD SLOAN,
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Circuit Court Nos. CR91003195-00 and
CR92003936-01
Comes now the Appellant, M. ISMAIL SLOAN,
a/k/a, SAMUEL HOWARD SLOAN, by counsel who
hereby notes his appeal of the decision of the Court of
Appeals of Virginia upon rehearing en banc. A tran­
script of the case will be filed which has heretofore been
filed with the Court of Appeals and thus already
obtained from the Court reporter.

M. Ismail Sloan, a/k/a
Samuel Howard Sloan
By: Signature not legible
Of Counsel

App.529a

LETTER FROM DAVID B. BICE
(NOVEMBER 18, 1993)
NELSON & BICE, P.C.
Attorneys at Law
716 Court Street
P.O. Box 1358
Lynchburg, Virginia 24505
John Randolph Nelson
David B. Bice
Telephone (804) 528-1078
Facsimile (804) 845-0510
Patricia G. Davis, Clerk
Court of Appeals of Virginia
109 North Eighth street
Richmond, Virginia 23219
Re: Commonwealth of Virginia v. Ismail Sloan
Dear Ms. Davis:
Please find enclosed a Motion which I would
appreciate your filing in the above captioned matter
at your earliest convenience.
Thanking you for your assistance, I remain
Very truly yours,
Nelson & Bice, P.C.
/s/ David B. Bice
DBB/ltt
xc: Larry B. Palmer, Clerk,
Lynchburg Circuit Court

App.530a
MOTION FOR EXTENSION OF TIME TO
FILE DESIGNATION OF APPENDIX
AND OPENING BRIEF
(NOVEMBER 19, 1993)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH OF VIRGINIA,
Plaintiff,
v.
ISMAIL M. SLOAN, aIkIa
SAMUEL H. SLOAN,
Defendant.
Record No.
Comes now counsel for the Defendant, ISMAIL M.
SLOAN a/k/a SAMUEL H. SLOAN, who requests an
extension of the time limit in which to file the desig­
nation of appendix and a thirty (30) day extension of the
time in which to file the opening brief, having
conferred with the Attorney General's office, there is
no objection to this request.
/s/ David B. Bice
Counsel for Defendant

App.531a

David B. Bice, Esquire
Nelson & Bice, P.C.
Post Office Box 1358
Lynchburg, Virginia 24505
(804) 528-1078

App.532a

ORDER OF THE COURT OF
APPEALS OF VIRGINIA
(OCTOBER 19, 1993)
IN THE COURT OF APPEALS OF VIRGINIA
M. ISMAIL SLOAN, a/k/a
SAMUEL HOWARD SLOAN,
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Record No. 0934-93-3
Circuit Court Nos. CR91003195-00 and
CR92003936-01
From the Circuit Court of the City of Lynchburg
Before: BENTON, COLEMAN and WILLIS, Judges.
Appellant’s motion to not consider appellee’s brief
in opposition is granted. The brief in opposition was
not timely filed, and no motion for extension of time
was filed. Rule 5A:13.
This petition for appeal is granted in part and
denied in part. And an appeal is awarded to the peti­
tioner from a judgment of the Circuit court of the City
of Lynchburg, dated January 13, 1993, with respect to
the following question:

App.533a

Whether the language of the indictment alleging
a felony violation of bond specifically by reason of
appellant’s failure to appear on January 10, 1992
presents a fatal variance from the evidence presented.
No bond is required. The clerk is directed to certify
this action to the trial court and to all counsel of
record.
Pursuant to Rule 5A:25, an appendix is required
in this appeal and shall be filed by the appellant at
the time of the filing of the opening brief.
The remainder of the petition for appeal is denied
for the following reason:
“When considering the sufficiency of the evidence
on appeal of a criminal conviction, we must view all
the evidence in the light most favorable to the
Commonwealth and accord to the evidence all reason­
able inferences fairly deducible therefrom.” Traverso
v. Commonwealth, 6 Va. App. 172, 176, 366 S.E.2d
719, 721 (1988).
An order of the circuit court awarded custody of
appellant’s daughter, Shamema Honzagool Sloan, to
Mr. and Ms. Roberts. On September 5, 1991, appellant
visited with his daughter at the home of appellant’s
mother. Richard Groff, who was present to supervise
the visit, testified that appellant took his daughter to
an awaiting rental car. After appellant started the
car, Groff opened the door and grabbed the steering
wheel. Appellant accelerated, dragging Groff approx­
imately 100 yards, and attempted to push Groff away
from the car. After a struggle ensued, Groff broke the
key in the ignition, and Groff removed the daughter
from appellant’s rental car.

App.534a

The evidence further proved that appellant had
rented a car using the name Richard Bozulich. The
rental was for a one-way trip from Lynchburg, Virginia
to Greenville, South Carolina. Among the documents
found in appellant’s possession on September 5, 1991,
were two airline tickets for travel from Greenville, south
Carolina to the Orient and back. The tickets were in
the names of Richard Bozulich and S. Honzagool.
Appellant also had in his possession his passport, his
daughter’s passport, and his daughter's birth
certificate. Appellant mentioned he had a suitcase in the
trunk of the car on that day.

App.535a

LETTER FROM DAVID B. BICE
(MAY 5, 1993)
NELSON & BICE, P.C.
Attorneys at Law
716 Court Street
P.O. Box 1358
Lynchburg, Virginia 24505
John Randolph Nelson
David B. Bice
Telephone (804) 528-1078
Facsimile (804) 845-0510
Patricia G. Davis, Clerk
Court of Appeals of Virginia
109 North Eighth street
Richmond, Virginia 23219
Re: Commonwealth of Virginia v. Ismail M. Sloan
a/k/a Samuel H. Sloan
Dear Ms. Davis:
Please find enclosed a Motion for Extension of
Time to File Petition for Appeal which I would
appreciate your filing in the above captioned matter
at your earliest convenience.
I have also enclosed a copy of our original Notice
of Appeal which was initially forwarded on February
5, 1993.
Thanking you for your assistance, I remain

App.537a
MOTION FOR EXTENSION OF TIME TO
FILE PETITION FOR APPEAL
(NOVEMBER 19, 1993)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH OF VIRGINIA,
Plaintiff,
v.
ISMAIL M. SLOAN, a/k/a
SAMUEL H. SLOAN,
Defendant.
Record No.
Comes now counsel for the Defendant, ISMAIL M.
SLOAN a/k/a SAMUEL H. SLOAN, who states as
follows:
(1)That the demands of his practice at this time
will not permit an effective and adequate effort to
prepare such a petition; and
(2) That having conferred with the commonwealth’s
Attorney for the City of Lynchburg, Virginia, that that
office has no objection to a sixty (60) day extension of
time to prepare and file Defendant’s petition for
appeal.

App.538a

Wherefore, counsel for the Defendant respectfully
requests that the forty (40) day period in which to file
a petition for appeal in the above referenced matter
may be extended by an additional sixty (60) days.
/s/ David B. Bice
Counsel for Defendant
David B. Bice, Esquire
Nelson & Bice, P.C.
Post Office Box 1358
Lynchburg, Virginia 24505
(804) 528-1078

App.539a

STRAIGHT INDICTMENT
(JULY 6, 1992)
COMMONWEALTH OF VIRGINIA-IN THE
CIRCUIT COURT OF THE CITY OF LYNCHBURG
The Grand Jury charges that:
On or about May 19, 1992 through June 16, 1992
in the City of Lynchburg, Virginia M. ISMAIL SLOAN
a/k/a SAMUEL HOWARD SLOAN unlawfully and
feloniously did command, entreat or otherwise
attempt to persuade Rolf E. Beneke, to commit a
felony,
Va. Code Section 18.2-29
SECOND COUNT
On or about the same date in the City of
Lynchburg, Virginia, said person, unlawfully and
feloniously
A True Bill,
Signature not legible
Foreman
THIS INDICTMENT found at the above Term, of
the Circuit Court of Lynchburg, on the evidence of the
witnesses listed on the reverse side who were duly
sworn and sent to the Grand Jury by the Court.

App.540a

STRAIGHT INDICTMENT
(JULY 6, 1992)
COMMONWEALTH OF VIRGINIA-IN THE
CIRCUIT COURT OF THE CITY OF LYNCHBURG
The Grand Jury charges that:
On or about January 10, 1992 in the City of
Lynchburg, Virginia M. ISMAIL SLOAN a/k/a
SAMUEL HOWARD SLOAN unlawfully and feloni­
ously and after having been indicted on a felony
charge of attempted abduction and after having been
released on bond pursuant to Article I Title 19.2 of the
Code of Virginia, did willfully fail to appear before the
Circuit Court for the City of Lynchburg as required by
his band,
Va. Code Section 18.2-29
SECOND COUNT
On or about the same date in the City of
Lynchburg, Virginia, said person, unlawfully and
feloniously

A True Bill,
Signature not legible
Foreman
THIS INDICTMENT found at the above Term, of
the Circuit Court of Lynchburg, on the evidence of the

App.541a

witnesses listed on the reverse side who were duly
sworn and sent to the Grand Jury by the Court.

App.542a

CAPIAS
(JULY 6, 1992)
COMMONWEALTH OF VIRGINIA
To: The Sheriff of the City of Lynchburg, Or Any Other
Authorized Officer:
YOU are hereby commanded, in the name of the
Commonwealth of Virginia, to arrest:
Name:

M. Ismail Sloan A/k/a Samuel
Howard Sloan

Other Information: Dob 09/07/44
ss# 231-56-6416
and bring him or her before the CIRCUIT
COURT OF THE CITY OF LYNCHBURG, to answer
charges that he or she committed an offense in the
CITY OF LYNCHBURG, to, wit:
Solicitation to Commit Felony
Felony Failure to Appear
pending in said Court.
Dated this 6th day of July, 1992 in the Circuit
Court of the City of Lynchburg.

Larry B. Palmer
Clerk

By: Signature not legible
Deputy Clerk

App.543a

If bonded, appearance date shall be the 7th
working day after arrest........ ..........................................
EXECUTED the aforesaid CAPIAS by arresting
the within named accused on this 7th day of October,
1992.

Signature not legible
Arresting Officer

App.544a

ORDER APPOINTING ATTORNEY
(OCTOBER 8, 1992)
AT THE LYNCHBURG CIRCUIT COURT
COMMONWEALTH,
Plaintiff,
v.
M. ISMAIL SLOAN, aJkJa
SAMUEL HOWARD SLOAN,
Defendant.
Felony No. CR92003936 & CR91003195
Before: The Hon. Mosby G. PERROW, III, Judge.
This day came the Commonwealth’s Attorney, and
M. Ismail Sloan aka Samuel Howard Sloan, who
stands charged with a felonies, to wit: solicitation to
commit felony; felony fail to appear and also the
defendant came to be advised on the charge of violate
conditions of bond on the charge of attempted
abduction, appeared in proper person, in custody, and
it appearing that the defendant is without counsel, and
is indigent, the Court, before accepting any plea of the
accused, doth appoint the Public Defender, an able
and competent attorney at law, practicing before this
Court, to represent the defendant upon the charge.
And this case is continued to the November Term,
1992.

App.545a

/s/ Signature not legible
Deputy Clerk

App.546a

LETTER FROM DEFENSE ATTORNEY
(OCTOBER 8, 1992)
COMMONWEALTH OF VIRGINIA
Office Of the Public Defender
City of Lynchburg
Suite 401-The Krise Building
203 Ninth Street
Lynchburg, VA 24504
James Hingeley
Public Defender
Telephone (804) 947-2244
Facsimile (804) 845-0510
The Honorable Mosby G. Perrow, III.
Lynchburg Circuit Court
P.O. Box 4
Lynchburg, VA 24505-0004
Re: Ismail M. Sloan a/k/a Samuel Howard Sloan
Dear Judge Perrow:
Thank you for letting me know that you appointed
me on new charges filed in Circuit Court against Mr.
Sloan. As I indicated in our conversation, I have a
Motion for Leave to Withdraw pending in another
case in which I am appointed to represent Mr. Sloan.
A copy of my letter to Judge Gamble with a copy of the
Motion for Leave to Withdraw is enclosed for your
reference, along with Judge Gamble’s reply to me,
dated January 16, 1992, indicating that the motion
would be considered when Mr. Sloan appeared in
Lynchburg Circuit Court on the capias.

App.547a

I do not know Mr. Sloan’s current position on my
motion, and we of course cannot speculate about what
Judge Gamble’s eventual decision may be. Neverthe­
less, it should be perfectly clear that for the time being
Mr. Sloan’s and my positions are adverse. Under these
circumstances, I anticipate that it will be extremely
difficult for me to work with Mr. Sloan on the new
charges, especially in view of the fact that he is
unwilling for Judge Gamble to preside in hearings Mr.
Sloan undoubtedly will press his attorney to schedule
on an expedited basis. Therefore, I request that you
assign another attorney to represent Mr. Sloan in the
new cases, on the ground of the existing, actual
conflict of interest between the two of us.
My actions in the pending case, as documented by
the enclosed papers, will, I hope, convince you that I
am not lightly asking to be excused from representing
Mr. Sloan in the new charges. If you are unable to
grant my request, I would ask that you give me an
opportunity formally to present the reasons for my
seeking not to represent Mr. Sloan on the new
matters.
Thank you very much for your consideration. To
keep Mr. Sloan advised, I have sent him a copy of this
letter at the jail.
Sincerely,
/s/ James Hingelev
Public Defender
mwf
cc: Ismail Sloan

i

App.548a

LETTER FROM DEFENSE ATTORNEY
(OCTOBER 8, 1992)
COMMONWEALTH OF VIRGINIA
Office Of the Public Defender
City of Lynchburg
Suite 401-The Krise Building
203 Ninth Street
Lynchburg, VA 24504
James Hinge ley
Public Defender
Telephone (804) 947-2244
Facsimile (804) 845-0510
The Honorable Mosby G. Perrow, III.
Lynchburg Circuit Court
P.O. Box 4
Lynchburg, VA 24505-0004
Re: Commonwealth v. Ismail M. Sloan a.k.a.
Samuel Howard Sloan,
Circuit Court of the City of Lynchburg.
Dear Judge Gamble:
Judge Perrow informed me Thursday morning,
October 8, 1992 that Ismail Sloan appeared in
Lynchburg Circuit Court to be advised on some addi­
tional charges which have been filed against him. I
presume that he has also appeared on the capias
issued for his arrest in January, when he failed to
appear for trial in the case in which you were then
presiding.

App.549a

You may recall that I had filed a Motion for Leave
of Court to Withdraw from representing Mr. Sloan in
the case set for trial in January. You wrote to me on
January 16, 1992 to confirm that my motion would be
heard at such time as Mr. Sloan appeared in
Lynchburg on the capias. Please let me know when it
might be possible for this hearing to be scheduled.
Thank you for your consideration.
Sincerely,
/s/ James Hingelev
Public Defender
dg
cc: Honorable Mosby G. Perrow, III
Lynchburg Circuit Court
P.O. Box 4
Lynchburg, VA 24505
William G. Petty
Office of the commonwealth’s Attorney
P.O. Box 1539
Lynchburg, VA 24505
Larry Palmer, Clerk
Lynchburg Circuit Court
P.O. Box 4
Lynchburg, VA 24505
Ismail M. Sloan

App.550a

LETTER FROM JUDGE MICHAEL GAMBLE
(JANUARY 16, 1992)
COMMONWEALTH OF VIRGINIA
City of Lynchburg and Bedford
Counties of Amherst, Bedford. Campbell and Nelson
J. Michael Gamble Judge
Amherst County Circuit Court
P.O. Box 1290
Amherst, VA 24521
(8041 946-9329 (Amherst)
(8041929-9329 (Lynchburg)
(8041 929-9370 (Facsimile)
James Hingeley, Esquire
Office of Public Defender
Suite 401, Krise Building
203 Ninth Street
Lynchburg, VA 24504
In Re: Commonwealth v. Ismail M. Sloan a.k.a.
Samuel Howard Sloan, Circuit Court of
the City of Lynchburg.
Dear Mr. Hingeley:
Thank you for your letter of January 14, 1992
together with the enclosed motion. You are correct in
your understanding that this motion will be considered
at such time as Mr. Sloan is either arrested on the
capias or surrenders to the capias which has been
issued for his arrest.

App.551a

Sincerely yours,
/s/ Michael Gamble
Judge
JMG/kst
William G. Petty, Esquire
Larry Palmer, Clerk

App.552a

LETTER FROM DEFENSE ATTORNEY
(JANUARY 14, 1992)
COMMONWEALTH OF VIRGINIA
Office Of the Public Defender
City of Lynchburg
Suite 401-The Krise Building
203 Ninth Street
Lynchburg, VA 24504
James Hinge ley
Public Defender
Telephone (804) 947-2244
The Honorable J. Michael Gamble
Lynchburg Circuit Court
P.O. Box 1290
Amherst, VA 24521
Re: Commonwealth v. Ismail M. Sloan a.k.a.
Samuel Howard Sloan,
Dear Judge Gamble:
For your information in reference to the above
case, I’ve enclosed a copy of a motion for leave to with­
draw which I filed in the clerk’s office on January 10,
1992.
It is my understanding that this motion will be
taken up with any other matters requiring the court's
attention at such time as Mr. Sloan comes before the
Court on the capias which has been issued for his
arrest.

App.553a

Thank you for your attention to this matter. If
you have any questions, or require further information,
please let me know.

Sincerely,
/s/ James Hingelev
Public Defender
dg
Enclosure

App.554a

MOTION
(NOVEMBER 19, 1993)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH OF VIRGINIA,
v.
ISMAIL M. SLOAN, a/k/a
SAMUEL H. SLOAN.
Record No.
Comes now James Hingeley, court-appointed
attorney for Ismail Sloan, and moves the Court for
leave to withdraw as counsel of record, and as grounds
for the motion, says as follows:
1. By letter dated December 22, 1991 the defend­
ant, Ismail Sloan, made a motion that the presiding
judge in this case, the Honorable J. Michael Gamble,
be disqualified from hearing the case for reasons set
forth in the letter.
2. The undersigned counsel’s and the defendant’s
views concerning the advisability of filing such a
request for disqualification differed substantially, and
the defendant proceeded to file the request for
disqualification against the advice of counsel.
3. By letter to the Court dated January 6, 1992
the defendant renewed his motion for disqualification
without further consultation with counsel, and by

App.555a

letter to the commonwealth’s Attorney dated January
a, 1992, the defendant moved for a continuance of his
trial date without consulting or notifying James
Hinge ley about his intentions.
4. The foregoing actions on the part of the defend­
ant constitute both a constructive discharge of
counsel, such as to justify his termination of the rep­
resentation, and the entry of an appearance as
counsel in the case by the defendant, prose.
5. Should counsel be required to remain in the
case, counsel asserts that his assistance in the prose­
cution of the motion for disqualification would not be
proper, because counsel believes in good faith that the
position taken in the motion is merely for the purpose
of harassing or maliciously injuring the judge and
other persons named by the defendant in the letters
of December 22, 1991 and January 6, 1992.
6. Despite counsel’s request for the defendant’s
assistance in preparing for trial, the defendant has
refused to cooperate with the necessary steps in
preparing and presenting the defense in his case. As a
result, the representation has been rendered
unreasonably difficult by the client.
7. In the circumstances of this case, withdrawal
of counsel can be effected without material prejudice
to the client, who may be in a financial position to
retain counsel of his own choosing, as suggested in
part by the large number of Federal Express dehveries
he is apparently able to afford. If the defendant cannot
afford to retain counsel, the nature of the charges and
the limited amount of factual evidence likely to be
presented at trial would make it possible for a

App.556a

successor court-appointed lawyer to render effective
assistance of counsel to the defendant.
8. Alternatively, the defendant’s assertion to the
court that he successfully represented himself in the
United States Supreme Court, and his grasp of legal
principles reflected in his letter to the Commonwealth’s
Attorney, make it likely that the defendant would not
be prejudiced by continuing to represent himself pro
se in this case.
WHEREFORE, James Hingeley respectfully moves
the Court for leave to withdraw as counsel of record in
this case.
Respectfully Submitted,
Is/ James Hingeley
Lynchburg Public Defender Office
Suite 401, The Krise Building
203 Ninth Street
Lynchburg, VA 24504
(804) 947-2244

App.557a

ORDER RELIEVING ATTORNEY
(OCTOBER 15, 1992)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH OF VIRGINIA,
Plaintiff,
v.
ISMAIL M. SLOAN, aJkJa
SAMUEL H. SLOAN, DOB 09/07/44
Defendant.
Felony No. CR91003195 & CR92003936
Before: The Hon. J. Michael GAMBLE, Judge.
This day came the Commonwealth’s attorney and
M. Ismail Sloan aka Samuel Howard Sloan aka Ismail
M. Sloan, in his own proper person, in custody, and
came also James Hingeley, his attorney previously
appointed.
Thereupon the defendant’s attorney made a
motion for the Court to relieve him as court-appointed
counsel for the defendant for reasons stated to the
record. And the Court having heard all the evidence
and argument of counsel, doth grant the motion to
relieve James Hingeley as court-appointed attorney
for the defendant.

App.558a

Thereupon the Court doth appoint James Massie
to represent the defendant on the aforesaid charges.
And this case is continued to the November term,
1992.
A Copy,
Teste:
Larry B. Palmer
Clerk
By: Signature not legible
Deputy Clerk

App.559a

DEFENSE STATEMENT OF INDIGENCY
(OCTOBER 15, 1992)
FINANCIAL STATEMENT-ELIGIBILITY DETER­
MINATION FOR OF INDIGENT
DEFENSE SERVICES
Presumptive Eligibility:
I currently do not receive public assistance.
Names and addresses of employer(s) for defendant
and spouse:
Self
Spouse
Assets:
Cash on hand

$18.39

Total Assets

$18.39

Exceptional Expenses
Court-ordered support payments/alimony
$ 100/month
Total Expenses

$100

THIS STATEMENT IS MADE UNDER OATH:
ANY FALSE STATEMENT OF A MATERIAL FACT
TO ANY QUESTION CONTAINED HEREIN SHALL
CONSTITUTE PERJURY UNDER THE PROVISIONS
OF § 19.2-161 OF THE CODE OF VIRGINIA. THE MAX­
IMUM PENALTY FOR PERJURY IS CONFINEMENT
IN THE PENITENTIARY FOR A PERIOD OF TEN
YEARS.

App.560a

I hereby state that the above information is cor­
rect to the best of my knowledge.
Name of defendant (type or print)
Samuel H. Sloan
Ismail Sloan

/s/ Ismail Sloan
10/15/95
Date
Sworn/affirmed and signed before me this day.
/s/ Michael Gamble
Judge
10/15/95
Date

App.561a

ORDER-STATEMENT OF RECUSAL
(OCTOBER 20, 1992)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH OF VIRGINIA,
Plaintiff,
v.
ISMAIL M. SLOAN, a/k/a
SAMUEL H. SLOAN, DOB 09/07/44
Defendant.
No. CR-91003195 & CR-92003936
Before: J. Michael GAMBLE, Mosby G. PERROW,
III, William W. SWEENEY, Richard S. MILLER,
Samuel JOHNSTON, JR., Judges.
The Defendant has pending in the Circuit Court
of the City of Lynchburg the following felony charges:
attempted abduction, solicitation to commit a felony,
and felony failure to appear. The Judges of this Court
have been advised by William G. Petty, Commonwealth
Attorney of the City of Lynchburg, that it may be neces­
sary for him to testify as a witness to material matters
in one or more of these cases. Accordingly, by virtue of
the fact that William G. Petty may testify as a
witness, in one or more of these cases, the Judges of

App.562a

the Twenty-Fourth Judicial Circuit recuse themselves
from presiding in any of the above-styled matters.

/s/ J. Michael Gamble
Judge
/s/ Mosby G. Perrow. Ill
Judge
/s/ William W. Sweeney
Judge
/s/ Richard S. Miller
Judge
/s/ Samuel Johnston. Jr
Judge

App.563a

ORDER-RELIEVING ATTORNEY
(NOVEMBER 2, 1992)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH,
v.
ISMAIL M. SLOAN, a/k/a
SAMUEL H. SLOAN,
Defendant.
Felony No. CR91003195 & CR92003936
Before: The Hon. J. Michael GAMBLE, Judge.
This day came the Commonwealth’s attorney and
Ismail M. Sloan aka Samuel Howard Sloan, in his own
proper person, in custody, and came also James
Massie, his attorney previously appointed.
Thereupon the defense attorney made a motion to
withdraw as counsel for the defendant for reasons
stated to the record. And the Court having heard and
considered the motion, doth grant the motion for
James Massie to withdraw as counsel and doth
appoint David Bice to represent the defendant on the
charges of attempted abduction; solicitation to commit
felony; and felony failure to appear.
And this case is continued to the December term,
1992.

App.565a

ORDER-DENYING APPEAL
(NOVEMBER 5, 1992)
IN THE COURT OF APPEALS OF VIRGINIA

M. ISMAIL SLOAN, a/k/a SAMUEL SLOAN,
a/k/a ISMAIL M. SLOAN
Appellant,
v.
COMMONWEALTH OF VIRGINIA,
Appellee.
Record No. 2066-92-3
Circuit Court Nos. CR91003195 and
CR92003936
From the Circuit court of the City of Lynchburg
It appears that this appeal has been filed pre­
maturely as the trial court has not entered a final
order.
Accordingly, the notices of appeal received October
16 and November 5, 1992 are dismissed without pre­
judice to appellant’s pursuit of an appeal to this Court
once a final order has been entered.
The Commonwealth shall recover of the appellant
the costs in this Court.

App.566a

A Copy
Teste:
/s/ Patricia G. Davis
Clerk
Costs due the Commonwealth by appellant in
Court of Appeals of Virginia:
Filing fee $25.00

Teste:
/s/ Patricia G. Davis
Clerk

App.567a

ORDER APPOINTING DESIGNATE JUDGE
(NOVEMBER 5, 1992)
IN THE SUPREME COURT OF VIRGINIA
In all to whom These Presents Shall Come-Greeting:
Know Is, That I, Harry L. Carrico Justice of the
Supreme Court of Virginia of authority vested in me
by law, do hereby designateHonorable JAMES M. LUMPKIN, RETIRED
Judge of the THIRTEENTH JUDICIAL CIRCUIT to
preside in the CIRCUIT Court of THE CITY OF
LYNCHBURG

In the cases of
COMMONWEALTH OF VIRGINIA,
v.
M. ISMAIL SLOAN A/K/A SAMUEL H. SLOAN.
Criminal Numbers 91003195 and 92003936

To be heard on a date set by the Judge and
continuing until the matters presented to him in these
cases have been disposed of according to law.
In the place of THE JUDGES OF THE TWENTYFOURTH JUDICIAL CIRCUIT who are so situated as
to render it improper, in their opinion, for them to
preside at the trial of the said cases.

App.569a

ORDERr-OF CONTINUANCE
(DECEMBER 7, 1992)
AT THE LYNCHBURG CIRCUIT COURT

COMMONWEALTH,
v.
ISMAIL M. SLOAN,
Defendant.
Felony No. CR92003936
Before: The Hon. Mosby G. PERROW, III, Judge.
On motion of the defendant, by counsel, and with
the concurrence of the Commonwealth's Attorney, the
Court doth order that this case be continued to Janu­
ary 12., 1993, with a Jury.

A Copy,
Teste:
Larry B. Palmer
Clerk
By: Signature not legible
Deputy Clerk

App.570a

ORDERr-MOTIONS
(DECEMBER 16, 1992)
AT THE LYNCHBURG CIRCUIT COURT
COMMONWEALTH,
v.
ISMAIL M. SLOAN a/k/a
SAMUEL HOWARD SLOAN,
Defendant.
Felony No. CR91003195 & CR92003936
Before: The Hon. James M. LUMPKIN, Judge.
This day came the Commonwealth’s Attorney, and
Ismail Sloan aka Samuel Howard Sloan, who stands
indicted for felonies, to-wit: attempted abduction,
solicitation to commit felony and felony fail to appear,
appeared in proper person, in custody, and came also
David Bice, defense counsel previously appointed.
Whereupon the defendant by counsel having pre­
viously filed a motion for relief, this day the Court
heard evidence and argument of counsel and doth
deny a motion for a preliminary on each of the charges
for reasons stated to the record.
The Court doth deny the motion for a change of
venue at this time, subject to be renewed on January
12, 1993, for reasons stated to the record.

App.571a

The Court doth take the motion to
indictments under advisement and
Commonwealth to file a memorandum
December 26, 1992 and the defendant by
1993.

quash the
order the
of law by
January 5,

The Court grant the motion for a bond to be set
and doth set the defendant’s bond at $75,000.00 with
surety with 1/3 being cash only, returnable, to January
5, 1993 at 9:00 a.m. at which time counsel and the
defendant will be present for the Court’s ruling on the
motion to quash.
Whereupon this case is set for January 12, 1993
with a jury. And the defendant is remanded to jail
pending posting bond.
A Copy,
Teste:
Larry B. Palmer
Clerk
By: Signature not legible
Deputy Clerk

App.572a

ORDER FOR DISCOVERY
(DECEMBER 16, 1992)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH OF VIRGINIA,
v.
ISMAIL M. SLOAN a/k/a
SAMUEL HOWARD SLOAN,
Defendant.
Felony No. CR91003195 & CR92003936
Before: The Hon. James M. LUMPKIN, Judge.
On motion of the defendant and the Commonwealth
for discovery and inspection pursuant to Rule 3A: 11 in
the above-captioned case, it is hereby ORDERED as
follows:
1. The Commonwealth’s Attorney shall permit
the attorney for the accused to inspect and copy or
photograph any relevant written or recorded statements
or confessions made by the accused, or the substance
of any oral statements or confessions made by the
accused, to any law enforcement officer, the existence
of which is known to the attorney for the Commonwealth.
2. The Commonwealth’s Attorney shall permit
the attorney for the accused to inspect and copy any
relevant written reports of autopsies, ballistic tests,

App.573a

fingerprint analyses, handwriting analyses, blood,
urine and breath tests, and other scientific reports,
and written reports of a physical or a mental examin­
ation of the accused or the alleged victim made in con­
nection with the particular case, or copies thereof, that
are known by the Commonwealth’s Attorney to be
within the possession, custody or control of the
Commonwealth.
3. The Commonwealth’s Attorney shall permit
the attorneys for the accused to inspect, copy or
photograph any designated books, papers, documents,
tangible objects, buildings or places or copies or
portions thereof, that are within the possession,
custody or control of the Commonwealth, upon a
showing that the items sought may be material to the
preparation of the defense and that the request is rea­
sonable. This does not authorize the discovery or
inspection or statements made by Commonwealth
witnesses or prospective Commonwealth witnesses to
agents of the Commonwealth or reports, memorandum
or other internal Commonwealth documents made by
agents in connection with the investigation or prose­
cution of the case, except as provided above.
4. The attorney for the accused shall permit the
Commonwealth to inspect, copy or photograph any
written reports of autopsy examinations, ballistic
tests, fingerprint, blood, urine and breath analyses,
and other scientific tests that may be within the
accused's possession, custody or control and which the
defense intends to offer or introduce into evidence at
trial or sentencing.
5. The attorneys for the accused shall disclose
whether or not they intend to introduce evidence to
establish an alibi and, if so, the attorney for the

App.574a

accused shall disclose the place at which the accused
claims to have been at the time of the commission of
the alleged offense.
6. If the accused intends to rely upon a defense of
insanity or feeblemindedness, the attorney for the
accused shall permit the Commonwealth to inspect,
copy or photograph any written reports of physical or
mental examination of the accused made in connection
with the particular case. No statement made by the
accused in the course of any examination provided for
by this order shall be used by the Commonwealth in
its case in chief.
7. The Commonwealth’s Attorney shall also dis­
close all exculpatory evidence which is or is deemed to
be within his possession and to which the defendant is
entitled by law.
It is further ORDERED that all discovery pursuant
to this order should be completed as soon as possible,
and shall be completed no later than fourteen (14)
days prior to trial.
If at any time after the final date for discovery, or
during trial, counsel shall discover additional
material previously requested or falling within the
scope of this order that is subject to discovery or
inspection under this order, he shall properly notify
opposing counsel of the existence of such additional
material.
James M. Lumpkin
Circuit Judge
Entered: December 16, 1992

App.575a

Requested
David B. Bice
Counsel for the defendant
Seen and Agreed
Kimberly S. White
Assistant Commonwealth’s
Attorney for the City of
Lynchburg
A Copy,
Teste:
Larry B. Palmer
Clerk
By: Signature not legible
Deputy Clerk

App.576a

ORDERr-JURY TRIAL
(JANUARY 12, 1993)
AT THE LYNCHBURG CIRCUIT COURT
COMMONWEALTH
v.
ISMAIL M. SLOAN a/k/a
SAMUEL HOWARD SLOAN, DOB 9/7/44
Defendant.
Felony No. CR91003195-00 & CR92003936-00 & 01
Attempted Abduction; Solicitation to Commit Felony;
Felony Fail to Appear
Before: The Hon. James M. LUMPKIN, Judge.
This day came the Commonwealth’s attorney, and
M. Ismail Sloan aka Samuel Howard Sloan, who
stands indicted for a felony, to-wit: attempted
abduction; solicitation to commit felony; felony failure
to appear, appeared in proper person, in custody, and
came also David Bice, his attorney previously
appointed.
Whereupon the defendant by counsel made a
motion in limine for the reasons stated to the record,
which motion the Court took under advisement.
The defendant by counsel made a motion to quash
the indictment on the charge of felony failure to

App.577a

appear for the reasons stated to the record, which
motion the Court denied.
The defendant by counsel made a motion to
change venue or change the venire, which motion the
Court took under advisement.
Whereupon on motion of the Commonwealth’s
attorney, the court doth allow the indictments to be
amended on the charges of felony fail to appear and
attempted abduction.
Whereupon the defendant was arraigned and
after private consultation with his said attorney
pleaded not guilty to the Indictments, which pleas
were tendered by the accused in person.
After being advised by the Court of his right to
trial either by jury or by the Court and, after
consultation with counsel, the accused did not waive
his right to trial by jury and to which the Court
approved.
The Court then impaneled twenty-three qualified
jurors, free from exception for the trial of the defendant.
Whereupon the Attorney for the Commonwealth and
the attorney for the defendant each alternately exer­
cised their rights to strike the names of five
veniremen from the panel, as provided by law, and the
remaining twelve jurors and one alternate juror,
constituting the jury for the trial of the defendant,
were duly sworn.
Whereupon the Court doth deny the defendant’s
motion to change venue or change the venire.
After opening statements, the evidence was
presented by the Commonwealth in part. Thereupon
the Court denied the defendant’s motion in limine,

App.578a

and the defendant by counsel noted his exception. And
at the conclusion of the Commonwealth’s evidence, the
defendant by counsel made a motion to strike the
Commonwealth’s evidence for the reasons stated to
the record, which motion the Court denied on the
charges of attempted abduction and solicitation to
commit a felony, and exception was noted. And the
Court doth take the defendant’s motion to strike the
Commonwealth's evidence on the charge of felony fail­
ure to appear under advisement.
Thereupon the jury was adjourned until January
13, 1993, at 9:00 o’clock a.m. to which time this case
is continued.

A Copy,
Teste:
Larry B. Palmer
Clerk
By: Signature not legible
Deputy Clerk

App.579a

ORDER^SENTENCING
(JANUARY 13, 1993)
AT THE LYNCHBURG CIRCUIT COURT
COMMONWEALTH,
v.
ISMAIL M. SLOAN aJkJa
SAMUEL HOWARD SLOAN, DOB 9/7/44
Defendant.
Felony No. CR91003195-00 & CR92003936-00 & 01
Attempted Abduction; Solicitation to Commit Felony;
Felony Fail to Appear
Before: The Hon. James M. LUMPKIN, Judge.
This day came again the Commonwealth’s attorney
and M. Ismail Sloan aka Samuel Howard Sloan,
appeared in proper person, in custody, and came
David Bice, defense counsel previously appointed, and
came also the jury previously sworn on January 12,
1993, for the trial of the defendant, according to their
adjournment.
Whereupon the Court having heard the evidence
on the defendant’s motion to strike the
Commonwealth’s evidence on the charge of felony fail­
ure to appear, doth deny said motion.
Thereupon the defendant by counsel presented
his evidence in full.

App.580a
After hearing the evidence, the instructions of the
Court and argument of counsel, the jurors were sent
to the jury room to consider their verdict. They subse­
quently returned their verdict in open court, in the
following words, to-wit: “On the charge of attempted
abduction, we, the jury, find the defendant guilty and
fix his punishment at: imprisonment for five years.
Eleanor A. Braumiller, Foreman.” “On the charge of
solicitation to commit a felony, we, the jury, find the
defendant not guilty. Eleanor A. Braumiller, Foreman.”
“On the charge of failure to appear, we, the jury, find
the defendant guilty and fix his punishment at: a fine
of $1,800. Eleanor A. Braumiller, Foreman.” The
defendant by counsel moved to poll the jury and all
the jurors affirmed their vote as to the verdict.
Thereupon the jury was discharged.
The attorney for the defendant then renewed his
motions to strike the Commonwealth's evidence for
the reasons previously stated to the record, which
motions the Court overruled. The Court enters judg­
ment on the verdict of the jury, and hereby finds the
defendant guilty of attempted abduction and felony
failure to appear, and finds the defendant not guilty
of solicitation to commit a felony.
The attorney for the defendant then moved the
Court to set aside the verdict, for the reasons stated
to the record, which motion was denied.
The defendant having been found guilty, the
Court then asked if the defendant wanted to say if
there was any reason why sentence should not be
imposed, and nothing being offered or alleged in delay
of judgment, it is accordingly the judgment of this
Court that on the charge of attempted abduction the
defendant be sentenced to confinement in the

App.581a

penitentiary of this Commonwealth for the term of 5
years, and on the charge of felony failure to appear
that the defendant pay a fine of $1800.00, and that he
pay the costs of this prosecution.
The defendant is hereby discharged from custody
on the charge of solicitation to commit a felony.
Whereupon the defendant was advised of his
right to appeal the judgment of this Court to the Court
of Appeals, and accordingly appoints David Bice to
represent the defendant if the defendant so desires to
appeal.
Whereupon the defendant by counsel made a
motion to reduce the defendant’s sentences on the
aforesaid charges, which motion was denied.
The Court further orders that as soon as possible
after the entry of this order that the defendant be
removed and safely conveyed from the jail of this
Court to the said penitentiary, therein, to be kept,
confined and treated in the manner provided by law.
The Court orders that the defendant be allowed
credit for time spent in jail awaiting trial.
And the defendant is remanded to jail to await
transfer to the penitentiary.
Date of Offense: 7/28/92; 1/10/92

A Copy
Teste:
Larry B. Palmer
Clerk

App.583a

LETTER FROM M. ISMAIL SLOAN
TO JOHN P. BUTLER
(JANUARY 14, 1992)
M. Ismail Sloan
Ismail Computer Company
P.O. Box 4829
Fujairah, United Arab Emirates
Tel: (97170) 27516 (res.)
John P. Butler
F.B.I.
Federal Building
P.O. Box 1562
Roanoke, Virginia 24007
U.S.A.
Dear Mr. Butler,
My family has been the victim of successive
kidnappings. My 80-year-old mother, Dr. Helen
Marjorie Sloan, was kidnaped out of her hospital room
at the Bangkok General Hospital in Bangkok,
Thailand on September 3, 1990. She was forcibly
boarded onto Northwest Airlines flight 28 to Tokyo
and America at 6:50 A.M. on the morning of September
5. The person who accomplished this kidnaping was a
Thai lawyer named Boonchoo Yensabai, assisted by
an American private detective named John Sobell.
This kidnaping was financed by Wesley Cassel
Jacobson, the 77 year old brother of my mother, and
by Creighton Wesley Sloan, my brother. Creighton
and Cassel have for the past four years been involved
in multiple litigation against my mother in an effort
to obtain control of her assets. My mother had been

App.584a

refusing to return to America out of a desire to avoid
this litigation.
Within a few days thereafter, Boonchoo and
Sobell, the same persons who kidnaped my mother,
came back and tried to kidnap my three children,
Shamema, then aged 8, Michael, aged 2, and Jessica,
also aged 2. Apparently, Charles and Shelby Roberts
had by then learned of their fantastic success in
kidnaping my mother and had hired them to kidnap
my children as well. They just barely failed. We
escaped only because I hid my children in the Golden
Triangle area of Northern Thailand and then managed
to smuggle them across the southern boarder of
Thailand into Malaysia a few days later. Altogether,
we traveled 3600 miles by public bus in order to avoid
these kidnapers.
After that, we made it back to what we believed
was safety in the United Arab Emirates, where we
have lived for the past four years. We arrived on Sep­
tember 23rd. However, on September 26th, Boonchoo
found out about this and called up Vithanage
Santhilatha of Sri Lanka, my companion and the
mother of Jessica, on the telephone. He threatened to
kill Santhilatha and hand over Jessica to the govern­
ment for adoption unless she pushed Shamema out the
door of our house, where two Thai men were waiting
to take Shamema away. According to Santhilatha, she
looked over the wall surrounding our house and, sure
enough, saw two Thai men lurking outside.
Santhilatha thereafter called in the U.S. Consulate
in Dubai and reported this incident to Eileen Lewison;
the consular officer there.

App.585a

Because of this incident, I had my entire family
moved to a secure location in Abu Dhabi, 180 miles
from here. They were hidden there for about one week.
Finally, on the morning of October 7, I drove them all
back to our home in Fujairah, thinking that the
danger had passed.
Being tired from this long journey, I took a nap.
When I awoke a few hours later, my entire family had
disappeared. Shamema had left a note stating that
they had all gone to a marriage party in Dibba, a town
about 50 miles north of here.
It happened that Shaikh Rashid, the ruler of
Dubai, died that very night and this entire nation
went into a compulsory seven day period of mourning.
All shops and offices were closed and traffic was
discouraged from the streets. I was therefore not
surprised when my family failed to return from this
marriage party promptly. I assumed that they were
stranded without transport in Dibba.
It took me a long time to discover the truth, which
is as follows: After Boonchoo had called Santhilatha
several times and threatened to kill her and steal her
daughter, Santhilatha was contacted by Charles and
Shelby Roberts who offered to give her money and an
airplane ticket to America if she voluntarily handed
my daughter, Shamema, over to them. Boonchoo was
working for Charles and Shelby Roberts, who had
paid him $12,000 for his services up to that point and
had agreed to pay him a total of $25,000 upon delivery
of Shamema to them. Being threatened with death on
the one hand and being offered money and a ticket to
America on the other, Santhilatha had decided to
cooperate.

App.586a

She took Shamema, Michael and Jessica to Abu
Dhabi. Waiting for her there at the Albadie Travel
Agency on A1 Nasr Street were three round trip
airplane tickets to America. These had been purchased
by Jay Roberts (the son of Charles and Shelby
Roberts) at the Holiday Travel Agency located at 757
Church Street, Lynchburg, Virginia. The total price
paid for these tickets was in excess of $4200. The adult
ticket for Santhilatha was more than $1800 and the
tickets for the two children, Shamema and Jessica,
were more than $1200 each. These were round trip
tickets with a reservation for all three to return to Abu
Dhabi on December 2, 1990.
However, there was no ticket for Michael, my two
year old son. For this reason, he had to be left behind.
It happened that after collecting the tickets which had
been sent by Jay Roberts, the four of them were stand­
ing on Hamdan Street in Abu Dhabi when
Santhilatha was approached by a Syrian man named
Mr. Jamal, who offered her a job working for his
family as a housemaid. Santhilatha said that she did
not need a job but that she had her own housemaid
named Linda Duavis who was looking for a job. She
offered to introduce Linda to his family the next
morning. On this basis, Mr. Jamal agreed to allow her
and the three children to spend the night in his house
with his family.
Early the next morning, Santhilatha arose and
told Mr. Jamal that she was going out to meet Linda
and would bring her back in a few minutes. She asked
Mr. Jamal not to wake Michael, as he was still sound
asleep. She then left his house with the two other
children.

App.587a

She never returned. Instead of bringing back the
promised housemaid, she went with the two children
directly to Abu Dhabi International Airport, where
they boarded Gulf Air Flight 971 to Bahrain at 9:00
A.M. In Bahrain, they transferred to Gulf Air Flight
003 to London. In London, they took TWA Flight 783
to Washington National Airport. They arrived in
Washington National Airport at 12:20 Monday
Midnight (actually very early Tuesday morning, Oct­
ober 9). They were met at the airport by the Roberts
family and taken to Madison Heights. Virginia.
As soon as I realized that Shamema was really
gone, I knew exactly what had happened to her. The
Roberts family have been trying to get Shamema
away from me ever since 1986. when I fired Shelby
Roberts from her job as a baby-sitter. I therefore called
Ed Meeks, the Amherst County Commonwealth Attor­
ney, to inform him that Shamema had been kidnaped
by the Roberts. He apparently sent an investigator to
the Roberts family home at 420 Amelon Road in
Madison Heights and found Shamema there. Accord­
ing to Ed Meeks, Shamema was thereafter taken into
custody by the Amherst County Department of Social
Services.
Meanwhile, back in Abu Dhabi, Mr. Jamal waited
patiently for Santhilatha to return with the promised
housemaid. Finally, that afternoon, he took Michael
to the police station. He did not even know Michael’s
name, much less who his father was. However, when
I reported to the police in Fujairah that my family,
including three children, were missing, the police were
able to connect the two cases together and return
Michael to me.

App.588a

Going back a bit, in Thailand, Boonchoo had
caused to be published in the newspapers articles
stating that Charles and Shelby Roberts had been
allowed to adopt Shamema by court orders dated April
2, 1986 and August 25, 1986. This is completely
untrue. The order dated April 2, 1986 awarded
custody of Shamema to me. No mention was made of
the Roberts. Shelby Roberts was merely a baby-sitter,
employed by me at $110 per week to take care of
Shamema. The August 25, 1986 order awarded
physical custody of Shamema to me but allowed the
Roberts to have visitation with my daughter. This was
in contravention of the Virginia statutes, which do not
contemplate the award of visitation to non-relatives
such as the Roberts. I am enclosing copies of these two
orders plus the newspaper articles in question.
Being dissatisfied with having mere visitation
rights, the Roberts filed a suit for custody on August
27, 1986. However, this suit was never served because
we were all out of the State of Virginia at the time.
Temporary custody was awarded to the Amherst
Department of Social Services, pending a hearing
which was never held. This is the reason that the
Amherst Department of Social Services took Shamema
into its custody in October, 1990.
I really do not know what they mean by “took into
custody”. I suspect that the Roberts are still being
allowed to keep my daughter, under some sort of
nominal court supervision. To this, I strenuously
object because of the known hostility of the Roberts to
both me and to the religion the actual mother of
Shamema, whose name is Honzagool. Honzagool is a
devout Muslim who lives in Chitral. Pakistan, high in
the Hindu Kush mountains. The Roberts are fanatical

App.589a

Jerry Falwell Baptists. There is no connection at all
between the Roberts and Honzagool. I was a guest in
the family home of Honzagool in Pakistan this past
December.
Now, I want to turn to the question of the evi­
dence and your jurisdiction. We have here an
attempted kidnapping of my children in Thailand in
September followed by a s success full kidnapping of
the same children in the United Arab Emirates in Oct­
ober. All of this was financed bv Mr. Charles Gaberts
and the Roberts family. My information is that first
Mr. Roberts came to Dubai in the United Arab
Emirates in July or August, 1990 with the plan of
kidnaping Shamema personally himself. Presumably, he
came to our house in Fujairah at that time and
discovered the house to be empty, as we were in
Thailand. He then went back. However, this trip was
useful to him in setting up and arranging the
subsequent kidnaping.
He and his family are known to have spent least
$16,000 for the purpose of kidnapping Shamema. At
least $12,000 was paid to Boonchoo and at least $4200
was spent on airline tickets. I believe that the actual
amount was much higher. Boonchoo is a big spender
who stays at only the best hotels and eats at only the
fanciest restaurants. I personally observed him
spending large amounts of money on this case, and he
clearly would not have done so had he not received a
much larger amount. I am also told that immediately
after Shamema disappeared on October 7, Boonchoo
himself went missing and reportedly he went to either
Australia or New Zealand.
The Roberts are a family of modest means. Mr.
Roberts is a manual laborer who works on an assembly

App.590a
line on the graveyard shift in a factory. Shelby Roberts
is a secretary for John Stewart Walker, a real estate
agency. According to Vithanage Santhilatha, Shelby told
her that they were in the process of either selling or
mortgaging their house in Madison Heights in order to
raise the funds necessary to pay Boonchoo to get
Shamema.
Mr. Roberts has long been interested in getting
Shamema for two stated reasons. First, Shamema
happens to be an exceptionally bright and gifted child.
Charles Roberts has ‘no daughter of his own, and he
has always wanted one. They have two sons, both of
whom are in their mid or late twenties. Charles and
Shelby Roberts are about 52 years old.
The second reason is that they are religious
fanatics. Mr. Roberts apparently sincerely believes
that he is doing God’s holy work by taking my
daughter away from me so that she will be raised up
as a Christian rather than as a Muslim. If I, myself,
were a Christian, would never think of taking
Shamema.
However, the main point is that Charles Roberts
was not awarded custody of Shamema, not even in
Amherst County, much less in the United Arab
Emirates. It was therefore clearly illegal for him to
come to the United Arab Emirates to try and take
Shamema. It was even illegal for him to bring
Shamema from Washington National Airport to stay
in his home in Virginia, without the knowledge of
either of her parents or, for that matter, of the
Amherst County Department of Social Services.
Shamema was born on October 15, 1981. Thus, she
was eight years old when all this happened, but has
since turned nine years old.

App.591a

This case has been covered extensively in the
local newspapers here. I am enclosing some newspaper
clippings. The newspaper coverage has actually been
quite restrained. They have never been willing to
publish the fact that the actual purpose of the
kidnaping of Shamema is to convert a child of Muslim
parents to Christianity; However, there is no
extradition treaty or any other sort of agreement
between the United Arab Emirates and the United
States. The Ruler of Fujairah has personally ordered
that something be done about this case, but the
relevant government ministries have not yet figured
out what, if anything, they can do.
Going back to my mother, hers was a clear case
of kidnaping as well. Creighton and Cassel have not
been on good terms with my mother for many years.
For at least the past four or five years, they have been
trying by every possible means to catch her so that
they can obtain control of her assets, estimated to be
around $300,000. It was because of them that she fled
the United States in the first place.
If you can obtain copies of the cable traffic
between the State Department in Washington and the
U.S. Embassy in Abu Dhabi and the U.S. Consulate in
Dubai over the past four years, you will see that there
have been a constant stream of cables from the State
Department reflecting demands by Creighton, Cassel
and Charles and Shelby Roberts for information about
my mother and my daughter. In particular, Cassel has
been using every dirty trick possible to induce my
mother to return. He has constantly notified her
through the embassy of family emergencies requiring
her presence. In about March, 1987, my mother was
sent through the U.S. Embassy a one way non-

App.592a

refundable airplane ticket from Abu Dhabi to
Washington, D.C. She refused this ticket. In-July,
1988, the U.S. Embassy was falsely told by Cassel that
I was in jail in Guam and therefore my mother should
come back to America immediately. The U.S.
Embassy was so concerned about this that the U.S.
Consul at that time, Robert Murphy, personally went
to our home and interviewed my mother. My mother
told him that she was happy where she was and abso­
lutely was not willing to return to the United States.
In addition, because my brother. Creighton, had
stolen my mother’s social security check on a number
of occasions, my mother was in the habit of personally
going to the U.S. Embassy every month to collect her
check. Every time she went, the consular officer there
questioned her regarding the voluntariness of her
presence in the United Arab Emirates, especially
since Creighton and Cassel had repeatedly been
alleging that I had kidnaped my mother and was
holding her against her will. Each time, my mother
told the concerned consular officer that she liked being
where she was and had no desire to live with either
Creighton or Cassel.
Incidentally, during almost this entire time,
Creighton and Cassel never called my mother directly
on the telephone. From mid-1986 until August, 1989,
she never heard from either of them. Finally, Cassel
called her, but only because a court hearing had been
scheduled in Charlottesville for her to appear a few
days later.
When my mother was forcibly taken from the
Bangkok General Hospital on September 3, she was
in extremely weak condition both physically and
mentally. In fact, she had just passed a narrow escape

App.593a

from death. I am enclosing a photograph of her at that
time so that you can see that I am not exaggerating
the situation. It was only because of her extremely
weak condition that it was possibly to kidnap her.
It has always been clear that neither Creighton
nor Cassel have any intention of taking care of my
mother. They were only interested in getting her
money. My best information is that as soon as she
arrived in the U.S., she was dropped off in a nursing
home in a secret location. I have no idea where she is,
except that she is probably in Maryland. She has often
stated that she does not want to live in a nursing
home. She wants to live in her own home with her own
grandchildren. This is the reason that she was so
happy hving in the United Arab Emirates. We had a
five bedroom home, occupied by her, myself, three
grandchildren and generally three or four household
servants. This arrangement was far beyond the means
of all but the most wealthy retired Americans.
I am including with this letter copies of two affi­
davits signed by my mother regarding these matters, the
last of which was signed just a few days before she was
actually kidnaped. I am also enclosing two of my own
affidavits which were signed just after my mother was
kidnaped.
In particular, one of these affidavits is a civil com­
plaint filed by my mother in the Lynchburg Circuit
Court in November, 1989 naming Creighton Sloan,
Cassel Jacobson and Charles and Shelby Roberts among
other defendants. If you read her complaint, you will
see that she alleges that Creighton and Cassel are
trying to force her to return to the United States and
that Charles and Shelby Roberts are trying to kidnap
her granddaughter, Shamema. In fact, her complaint

App.594a

accurately predicted the future. All of her allegations
have been proven true by subsequent events. The
accuracy of her predictions also proves that she was of
much sounder mind than the defendants were
claiming.
I want to focus on one particular point. My
mother gave my brother a power of attorney in 1984.
She has always claimed that she was coerced into
doing this. She revoked this power of attorney in Oct­
ober, 1986. The reason she did this was that at that
point Creighton was trying to have my mother
arrested and put in jail. My mother was in Rio
Gallegos, Argentina. Knowing that, Creighton had
canceled her Visa card and withdrawn all the funds
from her checking accounts, so that she had no money
to pay her hotel bill. She would have been jailed for
non-payment of her bill had she not revoked that
power of attorney and gotten the funds restored to her
Sovran Bank account.
For this reason, Creighton thereafter sued the
bank. Without any notice to my mother, Judge Miller
declared null and void my mother’s revocation of
Creighton’s power of attorney. Immediately thereafter,
Creighton once again withdrew all the funds from my
mother’s checking accounts.
In February, 1987, my mother once again revoked
my brother’s power of attorney. A copy of this revocation
is enclosed. Unlike the previous revocation, this
revocation took place before the consular officer in the
U.S. Embassy and was recorded in the Lynchburg
Circuit Court in book 695, page 437. This second,
revocation has never been overturned by any court.
Thus, Creighton has lost his right to exercise that
1984 power of attorney.

App.595a

. . . attorney to kidnap my mother. In August,
one of my mother’s brothers sent $4,000, through the
U.S. State Department to pay my mother’s medical
bills at the Bangkok General Hospital. Creighton had
been using all legal means at his disposal to prevent
the payment of this bill. When he found out that the
money was on its way despite his efforts to prevent
this from happening, he got on an airplane and flew
from Aiken, South Carolina to Bangkok, Thailand. He
arrived at the U.S. Embassy on the morning of August
10th, the same time that the money arrived. I
understand that using the 1984 power of attorney, he
claimed the money for himself. He then hired
Boonchoo and assigned the $4,000 to him. He gave
Boonchoo a power of attorney to commence legal action
to obtain custody of my mother. After that, he went
back to America, without ever contacting my mother.
We were unaware that he had even come to Thailand
until about two weeks later. At that time, we learned
that he had visited the Makkasan Police Station,
which is located just outside the door to the Bangkok
General Hospital, and had registered a police case
against my mother, but had never entered the hospi­
tal. Once again, he was trying to have my mother
arrested.
In short, the money which had been sent to pay
my mother’s hospital bills had been stolen by my
brother to pay a lawyer to bring a court case against
my mother. If you knew the history of the troubled
relationship between my mother and my brother you
would know that this was only the most recent
example of many similar things which my brother has
done in the past. In fact, my brother has often openly
stated that he hates his mother. He claims that she

App.596a

neglected him during his childhood because she was
working so hard as a psychiatrist. He says that he
does things like this to get even with her for her
neglect of him in the past. He even goes so far as to
state that he wishes that he had never been born.
In February, 1987, my mother gave a general
power of attorney to me, a copy of which is enclosed.
This was recorded with the Lynchburg Circuit Court
in book 695, page 439.1 therefore am clearly the only
person who has any legal authority regarding my
mother. Neither Creighton nor Cassel have any sort
of valid power of attorney. Unless my mother has
recovered miraculously from the condition she was in
on September 3 when she was kidnaped, she is no
longer in a position to handle her own affairs. Never­
theless, the whereabouts of my mother are being kept
secret from me.
I am presently planning to come to America as
soon as possible. In fact, I hope to be in your office in
Roanoke within a week. I will be bringing with me my
two year old son Michael, the one who was left behind
in Abu Dhabi. I will be trying to recover my missing
mother and my two missing children. I am sure that
at the same time, Charles and Shelby Roberts will be
trying to get my remaining child, Michael, away from
me. Charles Roberts likes to go deer hunting with his
sons, Jay and Larry. Therefore, they are heavily
armed, with shotguns and hunting rifles in their
house.
In short, I believe that all of the aforementioned
people should be arrested and should be safely in jail
before I come.

App.597a

Very Truly Yours

/s/ M. Ismail Sloan

App.598a

LETTER FROM M. ISMAIL SLOAN
TO JOHN TERRY
(JANUARY 28, 1990)
M. Ismail Sloan
P.O. Box 4829
Fujairah
United Arab Emirates
John Terry
F.B.I.
Federal Building
P.O. Box 1562
Roanoke, Virginia 24007
U.S.A.
Dear Mr. Terry,
I understand that you have been assigned to this
case involving, among other things, the kidnaping of
my daughter. Shamema Honzagool Sloan, by Mr.
Charles Roberts of Madison Heights, Virginia and by
the rest of the Roberts family.
Enclosed are two documents vital to this case.
One is a copy of the three airline tickets by which my
daughter, Shamema, along with my other daughter,
Jessica Vithanage, and her mother, Vithanage
Santhilatha, were brought to America. The other is a
cable advice from the travel agency concerning the
issuance of these three tickets.
These two documents were not easy to obtain.
The travel agent here, Albadie Travel, refused to
cooperate. As a result, I was forced to file a police case
against them. Only this morning, Captain Jumma A1

App.599a

Shamssi of the A1 Asma Police Station in Abu Dhabi
was able to obtain these photocopies for me.
What these documents show is that three TWA
tickets were issued, dated October 7, 1990. These
tickets were purchased by. Jay Roberts (the son of
Charles and Shelby Roberts) at the Holiday Travel
Bureau Inc., located at 727 Church Street, Lynchburg,
Virginia 24505, telephone number 804-847-6668.
Near the bottom of the cable from the travel
agency is telephone number 804-929-8888. This is the
home residence telephone number of Charles and
Shelby Roberts in Madison Heights, Virginia.
At the top is written “Leave message for Ms.
Renika”. Renuka is the nickname for Vithanage
Santhilatha.
The Fujairah telephone number next to her name
is 971-70-27817. That is the number of Christy De
Guzman, a Filipina nurse who lives behind my house.
The price paid for the tickets was $1864 for the
one adult and $1292 for each of the two children’s
tickets. Thus, the total price paid was $4448 for the
three round trip tickets.
The cable shows that a return reservation was
made for the three of them to return to Abu Dhabi by
TWA flight 784 from Washington, D.C. on December
2, 1990 at 6:44 A.M. I do not know the reason why they
decided to issue round trip tickets for my two children.
Perhaps, my eight year old daughter, Shamema,
needed assurance that she would be allowed to return to
her father after her “vacation” in America.
In short, the enclosed documents provide clear and
convincing proof that Hr. Jay Roberts was among

App.600a

those responsible for kidnaping my daughter and
bringing her to America without my knowledge or the
knowledge of her mother, Honzagool, who is in
Pakistan.
I want to provide you with a few additional
details regarding this case:
In my previous letter to John P. Butler dated Oct­
ober 21, 1990, I mentioned that Boonchoo called
Vithanage Santhilatha (also known as “Renuka”) and
threatened among other things to have her child
taken away from her by the government and given for
adoption unless she pushed Shamema out the gate,
where two Thai men were waiting to take her away.
Renuka thereafter looked over the wall and saw the
two men.
I want to add that after this Renuka and
Shamema locked all the doors to the house, including
the internal doors, and hid under the bed in my
mother’s room. Thus, they were clearly very afraid of
Boonchoo.
After that, Boonchoo kept calling. Among his
other threats, he said that he had filed a case with the
police that Renuka had stolen $4,000 from a hotel in
Bangkok, and that he was going to have her arrested
in Fujairah. He also said that he had placed an order
blocking her departure from all of the airports in the
United Arab Emirates.
Later on, on October 7, after I had hidden the four
of them in Abu Dhabi and then brought Renuka and
the three children back to Fujairah, Shamema and
Renuka started practicing escape routes out of the
house. They started practicing climbing over the back
wall so that if Boonchoo came in through the’ front

App.601a

gate, they would go out over the back wall. I stopped
them just as they were trying to hand two year old
Jessica over the wall, with Renuka straddling the top
of the wall and Shamema standing on a chair beside
it. This was clearly a dangerous exercise. Right after
that, I took a nap, and, when I woke up, they had
disappeared.
I mention this because this shows that they were
sincerely afraid of Boonchoo. I believe that this fear
was the main factor which led Renuka to cooperate with
Boonchoo’s employer; Charles Roberts. It also should
be added that since at least 1965, Mr. Roberts has had
lawyers in the Lynchburg area on retainer trying to
obtain custody or adoption rights to Shamema, without
any success. This is clearly the reason why he finally
decided to hire a criminal like Boonchoo, who could get
the job done where the legitimate lawyers had failed.
Renuka knew Boonchoo and had good reasons to
be afraid of him. This also requires some explanation:
Renuka, of her own accord, went to Sri Lanka on
about June 17, 1990, leaving Jessica behind with me.
She said that she was pregnant and was going to get
married to a boy she had met. She vowed never to
return. However, about one month later, she started
calling to say that she had changed her mind and
wanted to come back. I was unwilling and financially
unable to send her a return ticket. She finally raised
the money herself and bought her own ticket to come
back, arriving in the UAE on about August 5, 1990.
She discovered our house to be empty, as we had
already departed and were in Thailand.
Due to a mistake by the telephone company, one
of our telephones was still working. (The other two
were disconnected). Therefore, Renuka started making

App.602a
long distance calls. She called Creighton and Shelby
Roberts and got our number at the Bangkok General
Hospital in Thailand from Creighton.
She lost contact with us again after my mother
was kidnaped by Boonchoo on September 3 and we
checked out of the hospital on September 4. Then,
Boonchoo contacted her. He wanted to bring her to
Thailand to use her to file a court case against us.
There is no Thai embassy in the UAE, so Renuka came
to Thailand on September 7 without a visa. She was
rejected at the airport. She waited inside the airport
transit lounge for two days. Boonchoo and John Sobell
gave her about $400 U.S. dollars inside the airport,
plus a round trip ticket to Singapore. In Singapore,
she was able to obtain a Thai visa and return to
Bangkok.
By then, it was September 12, and her name was
in the Bangkok newspapers about this. She was
greeted at the Bangkok International Airport by
photographers with cameras flashing. She was taken
to lunch with the newspaper reporters at the Royal
Orchard Hotel, one of the fanciest hotels in Bangkok.
All of this was paid for by Boonchoo, who, in turn, was
being paid by Charles Roberts. However, according to
Renuka, later the same day, she twice escaped from
Boonchoo and John Sobell. Both times, she was
caught and brought back. Finally, Boonchoo had her
locked in a brothel hotel for the night. The reason that
he chose a whorehouse as a suitable accommodation
for her was obviously that such places pay bribes to the
police and any woman in such a place will not be
locatable by the police, or by me. (This causes me to
wonder whether my own mother Was not housed in a

App.603a

whorehouse during the one or two nights when
Boonchoo had her under his control.)
Fortunately, the same night, Renuka escaped from
the whorehouse and, by chance, we found each other
in the long distance telephone call office near the
Bangkok General Post Office. We stayed in a tiny
guest house for the night and the next day I took
Renuka to the Golden Triangle area, where I had
hidden the three children.
We knew that Boonchoo would have all the
airports in Thailand blocked, preventing our departure.
Therefore, we headed by road to the Southern boarder
of Thailand. When we got to the boarder checkpost,
sure enough, there was an order that we should not be
allowed to cross. The order was simply to be on the
lookout for an American man traveling with three
American children and a Sri Lankan woman. As a
result, when we arrived at the boarder, we were
spotted within seconds. Fortunately, we had brought
with us a man whom we had met through our contacts
in the Golden Triangle area who was engaged in the
regular business of smuggling illegal Burmese across
the boarder from Thailand to Malaysia. Through his
help, we were able to get across the boarder into
Malaysia, in spite of having been caught at the
boarder of Thailand.
When Boonchoo called up Renuka on the telephone
in Fujairah on September 26, he accused her of
double-crossing him and causing him to lose a lot of
money. These accusations were, of course, completely
true. Renuka also knew that Boonchoo was a profes­
sional extortionist and was an extremely dangerous
person to be involved with. This explains why she

App.604a

decided to make a run for it and escape with Shamema
to America.
One thing of which I am afraid is that now that
Mr. Roberts has Shame-ma, he will try to get rid of
Jessica and Renuka. They are no longer of any use to
him and, in fact, are dangerous to keep around,
because, inevitably, Renuka will be the best witness
to testify against Mr. Roberts and the others. Also,
Shamema has a strong attachment to her baby sister,
Jessica, but Mr. Roberts will be interested in
separating them. Renuka and Jessica, of course, have
no home of their own and no place to go at this point.
For this reason, I request that you consider
taking them into some form of custody, for their own
protection.
The big problem which I face is that while it is
clear that Mr. Roberts has committed a serious
criminal offense by kidnaping my daughter, Shamema,
the fact is that he is also protected by corrupt officials
in the Lynchburg-Amherst area. Otherwise, he would
be in jail already. In addition, Mr. Roberts is sup­
ported by one of the most powerful religious leaders in
the entire United States, namely the Reverend Jerry
Falwell. These factors make the otherwise trivially
easy task of getting my daughter back extremely
difficult.
I am concerned by the fact that until now, the con­
cerned Amherst County officials have not even
allowed me to speak to Shamema on the telephone. I
was not even allowed to wish her a happy birthday on
October 15th. I consider this to be completely illegal.
I want to mention here that none of the Amherst
County officials have ever met me in person, nor had

App.605a

they ever seen Shamema face to face until Mr. Roberts
kidnaped her and brought her to Amherst County three
weeks ago. Thus, they have no basis for deciding
whether I am a good father or a bad father, for
example. The fact that the Amherst County officials
are behaving in such a completely illegal fashion has
me greatly concerned. This is clearly harmful to the
best interests of Shamema, who suddenly finds herself
in an unfamiliar environment among strangers whom
she has never met before, and, at the same time, is not
even allowed to speak to her father on the telephone.
This is the reason that at the moment I am still
trying to pursue this case through INTERPOL. My
family has not been treated fairly by the courts in the
Lynchburg area for the past several years and this
pattern seems unlikely to change. Nevertheless, I do
intend to come to Lynchburg, Virginia within a few
days, after I have exhausted the procedures available
here.
Very Truly Yours
/s/ M. Ismail Sloan

App.606a

LETTER FROM M. ISMAIL SLOAN
TO MASSIE
(DECEMBER 10, 1991)
M. Ismail Sloan
917 Old Trent’s Ferry Road
Lynchburg, VA 24503
James Harbin Massie III
Seminole Shopping Center
Madison Heights, VA 24572
Dear Mr. Massie,
As I explained to you on the telephone, I was
served with a summons in Virginia to appear in a case
in San Leandro, California regarding my three-yearold daughter Jessica.
In short, what has happened there is that Renuka
has been found to be an unfit mother, and the child
has been removed from her care. They, therefore, have
the obligation to determine if the child can be
returned to me.
Renuka refused to tell the California authorities
my address. However, they have been in touch with
Mr. Roberts, who told them where I was so that I could
be served with a summons. Naturally, Roberts also
told them that I was a bad person who should not be
allowed to have custody of Jessica.
You may recall that when we were in court in
Amherst on September 25, Mr. Roberts made the
statement that Jessica’s doctor in California had been
in contact with him in order to find out if Jessica had
had her measles shots. However, Mr. Roberts at that

App.607a

time refused to reveal the name of the doctor. Once
again, Mr. Roberts is allowed to have more say about
my children than I have.
I am enclosing the reports of the Department of
Social Services in California. You will see that they
mention that they have been in touch with Rick Groff
about the Jessica case. Again, I was the last to know.
I spoke by telephone to the social worker in
California, whose name is Rinda Neidiger. She was
very emphatic that she will not allow Jessica to be
returned to Renuka. I have also been told that Renuka
says that she does not want Jessica anymore. Accord­
ing to one report, Renuka even threatened to abandon
Jessica on the street, just as she almost abandoned
Michael in Abu Dhabi. This means that I have to be
the one to fight the case to get my daughter back.
I am required by the California order to appear in
court in California on Thursday. There have already
been several hearings on this matter without my
knowledge. You will immediately understand the
problem with this, as I am required to appear before
Judge Gamble on Monday, December 16. This is the
same problem I had before, with a case going on in
New York about Michael while at the same time a case
was going on in Amherst about Shamema.
I am afraid that the California case is more
serious now and must take precedence. If you look at
the reports from the California Department of Social
Services, you will see the reason. The allegation there
is one of sexual abuse against Renuka. Renuka is not
going to contest the allegations. If I don’t fight the
case, I will lose Jessica forever. The only real evidence
against me comes from Mr. Roberts. Due to his

App.608a

allegations, they are unwilling to turn Jessica over to
me. The likely result is that Jessica will be placed in
permanent foster case. Naturally, they say that they
intend to contact the Virginia authorities to gain more
information about the cases there.
You do not have to tell me that this will cause
problems for me in Virginia. However, I have not
created this problem. All of these problems stem from
Mr. Roberts. As long as the courts allow Mr. Roberts
to keep Shamema, these problems will continue.
I fully anticipate that Mr. Roberts might fly to
California to try to get Jessica for himself and to
testify against me. There is no question that Roberts
is aware of the case in California. You can see on page
3-4 of the shorter report a long discussion about
Roberts.
I would like for you to complain to Judge Gamble
about the fact that Roberts is continuing to cause
trouble with respect to my other children. I fail to
understand why this behavior continues to be
tolerated by the courts.
I am sorry to say that it will be impossible for me
to appear in the Amherst Circuit Court as scheduled on
December 16, 1991. I suggest that you show these
reports to the Judge so that he can understand the
reason. I simply cannot afford the money to travel to
California and then immediately back to Virginia
again. As you know, my. children are the .most
important persons in the world to me and they come
first.
Renuka says that Shamema often talks to Jessica
on the telephone and Shamema is always crying every

App.609a

time she talks to her. Perhaps this should be investi­
gated. Renuka is clearly disturbed by the fact that
Shamema is unhappy in the Roberts home and is
always crying there. Renuka says that for this reason
she has a plan to bring her Sri Lankan boyfriend
Silva, also known as Chandi, to America to kill
Roberts. She says that Silva has a lot of experience at
this, because he killed four or five people in Sri Lanka.
This last fact is almost undoubtedly true, as the
people in Sri Lanka are always killing each other,
every day. I have never met Silva by the way, but he
knows Shamema. I was always trying to have him
arrested in the United Arab Emirates for climbing the
wall to get into my house while I was away.
Very Truly Yours
/s/ M. Ismail Sloan

App.610a
ORDER OF THE CIRCUIT COURT OF
THE CITY OF LYNCHBURG
(DECEMBER 19, 1991)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH OF VIRGINIA,
Plaintiff,
v.
ISMAIL M. SLOAN, a/k/a
SAMUEL H. SLOAN,
Defendant.
No.
Before: The Hon. J. Michael GAMBLE, Judge.
The defendant has been indicted for attempted
abduction under § 18.2-47 of the Code of Virginia
(1950), as amended and a trial is set for January 10,
1992 in the Circuit Court of the City of Lynchburg. On
September 23, 1991, the defendant was released upon
executing a personal recognizance bond in the amount
of $5,000.00 set by the Court. A condition of that bond
was that the defendant not leave the territorial juris­
diction of the Commonwealth of Virginia. On December
16, 1991, the defendant was scheduled to appear in
the circuit Court of Amherst County on two contempt
of Court matters. By letter dated December 10, 1991

App.611a

to his attorney, James H. Massie, III, Esquire, the
defendant indicated that he is in the State of
California. A copy of such letter is attached hereto.
This constitutes a violation of the terms of the bond
dated September 23, 1991.
Accordingly, the Court doth ADJUDGE, ORDER,
and DECREE that a capias be issued for the arrest of
the defendant and that he shall be held in jail until
such time as the trial of the above-styled case is
completed unless otherwise ordered by the Court.
Entered this 19th day of December, 1991.

/s/ J. Michael Gamble
Judge
A Copy,
Teste:
Larry B. Palmer
Clerk
By: Signature not legible
Deputy Clerk

App.612a

CAPIAS
(DECEMBER 23, 1991)
COMMONWEALTH OF VIRGINIA
To: The Sheriff of the City of Lynchburg, Or Any Other
Authorized Officer:
YOU are hereby commanded, in the name of the
Commonwealth of Virginia, to arrest:
Name:

M. Ismail Sloan A/k/a Samuel
Howard Sloan

Address:

917 Old Trent’s Ferry Road
Lynchburg, Virginia

Other Information: Dob 09/07/44
ss# 231-56-6416
and bring him or her before the CIRCUIT
COURT OF THE CITY OF LYNCHBURG, to answer
charges that he or she committed an offense in the
CITY OF LYNCHBURG, to, wit:
Attempted Abduction-Violate Conditions of Bond
pending in said Court.
Dated this 23rd day of December, 1991 in the
Circuit Court of the City of Lynchburg.
Larry B. Palmer
Clerk
By: Signature not legible
Deputy Clerk

App.613a

SEE ATTACHED ORDER,
EXECUTED the aforesaid CAPIAS by arresting
the within named accused on this 7th day of October,
1992.

Signature not legible
Arresting Officer

App.614a

ORDER OF THE CIRCUIT COURT OF
THE CITY OF LYNCHBURG
(JANUARY 3, 1992)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH OF VIRGINIA,
Plaintiff,
v.
ISMAIL M. SLOAN, aIkJa
SAMUEL H. SLOAN,
Defendant.
No.
Before: The Hon. J. Michael GAMBLE, Judge.
The defendant has previously been indicted for
attempted abduction by the grand jury of the City of
Lynchburg. A jury trial in this case has previously
been scheduled for January 10, 1992. A capias has
been issued by the Court for the arrest of the defend­
ant because of his failure to abide by the terms of his
recognizance bond and remain within the
Commonwealth of Virginia. The defendant is now a
fugitive and has not been apprehended.
While a fugitive the defendant has requested in
writing that J. Michael Gamble recuse himself from
serving as Judge in the trial of his case on January 10,

App.615a

1992. By virtue of this motion it is necessary to hold a
hearing on the motion prior to a trial in this matter.
Additionally, James Hinge ley the attorney for the
defendant and the Public Defender for the City of
Lynchburg has indicated that it may be necessary for
him to file a motion to withdraw as counsel for the
defendant for reasons to be later set forth in said
motion. For this additional reason the trial cannot
proceed until such time as the motion by. Mr.
Hingeley has been heard by the Court.
Accordingly, and with agreement of the
Commonwealth Attorney of the City of Lynchburg and
the attorney for the defendant, the jury trial
scheduled for January 10, 1992 in the Circuit Court of
the City of Lynchburg is continued until such time as
the defendant is apprehended on the capias or
surrenders and the various motions can be heard and
determined by the Court.
Entered this 3rd day of January, 1992.
/s/ J. Michael Gamble
Judge
A Copy,
Teste:
Larry B. Palmer
Clerk
By: Signature not legible
Deputy Clerk

App.616a
MOTION FOR RELIEF
(DECEMBER 15, 1992)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH OF VIRGINIA,
Plaintiff,
v.
ISMAIL M. SLOAN, a/k/a
SAMUEL HOWARD SLOAN,
Defendant.
Record No.
Comes now your Defendant, ISMAIL M. SLOAN
a/k/a SAMUEL HOWARD SLOAN, by counsel, in sup­
port of his motion states the following:
1. That he was indicted on July 6, 1992 for failing
to appear, and for attempting to persuade ROLFE.
BENEKE to commit a felony; and
2. That the Defendant was indicted on October 7,
1992 of attempted abduction; and
3. That he was arrested in the State of California
on August 18, 1992, extradited to Virginia and has
remained incarcerated since said date in the Lynchburg
City Jail.

App.617a

WHEREFORE, it is the request of your Defendant
that he be granted the following relief:
A. That a bond hearing be held at the conclusion
of which the Court would establish a bond in accordance
with the guidelines set forth under Title 19.2 of the
Code of Virginia, 1950, as amended, cum, supp.: and
B. That this Court issue an Order providing that
the Defendant be granted a preliminary hearing on
each of the felony charges which are currently pending
against the Defendant; and
C. That the indictments pending against your
Defendant be quashed; and
D. That the Defendant's Motion for Discovery
heretofore filed with this Court be granted; and
E. That venue in this matter be transferred from
the City of Lynchburg, Virginia as a result of negative
publicity and the Defendant’s pending litigation with
various members of the judiciary which would render
Defendant's ability to receive a fair trial within the
city of Lynchburg, Virginia impossible.
Ismail M. Sloan, A/K/A
Samuel Howard Sloan,
/s/ David B. Bice
Counsel for Defendant

App.619a

LETTER FROM KIMBERLEY S. WHITE
TO JUDGE LUMPKIN
(DECEMBER 22, 1992)
Office Of The Commonwealth’s
Attorney Of The City Of Lynchburg
monument terrace building
901 Church Street
P.O. Box 1639
Lynchburg, Virginia 24505
(804) 847-1503
Fax (804) 840-5088
Honorable James M. Lumpkin, Judge
Lynchburg Circuit Court
Lynchburg, VA 24505
Re: Commonwealth of Virginia v. Ismail Sloan
Dear Judge Lumpkin:
Enclosed is the Commonwealth’s Memorandum
of Law on the Motion to Quash the indictment. As re­
quired, I also have notified the defendant, by letter to
his attorney, of the felony, we contend he solicited.
I have received a Motion for Transfer of Venue
from the defendant, himself. The Commonwealth
believes that this matter already has been resolved. I
know of no changes in circumstances that would re­
quired further hearing on the matter.
Very truly yours,
/s/ Kimberley S. White

App.620a

LETTER FROM KIMBERLEY S. WHITE
TO DAVID B. BICE
(DECEMBER 22, 1992)
Office Of The Commonwealth’s
Attorney Of The City Of Lynchburg
monument terrace building
901 Church Street
P.O. Box 1639
Lynchburg, Virginia 24505
(804) 847-1503
Fax (804) 840-5088
Mr. David B. Bice
P.O. Box 1343
Lynchburg, VA 24505
Re: Commonwealth of Virginia v. Ismail Sloan
Dear Mr. Bice:
Enclosed is my Memorandum of Law on the
Motion to Quash. In addition, this letter is to inform
you formally that the felony solicited by your client
was abduction.
I have received a motion for transfer of venue
from your client. It is my position that this matter has
already been decided. I know of no changes in the cir­
cumstances that would require further hearing on the
matter.
Very truly yours,
/s/ Kimberley S. White

Il

App.621a

MEMORANDUM OF LAW
(DECEMBER 15, 1992)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH OF VIRGINIA,
v.
ISMAIL M. SLOAN, aJkJa
SAMUEL HOWARD SLOAN.
Record No.
A motion to quash an indictment attacks the suf­
ficiency of the form of the indictment. Traditionally, the
motion alleges that the indictment does not conform
to Section 19.2-220 or Section 19.2-221 of the Code of
Virginia. Such motions are set forth by Rule 3A:9(6)(l)
of the Rules of the Supreme Court of Virginia. The
Court of Appeals, in Harward v, Commonwealth, 5
Va. App. 468 (1988), commented on the use of these
motions:
Many issues can be definitively ruled upon
pretrial. Others may more appropriately, or
must by necessity, be ruled upon contempo­
raneously during trial. Rule 3A:9 recognizes
a class of defenses and motions must be
raised before trial. Evidentiary rulings or
relevance and materiality issues can only be
made at trial and are not contemplated
within Rule 3A:9.

App.622a

Harward, 5 Va. App. at 474.
In Spain v, Commonwealth, 7 Va. App. 385
(1988), like in the case now before the Court, however,
the defendant attacked the underlying facts supporting
the indictment, rather that its form, through a motion
to quash. The Spain Court dismissed the defendant’s
motion and said:
Spain’s motion questioned the sufficiency of
the expected trial evidence based upon
Spain’s theory of the case and was at least
premature. He raised no cognizable claim
concerning the indictment’s compliance with
Code Sections 19.2-220 and 19.2-221.
Therefore, we find no error in the dismissal
of the motion to quash the indictment.
Spain, 7 Va. App. at 390.
As in Spain, the defendant now before the Court
in effect, has moved to strike the Commonwealth’s
case even before the Commonwealth has put on its
evidence. At trial, the Commonwealth intends to put
on evidence that, not withstanding the continuance of
the trial date, the defendant’s bond required that he
appear in the Circuit Court on January 10, 1992. It is
the failure to appear as required by a bond that
constitutes a violation of Section 19.2-128 of the Code
of Virginia. (The Commonwealth will seek to amend
the language of the indictment setting forth this vio­
lation as illustrated in Exhibit A). In addition,
witnesses will be called by the Commonwealth to
prove that the defendant's bond required him to
appear in Court on January 10, 1992, that the defend­
ant has notice of the appearance requirement, that

App.623a

the defendant was not informed of the jury trial con­
tinuance and therefore could not have been confused
about his appearance requirement, and finally, that
he did not appear on January 10, 1992.
For the foregoing reasons, the Commonwealth
respectfully requests that the defendant’s pretrial
motion to strike, in the form of a motion to quash, be
dismissed.

/s/ Kimberley S. White
Assistant
Commonwealth’s Attorney

App.624a

EXHIBIT A
The Commonwealth will move to amend the
felony failure to appear indictment to read as follows:
On or about January 10, 1992, in the City of Lynchburg,
Virginia, M. Ismail Sloan, aka Samuel Howard Sloan,
unlawfully, feloniously and after having been indicted
on a felony charge of attempted abduction, and after
having been release on bond, pursuant Article I Title
19.2 of the Code of Virginia, did willfully fail to appear
before the Circuit Court for the City of Lynchburg as
required by his bond, in violation of Virginia Code
Section 19.2-128.

App.625a

PLEA OF NOT GUILTY
STATEMENT OF DEFENDANT
(JANUARY 12, 1993)
1. My name is: M. Ismail Sloan a/k/a Samuel
Howard Sloan
2. I am represented by counsel whose name is:
David B. Bice
3. I have received a copy of the warrant
(indictment information before being called upon to
plead, and have read and discussed it with my attor­
ney, and believe that I understand every accusation
made against me in this case.
4. I have told my attorney all the facts and cir­
cumstances, as known to me, concerning the case
against me, and I believe that my attorney is fully
informed as to all such facts. My attorney has informed
me and discussed with me as to the nature of the
charge against me and as to any possible defense I
might have in this case.
5. My attorney has advised me that the
punishment which the law provides is as follows: A
maximum of 15 years imprisonment (and a minimum
of 3 years imprisonment) or, in the discretion of the
jury, or the Judge without a jury, up to 36 months in
jail and a fine of $3500; also that probation is in the
sole discretion of the Trial fudge; and that if I am con­
victed of more than one offense, the Court may order
the sentences to be served consecutively, that is one
after another
6. I understand that by pleading “Not Guilty” to
any charge against me, the Constitution guarantees
me: (a) the right to a speedy and public trial by jury

App.626a

and the jury of twelve persons must unanimously
agree that I am guilty beyond a reasonable doubt
before 1 can be convicted; (b) the right to see and hear
all witnesses against me and the right to crossexamine those witnesses; (c) the right to use the
process of the Court to compel the production of all
evidence and attendance of witnesses in my behalf; (d)
the right to-have the assistance of a lawyer at all
stages of the proceedings; (e) the right to require the
Commonwealth to prove every material allegation
against me beyond a reasonable doubt and to prove
my guilt beyond a reasonable doubt; (£) the right to
appeal the decision of this Court in the event that I
am convicted; (g) the right to remain silent and not to
take the stand or give testimony against myself and I
understand that no inference may be drawn from my
failure to testify and (h) I understand that if I fail to
appear at any part of my trial that this may be deemed
to be a waiver or forfeiture of my right to be present
during the trial and that my trial may commence or
continue in my absence.
7. No one connected with the state, such as the
police or the Commonwealth’s Attorney, or any other
official, has in any manner threatened me or attempted
to intimidate me in regard to any matter concerning
the defense of my case.
8. I have had ample time to discuss my case with
my attorney and have given him the names of any
witnesses that I wish to be present. I am entirely
satisfied with the services of my attorney to date.
9. I am entering this plea of not guilty freely and
voluntarily.

App.627a

10.1 understand that I am entitled to a trial by
jury; that I can consent to trial by the Court without
a jury if the Judge and Commonwealth’s Attorney
agree. I have discussed the case with my attorney and
the advisability of a trial by jury or by the Court
without a jury and have decided that I wish to be tried
by Jury (Judge or Jury).
11.1 understand that in the event that I am found
guilty by a jury or by the court without a jury, in order
for me to exercise and not lose my right to appeal, my
attorney, at my request, must file a written notice of
appeal within thirty (30) days after final judgment.
My attorney has fully explained this appellate proce­
dure to me and I understand that I must promptly
notify my attorney of my desire to take such an appeal
or I will lose my right to appeal.
12.1 have read and understand all. of the above.
Signed by me in the presence of my attorney, this
12th day of January 12, 1993

/s/ M. Ismail Sloan
Defendant
The above accords with my understanding of the
facts in this case, and I certify that this was read by
my client or that I read and explained it to my Client.
/s/ David B. Bice
Defendant’s Attorney

App.628a

JURY LIST
(JANUARY 12, 1993)
1. Rodney Bell
2. Eleanor Braumiller
3. Margaret Buckner
4. Glen Cantrell
5. Edward Fulcher
6. Julia Furrow
7. Kimberly Harper
8. Patricia Howell
9. Wanda Krantz
10. Louise Marshall
11. Christine Pickle
12.Tara Powell
13. Charles Taylor

App.629a

MISCELLANEOUS-EXCERPTS
You are the judges of the- facts, the credibility of
the witnesses, and the weight of the evidence. You
may consider the appearance and manner of the
witnesses on the stand, their intelligence, their oppor­
tunity for knowing the truth and for having observed
the things about which they testified, their interest in
the outcome of the case, their bias, and, if any have
been shown, their prior inconsistent statements, or
whether they have knowingly testified untruthfully as
to any material fact in the case.
You may not arbitrarily disregard believable
testimony of a witness. However, after you have
considered all the evidence in the case, then you may
accept or discard all or part of the testimony of a
witness as you think proper.
You are entitled to use your common sense in
judging any testimony. From these things and all the
other circumstances of the case, you may determine
which witnesses are more believable and weigh their
testimony accordingly.

/s/ Signature not legible

App.630a

You may consider proof of the witness’ prior con­
viction of a felony as affecting his credibility, but it
does not render him incompetent to testify.

(

App.631a

It is not necessary that each element of the
offense be proved by direct evidence, for an element
may also be proved by circumstantial evidence. You
may convict the defendant on circumstantial evidence
alone, or on circumstantial evidence combined with
other evidence, if you believe from all the evidence
that the defendant is guilty beyond a reasonable
doubt.
When
the
Commonwealth
relies
upon
circumstantial evidence, the circumstances proved
must be consistent with guilt and inconsistent with
innocence. It is not sufficient that the circumstances
proved create a suspicion of guilt, however strong, or
even a probability of guilt.
The evidence as a whole must exclude every rea­
sonable theory of innocence.

App.632a

If a person flees to avoid prosecution this creates
no presumption that the person is guilty of having
committed the crime. However, it is a circumstance
which you may consider along with the other evidence.

App.633a

You may consider evidence that the defendant
committed offenses other than the offenses for which
he is on trial only as evidence of the defendant’s
motive, as evidence of the defendant’s intent or as evi­
dence of the defendant's scheme or plan in connection
with the offense for which he is on trial and for no
other purpose.

App.634a

2. A specific term of confinement in jail, but not
more than twelve (12) months in jail; or
3. A specific fine, but not more than $2,500.00; or
4. A specific term of confinement in jail, but not
more than twelve (12) months and a specific fine, but
not more than $2,500.00.
If you find from the evidence that the
Commonwealth failed to prove beyond a reasonable
doubt that the defendant intended to remove Shamema
Honzagool Sloan from the Commonwealth but proved
all other elements then you shall find the defendant
guilty of a misdemeanor and fix his punishment at:
1. A specific confinement in jail, but not more
than twelve (12) months; or
2. A fine of a specific amount, but not more than
$2,500.00; or
3. A specific confinement in jail, but not more
than twelve (12) months and a fine but not more than
$2,500.00
If you find that the Commonwealth has failed to
prove beyond a reasonable doubt any of the elements
of the offense, then you shall find the defendant not
guilty.

App.635a

If the elements of an attempted crime have been
proved beyond a reasonable doubt, then the attempt
has been committed. Even if you find that some other
person or thing prevented the crime from having been
committed, that is no defense.

App.636a

The direct act required to be proved in an
attempted crime is an act which shows a present
intention to commit the crime. The act need not be the
last act prior to the actual commission of the crime,
but it must be more than mere preparation.

App.637a

The intent required to be proved in an attempted
crime is the specific intent in the person’s mind to
commit the particular crime for which the attempt is
charged. In determining whether the intent has been
proved, you may consider the conduct of the person
involved and all the circumstances revealed by the
evidence.

App.638a

The defendant is charged with the crime of
solicitation to commit abduction. The Commonwealth
must prove beyond a reasonable doubt that the
defendant commanded, entreated or attempted to
persuade another person to commit abduction, with
the intent that the abduction be committed.
If you find from the evidence that the
Commonwealth has proved the above elements of the
crime as charged, then you shall find the defendant
guilty and fix his punishment at:
1. A specific term of imprisonment, but not less
than one (l) year nor more than five (5) years; or
2. Confinement in jail for a specific time, but not
more than twelve (12) months; or
3. A fine of a specific amount, but not more than
$2,500.00; or
4. Confinement in jail for a specific time, but not
more than twelve (12) months, and a fine of a specific
amount, but not more than $2,500.00.
If you find that the Commonwealth has failed to
prove the offense beyond a reasonable doubt, then you
shall find the defendant not guilty.

App.639a

The defendant is charged with the crime of failing
to appear. The Commonwealth must prove beyond a
reasonable doubt that the defendant was charged
with a felony offense and that the defendant willfully
failed to appear before a court as require by his bond.
If you find from the evidence that the
Commonwealth has proved the above elements of the
crime charged, then you shall find him guilty and fix
his punishment at:
1. A specific term of imprisonment, but not less
than one (l) nor more than five (5) years; or
2. Confinement in jail for a specific time, but not
more than twelve (12) months; or
3. A fine of a specific amount, but not more than
$2,500.00; or
4. Confinement in jail for a specific time, but not
more than twelve (12) months, and a fine of a specific
amount, but not more than $2,500.00.
If you find that the Commonwealth has failed to
prove the offense beyond a reasonable doubt, then you
shall find the defendant not guilty.

App.640a

On the charge of attempted abduction, we, the
jury, find the defendant guilty and fix his punishment
at: imprisonment for five years.

/s/ Eleanor Braumiller
Foreman
On the charge of attempted abduction, we, the
jury, find the defendant guilty of a misdemeanor and
fix his punishment at:

Foreman
On the charge of attempted abduction, we, the
jury, find the defendant not guilty.

Foreman

App.641a

On the charge of solicitation to commit a felony,
we, the jury, find the defendant guilty and fix his
punishment at:

Foreman

On the charge of solicitation to commit a felony,
we, the jury, find the defendant not guilty.
/s/ Eleanor Braumiller
Foreman

App.642a

On the charge of failure to appear, we, the jury,
find the defendant guilty and fix his punishment at: a
fine of $1800
/s/ Eleanor Braumiller
Foreman

On the charge of failure to appear, we, the jury,
find the defendant not guilty.

Foreman

NO.

3fn tjje

Supreme Court of tfje Mntteb States;
SAMUEL H. SLOAN,
Petitioner,
v.
MARIA CHILDRESS, SHAYAM RAMAN, SUSAN SWECKER,
CHRIS BOLLING, MARK HERRING, RALPH NORTHAM,
LAWRENCE JANOW, J. MICHAEL GAMBLE, WILLIAM G.
PETTY, FRANK G. DAVIDSON III, NORMAN K. MOON,
CHARLES EDWARD ROBERTS, DARRELL JAY ROBERTS,
WILLIAM P. BARR, UNITED STATES DEPARTMENT
OF JUSTICE, UNITED STATES OF AMERICA,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for Fourth Circuit
APPENDIX - Additional Volume II
App.643a to App. 1084a
Samuel H. Sloan
Petitioner Pro Se
1664 Davidson Avenue,
Apartment IB
Bronx, NY 10453
(917) 659-3397
June 7,2021

APPENDIX TABLE OF CONTENTS
Opinions and Orders
Opinion of the United States Court of Appeals for
the Fourth Circuit (October 26, 2020).............. la
Memorandum Opinion of the United States
District Court for the Eastern District of
Virginia Denying Motion for Reconsideration
(May 14, 2020)......................................................

3a

Final Order of the District Court Accompanying
Memorandum Opinion (May 14, 2020)............ 22a
Memorandum Opinion of the District Court for
the Eastern District of Virginia Granting
Motion to Dismiss and Dismiss Sloan’s
Amended Complaint (September 6, 2019)....... 24a
Final Order of the District Court Accompanying
Memorandum Opinion (September 6, 2019)... 44a
Memorandum Order of the United States District
Court for the Eastern District of Virginia
(December 12, 2018)............................................. 46a

Rehearing Order
Order of the United States Court of Appeals for
the Fourth Circuit Denying Petition for
Rehearing (January 8, 2021)............................. 55a

L'

APPENDIX TABLE OF CONTENTS (Cont.)
Other Documents
Verified Complaint
(April 23, 2018)

57a

Brief in Support of Motion to Dismiss
(May 17, 2018)...............................

141a

Reply to the Lawsuit
(May 19, 2018)...

148a

Affidavit of Shamema H. Sloan

159a

Testimony of Shamema H. Sloan

161a

Amended Complaint
(January 18, 2019)

166a

Brief in Support of Renewed Motion to Dismiss
Amended Complaint (January 25, 2019)
191a

APPENDIX TABLE OF CONTENTS (Cont.)
Exhibits to Complaint
Exhibit A—Awadallah Writ of Habeas Corpus
(December 9, 1981).........................................

196a

Exhibit B—Answer filed in Bronx Supreme Court
by Appointed Counsel Philip Newman
(December 22, 1981)
206a
Exhibit C—Decision of the Bronx Supreme Court
Giving Legal Custody to Mother
(June 7, 1982)
251a
Exhibit D—Letter Denying Passport March, 1982
(March 16, 1982)
256a
Exhibit E—Bronx Supreme Court Order
Awarding Full Custody (October 27, 1994)... 258a
Exhibit F—Appointment of Sloan as
Administrator (June 19, 2017)....

261a

Exhibit G—Judge Gamble Waiver of
Disqualification (August 7, 1991)

267a

Exhibit H—Alma Dawson Set Aside of Will
(March 25, 1986)........................................

270a

Exhibit I—Gary Feulner Letter to Judge Miller
(February 28, 1987).......................................... 273a
Exhibit M—Charles Roberts Petition for a Writ of
Mandamus (August 30, 1990)
281a

APPENDIX TABLE OF CONTENTS (Cont.)
Exhibit N—Chief Judge Mosby Perrow III
Disqualified All of the Judges of the 24th
Judicial Circuit (June 18, 1991)
291a
Exhibit O—Bill of Complaint to Annul Marriage
of Alma Coates Dawson (Sloan)
(May 23, 1986)
304a
Exhibit P—Sloan’s Complaint Against Phone
Conversation Between Judge Glen and Judge
Janow (September 4, 1986)
389a
Exhibit Q—Sloan’s Complaint About Misconduct
of Judge Gamble and Janow
(February 3, 1991)
410a
Exhibit V—Mandamus Petition to Remove Judge
(April 25, 2018)
426a
Exhibit W—Appeal of Criminal Conviction to
Court of Appeals of Virginia Rehearing and
rehearing En Banc Granted (April 25, 2018) 495a
Exhibit X, Y—Transcript of Proceedings Volume
II Relevant Excerpts (April 25, 2018)
744a
Exhibit Z—Transcript of Proceedings Relevant
Excerpts (August 24, 1995)
882a

App.643a

MOTION FOR TRANSCRIPT
(FEBRUARY 1, 1993)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH OF VIRGINIA,
Plaintiff,
v.
ISMAIL M. SLOAN, a/k/a
SAMUEL HOWARD SLOAN,
Defendant.
Record No.
Comes now your Defendant, SAMUEL H. SLOAN
a/k/a M. ISMAIL SLOAN, by counsel, who requests
that this Court issue an order causing a transcript to
be produced of the Defendant’s jury trial which
occurred on January 12 and January 13, 1993 in the
Lynchburg Circuit Court with said fee to be paid by
the Court as the Defendant is currently receiving the
assistance of counsel appointed by the Court.
Ismail M. Sloan, A/K/A
Samuel Howard Sloan,

App.644a

/s/ David B. Bice
Counsel for Defendant
David B. Bice, Esquire
Nelson & Bice, P.C.
Post Office Box 1358
Lynchburg, Virginia 24505
(804) 528-1078

App.645a
MOTION TO SET ASIDE VERDICT
AND TO GRANT A NEW TRIAL
PURSUANT TO RULE 3A:15
(JANUARY 28, 1993)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH OF VIRGINIA,
Plaintiff,
v.
ISMAIL M. SLOAN, aJkJa
SAMUEL HOWARD SLOAN,
Defendant.
Record No.
The Defendant, SAMUEL SLOAN a/k/a ISMAIL
SLOAN, by counsel, moves this court to set aside the
verdicts and sentence entered herein on January 13,
1993, and further to grant a new trial and as the
grounds for this motion, Defendant says that
1. In proving the charge against the Defendant of
attempted abduction, the Commonwealth relied upon
circumstantial evidence including documents found
on Defendant's person and in the car he was driving
on the date of the alleged incident, which included two
(2) passports, plane tickets and an itinerary
describing the intended schedule of travel; and

App.646a

2. That throughout the Commonwealth’s case,
the above referenced documents were cited in support
that the theory that the Defendant intended to leave
the Commonwealth of Virginia after having abducted
his daughter; and
3. That throughout the Commonwealth’s case,
there were repeated suggestions made to the effect
that the Defendant had improperly used the name of
RICHARD BOZULICH or in fact was RICHARD
BOZULICH; and
4. That on January 26, 1992 RICHARD
BOZULICH who is residing in the country of Japan,
contacted defense counsel and has offered to testify on
the issue of the Defendant’s authority to use his credit
card and further, the reasoning behind Defendant’s
possession of the airline tickets and other assorted
documents referred to herein above; and
5. That Defendant did not have the ability or did
not believe that he could reasonably procure the
presence of RICHARD BOZULICH at his trial to
testify in his defense prior to trial; and
6. That the anticipated testimony of RICHARD
BOZULICH is material to the charge of attempted
abduction against the Defendant which if heard by a
jury would result in an acquittal.
NOW, THEREFORE, your Defendant requests
that the court grant the following relief:
A. That this court set aside the verdict of guilty
for attempting to abduct his daughter SHAMEMA
SLOAN; and

App.647a

B. That in order to preserve his right to a new
trial, the twenty-one (21) day time period for a new
trial be extended; and
C. That in order to preserve his right to appeal,
that the thirty (30) day period to note an appeal, be
extended; and
D. That the execution of Defendant's sentence be
immediately suspended until the issues raised in this
motion can be resolved; and
E. That this Court grant to the Defendant a new
trial on the charge of attempted abduction.
Samuel Howard Sloan, A/K/A
Ismail M. Sloan
/s/ David B. Bice
Counsel for Defendant
David B. Bice, Esquire
Nelson & Bice, P.C.
Post Office Box 1358
Lynchburg, Virginia 24505
(804) 528-1078

App.648a
ORDER OF THE CIRCUIT COURT OF
THE CITY OF LYNCHBURG
(FEBRUARY 1, 1993)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH
v.
M. ISMAIL SLOAN, a/k/a
SAMUEL HOWARD SLOAN, DOB 09/07/44
Defendant.
Felony No. CR92003936 & CR91003195
The defendant, M. Ismail Sloan aka Samuel
Howard Sloan, by his attorney, David Bice, previously
appointed, moves this Court to set aside the verdicts
and sentence entered herein on January 13, 1993, and
further to grant a new trial for reasons stated in the
motion.
Thereupon the Court having considered the
motions, doth deny the defendant’s motion to set aside
the verdicts and to grant a new trial.
A Copy,
Teste:

App.649a

Larry B. Palmer
Clerk
By: Signature not legible
Deputy Clerk

App.650a
NOTICE OF APPEAL
(FEBRUARY 8, 1993)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH OF VIRGINIA,
Plaintiff,
v.
ISMAIL SLOAN, a/k/a SAMUEL SLOAN,
Defendant.
Record No.
Comes now your Defendant, SAMUEL SLOAN
a/k/a ISMAIL SLOAN, by counsel, who hereby gives
notice of his appeal from the ruling of the Circuit
Court for the City of Lynchburg, Virginia entered on
January 13, 1993 wherein he was found guilty of
attempted abduction and failing to appear. This is to
further give notice that the trial transcript covering
the testimony and other incidents of the Defendant’s
hearing will be filed, all in compliance with Rule 5A:8
of the Rules of the Supreme court of Virginia.
Samuel Sloan, A/K/A
Ismail M. Sloan

App.651a

/s/ David B. Bice
Counsel for Defendant
David B. Bice, Esquire
Nelson & Bice, P.C.
Post Office Box 1358
Lynchburg, Virginia 24505
(804) 528-1078

App.652a
MOTION FOR BOND HEARING
(FEBRUARY 23, 1993)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH OF VIRGINIA,
Plaintiff,
v.
ISMAIL M. SLOAN, a/k/a
SAMUEL HOWARD SLOAN,
Defendant.
Record No.
Comes now your Defendant, ISMAIL M. SLOAN,
by counsel, who respectfully requests that a date be
set for a determination of bond for the Defendant
pending a ruling by the court of Appeals.
Ismail M. Sloan, A/K/A
Samuel Howard Sloan
Is/ David B. Bice
Counsel for Defendant

App.653a

David B. Bice, Esquire
Nelson & Bice, P.C.
Post Office Box 1358
Lynchburg, Virginia 24505
(804) 528-1078

App.654a
NOTICE OF FILING OF TRANSCRIPT
(MARCH 11, 1993)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
COMMONWEALTH OF VIRGINIA,
Plaintiff,
v.
ISMAIL SLOAN, a/k/a SAMUEL SLOAN,
Defendant.
Record No.
PLEASE TAKE NOTICE: On march 11, 1993, the
transcript of the proceedings in this matter was filed
in the Office of the Clerk of this court. This notice is
provided pursuant to Rule 5A:B(b) of the Rules of the
supreme Court of Virginia.
Samuel Sloan, A/K/A
Ismail M. Sloan
Is/ David B, Bice
Counsel for Defendant

App.655a

David B. Bice, Esquire
Nelson & Bice, P.C.
Post Office Box 1358
Lynchburg, Virginia 24505
(804) 528-1078

\

App.656a
MOTION FOR JUDGMENT
(SEPTEMBER 27, 1989)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
AIMA D. SLOAN,
Plaintiff,
v.
SAMUEL H. SLOAN, Administrator of the Estate of
LEROY B. SLOAN, deceased 917 Old Trents Ferry
Road Lynchburg, Virginia 24503,
and
H. MARJORIE SLOAN, His Surety 917 Old Trents
Ferry Road Lynchburg, Virginia 24503,
Defendants.
Record No.
TO THE HONORABLE JUDGES OF SAID COURT:
Comes now the plaintiff, Alma D. Sloan, by
counsel, and moves the Court for judgment against
the defendants on the following grounds, to-wit:
1. The decedent, LeRoy B. Sloan, married the
plaintiff, Alma D. Sloan, on the 31st day of December,
1985.

App.657a

2. The said decedent, LeRoy B. Sloan, died on the
19th day of January, 1986, leaving surviving him, his
wife, Alma D. Sloan, and his two sons, Samuel H.
Sloan and Creighton Sloan. See Attachment “A”.
3. The said Samuel H. Sloan qualified as
administrator of his father’s estate and probated his
will in Will Book 55, at page 539, in the Clerk’s Office
of the Circuit Court for the City of Lynchburg and
posted a surety bond in the amount of Twenty
Thousand Dollars ($20,000.00). See Attachment “B”.
4. The said Alma D. Sloan filed a renunciation of
the said Will on the 25th day of march, 1986, in the
Clerk’s Office of the Circuit Court for the City of
Lynchburg.
5. The said Samuel H. Sloan, the Administrator
of the Estate of LeRoy B. Sloan, along with H.
Marjorie Sloan, the surety on said estate, fled the
jurisdiction of the Commonwealth of Virginia and the
United States of America and located in the United
Arab Emirates, a republic located in the Persian Gulf,
more specifically the sheikhdom of Abu Dhabi, taking
with his all the assets of the said estate.
6. The said Samuel H. Sloan has failed to make
distribution of the estate according to the laws of the
Commonwealth of Virginia, and has prevented the
plaintiff from obtaining personal jurisdiction over his
due to his absence from the United States and his
residing in a foreign country and further, he has
prevented the plaintiff from proceeding against his
surety, since he has sequestered her with his in said
foreign country.
7. The said Samuel H. Sloan has converted the
assets of the estate estimated to be over One Hundred

App.658a

Thousand Dollars ($100,000.00) to his own personal
use and has failed to make an accounting to all the
heirs of said estate according to the laws of the
Commonwealth of Virginia.
8. The said plaintiff, Alma D. Sloan, the lawful
widow of LeRoy B. Sloan, the decedent, has suffered
humiliation, embarrassment and emotional distress
as a result of the defendants’ actions. She has been
prevented from receiving her fair share of the estate
according to the laws of the Commonwealth of Virginia.
WHEREFORE, the plaintiff, by counsel,
respectfully moves this Court for judgment against
the defendants, Samuel H. Sloan, as Administrator
and individually, and H. Marjorie Sloan, as surety and
individually, for judgment in the amount of One
Hundred Thousand Dollars ($100,000.00) for
compensatory damages and One Hundred Thousand
Dollars ($100,000.00) in punitive damages, for total
damages combined of Two Hundred Thousand dollars
($200,000.00); and her costs in this behalf expended.

Aima D. Sloan
Signature not legible
Of Counsel
Donald G. Pendleton
Pendleton, Gamble, Martin, Henderson & Garreit
609-611 Main Street
P.O. Box 1226
Amherst, Virginia 24521

App.659a

ATTACHMENT A
(MARCH 14, 1986)
State of Virginia:
City of Lynchburg:
To-wit:
I, Juanita E. Shields, Clerk of the Circuit Court
of the City of Lynchburg, in the State of Virginia, do
hereby certify that on the 21st day of February 1986.
Samuel H. Sloan
Duly qualified in my said Court as administrator,
c.t.a. of Leroy B. Sloan, deceased.
And gave bond as such according to law in the
penalty of $20,000.00.
And I do further certify that the said qualifying is
still in full force and effect and has not been revoked:
Given under my hand and the seal of said court
This 14th day of March 1986

/s/ Juanita E. Shields
Clerk

App.660a

AFFIDAVIT OF LEROY B. SLOAN
(MARCH 29, 1966)
KNOW ALL MEN that I, Leroy B. Sloan, presently
residing at No. 2711 Rivermont Avenue, in the City of
Lynchburg, Virginia, being of sound and disposing
mind and memory, do hereby make, declare and
publish this, as my last Will and Testament, hereby
revoking any and all wills and codicils heretofore
made by me:
(1). It is my wish, and I do hereby will and direct
that all of my just and legal debts be fully paid as soon
after my death, as may be reasonably convenient by
my hereinafter named personal representative.
(2). It is my further wish and will, and I do here­
by accordingly give, bequeath and devise, in fee simple
absolute, all the rest, residue and remainder of my
entire assets and estate, both real and personal, of
whatever kind or description, and where so ever
situate, in equal shares, unto my two sons, namely:
Samuel H. Sloan and Creighton W. Sloan, share and
share alike.
(3). I hereby nominate and appoint the Fidelity
National Bank, 901 Main Street, in the City of
Lynchburg, Virginia, as the Executor of this, my last
Will and Testament, and having perfect confidence in
its ability and integrity, respectfully request that no
surety be required upon its qualification hereunder.
IN TESTIMONY OF ALL WHICH, I have
hereunto sot my hand, and affixed my seal, on March
29th, 1966, at Lynchburg, Virginia:

App.661a

/s/ Leroy B. Sloan
(SEAL).

The above signature of Leroy B. Sloan, Testator,
was made, and the foregoing Will and Testament was
acknowledged by him to be his last Will and
Testament in the presence of us, two impotent
witnesses, present at the same time; and we the two
aid witnesses do hereunto subscribe the said Will and
Testament, s attesting witnesses, on the date written
next above, in the presence of the said Leroy B. Sloan,
Testators and of each other, 11 three of us being
together and present at the same time, which as done
at the specific request of the said Leroy B. Sloan, who
as, as we also hereby certify, of sound mind, and over
the age of twenty—one years:

ATTESTING WITNESSES:
/s/ Richard S. Miller
/s/ William B. Kizer
Addresses not legible

App.662a

LAST WILL PAPER WRITING
(FEBRUARY 21, 1986)
Virginia: In the Clerk’s Office of the Circuit Court of
the City of Lynchburg, on the 21st day of February,
1986.
A paper writing, bearing date on the 29th day of
March, 1966, purporting to be the last will and
testament of Leroy, B. Sloan, deceased, was produced
before the Clerk of the Circuit Court of the City of
Lynchburg, Virginia, and said paper writing was
proved according to law by the oath of Richard S.
Miller, one of the subscribing witnesses thereto, who
proved the due attestation of William B. Kizer, the
other subscribing witness thereto, and thereupon the
said paper writing was ordered to be recorded as the
true last will and testament of the said Leroy B. Sloan,
deceased.
On motion of Samuel H. Sloan, son and substantial
legatee of Leroy B. Sloan, the decedent, who made
oath as the law directs, and together with H. Marjorie
Sloan, his surety, who made oath as to her sufficiency,
entered into and acknowledged a bond in the penalty
of $20,000.00, conditioned according to law, certificate
was granted the said Samuel H. Sloan for obtaining
letters of administration in due form upon the personal
estate whereof Leroy B. Sloan died possessed, with
the last will and testament of the said Leroy B. Sloan,
deceased, annexed. And the said bond was ordered to
be recorded.
Central Fidelity Bank, successor to Fidelity
National Bank, the executor named in said will
declined to qualify as such executor.

App.663a

Teste:
/s/ Juanita E. Shields
Clerk

App.664a

STATEMENT OF INDIGENCY
(FEBRUARY 21, 1986)
The following is a list of the names, ages, and
addresses of the heirs of Leroy B. Sloan who died
testate on the 19th day of January, 1986., who would
have been the heirs of said decedent had said died
intestate-and the degree of kinship of each to said
decedent, to wit:
Name
Samuel H. Sloan
Age
41
Relationship Son
Address_____ 917 old Trents Ferry Road
Name
Age
Relationship
Address

Creighton w. Sloan
39
Son
Charlotte, North Carolina

Diligent inquiry has been made as to the foregoing
names, ages and addresses, and said list is believed to
be true and correct.

/s/ Samuel H. Sloan
Subscribed and sworn to before me this 21st day
of February, 1986

/s/ Juanita E. Shields
Clerk
Virginia: In Lynchburg Circuit Court Clerk’s Office

App.665a

The foregoing list was filed and admitted to record on
the 21st day of February, 1986

Teste:
/s/ Juanita E. Shields
Clerk

App.666a

ATTACHMENT B
(FEBRUARY 21, 1986)
$20,000.00 Know all Men by these Presents, That
we Samuel H. Sloan and H. Marjorie Sloan are held
and firmly bound unto the Commonwealth of Virginia,
in the just and full sum of Twenty Thousand to the
payment whereof, well and truly to be made, we bind
ourselves, our heirs, executors, and administrators,
and severally, firmly by these presents. And as to this
bond, we hereby severally waive our homestead
exemption any claim, right or privilege to discharge
any liability arising thereunder to the Commonwealth,
or by virtue of office or trust for which said bond is
given, with coupons detached from bonds of this State.
Sealed with our seals, and dated this 21st day of
February, in the year one thousand nine hundred and
eighty six
The Condition of the above Obligation is such,
That whereas the above bound
Samuel H. Sloan, son and substantial legatee of
Leroy B. Sloan, has been granted by the Clerk of the
Circuit Court of the City of Lynchburg, a certificate
for obtaining letters of administration in due form
upon the personal estate whereof Leroy B. Sloan died
possessed, with the last will and testament of the said
Leroy B. Sloan, deceased, annexed.
Now, if the said Samuel H. Sloan shall faithfully
discharge the duties of his office or trust as
Administrator c.t.a. to be void, else to remain in full
force anti virtue.

App.667a

/s/ Samuel H. Sloan

/s/ H. Marjorie Sloan

App.668a

NOTICE OF MOTION FOR JUDGMENT
(SEPTEMBER 27, 1989)
COMMONWEALTH OF VIRGINIA
In the Circuit Court of the City of Lynchburg
To: Samuel H. Sloan
H. Marjorie Sloan
You are hereby notified that unless within
twenty-one (21) days after service of this Notice of
Motion for Judgment on you, response is made by
filing in the Clerk’s Office of this court a pleading in
writing, in proper legal form, judgment may be
entered against you by default, without further notice.
Done in the name of the Commonwealth of
Virginia, this 27th day of September 1989

/s/ Juanita E. Shields
Clerk
K.J. Jira decay
Deputy Clerk
Donald G. Pendleton
609-611 Main Street
Amherst, Virginia 24521

App.669a

LETTER FROM DONALD G. PENDLETON
(MARCH 27, 1990)
Pendleton, Gamble, Martin,
Henderson & Garrett
Attorney at Law
P.O. BOX 1226
Amherst, Virginia 24521
609-611 Main Street
Mrs. Juanita Shields, Clerk
Circuit court of the City of Lynchburg
P.O. BOX 4
Lynchburg, Virginia 24505
In Re: Alma D. Sloan vs. Samuel H. Sloan, Admr.,
et al
Dear Mrs. Shields:
Enclosed herewith please find two copies of the
Motion for Judgment which was previously filed in the
above styled matter. I would ask that said copies be
served on the defendants, Samuel H. Sloan, and H.
Majorie Sloan, at the address shown on the Motion for
Judgment.
Please note that I have enclosed my check to
cover the cost of service in this regard.
Thank you for your assistance in this matter.
With best regards, I am,
Sincerely yours
Donald G. Pendleton

App.670a

NOTICE OF MOTION FOR JUDGMENT
(APRIL 2, 1990)
COMMONWEALTH OF VIRGINIA

Lynchburg Circuit-Law
900 Court Street
Lynchburg Virginia 24505
To: H. Marjorie Sloan
917 Old Trents Ferry Road
Lynchburg Virginia 24503
Case No. 680CL89014790-00
You are hereby notified that unless within
twenty-one (21) days after Service of this notice of
motion for judgment on you, response is made by
Filing in the clerk’s office of the court a pleading in
writing, in proper Legal form, judgment may be
entered against you by default.
Done in the Name of the Commonwealth of
Virginia on April 02, 1990
/s/ Juanita E. Shields
Clerk
Deputy Clerk
Pendleton Donald G.
P.O. BOX 1226
Amherst, Virginia 24521

App.671a

NOTICE OF MOTION FOR JUDGMENT
(APRIL 2, 1990)
COMMONWEALTH OF VIRGINIA
Lynchburg Circuit-Law
900 Court Street
Lynchburg Virginia 24505
To: Samuel H. Sloan, Admr.
917 Old Trents Ferry Road
Lynchburg Virginia 24503
Case No. 680CL89014790-00
You are hereby notified that unless within
twenty-one (21) days after Service of this notice of
motion for judgment on you, response is made by
Filing in the clerk’s office of the court a pleading in
writing, in proper Legal form, judgment may be
entered against you by default.
Done in the Name of the Commonwealth of
Virginia on April 02, 1990
/s/ Juanita E. Shields
Clerk
Deputy Clerk
Pendleton Donald G.
P.O. BOX 1226
Amherst, Virginia 24521

App.672a

NOTICE OF MOTION FOR JUDGMENT
(APRIL 2, 1990)
COMMONWEALTH OF VIRGINIA

Lynchburg Circuit-Law
900 Court Street
Lynchburg Virginia 24505
To: H. Marjorie Sloan
917 Old Trents Ferry Road
Lynchburg Virginia 24503
Case No. 680CL89014790-00
You are hereby notified that unless within
twenty-one (21) days after Service of this notice of
motion for judgment on you, response is made by
Filing in the clerk’s office of the court a pleading in
writing, in proper Legal form, judgment may be
entered against you by default.
Done in the Name of the Commonwealth of
Virginia on April 02, 1990
/s/ Juanita E. Shields
Clerk
Deputy Clerk
Pendleton Donald G.
P.O. BOX 1226
Amherst, Virginia 24521

App.673a

LETTER FROM DONALD G. PENDLETON
(APRIL 19, 1990)
Pendleton, Gamble, Martin,
Henderson & Garreit
Attorney at Law
P.O. BOX 1226
Amherst, Virginia 24521
609-611 Main Street
Mrs. Juanita Shields, Clerk
Circuit court of the City of Lynchburg
P.O. BOX 4
Lynchburg, Virginia 24505
In Re: Alma D. Sloan vs. Samuel H. Sloan, Admr.,
and H. Marjorie Sloan, his surety
Dear Mrs. Shields:
As you know, our office represents the plaintiff in
regards to the above referenced matter. We have
requested service on both defendants, Samuel H.
Sloan and H. Marjorie Sloan, at 917 Old Trents Ferry
Road, Lynchburg, Virginia. This address was the
address listed by the defendants when they qualified
in your Court as administrator and surety on the
Estate of Leroy B. Sloan. We have been notified by the
Sheriffs Department that the defendants could not be
found at the above referenced address.
Therefore, pursuant to Section 26-7.1 of the Code
of Virginia, as amended, I enclose herewith an Affida­
vit setting forth the facts supporting the statutory desig­
nation of you as the agent for service of process on
Samuel H. Sloan and H. Marjorie Sloan.

App.674a

The Code provides that where an administrator
(and surety) qualifies before a Circuit Court Clerk,
that in the event that that fiduciary cannot be found
for service of process, that the act of qualifying
designates the Clerk as agent for said service.
Therefore, I would ask you to do the following:
1. File in the Court’s file the Affidavit in Support
of Designation of Clerk as Attorney for Service of
Process for Samuel H. Sloan.
2. File in the Court’s file the Affidavit in Support
of Designation of Clerk as Attorney for Service of
Process for H. Marjorie Sloan.
3. Attach a Notice of Motion for Judgment to each
of the enclosed copies of the Motion for Judgment.
Sincerely yours
Donald G. Pendleton

App.675a

LETTER FROM M. ISMAIL SLOAN
TO JOHN P. BUTLER
(MAY 20, 1990)
M. Ismail Sloan
Ismail Computer Company
P.O. Box 4829
Fujairah, United Arab Emirates
Tel: 011-9717027562 (Office)
011-9717027516 (res.)
Juanita Shields. Clerk
Lynchburg Circuit Court
P.O. Box 4
Lynchburg, Virginia 24505
U.S.A.
Dear Mr. Shields,
Enclosed is the answer and counterclaim to the
new suit filed against me and my mother, plus an affi­
davit in opposition to the petition by Stephen C.
Martin to withdraw as counsel of record for the estate
in another related case which has been pending since
1986. Please file these accordingly.
You might want to consider the possibility of
referring these cases to Judge Ballow, since they
involve to some extent the same individuals, facts and
circumstances as are involved in the case Sloan v.
Richard S. Miller pending before him.
You will notice that I use the names Samuel H.
Sloan and M. Ismail Sloan almost interchangeable.
The reason for this is that I changed my name in 1979.
However, in cases involving my late father, I must use

App.676a

the name Samuel H. Sloan because that is the name
by which I am known in Lynchburg and the name
which is used in my father’s will. Also, my mother still
calls me by that name. However, in any case involving
my daughter, Shamema Sloan, I must use the name
M. Ismail Sloan, because that is the name given to me
as her father on her birth certificate.
This has caused a problem and delay because at
first the U.S. Embassy refused to notarize my signature
under the name of Samuel H. Sloan, but after a delay
of about a week, they finally agreed. Otherwise, you
would have received these papers a week ago.
Also, the latest letters you sent to us were
addressed to “Saudi Arabia”. The postmarks show
that these actually went to Saudi Arabia but, by some
miracle, eventually reached us.

Very Truly Yours,
/s/ Ismail Sloan

App.677a
GROUNDS OF DEFENSE
(XXXX XX, xxxx)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
AIMA DAWSON SLOAN,
Plaintiff,
v.
SAMUEL H. SLOAN, Administrator of the Estate of
LEROY B. SLOAN, deceased,
and
H. MARJORIE SLOAN,
Defendants.
Record No.
Comes now defendant Samuel H. Sloan and for
his grounds of defense to the motion for judgment filed
herein says as follows:
1. Defendant denies the allegations contained in
paragraph 1 of the motion for judgment.
2. Defendant denies the allegations contained in
paragraph 2 of the motion for judgment, except that
defendant admits that Leroy B. Sloan died on January
19, 1986 and was survived by his two sons: Samuel H.
Sloan and Creighton W. Sloan.

App.678a

3. Defendant admits the allegations contained in
paragraph 3 of the motion for judgment.
4. Defendant avers that he has no knowledge of
the allegations contained in paragraph 4 of the motion
for judgment and therefore denies the allegations con­
tained therein.
5. Defendant denies the allegation contained in
paragraph 5 of the motion for judgment, except that
Defendant admits that the defendants presently reside
in the United Arab Emirates, which is located on the
Persian Gulf.
6. Defendant denies the allegations contained in
paragraphs 6, 7 and 8 of the motion for judgment.
7. Defendant avers that the within action should
be dismissed for improper service and lack of personal
jurisdiction over the defendants.
8. Defendant avers that the within action is
barred by the statute of limitations, latches and
collateral estoppel.
9. Defendant avers that the counsel for the plain­
tiff in this action is disqualified of the grounds of
conflict of interest in that he has formed a law
partnership with Stephen C. Martin, the attorney for
the defendant to this action, and as a result is in a
position to receive access to privileged information
regarding the defendants.
10.Defendant avers that within two weeks after
the death of the said decedent, Leroy B. Sloan, the
plaintiff herein sold at a yard sale conducted at 210
Forestdale Drive in Lynchburg all of the personal
property and effects of the decedent, without any legal

App.679a

authority to do so, and, among other things, thereby
destroyed evidence pertinent to this case.
11. Defendant avers that the death of the said
decedent was caused or, in any event, was greatly
accelerated by the activities of the plaintiff in her
efforts to seize control over all of the assets of the said
decedent during the last 19 days of his life, at a time
when the said decedent was of unsound mind. Among
other things, upon information and belief, the plaintiff
forged the signature of the said decedent on a letter
dated January 16, 1986 resigning the membership of
the said decedent in the Elk’s National Home in
Bedford and thereafter cleaned out the room and took
away the personal property and effects of the
decedent.
12. Defendant avers that the marriage alleged in
paragraph 1 of the complaint took place in the
Emergency Room of the Lynchburg General Hospital
at a time when the said decedent was suffering from
a brain seizure, was in a semi-conscious state, was
attached to various life support equipment and was of
unsound mind and therefore that this alleged
marriage was void ab initio.
13.Defendant avers that after the death of the
decedent, the plaintiff forged the signature of the
decedent to four checks on an account of the decedent
at Sovran Bank in an effort to take assets of the
decedent which properly belonged to the estate of the
decedent.
14.Defendant avers upon information and belief
that after the death of the decedent the plaintiff
obtained by fraudulent means the proceeds of a life

App.680a

insurance policy of some sort which properly belonged
to the estate.
15. Defendant avers that the plaintiff has harassed
the family of the said decedent, including the defend­
ants herein, with false, fictitious and imaginary claims,
of which this lawsuit is one, and has caused the
defendants to suffer distress, embarrassment and
humiliation.
16.Defendant avers that the plaintiff is entitled
to receive nothing of the estate of the decedent in
accordance with the laws of the Commonwealth of
Virginia.
WHEREFORE, defendant prays that this motion
for judgment be dismissed and that the defendants
recover from plaintiff costs in this behalf expended.
/s/ Samuel H. Sloan
P.O. Box 11829
Fujairah
United Arab Emirates
Tel: 011-9717027562

App.681a

GROUNDS OF DEFENSE
(XXXX XX, XXXX)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
AIMA DAWSON SLOAN,
Plaintiff,
v.
SAMUEL H. SLOAN, Administrator of the Estate of
LEROY B. SLOAN, deceased,
and
H. MARJORIE SLOAN,
Defendants.
Record No.
Comes now defendant Samuel H. Sloan and for
his grounds of defense to the motion for judgment filed
herein says as follows:
1. Defendant denies the allegations contained in
paragraph 1 of the motion for judgment.
2. Defendant denies the allegations contained in
paragraph 2 of the motion for judgment, except that
defendant admits that Leroy B. Sloan died on January
19, 1986 and was survived by his two sons: Samuel H.
Sloan and Creighton W. Sloan.

App.682a

3. Defendant admits the allegations contained in
paragraph 3 of the motion for judgment.
4. Defendant avers that he has no knowledge of
the allegations contained in paragraph 4 of the motion
for judgment and therefore denies the allegations con­
tained therein.
5. Defendant denies the allegation contained in
paragraph 5 of the motion for judgment, except that
Defendant admits that the defendants presently reside
in the United Arab Emirates, which is located on the
Persian Gulf.
6. Defendant denies the allegations contained in
paragraphs 6, 7 and 8 of the motion for judgment.
7. Defendant avers that the within action should
be dismissed for improper service and lack of personal
jurisdiction over the defendants.
8. Defendant avers that the within action is
barred by the statute of limitations, latches and
collateral estoppel.
9. Defendant avers that the counsel for the plain­
tiff in this action is disqualified of the grounds of
conflict of interest in that he has formed a law
partnership with Stephen C. Martin, the attorney for
the defendant to this action, and as a result is in a
position to receive access to privileged information
regarding the defendants.
10.Defendant avers that within two weeks after
the death of the said decedent, Leroy B. Sloan, the
plaintiff herein sold at a yard sale conducted at 210
Forestdale Drive in Lynchburg all of the personal
property and effects of the decedent, without any legal

App.683a

authority to do so, and, among other things, thereby
destroyed evidence pertinent to this case.
11.Defendant avers that the death of the said
decedent was caused or, in any event, was greatly
accelerated by the activities of the plaintiff in her
efforts to seize control over all of the assets of the said
decedent during the last 19 days of his life, at a time
when the said decedent was of unsound mind. Among
other things, upon information and belief, the plaintiff
forged the signature of the said decedent on a letter
dated January 16, 1986 resigning the membership of
the said decedent in the Elk’s National Home in
Bedford and thereafter cleaned out the room and took
away the personal property and effects of the
decedent.
12.Defendant avers that the marriage alleged in
paragraph 1 of the complaint took place in the
Emergency Room of the Lynchburg General Hospital
at a time when the said decedent was suffering from
a brain seizure, was in a semi-conscious state, was
attached to various life support equipment and was of
unsound mind and therefore that this alleged
marriage was void ab initio.
13. Defendant avers that after the death of the
decedent, the plaintiff forged the signature of the
decedent to four checks on an account of the decedent
at Sovran Bank in an effort to take assets of the
decedent which properly belonged to the estate of the
decedent.
14. Defendant avers upon information and belief
that after the death of the decedent the plaintiff
obtained by fraudulent means the proceeds of a life

App.684a

insurance policy of some sort which properly belonged
to the estate.
15. Defendant avers that the plaintiff has harassed
the family of the said decedent, including the defend­
ants herein, with false, fictitious and imaginary claims,
of which this lawsuit is one, and has caused the
defendants to suffer distress, embarrassment and
humiliation.
16. Defendant avers that the plaintiff is entitled
to receive nothing of the estate of the decedent in
accordance with the laws of the Commonwealth of
Virginia.
WHEREFORE, defendant prays that this motion
for judgment be dismissed and that the defendants
recover from plaintiff costs in this behalf expended.

/s/ H. Marjorie Sloan
P.O. Box 11829
Fujairah
United Arab Emirates
Tel: 011-9717027562

App.685a

COUNTERCLAIM
(MAY 20, 1990)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
AIMA DAWSON SLOAN,
Plaintiff,
v.
SAMUEL H. SLOAN, Administrator of the Estate of
LEROY B. SLOAN, deceased,
and
H. MARJORIE SLOAN,
Defendants.
Record No.
Comes now the defendants Samuel H. Sloan,
Administrator C.T.A. of the estate of Leroy B. Sloan,
and H. Marjorie Sloan, and in addition to the grounds
of defense heretofore filed in the above-styled action,
files this counterclaim, and for the grounds therefor
states as follows:
1. On December 31, 1985, Alma Coates Dawson,
the plaintiff herein, married or attempted to marry
Leroy B. Sloan, the said decedent, then aged 75, in the
Emergency Room of the Lynchburg General Hospital
at a time when the said decedent was suffering from a

App.686a

brain seizure, was in a semi-conscious state, was
attached to various life support equipment, was of
unsound mind and was physically and mentally
incapable of caring for himself.
2. Approximately two to three days later, the
plaintiff herein removed the said decedent from the
Virginia Baptist Hospital, to which he had by then
been transferred, at a time when the said decedent
was in no condition to leave the hospital.
3. The reason that the plaintiff removed the said
decedent from the hospital was to take him to a public
auction being held on the same date for a house
located at 210 Forestdale Drive in the hopes that the
said decedent would bid at the auction and buy the
house for her.
4. Thereafter, the plaintiff tried to obtain by
various means the key to the safe deposit box of the
decedent, the gasoline credit card of the decedent, the
mail box key of the decedent, access to all of the
checking and bank accounts of the decedent, and all of
the assets and other personal property of the
decedent.
5. On or about January 15, 1986, the plaintiff
brought the said decedent to the Langhorn Road
Branch of the Central Fidelity Bank in Lynchburg for
the purpose of having the said decedent give her the
signing authority over his bank account.
On January 16, 1986, upon information and
belief, the plaintiff forged the signature of the said
decedent on a letter resigning the membership of the
said decedent in the Elk’s National Home in Bedford
and thereafter cleaned out the room and took away
the Personal property and effects of the decedent.

App.687a

7. The purpose of this was to insure that the
decedent would not try to escape from the plaintiff and
return to his living quarters at the Elk’s National
Home.
8. On the evening of January 19, 1986, the said
decedent suffered a severe cardiac failure at 210
Forestdale Drive in the presence of the plaintiff. How­
ever, the plaintiff did not call the Lynchburg Rescue
Squad until nearly midnight, by which time the said
decedent was already long since dead.
9. Within two weeks after the death of the said
decedent, the plaintiff herein sold at a yard sale
conducted at 210 Forestdale Drive in Lynchburg all of
the personal property and effects of the decedent,
including all of the clothing, papers and personal
effects which she had removed from the Elk’s National
Home, without any legal authority to do so and
without notifying the defendants, the administrator of
the estate or any other of the heirs or beneficiaries of
the estate.
10.After the death of the decedent, the plaintiff
forged the signature of the decedent to four checks on
an account of the decedent at Sovran Bank in an effort
to take assets of the decedent which properly belonged
to the estate of the decedent. All of these four checks
were dated after the date of the death of the decedent.
11. Upon information and belief, after the death
of the decedent, the plaintiff obtained by fraudulent
means the proceeds of a life insurance policy of some
sort or kind amounting to approximately $4,000 which
properly belongs to the estate.
12.The plaintiff has harassed the family of the
said decedent, including the defendants herein, with

App.688a

false, fictitious and imaginary claims, and has caused
the defendants to suffer distress, embarrassment and
humiliation.
13. By reason of the aforesaid facts and
surrounding circumstances, the putative marriage
between Alma Coates Dawson and Leroy B. Sloan is
null and void ab initio. Alma Coates Dawson is
entitled to receive nothing from the estate.
14. As a result of the aforesaid facts and circum­
stances, the death of the decedent was greatly
accelerated and he would have lived longer had it not
been for the unrelenting efforts of the plaintiff herein
to obtain his assets during the last 19 days of his life.
WHEREFORE, the defendants pray that plaintiffs
action against them be dismissed and that defendants
have judgment against the plaintiff on this
counterclaim in the sum of $200,000 (two hundred
thousand dollars) and their costs in this behalf
expended.

/s/ Samuel H. Sloan
/s/ H. Marjorie Sloan

App.689a
AFFIDAVIT IN SUPPORT OF DESIGNATION OF
CLERK AS ATTORNEY FOR SERVICE OF
PROCESS FOR SAMUEL H. SLOAN
(APRIL 10, 1990)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
AIMA D. SLOAN,
Plaintiff,
v.
SAMUEL H. SLOAN, Administrator of the Estate of
LEROY B. SLOAN, deceased 917 Old Trents Ferry
Road Lynchburg, Virginia 24503,
and
H. MARJORIE SLOAN, His Surety 917 Old Trents
Ferry Road Lynchburg, Virginia 24503,
Defendants.
Record No.
This day, Donald G. Pendleton, counsel for the
plaintiff, Alma D. Sloan, personally appeared before
me, Barbara G. Ramsey, a Notary Public for the State
of Virginia, and made oath that:
1. LeRoy B. Sloan died on the 19th day of Janu­
ary, 1986.

App.690a

2. On the 21st day of February, 1986, Samuel H.
Sloan qualified as Administrator, C.T.A., of the Estate
of LeRoy B. Sloan and probated the will of LeRoy B.
Sloan in the Clerk’s Office of the Circuit Court for the
City of Lynchburg, and posted a surety band in refer­
ence to such estate. H. Marjorie Sloan appeared as
surety for Samuel H. Sloan on said estate, who made
oath as to her sufficiency, and entered into and ack­
nowledged said bond as surety.
3. Said Samuel H. Sloan, the Administrator of
the Estate of LeRoy B. Sloan, along with H. Marjorie
Sloan, the surety on said estate, fled the jurisdiction
of the Commonwealth of Virginia and the United
States of America and located themselves in the
United Arab Emirates, a republic located in the
Persian Gulf, more specifically the sheikhdom of Abu
Dhabi, taking with them all the assets of said estate.
4. The plaintiff, Alma D. Sloan, the lawful widow
of LeRoy B. Sloan, the decedent, has been prevented
from receiving her legal interest in the estate according
to the laws of the Commonwealth of Virginia.
5. The defendant, Samuel H. Sloan, cannot be
found and served within the Commonwealth of Virginia
after the exercise of due diligence, as the Sheriff for
the City of Lynchburg attempted to serve the defendant
at 917 Old Trents Ferry Road, Lynchburg, Virginia,
and said summons was returned not found, and the
affiant has reason to believe that the defendant is not
within the Commonwealth of Virginia.
6. The object of the proceeding filed herein relates
to the proper administration or distribution of the
aforesaid fiduciary estate and includes a proceeding to
obtain a personal judgment against the defendants for

App.691a

nonfeasance, misfeasance, and/or malfeasance in the
performance of the fiduciary’s duties.
7. Pursuant to § 26-7.1 of the Code of Virginia, as
amended, the defendant, Samuel H. Sloan,
Administrator, and H. Marjorie Sloan, surety, qualified
and gave bond before the Clerk of the Circuit Court
for the City of Lynchburg and by executing the re­
quired bond, have thereby designated the Clerk of
said Court, Juanita E. Shields, as the true and lawful
attorney of such persons upon wham notice, process or
rule may be issued from a Court of this
Commonwealth, when they cannot be found within
the Commonwealth.
8. The foregoing designation has not been
terminated and remains in effect as the fiduciary’s
final account does not “stand confirmed” as provided
in § 26-33 of the Code of Virginia; nor has said desig­
nation been terminated by Order of the Court.
9. The above captioned proceeding arises from
the facts set forth above, all of which is under the
jurisdiction of the Circuit Court of the City of
Lynchburg, Commonwealth of Virginia.
10.The defendant, Samuel H. Sloan, is a non­
resident of the Commonwealth of Virginia, whose last
known address is 917 Old Trents Ferry Road,
Lynchburg, Virginia 24503, as shown in the Motion
for Judgment, and/or P.O. Box 11829, Fujairah, United
Arab Emirates, Saudi, Arabia, and, therefore, service
of process shall issue and be served upon the defendant
by serving Juanita E. Shields, the Clerk of the Circuit
Court for the City of Lynchburg, as the designated
attorney for service of process, pursuant to § 26-7.2 of
the Code of Virginia, as amended; whereupon it shall

App.692a

be the duty of the Clerk to mail the same forthwith by
registered mail, postage prepaid, to the defendant at his
last known address as shown in the Court papers, the
costs thereof to be advanced by the person requesting
the service.
Given under my hand this 10th day of April,
1990.

/s/ Donald G. Pendleton
Subscribed and sworn to before me this 10th day
of April, 1990.

Signature not legible

App.693a
AFFIDAVIT IN SUPPORT OF DESIGNATION OF
CLERK AS ATTORNEY FOR SERVICE OF
PROCESS FOR H. MARJORIE SLOAN
(APRIL 10, 1990)
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG
AIMA D. SLOAN,
Plaintiff,
v.
SAMUEL H. SLOAN, Administrator of the Estate of
LEROY B. SLOAN, deceased 917 Old Trents Ferry
Road Lynchburg, Virginia 24503,
and
H. MARJORIE SLOAN, His Surety 917 Old Trents
Ferry Road Lynchburg, Virginia 24503,
Defendants.
Record No.
This day, Donald G. Pendleton, counsel for the
plaintiff, Alma D. Sloan, personally appeared before
me, Barbara G. Ramsey, a Notary Public for the State
of Virginia, and made oath that:
1. LeRoy B. Sloan died on the 19th day of Janu­
ary, 1986.

App.694a

2. On the 21st day of February, 1986, Samuel H.
Sloan qualified as Administrator, C.T.A., of the Estate
of LeRoy B. Sloan and probated the will of LeRoy B.
Sloan in the Clerk’s Office of the Circuit Court for the
City of Lynchburg, and posted a surety band in refer­
ence to such estate. H. Marjorie Sloan appeared as
surety for Samuel H. Sloan on said estate, who made
oath as to her sufficiency, and entered into and ack­
nowledged said bond as surety.
3. Said Samuel H. Sloan, the Administrator of
the Estate of LeRoy B. Sloan, along with H. Marjorie
Sloan, the surety on said estate, fled the jurisdiction
of the Commonwealth of Virginia and the United
States of America and located themselves in the
United Arab Emirates, a republic located in the
Persian Gulf, more specifically the sheikhdom of Abu
Dhabi, taking with them all the assets of said estate.
4. The plaintiff, Alma D. Sloan, the lawful widow
of LeRoy B. Sloan, the decedent, has been prevented
from receiving her legal interest in the estate according
to the laws of the Commonwealth of Virginia.
5. The defendant, Samuel H. Sloan, cannot be
found and served within the Commonwealth of Virginia
after the exercise of due diligence, as the Sheriff for
the City of Lynchburg attempted to serve the defendant
at 917 Old Trents Ferry Road, Lynchburg, Virginia,
and said summons was returned not found, and the
affiant has reason to believe that the defendant is not
within the Commonwealth of Virginia.
6. The object of the proceeding filed herein relates
to the proper administration or distribution of the
aforesaid fiduciary estate and includes a proceeding to
obtain a personal judgment against the defendants for

App.695a

nonfeasance, misfeasance, and/or malfeasance in the
performance of the fiduciary’s duties.
7. Pursuant to § 26-7.1 of the Code of Virginia, as
amended, the defendant, Samuel H. Sloan,
Administrator, and H. Marjorie Sloan, surety, qualified
and gave bond before the Clerk of the Circuit Court
for the City of Lynchburg and by executing the re­
quired bond, have thereby designated the Clerk of
said Court, Juanita E. Shields, as the true and lawful
attorney of such persons upon wham notice, process or
rule may be issued from a Court of this
Commonwealth, when they cannot be found within
the Commonwealth.
8. The foregoing designation has not been
terminated and remains in effect as the fiduciary’s
final account does not “stand confirmed” as provided
in § 26-33 of the Code of Virginia; nor has said desig­
nation been terminated by Order of the Court.
9. The above captioned proceeding arises from
the facts set forth above, all of which is under the
jurisdiction of the Circuit Court of the City of
Lynchburg, Commonwealth of Virginia.
10.The defendant, Samuel H. Sloan, is a non­
resident of the Commonwealth of Virginia, whose last
known address is 917 Old Trents Ferry Road,
Lynchburg, Virginia 24503, as shown in the Motion
for Judgment, and/or P.O. Box 11829, Fujairah, United
Arab Emirates, Saudi, Arabia, and, therefore, service
of process shall issue and be served upon the defendant
by serving Juanita E. Shields, the Clerk of the Circuit
Court for the City of Lynchburg, as the designated
attorney for service of process, pursuant to § 26-7.2 of
the Code of Virginia, as amended; whereupon it shall

App.696a

be the duty of the Clerk to mail the same forthwith by
registered mail, postage prepaid, to the defendant at his
last known address as shown in the Court papers, the
costs thereof to be advanced by the person requesting
the service.
Given under my hand this 10th day of April,
1990.

/s/ Donald G. Pendleton
Subscribed and sworn to before me this 10th day
of April, 1990.

Signature not legible

App.697a

NOTICE OF MOTION FOR JUDGMENT
(APRIL 23, 1990)
COMMONWEALTH OF VIRGINIA

Lynchburg Circuit-Law
900 Court Street
Lynchburg Virginia 24505
To: H. Marjorie Sloan Surety
Serve: Juanita E. Shields, Clk.
Atty. For Service of Process
Lynchburg Virginia
Case No. 680CL89014790-00
You are hereby notified that unless within
twenty-one (21) days after Service of this notice of
motion for judgment on you, response is made by
Filing in the clerk’s office of the court a pleading in
writing, in proper Legal form, judgment may be
entered against you by default.
Done in the Name of the Commonwealth of
Virginia on April 23, 1990
/s/ Juanita E. Shields
Clerk
Deputy Clerk
Michael T. Garrett
P.O. BOX 1226
Amherst, Virginia

App.698a

NOTICE OF MOTION FOR JUDGMENT
(APRIL 23, 1990)
COMMONWEALTH OF VIRGINIA
Lynchburg Circuit-Law
900 Court Street
Lynchburg Virginia 24505
To: Samuel H. Sloan
Serve: Juanita E. Shields, Clk.
Atty. For Service of Process
Lynchburg Virginia
Case No. 680CL89014790-00
You are hereby notified that unless within
twenty-one (21) days after Service of this notice of
motion for judgment on you, response is made by
Filing in the clerk’s office of the court a pleading in
writing, in proper Legal form, judgment may be
entered against you by default.
Done in the Name of the Commonwealth of
Virginia on April 23, 1990
/s/ Juanita E. Shields
Clerk
Deputy Clerk
Michael T. Garrett
P.O. BOX 1226
Amherst, Virginia

App.699a

ORDER OF THE CIRCUIT COURT FOF THE CITY
OF LYNCHBURG FOR LEAVE TO WITHDRAW
(AUGUST 2, 1990)
VIRGINIA: IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG

ALMA DAWSON SLOAN,
Plaintiff,
v.
SAMUEL H. SLOAN, Administrator of the Estate of
LEROY B. SLOAN, deceased,
This day came the plaintiff, Alma D. Sloan, and
her attorneys of record, Donald G. Pendleton and
Michael T. Garrett, and upon Motion for leave to with­
draw as counsel of record, to avoid an possible
appearance of impropriety; NOW THEREFORE,
counsel for the plaintiff having given notice to the
defendants, Samuel H. Sloan and H. Margie Sloan, of
the presentation of this order and no appearance or
objection being filed thereto by the defendants; and
upon consideration whereof, the court deeming it
proper to do so, doth hereby ADJUDGE, ORDER, and
DECREE, that Donald G. Pendleton and Michael T.
Garrett, are hereby withdrawn as counsel of record for
Alma D. Sloan and relieved from all further obliga­
tions to appear in this cause on her behalf.
ENTERED this 2nd day of August, 1990.

App.701a

MOTION FOR LEAVE TO WITHDRAW
(AUGUST 1, 1990)
VIRGINIA: IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG

ALMA DAWSON SLOAN,
Plaintiff,
v.
SAMUEL H. SLOAN, Administrator of the Estate of
LEROY B. SLOAN, deceased,
Comes now Donald G. Pendleton and Michael T.
Garrett, counsel of record for Alma Dawson Sloan, and
hereby moves this Honorable Court for leave to
withdraw as counsel of record, as certain facts have
come the attention of plaintiffs counsel, and counsel
for the plaintiff having discussed these matters with
the plaintiff, seeks to avoid any possible appearance
of impropriety, or conflict of interest, and does therefore
move this Honorable Court to permit them to withdraw
from further representation of the plaintiff in this
matter.

/s/ Mosbv G. Perrow
Judge

App.703a

ADDENDUM TO THE AFFIDAVIT
(SEPTEMBER 7, 1990)
VIRGINIA: IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG

ALMA D. SLOAN,
Plaintiff,
v.
SAMUEL H. SLOAN, administrator C.T.A. of the
Estate of LEROY B. SLOAN, deceased, and H.
Marjorie Sloan, His Surety,
Defendants.
Case Number 680CL89014790-00
Comes now the defendant, Samuel H. Sloan,
administrator C.T.A. of the Estate of LEROY B.
SLOAN, deceased, and, after being duly sworn, states:
1. This is an addendum to the affidavit previously
filed with this court dated about May, 1990 in
opposition to the motion for judgment filed with this
court by the attorney for the plaintiff.
2. The purpose of this affidavit is to present an
exhibit to this court, namely a copy of the letter of
resignation which purports to have been signed by my
father on January 16, 1986, three days before he died,
for the purpose of resigning his membership in the
Elk’s National Home in Bedford, Virginia.

App.704a

3. As I have mentioned in my previous affidavit,
my father had the life long plan of living out his
retirement years in the Elk’s National Home and it is
unthinkable that he could have ever resigned his
membership voluntarily.
4. Also included in the same exhibit, is a copy of a
check number 915 drawn on my father’s bank account
in favor of Alma Dawson dated February 18, 1986. (I
am sorry for the poor condition of the photocopy, but
this is the condition in which it was given to me by the
bank.)
5. Looking at the check, it is important to note
the date and the signature. My father died on January
19, 1986. Therefore, he was in no condition to sign a
check on February 18, 1986. Also, this was not a
simple error in the date. The check was deposited at
Sovran Bank by Alma Dawson into her own bank
account on the same date, February 18, 1986, as the
stamps and the signature on the back of the check
demonstrate.
6. The inescapable fact is that Alma Dawson, the
plaintiff herein, forged my late father’s signature on
the check. Indeed, a few days later, the Sovran Bank
Branch Manager, Larry Crank, called Alma Dawson
into his office and she admitted the forgery. Because
she also had an account with Sovran Bank, he simply
deducted the funds from her bank account and
restored it to my late father’s account.
7. The enclosed photocopy shows only one of four
checks on the same bank account wherein Alma
Dawson forged my father’s signature after he had
already died. All four checks were handled by Larry
Crank in the same manner.

App.705a

8. Now look at the signature on the letter of
resignation from the Elk’s National Home. It can be
seen that the signature there is the same as the forged
signature on the check. What this proves is that both
were signed by the same person. In other words, Alma
Dawson also signed the letter of resignation to the
Elk’s National Home.
9. In short, the truth is that my father never
resigned from the Elk’s National Home. Anybody who
knew my father will agree that he was very proud of
his membership in the Elk’s and would never dream
of resigning.
10. What this in turn means is that my father
never voluntarily left the Elk’s and went off to live
with Alma Dawson. Rather, she was the one who
removed him from there in his incapacitated condition.
In this lawsuit, she is claiming the right to inherit
part of his estate. However, since she forged my
father’s signature on both the checks and the letter of
resignation it seems clear that she lacks a valid legal
claim.
11. By the way, these four checks were at that
time submitted to William G. Petty, the Lynchburg
Commonwealth Attorney, with a request that Alma
Dawson be prosecuted on a forgery charge. However,
the reality is that my father’s personal best friend was
Joe Oppleman, who was a longtime political opponent
of Mr. Petty (who is an elected official) and for that
reason there was no snowball’s chance that Mr. Petty
would ever do anything to help my family. This also
explains the fact that to the contrary Mr. Petty has
been trying to have me and my mother arrested for
the past four years, after the Commonwealth Attorney
in Amherst County, which had actual jurisdiction over

App.706a

that other case (the Shamema case), declined to
prosecute.
12. Since the date of my father’s will, I have
changed my name to M. Ismail Sloan. As a result, I
sign my name both ways, at various times.
13. Further the affirmant sayeth not.
/s/ M. Ismail Sloan
(formerly Samuel H. Sloan)
Subscribed to and sworn before me this 7th day
of September, 1990

/s/ Charles J. Jess
Vice Consul of the
United States of America

App.707a
LETTER FROM DONALD G. PENDLETON
(APRIL 26, 1990)
PENDLETON, GAMBLE, MARTIN
HENDERSON, & GARRETT
ATTORNEYS AT LAW
P.O. Box 1226
AMHERST, VIRGINIA 24521,
i

Mrs. Juanita Shields, Clerk
Circuit Court of City of Lynchburg
P.O. Box 4
Lynchburg, Virginia 24505
In Re: Alma Sloan vs. Samuel Sloan, et al
Dear Mrs. Shields:
Enclosed herewith please find our Check in the
amount of $27.14, which represents reimbursement to
you for the costs expended in service of the Motion for
Judgment on the defendants, Samuel Sloan and H.
Marjorie Sloan.
Thank you for your assistance in this matter.
With best regards, I am,
Sincerely yours,
/s/ Donald G. Pendleton
DGP: bgr
Enclosure

App.708a

LETTER FROM LEROY SLOAN
(JANUARY 16, 1986)
ELKS NATIONAL HOME
of the Benevolent and Protective Order of Elks
“A Home Away fromHome”
William P. Pickett
Executive Director
Elks National Home
Bedford, VA 24523
Dear Brother Pickett:
This is to notify you that I wish to resign from the
Elks National Home as of this date, as I have
married.
My new address is P.O. Box 2185, Lynchburg, VA
24501.
Sincerely,
/s/ Leroy B. Sloan
DGP: bgr
Enclosure

App.709a

MEMORANDUM OF THE UNITED STATES
DISTRICT COURT FOR LYNCHBURG
(FEBRAURY 15, 1994)
U.S. DISTRICT COURT
To: Clerk, Lynchburg Circuit Court
The attached order relates to Lynchburg Circuit
case number CL89014790.
Your case file is being retained for 30 days as Mr.
Sloan may note an appeal during that period. If Mr.
Sloan files an appeal, your record will be needed by us
until the appeal is disposed of. Thanks for your help.
/s/ Carolyn Proffitt
Deputy Clerk

App.710a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE
WESTERN DISTRICT OF VIRGINIA
(FEBRUARY 15, 1994)
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF VIRGINIA
LYNCHBURG DIVISION
ALMA D. SLOAN,
Plaintiff,
v.
SAMUEL H. SLOAN, administrator of the Estate of
LEROY B. SLOAN, deceased, ET AL„
Defendants.
Civil Action No. 94-0002-L
Before: Jackson L. KISER, Chief United States
District Judge.
Upon consideration of Defendant’s Petition of
Removal, because said petition is without F. R. Civ. P
8l(c)’s twenty day window for removal, the Petition of
Removal is DENIED and this case is remanded to the
state Court.
The Clerk is directed to send a copy of this Order
to all parties of record.
ENTER this 15th day of February 1994.

App.711a

/s/ Jackson L. Kiser
Chief United States District Judge

App.712a

NOTICE OF APPEAL
(APRIL 2, 1994)
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF VIRGINIA
LYNCHBURG DIVISION
ALMA D. SLOAN,
v.
SAMUEL H. SLOAN
No. 94-0002-L
Notice is hereby given that the undersigned
appears to the United States Court of Appeals from all
parts of the decisions and orders of the United States
District Court for the Western District of Virginia
dated February 15, 1994 and March 8, 1994 which
denied the petition for removal and which denied the
petition for a rehearing.

/s/ Samuel H. Sloan
No. 2044491
Dillwyn Correction Center
P.O. Box 670
Dillwyn, VA 23936

App.713a
ORDER OF THE UNITED STATES
DISTRICT COURT TO RETURN THE RECORDS
OF THE LYNCHBURG CIRCUIT COURT
(SEPTEMBER 28, 1994)
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF VIRGINIA
LYNCHBURG DIVISION
ALMA D. SLOAN,
Plaintiff,
v.
SAMUEL H. SLOAN, administrator of the Estate of
LEROY B. SLOAN, deceased, and H. Marjorie Sloan,
His Surety,
Defendants.
Civil Action No. 94-0002-L
The record of the Lynchburg Circuit Court, Case
No. CL89014790 is being returned herewith.
MORGAN E. SCOTT, JR.,
CLERK
By: /s/ Carolyn Proffitt
Deputy Clerk

App.715a

DOCKET DETAILS
U.S. District Court
Western District of Virginia (Lynchburg)
CIVIL DOCKET FOR CASE #: 94-CV-2
Internal Use Only
Sloan v. Sloan, et al
Assigned to: Chief Judge Jackson L. Kiser
Date Filed: 01/10/1994
Defendant
SAMUEL H. SLOAN, Administrator of the Estate
of Leroy B. Sloan, deceased
represented by
Samuel H. Sloan
620 Fifth Street
Lynchburg, VA 24505
804-846-5442
PRO SE

1/10/94
1

APPLICATION TO PROCEED IN FORMA
PAUPERIS AND SUPPORTING DOCU­
MENTATION by Samuel H. Sloan (cp)
[Entry date 01/11/94]

1/10/94
1

ORDER granting [l-l] motion (signed by
Chief Judge Jackson L. Kiser) (cp) [Entry
date 01/11/94]

App.716a

1/10/94
2

NOTICE OF REMOVAL of civil action from
Lynchburg Circuit Court (cp) [Entry date
01/11/94]

1/13/94
3

ORDER, Requesting Transmittal of OriginalCase File from Lynchburg Circuit Court
(signed by Chief Judge Jackson L. Kiser) (cp)

1/19/94
4

STATE COURT RECORDS from Lynchburg
Circuit Court (cp) [Entry date 01/20/94]

2/15/94
5

ORDER entered denying the Petition of
Removal and remanding this case to the
state court, (signed by Chief Judge Jackson
L. Kiser) (cp)

2/15/94
Case closed (cp)
2/28/94
6

MOTION to Reinstate by Samuel H. Sloan
(cp)

3/3/94
ANSWER of Samuel H. Sloan, Received, (cp)
[Entry date 03/04/94]
3/8/94
7
4/5/94

ORDER denying [6-l] motion to Reinstate
(signed by Chief Judge Jackson L. Kiser) (cp)

App.717a

8

NOTICE OF APPEAL by Samuel H. Sloan .
Order appealed: final order of 2/15/94 and
order of 3/8/94 by Judge Kiser) (cp) [Entry
date 04/06/94]

4/6/94
Transmittal Letter w/ Notice of Appeal and
certified copy of docket to USCA: [8-1] appeal
by Samuel H. Sloan (cp)
4/6/94
RECORD ON APPEAL in 2 volumes sent to
U.S. Court of Appeals: Re [8-1] appeal by
Samuel H. Sloan (cp)
4/11/94
USCA Case Number Re: [8-1] appeal by
Samuel H. Sloan USCA NUMBER: 94-1454
(cp) [Entry date 04/12/94]
5/16/94
Copy of order from USCA consolidating
appeals 94-1453 and 94-1454. (cp)
5/18/94
Supplemental Record on Appeal to USCA:
[8-1] appeal by Samuel H. Sloan (cp)
8/19/94
Copy of Printed Opinion of U. S. Court of
Appeals dismissing the appeal in this action,
(cp) [Entry date 08/22/94]
9/13/94

App.718a

JUDGMENT OF USCA (certified copy)
dismissing [8-l] appeal by Samuel H. Sloan
(cp)
9/13/94
NOTICE OF ISSUANCE OF MANDATE
from USCA (cp)
9/13/94
**Terminated pending appeal terminating [8l] appeal (cp)
9/13/94
**Remove appeal flag - no further appeals
pending (cp)
9/27/94
RECORD ON APPEAL returned from U.S.
Court-of Appeals: [8-1] appeal (cp) [Entry
date 09/28/94]
9/27/94
RECORD ON APPEAL returned from u.s.
Court of Appeals: [8-1] appeal (cp) [Entry
date 09/28/94]
9/28/94
State Court Records Returned (cp)

App.719a

VOLUNTARY PETITION
(SEPTEMBER 8, 1994)
UNITED STATES BANKRUPTCY COURT
NORTHERN DISTRICT OF CALIFORNIA
In Re
Sloan, M. Ismail
All Other Names used by the debtor in the last 6 years
(include married, maiden, and trade names)
Samuel H. Sloan
Soc. Sec./Tax I.D. No.
231-56-6416
Street Address of Debtor
2550 Webster Street
San Francisco, CA 97115
County of Residence or Principal Place of Business
SF 94115
Location of Principal Assets of Business Debtor
C/O Moody Moving & Storage
Concord, VA 24538
Venue
Debtor has been domiciled or has had a residence,
principal place of business or principal assets in this
District for 180 days immediately preceding the date
of this petition or for a longer part of such 180 days
than in any other District.
Information Regarding Debtor

\

App.720a

Type of Debtor
Individual
Chapter or Section of Bankruptcy Code Under
Which the Petition Is Filed
Chapter 7
Nature of Debt
Non-Business/Consumer
Business-Complete A & B below
A.

Type of Business

Stockbroker
B.

Briefly Describe Nature of Business
Securities Trader and Author of
Books

Debtor is not represented by an attorney
Estimated Number of Creditors
50-99
Estimated Assets (in thousands of dollars)
Under 50
Estimated Liabilities (in thousands of dollars)
100-499
Prior Bankruptcy Case Filed Within Last 6 Years
Location Where Filed
None
Individual/Joint Debtor(s)

App.721a

I declare under penalty of perjury that the
information provided in this petition is true and
correct.

Is/ M. Samuel Sloan
Signature of Debtor
Sept. 8, 1994
Date

/s/ M. Samuel Sloan
Signature of Debtor
TO BE COMPLETED BY INDIVIDUAL
CHAPTER
7
DEBTOR WITH
PRIMARILY
CONSUMER DEBTS (See PL. 98-353 § 322)
I am aware that I may proceed under chapter 7,
11, or 12, or 13 of title 11, United States Code,
understand the relief available under each chapter,
and choose to proceed under chapter 7 of such title.
If I am represented by an attorney, exhibit “B”
has been completed.

/s/ M. Samuel Sloan
Signature of Debtor
9-8-94
Date

App.722a

Schedule A-Real Property
In re M. ISMAIL SLOAN
Debtor
Except as directed below, list all real property in
which the debtor has any legal, equitable, or future
interest, including all property owned as a co-tenant,
community property, or in which the debtor has a life
estate. Include any property in which the debtor holds
rights and powers exercisable for the debtor’s own
benefit. If the debtor is married, state whether
husband, wife, or both own the property by placing an
“H,” “W,” “J,” or “C” in the column labeled “Husband,
Wife, Joint, or Community.” If the debtor holds no
interest in real property, write “None” under
“Description and Location of Property.”
Do not include interests in executory contracts
and unexpired leases on this schedule. List them in
Schedule G—Executory Contracts and Unexpired
Leases.
If an entity claims to have a lien or hold a secured
interest in any property, state the amount of the
secured claim. See Schedule D. If no entity claims to
hold a secured interest in the property, write “None”
in the column labeled “Amount of Secured Claim.”
If the debtor is an individual or if a joint petition
is filed, state the amount of any exemption claimed in
the property only in Schedule C—Property Claimed as
Exempt.
Description and Location of Property
Residential Home
917 Old Trents Ferry Road
Lynchburg, VA 24503

App.723a

Nature of Debtor’s Interest in Property
Has Power of Attorney
Current Market Value of Debtor’s Interest, in Property,
Without Deducting Any Secured Claim or Exemption
$150,000
Total $150,000 (Report also on Summary of
Schedules.)

Charles
Edward
Roberts
420 Amelon
Road
Madison
Heights VA
24572

Shelby H.
Roberts
420 Amelon
Road
Madison
Heights VA
24572

Cecil W. Taylor
P.O. Box 1015
Lynchburg VA
24505

Creighton W.
Sloan
102 Indian
Creek Trail
Aiken SC
29803

Anda Aravena
781 47th Street
Brooklyn NY
11220

Bache & Co.
100 Gold Street
New York NY
10004

Roger D.
Moody
Moody Moving
& Storage, Inc.
Concord VA
24538

Herzog, Heine
& Co.
26 Broadway
New York NY
10004

Weis, Voisin &
Co.
17 Battery
Place
New York NY
10005

App.724a

Charter New
England Corp
50 Broad St.
New York NY
10005

Edwards &
Hanly
160 Broadway
New York NY
10004

Paine Webber
J&C
1285 Sixth
Ave.
New York NY
10019

Merrill, Lynch,
Pierce, Fenner
& Smith
717 Fifth Ave.
New York NY
10022

Alma Coates
Dawson
c/o Pendleton &
Gamble
619 Main St.
Amherst VA
24521

J. Michael
Gamble
P.O. Box 1290
Amherst
Courthouse
Amherst VA
24521

Lawrence
Janow
Health Dept.
Bldg.
Amherst VA
24521

NationsBank
NationsBank
Building
Richmond VA
23219

Appalachian
Power
800 Main St.
Lynchburg VA
24504

Cooperative
Savings Bank
1003 Church
Street
Lynchburg VA
24504

Commonwealth
of Virginia
The Capitol
Richmond VA
23219

Frank G.
Davidson III
P.O. Box 798
Lynchburg VA
24505

App.725a

Shanti
Vithanage
2028 Pacific
Ave., Apt. E
Alameda CA
94501

Sheriff Michael
Cox
Amherst
County Sheriff
Amherst VA
24521

Dorothy C.
Taylor
115 Lake Ridge
Drive
Forest VA
24551

Helen Marjorie
Sloan
Matte C. Hall
Center
830 Laurens
St. N
Aiken SC
29802

Dayawathie
Rankoth
c/o Sanctuary
for Families
105 Chambers
St., Suite 5A
New York NY
10007

S. J. Thompson
Caskie & Frost
2306 Atherholt
Road
Lynchburg VA
24502

Shamema
Honzagool
Sloan
420 Amelon
Road
Madison
Heights VA
24572

Peter J. Sloan
781 47th Street
Brooklyn NY
11220

Mary R. Sloan
781 47th Street
Brooklyn NY
11220

Honzagool
c/o Zar Khan
Village Damik,
P.O. Jinjoret
Chitral,
Pakistan

Marian
Rosenberg
Sanctuary for
Families, Inc.
105 Chambers
St., Suite 5A

Anda
Baumanis
Sloan
781 47th Street
Brooklyn NY
11220

App.726a

New York NY
10007

New York
Telephone
1095 Sixth
Ave.
New York NY
10036

Crestar Bank
P.O. Box 678
Lynchburg VA
24505

City of
Lynchburg
City Hall
900 Church
Street
Lynchburg VA
24504

Dr. Khawaja
Massie G.
Mahmood
Ware, Jr.
do Khalid M.
NationsBank
Azam
901 Main St.
74-09 37th Ave., Lynchburg VA
Suite 303
24505
Jackson
Heights NY
11372

Lisa L.
Schenkle
1602 Graves
Mill Road
Lynchburg VA
24506

Larry B.
Palmer
P. O. Box 4
Lynchburg VA
24505

Stephen R.
Pattison
The State
Department
Washington
DC 20520

Northwest
Airlines
c/o Stacey
Demas

William H.
Petty
Lynchburg
Commonw. Atty

Barbara J.
Gaden

Bell Atlantic
1310 N.
Courthouse
Road
Arlington VA
22201

App.727a

Graham &
James
885 Third Ave.
New York NY
10022

901 Church St.
Lynchburg VA
24504

Assistant
Attorney
General
101 North 8th
St.
Richmond VA
23219

United States
of America
c/o State
Department
Washington
DC 20520

Linda W.
Groome
100 Copley
Place, Suite B
Lynchburg VA
24502

Darrell Jay
Roberts
3 Odins Bow
Madison
Heights VA
24572

Larry D.
Roberts
202 Church St.
Madison
Heights VA
24572

Arden Van Upp
2550 Webster
St.
San Francisco
CA 94115

Leighton
Houck

George C.
Walker, Jr.
John Stewart
Walker, Inc.
3211 Old
Forest Road
Lynchburg VA
24502

Mattie C. Hall
Health Care
Center
830 Laurens St.
N
Aiken SC 29801

William H.
Tucker
101 Park St.
Aiken SC
29801

2306 Atherholt
Road
Lynchburg VA
24502

App.728a

Paige Weeks
Johnson
117 Pendleton
St., NW
Aiken SC
29801

W. Cassel
Jacobson
9505 Veirs
Drive
Rockville MD
20850

Eugene
Wingfield
Lynchburg
Police Dept.
Lynchburg VA
24504

Sue H. Roe
Aiken County
Probate Court
Aiken SC
29801

William S. Kerr
P.O. Box 706
Appomattox VA
24522

James H.
Massie
P. O. Box 709
Madison
Heights VA
24572

Liberty
Christian
Academy
701 Thomas
Road
Lynchburg VA
24502

County of
Alameda
1225 Fallon St.
Oakland CA
94507

Richard S.
Miller
P.O. Box 4
Lynchburg VA
24505

South Kern
Municipal
Court
12022 Main St.
P.O. Box 738
Lamont CA
93241

Dr. Daniel
Reichard
Temple
Christian
School
Route 29N
Madison
Heights VA
24572

Morgan E.
Scott, Clerk
U.S. District
Court
P.O. Box 1234
Roanoke VA
24006

App.729a
LETTER FROM JUDICIAL CIRCUIT OF VIRGINIA
(DECEMBER 29, 1994)
TWENTY-FOURTH JUDICIAL CIRCUIT OF
VIRGINIA
Commonwealth of Virginia Cities of Lynchburg
and Bedford Counties of Amherst, Bedford,
Campbell and Nelson
Richard S. Miller, Judge
Mosby G. Perrow, III, Judge
Lynchburg Circuit Court
900 Court Street
P.O. Box 4
Lynchburg, VA 24505
(804) 847-1490
Mr. Frederick A. Hodnett, Jr.
Assistant Executive Secretary
Supreme Court of Virginia
100 North Ninth Street
Richmond, VA 23219
Re: Creighton Wesley Sloan, son and next friend of
Helen Marjorie Sloan v. Sovran Bank, N.A.
(Lynchburg Circuit Court File Nos. CH86014986
and CH90016156 Consolidated)
Alma D. Sloan v. Samuel H. Sloan, Administrator
of the Estate of Leroy B. Sloan, deceased, and H.
Marjorie Sloan, His Surety (Lynchburg Circuit
Court File No. CL89014790)
Dear Mr. Hodnett:
In reference to the above matter, you will find
enclosed a copy of Judge Perrow’s letter to you dated

App.730a

June 18, 1991, forwarding copies of orders of
disqualification of the Judges of the Twenty-Fourth
Judicial Circuit for each of the captioned cases. Copies
of the disqualification orders are also enclosed.
Mr. Sloan has recently requested that a Judge or
Judges be designated to hear these matters and we
would appreciate your assistance in arranging for
these designations.
Thank you for your assistance.
Very truly yours,
Vicki K. Hunt
Administrative Assistant
/vhk
Enclosures
cc:

J. Samuel Johnston, Jr., Judge
Hon. Mosby G. Perrow, III, Judge
Hon. Richard S. Miller, Judge
Hon. William W. Sweeney, Judge
Hon. J. Michael Gamble, Judge
Larry Palmer, Clerk
M. Ismail Sloan
Leighton S. Houck, Esq.
Killis T. Howard, Esq.
David C. Dickey, Esq.

App.731a

ORDER OF THE UNITED STATES
BANKRUPTCY COURT
(MARCH 4, 1995)
UNITED STATES BANKRUPTCY COURT
CHAPTER 7 DISCHARGE OF DEBTOR

IN RE ISMAIL M. SLOAN,
AKA SAMUEL H. SLOAN
Soc. Sec./Tax ID Nos. 231-56-6416

Case Number 94-33552 dtc
Before: Thomas E. CARLSON, Bankruptcy Judge.
Address of Debtor
2550 Webster St.
San Francisco, CA 94115
It appearing that a petition commencing a case
under title 11, United States Code, was filed by or
against the person named above on 9/8/94, and that
an order for relief was entered under chapter 7, and
that no complaint objecting to the discharge of the
debtor was filed within the time fixed by the court (or
that a complaint objecting to discharge of the debtor
was filed and, after due notice and hearing, the
objection was not sustained);
IT IS ORDERED that:
1. The above-named debtor is released from all
dischargeable debts.

App.732a

2. Any judgment heretofore or hereafter obtained
in any court other than this court is null and void as a
determination of the personal liability of the debtor
with respect to any of the following:
a.

debts dischargeable under 11 U.S.C. § 523;

b.

unless heretofore or hereafter determined by
order of this court to be nondischargeable,
debts alleged to be excepted from discharge
under clauses (2), (4), (6), and (15) of 11
U.S.C. § 523(a);

c.

debts determined by this court to be
discharged.

3. All creditors whose debts are discharged by
this order and all creditors whose judgments are
declared null and void by paragraph 2 above are
enjoined from instituting or continuing any action or
employing any process or engaging in any act to collect
such debts as personal liabilities of the above-named
debtor.
U.S. Bankruptcy Court
235 Pine St.
P.O. Box 7341
San Francisco, CA 94104-7341

By the Court:
Thomas E. Carlson
Bankruptcy Judge
Date
03/04/95

App.733a

ORDER OF LYNCHBURG CIRCUIT COURT
(JANUARY 20, 1999)
VIRGINIA: AT LYNCHBURG CIRCUIT COURT
ALMA D. SLOAN,
v.
SAMUEL H. SLOAN, Admr. & C„
Defendants.
CL89014790
It appearing to the Court that for more than three
(3) years there has been no order or proceeding in this
case. Pursuant to Sec. 8.01-335(B), Code of Virginia,
as amended, the Court doth ADJUDGE and ORDER
that this case be discontinued and stricken from the
docket.
The Clerk shall mail or deliver a true copy of this
order to all counsel of record.
Enter: January 20, 1999

Is/ Mosbv G. Perrow. III
Judge

App.734a
LETTER FROM JUDICIAL CIRCUIT OF VIRGINIA
WITH THE ORDER FOR DISQUALIFICATION
(JUNE 18, 1991)
TWENTY-FOURTH JUDICIAL CIRCUIT OF
VIRGINIA
Commonwealth of Virginia Cities of Lynchburg
and Bedford Counties of Amherst, Bedford,
Campbell and Nelson
Richard S. Miller, Judge
Mosby G. Perrow, III, Judge
Lynchburg Circuit Court
900 Court Street
P.O. Box 4
Lynchburg, VA 24505
(804) 847-1490
Mr. Frederick A. Hodnett, Jr.
Assistant Executive Secretary
Supreme Court of Virginia
100 North Ninth Street
Richmond, VA 23219
Re: M. Ismail Sloan, Individually, and on behalf of his
son, Michael R. Sloan, an infant, v. Officer F. D.
McFarland, Michael W. Cox, and Lynchburg
Police Department Case No. CL90015617
M. Ismail Sloan, Individually, and on behalf of his
son, Michael R. Sloan, an infant v. Charles
Roberts, Captain Coffey, and Sharon Haberer
Case No. CL90015643-01
Alma D. Sloan v. Samuel H. Sloan, [a/k/a M. Ismail
Sloan] Administratrix of the Estate of Leroy B.

App.735a

Sloan, Deceased, and H. Marjorie Sloan Case No.
CL89014790
Helen Marjorie Sloan, M.D. v. Sovran Bank, N.A.,
and Creighton Wesley Sloan Case No.
CH90016156
Creighton Wesley Sloan, Son and next friend of
Helen Marjorie Sloan v. Sovran Bank, N.A. Case
No. CH86014986
Dear Fred:
I am enclosing a copies of orders of disqualification
of the Judges of the Twenty-Fourth Judicial Circuit in
each of the above five cases. We are of the opinion, in
the language of Canon 3(C), that the impartiality of
the Judges of this Circuit "might reasonably be
questioned." Mr. Sloan is a prolific pro se litigator and
you will recall that Judges Ballou and Peatross have
previously been designated to handle other filings.
The first two cases listed in the caption appear to
be related matters and could possibly be heard
together. In each motion for judgment Mr. Sloan seeks
compensatory damages against the named defendants
by reason of their alleged participation in a
kidnapping. In the first case F. D. McFarland, a
Lynchburg Police Officer, and the Lynchburg Police
Department are represented by Walter C. Erwin,
Deputy City Attorney, City Hall, Lynchburg, VA
24505 (1-804-847-1310), and Michael W. Cox is
represented by William S. Kerr, P. 0. Box 706,
Appomattox, Virginia 24522 (1-804-352-5366). In the
second case Charles Roberts is represented by Linda
W. Groome, Davidson, Sakolosky & Richards, P.C., P.
O. Box 798, Lynchburg, VA 24505 (1-804-847-4444).
No responsive pleadings have been filed on behalf of

App.736a

Sharon Haberer who was served pursuant to the
Virginia Longarm Statute, Sections 8.01-328 et seq of
the Virginia Code, as amended.
The third case listed in the caption is a motion for
judgment filed against Samuel H. Sloan [a/k/a M.
Ismail Sloan] as administrator of the Estate of Leroy
B. Sloan and H. Marjorie Sloan as surety, which al­
leges that the administrator has converted assets of
the estate. Mr. Sloan has filed a counterclaim against
the plaintiff beneficiary in this proceeding. Donald G.
Pendleton originally represented Alma D. Sloan but
was granted leave to withdraw. Alma D. Sloan is
apparently unrepresented at this time and there is no
current address for her in the court file. Samuel H.
Sloan, a/k/a M. Ismail Sloan, is proceeding pro se. No
responsive pleadings have been filed on behalf of H.
Marjorie Sloan. The last address in the file for Samuel
H. Sloan, a/k/a M. Ismail Sloan, and H. Marjorie Sloan
is 917 Old Trents Ferry Road, Lynchburg, Virginia
24503.
The fourth and fifth cases listed in the caption are
chancery matters that have been consolidated for
trial. The fourth case is a bill of complaint for
accounting filed in the Circuit Court for the City of
Charlottesville, Virginia, on December 8, 1987, and
transferred to the Lynchburg Circuit Court by order
entered in the Circuit Court for the City of
Charlottesville, Virginia, on September 4, 1990. Helen
Marjorie Sloan is represented by David C. Dickey, 202
East Main Street, Standardsville, Virginia 22937 (l804-985-7744); Sovran Bank, N.A., is represented by
Leighton S. Houck of Caskie & Frost, P. 0. Box 6360,
Lynchburg, Virginia 24505 (1-804-846-2731); and
Creighton Wesley Sloan is represented by Killis T.

App.737a

Howard, P.O. Box 99, Lynchburg, Virginia 24505 (l804-528-1067).
The fifth case in the caption arises out of a trust
agreement executed by Helen Marjorie Sloan on
August 26, 1985. The plaintiff is Creighton Wesley
Sloan, son and next friend of Helen Marjorie Sloan.
The plaintiff seeks to enjoin waste of trust assets and
to determine the competency of the testator. Creighton
Wesley Sloan is represented by Killis T. Howard and
Sovran Bank, N.A., is represented by Leighton S.
Houck.
The Clerk of the Circuit Court for the City of
Lynchburg, Virginia, is Juanita E. Shields, whose
address is P. 0. Box 4, Lynchburg, Virginia 24505, and
whose telephone number is 1-804-847-1590. The
Court's docket secretaries are Vicki K. Hunt and
Brenda Nuckles (1-804-847-1490), either of whom
would be glad to assist in scheduling any hearing.
We appreciate your assistance in arranging for
the designation of a Judge to hear these matters.
With best wishes and kindest regards, I am
very truly yours,
/s/ Mosbv G. Perrow, III
Chief judge
MGP, III/vkh
Enclosures

App.738a

cc:

M. Ismail Sloan
Marjorie H. Sloan
Walter C. Erwin, Esq.
William S. Kerr, Esq.
Linda W. Groome, Esq.
David C. Dickie, Esq.
Sharon Haberer
Killis T. Howard, Esq.
Leighton S. Houck, Esq.

App.739a
ORDER OF THE UNITED STATES CIRCUIT
COURT FOR THE CITY OF LYNCHBURG
(JUNE 18, 1991)
VIRGINIA: IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG
ALMA D. SLOAN,
Plaintiff,
v.
SAMUEL H. SLOAN, administrator of the Estate of
LEROY B. SLOAN, deceased, and H. Marjorie Sloan,
His Surety,
Defendants.
Case No. CL89014790
The Judges of the Twenty-Fourth Judicial Circuit,
being so situated in respect to the above styled case
pending in this Court as to render it improper, in their
opinion, for them to preside at the trial thereof, such
fact is hereby entered of record.
Entered this 18th day of June, 1991.
Is/ Mosbv G. Perrow, III
Chief judge

App.740a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE
WESTERN DISTRICT OF VIRGINIA
(JANUARY 13, 1994)
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
AT LYNCHBURG
ALMA D. SLOAN,
Plaintiff,
v.
SAMUEL H. SLOAN, Administrator of the Estate of
LEROY B. SLOAN, deceased, and H. Marjorie Sloan,
His Surety,
Defendants.
Civil Action No. 93-0002-L
This case having been removed from your Court
to the United States District Court for the Western
District of Virginia at Lynchburg, Virginia, and this
Court finding it necessary so to do, it is this day
REQUESTED
that the original case file in your Court be
forwarded to the Clerk of this Court at P. O. Box 744,
Lynchburg, VA 24505, said removal and transmittal
of the file being in accordance with the law for these
cases made and provided.

App.741a

The Clerk of the Court is hereby directed to send
a certified copy of this Order to all counsel of record.
/s/ Jackson L. Kiser
Judge
January 13, 1994
Date

App.742a

LETTER FROM SLOAN INDICATING CHANGE
OFADDRESS
(JULY 12, 1994)
Ismail Sloan
2420 Atherton St., Suite 6
Berkeley CA 94 704
(415) 673-7123
FAX (415) 929-7500
Larry B. Palmer, Clerk
Lynchburg Circuit Court
P.O. Box4
Lynchburg VA 24505
Re: Sloan v. Everybody
Dear Mr. Palmer:
This is to notify you of my new address as set
forth above.
Kindly send all papers and proceedings to the
above address.

Very Truly Yours,
/s/ Ismail Sloan
!

App.743a

VERIFICATION
Samuel H. Sloan, being duly sworn, states that
he is the Plaintiff herein; that he has read the fore­
going Verified Complaint and knows the contents
thereof; that the same is true to his knowledge except
as to those matters stated to be alleged upon
information and belief, and as to those matters he
believes them to be true.

/s/ Samuel H. Sloan
Sworn to before me this 20th day of April, 2018

/s/ Angela Greenwav______
Notary Public
Commonwealth of Virginia
My Commission Expires
09/30/2018

App.744a
EXHIBIT X, Y—
TRANSCRIPT OF PROCEEDINGS VOLUME II
RELEVANT EXCERPTS
(APRIL 25, 2018)
IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG
COMMONWEALTH OF VIRGINIA,
Plaintiff,
v.
M. ISMAIL SLOAN
aka SAMUEL HOWARD SLOAN,
Defendant
No. 3:18-cv-00260-MHL
Before: James M. LUMPKIN, Judge.
[January 13, 1993 Transcript, p. 53]
. . . little bit later than I thought I was going to
be there and, apparently, he had gone out to
lunch. So he left a message with his secretary
that I should go over to see Rick Groff.
Q.

From there did you become involved in some
proceedings in the Amherst courts to obtain
visitation?

A.

Yes. Basically, they had filed a custody suit.

